<html>
<title> - IMPACTS OF THE JOINT COMPREHENSIVE PLAN OF ACTION (JCPOA) ON THE UNITED STATES INTERESTS AND THE MILITARY BALANCE IN THE MIDDLE EAST</title>
<body><pre>[Senate Hearing 114-357]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-357

IMPACTS OF THE JOINT COMPREHENSIVE PLAN OF ACTION (JCPOA) ON THE UNITED 
      STATES INTERESTS AND THE MILITARY BALANCE IN THE MIDDLE EAST

=======================================================================

                                HEARINGS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                   JULY 29; AUGUST 4; AUGUST 5, 2015

                               __________

         Printed for the use of the Committee on Armed Services
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


        Available via the World Wide Web: http://www.fdsys.gov/
        
                               ____________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
21-483 PDF              WASHINGTON : 2016                
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4027302f002335333428252c306e232f2d6e">[email&#160;protected]</a>  




                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                               __________

                             july 29, 2015

                                                                   Page

Impacts of the Joint Comprehensive Plan of Action (JCPOA) on the 
  United States Interests and the Military Balance in the Middle 
  East...........................................................     1
Carter, Hon. Ashton B., Secretary of Defense.....................     6
Dempsey, General Martin E., USA, Chairman, Joint Chiefs of Staff.    10

Questions for the Record.........................................    58

                             august 4, 2015

The Joint Comprehensive Plan of Action (JCPOA) and the Military 
  Balance in the Middle East.....................................    89
Hayden, General Michael V., USAF (Ret.), Principal, The Chertoff 
  Group and Former Director, Central Intelligence Agency.........    93
Haass, Richard N., President, Council on Foreign Relations and 
  Former Director of Policy Planning, U.S. Department of State...    94
Edelman, Hon. Eric S., Distinguished Fellow, Center for Strategic 
  and Budgetary Assessments and Former Under Secretary of Defense 
  for Policy.....................................................    99
Burns, Hon. R. Nicholas, Goodman Professor of Diplomacy and 
  International Relations, Harvard Kennedy School................   110

                             august 5, 2015

Joint Comprehensive Plan of Action (JCPOA) and the Military 
  Balance in the Middle East.....................................   151
Mead, Walter Russell, Distinguished Scholar in American Strategy, 
  The Hudson Institute and Chace Professor of Foreign Affairs, 
  Bard College...................................................   154
Singh, Michael, Lane-Swig Senior Fellow and Managing Director, 
  The Washington Institute for Near East Policy..................   163
Takeyh, Ray, Senior Fellow for Middle Eastern Studies, The 
  Council on Foreign Relations...................................   171
Gordon, Philip, Senior Fellow, The Council on Foreign Relations..   177
Nephew, Richard, Fellow, The Center on Global Energy Policy, 
  Columbia University............................................   190

                                 
                                 (iii)

 
IMPACTS OF THE JOINT COMPREHENSIVE PLAN OF ACTION (JCPOA) ON THE UNITED 
      STATES INTERESTS AND THE MILITARY BALANCE IN THE MIDDLE EAST

                              ----------                              


                        WEDNESDAY, JULY 29, 2015


                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:47 a.m., in 
Room SD-G50, Dirksen Senate Office Building, Senator John 
McCain (chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Sullivan, Lee, Graham, Cruz, Reed, Nelson, McCaskill, 
Manchin, Shaheen, Gillibrand, Blumenthal, Donnelly, Hirono, 
Kaine, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Since the time is here and our two 
witnesses that we requested to appear are here, I will go ahead 
and begin with my opening statement. As I have mentioned----
    [Applause.]
    Chairman McCain. Hey.
    [Laughter.]
    Senator Reed. That was for your opening statement, John.
    [Laughter.]
    Senator Reed. There is such anticipation.
    [Pause.]
    Chairman McCain. Good morning. The committee meets today to 
begin a series of oversight hearings on the Joint Comprehensive 
Plan of Action [JCPOA], which the United States and other major 
powers have signed with Iran.
    We welcome our distinguished witnesses and thank them for 
joining us today. We appreciate Senators Kerry and Secretary 
Moniz and Secretary Lew being here. I would, for the record, I 
did not request the presence of Secretary Kerry or Moniz or 
Secretary Lew. I am glad they are here, at their desire to do 
so, since this focus of today's hearing, as befits the role of 
this committee, is on the strategic and military implications 
of the Iran agreement.
    What we want to know, among other things, is how this 
agreement will affect regional security, proliferation, and the 
balance of power in the Middle East; what impact it may have on 
Iran's malign activities and hegemonic ambitions in the region; 
what it means for perceptions of American credibility and 
resolve among our allies and partners; and what the 
consequences are for U.S. defense policy, military planning, 
and force structure.
    When we consider these broader strategic consequences of 
the agreement, the second-order effects, what is already a bad 
deal only looks that much worse. To this committee, perhaps of 
most concern about the agreement itself pertains to the 
verification and monitoring mechanisms.
    As has been publicly reported, the inspections of Iran's 
facilities will be conducted by the International Atomic Energy 
Agency, or IAEA. There will be no Americans allowed on the 
ground, and the details of how these monitoring activities will 
occur in certain important instances are contained in a 
separate agreement between the IAEA and Iran, which the U.S. 
Government and the Congress have not seen.
    Furthermore, the mechanism to resolve the longstanding 
international concerns about the possible military dimensions 
of Iran's nuclear program is contained in another side 
agreement between Iran and the IAEA, which the U.S. Government 
and the Congress have also not seen. To be sure, much is known 
about Iran's past weaponization activities, but we can never 
know what we do not know, which is why the Director of the IAEA 
has said that effective verification depends on resolution of 
the PMD [previous military dimensions] issue. How that will 
occur we do not know.
    This presents a major problem. All of us will soon vote on 
the Iran agreement, and the merits of this agreement hinges on 
its verifiability. And yet we cannot even read key documents 
pertaining to these verification measures, and our own 
Government is not even a party to those agreements. I find that 
deeply troubling.
    What is more troubling are the broader military 
implications of this agreement. Iran is not just an arms 
control challenge. It is a geopolitical challenge.
    For years, many of us have urged the administration to 
adopt a broader strategy to counter Iran's malign activities in 
the Middle East. Unfortunately, that has not happened. Instead, 
we have watched with alarm as Iran's military and intelligence 
operatives have stepped up their destabilizing activities and 
increased their influence and control in places like Syria, 
Iraq, Lebanon, Yemen, Bahrain, and Gaza.
    Iran has done all of this under the full pressure of a 
sanctions. Now Iran will soon receive a windfall of sanctions 
relief, estimated at roughly $60 billion or possibly as much as 
twice that. Yes, a good amount of that money will surely go to 
Iran's domestic priorities. But it is only fair to assume that 
billions of dollars that will flow to Iran's Revolutionary 
Guards Corps and the Quds Force, money that will likely be used 
to boost arms supplies to Iran's terrorist proxies, to sow 
chaos and instability across the region, and to double-down on 
Bashar Assad right when he needs it most.
    This will present a host of new challenges for the 
Department of Defense. What is worse, not only could this 
agreement strengthen Iran's malign activities in the region, it 
is also likely to enhance Iran's acquisition of conventional 
military capabilities.
    For nearly a decade, an international arms embargo has 
significantly hurt Iran's ability to build up and modernize its 
aging military. Throughout the nuclear negotiations, the 
administration insisted that its diplomacy was limited 
exclusively to the nuclear file. Indeed, just a few weeks ago, 
General Dempsey told this committee that, ``Under no 
circumstances should we relieve pressure on Iran relative to 
ballistic missile capabilities and arms trafficking.''
    And yet, thanks to last-minute concessions by the 
administration, that is exactly what this agreement would do. 
At Year 5, the international arms embargo will disappear, and 
Iran will be free to acquire advanced military capabilities, 
such as fighter aircraft, attack helicopters, warships, and 
anti-access weapons.
    At Year 8, international restrictions on Iran's ballistic 
missile programs will disappear, and Iran will be free to 
acquire through entirely licit means the necessary technology 
and materiel for ever more sophisticated ballistic missiles, 
including ICBMs [intercontinental ballistic missiles].
    And in all of this, Iran will not only have billions of 
dollars with which to go on a shopping spree in the 
international arms market, but it is also sure to find plenty 
of States that are eager to sell those weapons, especially 
Russia and China. In this way, the Iran agreement not only 
paves Iran's path to a nuclear capability, it will further--it 
will further Iran's emergence as a dominant military power in 
the Middle East.
    This has direct and dangerous implications for U.S. armed 
forces. The ultimate guarantee that Iran will not get a nuclear 
weapon is not a 109-page document. It is the capability of the 
U.S. military to do what is necessary if all else fails. And 
yet this agreement would enable Iran to construct the kind of 
advanced military arsenal that could make our military option 
far costlier to employ.
    Instead of enhancing our deterrence of Iran, this agreement 
seems to enhance Iran's deterrence of us. In short, if this 
agreement fails, the U.S. service members are called upon to 
take action against Iran. Their lives could be at greater risk 
because of this agreement.
    And that is perhaps the most troubling aspect of all about 
this agreement, what it means for America's credibility in the 
Middle East. Since 1979, Republican and Democratic 
administrations have sought to contain the Islamic Republic of 
Iran and prevent it from acquiring a nuclear weapons 
capabilities.
    Our allies and partners have entrusted much of their own 
security to the United States because they have believed that 
our commitment were credible. In this way, America's role in 
the region has been to suppress security competition between 
states with long histories of mistrust and to prevent that 
competition from breaking into open war.
    I fear this agreement will further undermine our ability 
and willingness to play that vital stabilizing role. Our allies 
and partners in the Middle East have increasingly come to 
believe that America is withdrawing from the region and doing 
so at a time when Iran is aggressively seeking to advance its 
hegemonic ambitions.
    Now we have reached an agreement that will not only 
legitimize the Islamic Republic as a threshold nuclear state 
with an industrial enrichment capability, but will also 
unshackle its regime and its long-held pursuit of conventional 
military power and may actually consolidate the Islamic 
Republic's control in Iran for years to come.
    After turning three decades of U.S. foreign policy on its 
head, is it any wonder that this agreement may lead our allies 
and partners to question America's commitment to their 
security? As that happens, these states are increasingly likely 
to take matters into their own hands, and indeed, we already 
see evidence of that.
    These fateful decisions may well manifest themselves in 
growing regional security competition, new arms races, nuclear 
proliferation, and possibly conflict, all of which would demand 
more, not less U.S. leadership and presence in the region. It 
would be ironic, but not historically unprecedented that a 
diplomatic agreement intended to decrease risk of conflict 
actually increased those risks instead.
    All of us hope that will not be the case now, but it is the 
job of the Defense Department to be ready when our highest 
hopes fail us, and I fear there is much work to do.
    I welcome the witnesses.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    And good morning, Secretary Kerry, Secretary Moniz, 
Secretary Lew, Secretary Carter, General Dempsey.
    Your appearance before the committee comes a little more 
than 2 weeks after the world woke up to the news that after 20 
months of negotiations, the P5+1 and Iran agreed on the terms 
of the Joint Comprehensive Plan of Action. The agreement, no 
matter your position on it, is historic and, if implemented 
scrupulously, could serve as a strategic inflection point in 
the world's relations with Iran for international 
nonproliferation efforts and for the political and security 
dynamics in the Middle East.
    And I commend the President and his negotiating team, from 
Cabinet officials to our Nation's scientists, for their 
persistence and hard work.
    In the weeks ahead, Congress has a solemn obligation to 
carefully review the details of this historic agreement and to 
independently, independently validate that the agreement will 
meet our common goal of stopping Iran from acquiring a nuclear 
weapon. Today's hearing is part of that obligation, and I look 
forward to your testimony.
    Secretary Kerry, you were the key architect of this 
agreement, and your willingness to take on what I am sure feels 
like a thankless endeavor is to be commended. I hope you will 
help us understand why it is your assessment that this 
agreement is a good deal and how you intend to direct our 
diplomats in the field to work with our partners in the region 
to address Iran's destabilizing activities in the region.
    Secretary Moniz, you played an important role in 
negotiations, and you, too, have been a strong advocate for the 
Comprehensive Plan of Action throughout. During your testimony, 
I hope you will help us understand what gives you confidence in 
the technical safeguards built into this agreement, 
particularly with regard to, one, the cutting off of Iran's 
pathways to a nuclear weapon; two, the cradle-to-grave access 
and portability of the supply chain; three, the dedicated 
procurement channel to manage all purchases of nuclear supply 
groups' trigger lists and dual- use items; and four, the IAEA 
additional protocol for enhanced inspections and its design for 
detecting elements of a covert weapons program; and finally, 
the limitation on Iran's enrichment program.
    Secretary Carter, you are a unique Secretary of Defense, 
with a Ph.D. in physics, and having spent so much of your 
career on nuclear weapons, I look forward to your technical 
insights to these elements, as well as those of Secretary 
Moniz.
    Both Secretary Carter and General Dempsey, while neither of 
you were a party to the negotiations, you have both recently 
traveled to the Middle East to speak with your counterparts 
about the agreement's potential implications for regional 
security. During your meetings, you undoubtedly heard the 
assessments of our partners and our allies on a range of 
issues, including how Iran may use sanctions relief to pursue 
its regional ambitions, expand its support to terrorist 
proxies, and invest more heavily in its military.
    These are serious concerns and ones which I share. Our 
partners in Israel see Iran as a significant and ongoing threat 
to their national security interests. While Prime Minister 
Netanyahu is unlikely to ever endorse this historic deal, it is 
incumbent upon the United States to deepen further our 
cooperation on military and intelligence matters with Israel 
and to better understand the concerns of the Israelis.
    It is also critical that our partners and allies in the 
Middle East know that the United States will not abandon the 
region in the wake of this nuclear agreement and that we will 
continue to stand alongside them as we confront common state 
and nonstate threats. The May 2015 joint statement following 
the U.S. and Gulf Cooperation Council, or GCC, meetings at Camp 
David provided a road map for how the administration intends to 
proceed. It also makes clear that the Department of Defense 
will be at the forefront of these efforts.
    Critics of the Vienna agreement point to perceived flaws 
related to Iran's ballistic missile capability and its support 
of terrorist proxies across the region. The Camp David joint 
statement outlines our commitment to enhancing the ballistic 
missile defense capabilities of the GCC and improving their 
interoperability to increase collective defense in order to 
counter Iran's support of terrorist proxies.
    The joint statement indicates that we will be increasing 
our training and exercise engagements with GCC special 
operations forces elements so as to better enable our partners 
to confront Iran's asymmetric capabilities. These are important 
efforts that I look forward to hearing about today.
    I want to make one final point. These negotiations focused 
on denying Iran a pathway to a nuclear weapon. A nuclear Iran 
would be a more formidable force in the region. And as it has 
repeatedly demonstrated, not a force for peace and stability, 
but one that supports terror and seeks to impose its will 
throughout the Middle East.
    Moreover, a nuclear Iran would likely prompt a nuclear arms 
race in the region that through action or design could lead to 
catastrophe. None of us would condone or ignore Iran's support 
of terror or other destabilizing activities in the region, but 
the focus of these negotiations were properly focused on 
nuclear weapons.
    The history of arms control makes this point. As Fred 
Kaplan, a noted national security expert pointed out, the 
United States-Soviet strategic arms treaties signed throughout 
the Cold War didn't require the Soviet Union to disavow 
Communism and its support of Third World insurgencies or 
institute Jeffersonian democracy. But the deals were still very 
useful. They capped and in later years reversed the nuclear 
arms race, and they provided a forum for diplomacy, a cooling 
off of the distrust and hatred at a time when no other issue 
could have done so.
    I look forward to the panel's responses as we continue to 
understand this agreement and evaluate the capacity to cut off 
all pathways to a nuclear device and provide long- term warning 
of violations so that an appropriate response can take place.
    Thank you.
    Chairman McCain. Thank the witnesses for being here today. 
And Secretary Carter, could we begin with you?

    STATEMENT OF HON. ASHTON B. CARTER, SECRETARY OF DEFENSE

    Secretary Carter. Yes, Mr. Chairman. Thank you.
    And with your leave, I think that you preferred, and that 
is fine with us, if only I and General Dempsey make opening 
statements as the other witnesses----
    Chairman McCain. I hope that is agreeable to the other 
witnesses?
    Secretary Carter. It is. It is, I believe.
    Chairman McCain. Thank you.
    Secretary Carter. Thank you, Mr. Chairman.
    Thank you, Ranking Member Reed. Thank you, all the members 
of the committee, for giving me the opportunity to testify this 
morning on our defense strategy toward this critical region in 
the wake, as the--as Senator Reed noted of my travels to the 
region last week, the chairman's also, and of course, very 
importantly, 2 weeks after the conclusion of the Joint 
Comprehensive Plan of Action.
    I am pleased to be joined by my fellow Cabinet members, who 
can talk in detail about that agreement reached in Vienna. That 
deal is an important step, one brought about by the leadership 
of President Obama, the persistent diplomacy of Secretaries 
Kerry, Moniz, and others, crippling sanctions that Secretary 
Lew led and that Congress helped put in place.
    It is a good deal because it prevents Iran from getting a 
nuclear weapon in a comprehensive and verifiable way. Once 
implemented, it will, therefore, remove a critical element of 
risk and uncertainty, one element of risk and uncertainty. But 
a critical element of risk and uncertainty from the region.
    For those reasons and those my colleagues have provided in 
testimony before other congressional committees, I urge you to 
support it. I also urge you to support the broader elements of 
the defense strategy in the Middle East I will describe, 
including and especially by supporting a stable and reformed 
defense budget to implement it.
    The successful negotiation of this deal is one part of our 
broader foreign and defense policy. As the most influential 
power in the world, we have responsibilities all over the 
globe. The Middle East remains important to America's national 
interests, and as a result, the Department of Defense is 
committed to confronting the region's two principal security 
challenges, Iran and ISIL [the Islamic State of Iraq and the 
Levant].
    The department's strategic approach to protecting our 
interests and confronting those challenges will remain 
unchanged. We will continue to maintain a strong military 
posture to deter aggression, to bolster the security of our 
friends and allies in the region, especially Israel, to ensure 
freedom of navigation in the Gulf, to check Iran's malign 
influence, and to degrade and ultimately defeat ISIL.
    We are also continuing to advance our military capabilities 
that provide all options as the President has directed should 
Iran walk away from its commitments under this deal. Last week, 
I was in the Middle East, and I had the opportunity to visit 
with some of our men and women in uniform who are carrying out 
this strategy. I know how much all of you care for them, and 
like me, you are proud of their impressive work.
    And I will tell you this morning what I told them. We are 
continuing full speed ahead, standing with our friends, 
standing up to ISIL, and standing against Iran's malign 
activity.
    On ISIL, as I testified earlier this month, we have the 
right strategy in place, built on nine synchronized lines of 
effort, to achieve ISIL's lasting defeat. But we continue to 
strengthen execution. Today, in Iraq and other places, we are 
working with partners on the ground and in global coalition to 
enable capable and motivated ground forces to win back Iraq's 
sovereignty and peace on its own territory.
    I saw several parts of that effort last week and spoke with 
some of our partners on the ground. We are headed in the right 
direction in this counter ISIL effort. We have made some 
progress, but we need to make more.
    On Iran, this new deal, when implemented, will place 
significant limitations on Iran that will effectively cut off 
its pathways to the fissile material for a nuclear bomb. But it 
is also important to note that it places no limitations--let me 
repeat that--no limitations on what the Department of Defense 
can and will do to pursue our defense strategy in the region.
    It places no limits on our forces, our partnerships and 
alliances, our intensive and ongoing security cooperation, or 
on our development and fielding of new military capabilities, 
capabilities we will continue to advance.
    If Iran were to commit aggression, our robust force posture 
ensures we can rapidly surge an overwhelming array of forces 
into the region, leveraging our most advanced capabilities, 
married with sophisticated munitions that put no target out of 
reach.
    Iran and its proxies will still present security 
challenges. Iran supports the Assad regime in Syria, backs 
Hezbollah in Lebanon whose fighting positions, by the way, I 
observed firsthand during a visit to Israel's northern border 
last week with the Israeli defense minister, and is 
contributing to disorder in Yemen. And Iran still directs 
hostility and violence to our closest ally in the region, 
Israel.
    In the face of that malign activity, we will continue to 
meet our commitments to our friends and allies in the region, 
especially Israel, and continue to build on and enhance our 
cooperation in meaningful ways. I made that clear last week in 
Israel, Saudi Arabia, Jordan, and Iraq.
    I also made clear that we will continue to maintain our 
robust regional force posture, ashore and afloat, which 
includes tens of thousands of American personnel on our most 
sophisticated ground, maritime, and air and ballistic missile 
defense assets.
    Our friends understand, despite our differences with some 
of them about the merits of this deal, that we have an enduring 
commitment to deterrence and to regional security. I am proud 
to say that our defense partnerships in the region have never 
been stronger. And as I made clear in Israel and as we agreed 
at Camp David with our Gulf partners, as Senator Reed 
indicated, we are committed to making them even stronger and 
more capable against a range of threats.
    The United States will maintain its ironclad commitment to 
Israel's qualitative military edge, or QME. We will keep 
providing Israel with advanced capabilities. For example, next 
year Israel will be our first and only friend in the region 
flying the F-35 Joint Strike Fighter.
    We continue to work with Israel on ballistic missile 
defense systems--in fact, three of them--the Iron Dome, David's 
Sling, and the Arrow system for missiles of progressively 
increasing range.
    And we are working multilaterally and bilaterally to 
improve the capability and capacity of our Gulf partners also. 
At the GCC summit at Camp David, hosted by the President in 
May, and last week with Saudi leaders, I stressed a number of 
functional areas that will be critical to enabling Gulf 
countries to play a stronger regional role, including maritime 
forces; ground forces, including especially special operations 
and counterterrorism forces; air and ballistic missile defense 
forces; and cyber protection.
    We also conduct over 50 military exercises a year with our 
regional partners. And we have offered sophisticated defense 
equipment, including the THAAD [Terminal High Altitude Area 
Defense] ballistic missile defense system and long-range 
precision strike capabilities to some of our Gulf partners.
    In conclusion, this is a good deal because it removes a 
continued source of threat and uncertainty in a comprehensive 
and verifiable way by preventing Iran from getting a nuclear 
weapon. It is a deal that takes no option away from a future 
President. This is an important achievement and a deal that 
deserves your support.
    Meanwhile, the United States, the Department of Defense, 
and the men and women of the finest fighting force the world 
has ever known, with your support, will continue to be 
committed to the defense of America's interests, friends, and 
allies, to counter ISIL and Iran's malign influence, and to 
uphold the President's commitment that Iran will not obtain a 
nuclear weapon should it walk away from this deal.
    Thank you.
    [The prepared statement of Secretary Carter follows:]

         Prepared Statement by Secretary of Defense Ash Carter
    Chairman McCain, Ranking Member Reed, Members of the Committee: 
thank you for the opportunity to testify this morning--after my trip to 
the Middle East last week--on our defense strategy in the region. And I 
am pleased to be joined by my fellow Cabinet members who can talk in 
detail about the Joint Comprehensive Plan of Action reached in Vienna 
earlier this month.
    That deal is an important step . . . one brought about by the 
leadership of President Obama, the persistent diplomacy of Secretaries 
Kerry and Moniz and others, and the crippling sanctions Secretary Lew 
led and that Congress helped to put in place.
    It is a good deal. It prevents Iran from getting a nuclear weapon 
in a comprehensive and verifiable way. Once implemented, it will 
therefore remove a critical element of risk and uncertainty from the 
region. For those reasons, and those my colleagues have provided in 
testimony before other Congressional committees, I urge you to support 
it. I also urge you to support the broader elements of the defense 
strategy in the Middle East I will describe, including and especially 
by supporting a stable and reformed defense budget.
    The successful negotiation of this deal is one part of our broader 
foreign and defense policy. As the most influential power in the world, 
we have responsibilities all around the globe. The Middle East remains 
important to America's national interests. And, as a result, the 
Department of Defense is committed to confronting the region's two 
principal security challenges: Iran and ISIL.
    The Department's strategic approach to protecting our interests and 
confronting those challenges will remain unchanged. We will continue to 
maintain a strong military posture to deter aggression; to bolster the 
security of our friends and allies in the region, especially Israel; to 
ensure freedom of navigation in the Gulf; to check Iran's malign 
influence; and to degrade and ultimately defeat ISIL. We're also 
continuing to advance our military capabilities that provide all 
options, as the President has directed, should Iran walk away from its 
commitments under this deal.
    Last week, I was in the Middle East, and I had the opportunity to 
visit with some of our men and women in uniform who are carrying out 
this strategy. I know how much all of you care for our personnel, and 
like me, you are proud of their impressive work. And I will tell you 
this morning what I told them: we're continuing full speed ahead--
standing with our friends, standing up to ISIL, and standing against 
Iran's malign activity.
    On ISIL, as I testified earlier this month, we have the right 
strategy in place--built on nine, synchronized lines of effort--to 
achieve ISIL's lasting defeat. But we continue to strengthen execution. 
Today, in Iraq and other places, we are working--with partners on the 
ground and in a global coalition--to enable capable and motivated 
ground forces to win back Iraq's sovereignty and peace in its own 
territory. I saw several parts of this effort last week and spoke with 
some of our partners on the ground. We're headed in the right direction 
in this counter-ISIL effort: we've made some progress; but we need to 
make more.
    On Iran, this new deal--when implemented--will place significant 
limitations on Iran that will effectively cut off its pathways to the 
fissile material for a nuclear bomb. But it is also important to note 
that it places no limitations--let me repeat that, no limitations--on 
what the Department of Defense can and will do to pursue our defense 
strategy in the region. It places no limits on our forces, our 
partnerships and alliances, our intensive and ongoing security 
cooperation, or on our development and fielding of new military 
capabilities--capabilities we will continue to advance.
    If Iran were to commit aggression, our robust force posture ensures 
we can rapidly surge an overwhelming array of forces into the region, 
leveraging our most advanced capabilities, married with sophisticated 
munitions that put no target out of reach.
    Iran and its proxies will still present security challenges. Iran 
supports the Assad regime in Syria, backs Hizballah in Lebanon--whose 
fighting positions I observed firsthand during a visit to Israel's 
northern border last week--and is contributing to disorder in Yemen. 
And Iran still directs hostility and violence to our closest ally in 
the region, Israel.
    In the face of that malign activity, we will continue to meet our 
commitments to our friends and allies in the region, especially Israel, 
and continue to build on and enhance our cooperation in meaningful 
ways. I made that clear last week in Israel, Saudi Arabia, Jordan, and 
Iraq. I also made clear that we will continue to maintain our robust 
regional force posture ashore and afloat, which includes tens of 
thousands of American personnel and our most sophisticated ground, 
maritime, air, and ballistic missile defense assets.
    Our friends understand, despite our differences with some of them 
about the merits of this deal, that we have an enduring commitment to 
deterrence and to regional security. I am proud to say that our defense 
partnerships in the region have never been stronger. And, as I made 
clear in Israel and as we agreed at Camp David with our Gulf partners, 
we're committed to making them even stronger and more capable against a 
range of threats.
    The United States will maintain its ironclad commitment to Israel's 
qualitative military edge. And we will keep providing Israel with 
advanced capabilities--for example, next year, Israel will be our first 
and only friend in the region flying the F-35 stealth fighter.
    And we are working multilaterally and bilaterally to improve the 
capacity and capabilities of our Gulf partners. At the GCC Summit at 
Camp David hosted by the President in May, and last with week with 
Saudi leaders, I stressed a number of functional areas that will be 
critical to enabling Gulf countries to play a stronger regional role: 
including maritime forces, ground forces including especially special 
operations and counterterrorism forces, air and ballistic missile 
defense forces, and cyber protection. We also conduct over 50 military 
exercises a year with our regional partners, including the 
International Mine Counter Measure Exercise, and the Eagle Resolve and 
Eager Lion exercises, which deepen coordination and interoperability. 
And, we've offered sophisticated defense equipment, including the THAAD 
[Terminal High Altitude Area Defense] ballistic missile defense system 
and long-range precision strike capabilities, to some of our Gulf 
partners.
    In conclusion, this is a good deal because it removes a continued 
source of threat and uncertainty in a comprehensive and verifiable way 
by preventing Iran from getting a nuclear weapon. It is a deal that 
takes no option away from a future President. This is an important 
achievement and a deal that deserves your support.
    Meanwhile, the United States, the Department of Defense, and the 
men and women of the finest fighting force the world has ever known, 
with your support, will continue to be committed to the defense of 
America's interests, friends, and allies, to counter ISIL and Iran's 
malign influence, and to uphold the President's commitment that Iran 
will not obtain a nuclear weapon should it walk away from this deal.
    Thank you.

    Chairman McCain. Thank you, Mr. Secretary.
    General Dempsey?

 STATEMENT OF GENERAL MARTIN E. DEMPSEY, USA, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Dempsey. Thank you, Chairman, Ranking Member Reed, 
and the members of this committee, for the opportunity to 
address your questions regarding the military implications of 
the negotiated deal with Iran.
    Given our discussion before this body just a few weeks ago, 
I will keep my comments brief.
    As I have stated previously, I was consulted on the 
military implications during the course of the negotiations and 
provided my best military advice appropriately. If followed, 
the deal addresses one critical and the most dangerous point of 
friction with the Iranian regime. But as I have stated 
repeatedly, there are at least five other malign activities 
which give us and our regional partners concern.
    These run the gamut from ballistic missile technology to 
weapons trafficking, to the use of surrogates and proxies, to 
naval mines and undersea activity, and last, but not least, to 
malicious activity in cyberspace. The negotiated deal does not 
alleviate our concerns in those five areas. The negotiated deal 
does not change the military options at our disposal.
    And in our ongoing efforts to counter the Iranian regime's 
malign activities, we will continue to engage our partners in 
the region to reassure them and to address these areas. 
Ultimately, time and Iranian behavior will determine if the 
nuclear agreement is effective and sustainable. In the interim, 
I will continue to provide my best military advice and present 
military options.
    With that, I stand subject to your questions.
    Chairman McCain. I mention to my colleagues we have a vote 
on right now, and usually we bounce back and forth, but I think 
that this is important enough for us to recess for until the 
completion of the second vote. I understand there is two, that 
one is ending right now and the other is beginning.
    So I would ask the indulgence of our witnesses, and I 
apologize if they--if we could recess for approximately 10 
minutes while we are able to complete these two votes. I think 
this hearing is important enough not to have us bounce back and 
forth because I think all members would like to hear the 
complete testimony.
    So, again, my apologies. We will stand down for 10--10 
minutes.
    [Recess.]
    Chairman McCain. The committee will reconvene, and I want 
to thank the witnesses for their patience. I am sure they 
understand that from time to time, we are required to vote.
    So I want to thank the witnesses for being here.
    And General Dempsey, your statement has been completed. And 
is there any other statements that would like to be made? Then 
we will begin with questions, and we will have 5 minutes.
    Secretary Carter, the issue has arisen that there is side 
agreements that have been made between the IAEA and Iran that 
apparently the Congress has not been made privy to, and could I 
ask that since these IAEA agreements, side agreements have to 
do with the weapons programs of the Iranians and the inspection 
and verification of those programs, will we in Congress receive 
the information concerning those side agreements in order to 
make a judgment as to the degree of verification?
    Secretary Carter. Chairman, I think it is important that 
the content of those agreements and the manner in which they 
provide for verification of the nuclear undertakings Iran is 
making in this agreement and the procedures of the IAEA be 
known to the Congress. I can't speak for the actual specific 
documents themselves. I am sure Secretary Moniz or Secretary 
Kerry can.
    But it is an important part of the verification of the 
agreement, and obviously, verification is an important part of 
any--any agreement. Let me ask Secretary Moniz if he wants to 
add anything on the specifics of the IAEA?
    Secretary Moniz. Well, thank you, Ash.
    I could certainly add that the--first of all, to be honest, 
sir, I would not call them side agreements in the sense that 
the agreement in the JCPOA is that Iran must cooperate for the 
IAEA to complete its process on PMD. Then the IAEA, as is 
standard, negotiates a safeguards confidential document with 
the country to define the protocols that will----
    Chairman McCain. Those protocols--those protocols are very 
important, Mr. Secretary. Are we going to be aware of those 
protocols? Because we know that with any agreement with a 
country such as Iran, the devil is in the details.
    Secretary Moniz. All I can say is that--well, first of all, 
I personally have not seen those documents.
    Chairman McCain. Which is astounding, to be honest with 
you. That is----
    Secretary Moniz. Well----
    Chairman McCain.--absolutely astounding that you have not 
seen the documents that are about the requirement for 
verification.
    Secretary Moniz. All I can say is that the agreement 
requires their cooperation with the IAEA, and this is the 
standard practice of the IAEA, whose independence is very 
critical to all of us.
    Chairman McCain. What is critical to all of us, Mr. 
Secretary, that we have verification of the--and inspections of 
Iranian activities because they have a clear record of 
cheating.
    Secretary Moniz. We agree.
    Chairman McCain. So, so we agree, all of us, I believe, 
that we should see those instruments of verification. 
Otherwise, how can we make a judgment as to these--this 
agreement can be enforced and verify with a country that has a 
long record of cheating?
    Secretary Moniz. The IAEA will, of course, then take the 
information that Iran must provide by October 15th and complete 
their report. And at that time, I think we will understand the 
IAEA's confidence in their--in their verification measures.
    Chairman McCain. So we are----
    Secretary Moniz. Building up, I might say, a very long 
history of this.
    Secretary Kerry. Mr. Chairman? Mr. Chairman?
    Chairman McCain. So we are then dependent on the confidence 
of the IAEA, not the actual viewing of the agreement and 
verification. I don't think many of us would agree with that 
process.
    General Dempsey, you told the committee just a few weeks 
ago, ``Under no circumstances should we relieve pressure on 
Iran relative to ballistic missile capabilities and arms 
trafficking.'' Now we are seeing after 5 years a relief of 
sanctions on conventional arms and, of course, 8 years 
ballistic missiles.
    How does that comport with the terms of this agreement with 
the statement that you made before the committee?
    General Dempsey. Well, it won't surprise you, Chairman, to 
know that my recommendation was to keep pressure on Iran on the 
other malign activities for as long as possible, and that 
recommendation was made. And then it entered into the 
negotiating process.
    I will say I think that time works for us as well as Iran 
in this regard, and so with the agreement made, and having had 
the opportunity to give my advice, I support it.
    Chairman McCain. Do you, Secretary Carter, believe that--
that Iran will change its behavior as a result, if this 
agreement is finalized? And have you seen any indication of 
that?
    Secretary Carter. I have not, Mr. Chairman. And speaking 
just from my own judgment, I don't foresee that or have any 
reason to foresee that. That is why it is important that the 
agreement be verifiable. That is why it is important that Iran 
not have a nuclear weapon, and that is also why it is important 
that we keep doing everything that we need to do.
    Defend our friends and allies, remain strong in the Gulf, 
freedom of navigation, ballistic missile defense, all the 
things we are doing. We need to keep doing those things, and 
the agreement doesn't limit us in any way.
    Obviously, if Iran changes its behavior, that would be a 
welcome thing. But I see no reason to foresee that, Chairman, 
personally.
    Chairman McCain. I see no reason to foresee it, and I see 
them now with about $50 billion or $60 billion with which to 
pursue those malign activities, and I have seen Secretary Lew's 
testimony and others that don't worry, they will be using it 
for domestic purposes. They are doing it now with the assets 
that they have. One can only imagine what they might be doing 
with 50 billion or 60 billion additional dollars.
    Look, I just would like to say again I know that the 
witnesses have very busy schedules, and I am grateful that you 
sought to testify before the committee today in order to help 
us understand this issue. And I thank you.
    Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman.
    Secretary Carter, you indicated in your statement that the 
United States has not given up any of its military options with 
respect to the region and to the Iranians. And I would presume 
also it has not given up any of its military intelligence and 
national intelligence operations with respect to Iran.
    And those intelligence operations, I would presume, would 
be focused in great detail on potential violations of this 
treaty. Is that your sense, too?
    Secretary Carter. Yes. Without going into detail here, 
certainly we have intelligence activities focused on the 
Iranian nuclear program. But we have on everything else they 
are doing, malign activity, Quds Force, ballistic missiles, 
arms transfers, the whole--the whole thing. It is a very 
important intelligence effort.
    Senator Reed. And Secretary Moniz, I understand that 
General Clapper yesterday indicated that he is confident, I 
think is a reasonable explanation, of the intelligence 
community's ability to detect any significant violation of the 
treaties with or without direct contact with IAEA. Is that a 
fair judgment in your mind?
    Secretary Moniz. Yes. In fact, he and I, Clapper, CIA 
[Central Intelligence Agency] Deputy Director Cohen, National 
Geospatial Intelligence Agency head Cardillo all made 
statements. Clapper in particular said that we would have far 
greater insight into the Iranian program with the agreement. 
And I would add that far greater insight will persist 
essentially forever.
    Senator Reed. General Dempsey, in your military assessment, 
what is more effective in delaying or stopping the Iranian 
nuclear program at this time or in the near future, a military 
strike or this P5+1 agreement?
    General Dempsey. Well, first, Senator, I would like to 
point out that the military options remain.
    Senator Reed. Right.
    General Dempsey. Second, I think that a negotiated 
settlement provides a more durable and reduces near-term risk, 
which buys time to work with regional partners to address the 
other malign activities. But there are about five military 
implications. You have invited me here today to talk about the 
military implications, if you would allow me?
    Senator Reed. Please.
    General Dempsey. I mean, the first is it does reduce the 
risk of a near-term conflict with Iran over their nuclear 
program. Second, another military implication is we have to 
sustain those options. They have to be preserved into the 
future.
    Third, there is clearly the opportunity for Iran to use 
some of the revenue that they gain for malign purposes, and 
that bears watching and collaboration with our regional 
partners, including Israel.
    Fourth, this will require us to strengthen our 
relationships and our collaboration in that part of the world. 
Then derivative of that is, fifth, we will have to--we should 
maintain and will maintain our forward presence.
    Those are the military implications.
    Senator Reed. The GCC in terms of the military 
expenditures, roughly double what the Iranians spend and has a 
capacity of even going much higher, given their revenues. Is 
that a fair assessment?
    General Dempsey. Yeah, double is probably the average. 
Certain countries far more than that.
    Senator Reed. And one of the factors that we are going to 
have to work with our allies in the region is making sure that 
they are--those resources are focused and can deter or defeat 
any aggression or proxy aggression by the Iranians, and that is 
the whole point, I think, of the collaboration that you are 
undertaking?
    General Dempsey. We have got a series of initiatives, both 
with the Israelis and the GCC, to better position ourselves to 
address those other malign activities.
    Senator Reed. And so, we have a situation develop where the 
resources are available. We are trying to reorganize in 
collaboration with the regional partners so they are much more 
effective to respond. So, essentially, we are not ignoring 
these hostile threats by the Iranians on the ground through 
proxy or anything else. Indeed, we are, in a sense, amping up 
our activities.
    Is that fair?
    General Dempsey. Well, what I would say, Senator, is you 
know my responsibility is to articulate risk and provide 
options to our elected leaders in how to mitigate them. And 
this does cause us to have to increase our military. We have to 
pay more attention to the malign activities.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    Right now in the middle of one of the largest bills of the 
year, and I am the sponsor. Therefore, I haven't been in on all 
this fun. So I read this morning to see what happened 
yesterday, Secretary Kerry. This is in the, I guess, the 
Washington Post.
    President Obama promised that his nuclear deal with Iran 
would not be based on trust, but rather unprecedented 
verification. Now it turns out Obama's verification regime is 
based on trust after all. Trust in two secret side agreements 
negotiated exclusively between Iran and the International 
Atomic Energy Agency that apparently no one, including the 
Obama administration, has seen.
    And it goes on to say, ``It turns out that only two 
parties, the IAEA and Iran, get to actually see it. However----
'' Well, and then further, in the U.S. News and World Report, 
it says, ``By law, the administration is required to provide 
Congress with the contents of the nuclear deal and all related 
matters and annexes.''
    Secretary Kerry, do you agree with that analysis of the 
law, what your requirement is?
    Secretary Kerry. Senator, let me just say to clarify on the 
earlier part of the question, Congress will be fully briefed on 
this--on this agreement in a classified session. And indeed, 
one of our key negotiators, the day- to-day lead negotiator, 
Wendy Sherman, was briefed on it. And Ernie Moniz was likewise 
briefed on it. So we are aware of what the basics of it are.
    It is standard procedure. I mean, there are 189 countries 
that have an agreement with the IAEA that are signed up to the 
NPT [Non-Proliferation Treaty]. Not that many have agreements.
    Senator Inhofe. Okay, but my question is, are we entitled 
to all the related materials and indexes?
    Secretary Kerry. Correct. But, yes, those that are part of 
the agreement, per se. This is, by reference, and we--no 
country has access to the confidential agreements directly of 
the IAEA and a country.
    Senator Inhofe. Well, I can't--I don't mean to interrupt 
you, but my time is limited here. I can't imagine that this 
wouldn't be a part of what we all would be briefed on.
    Now yesterday, when Congressman Poe asked the question, he 
said the secret deal. Secretary Rice said that she has seen the 
deal with the IAEA, and she is going to share it with Congress. 
Now that is the question, if you have seen it since----
    Secretary Kerry. No, but----
    Senator Inhofe. Did you see it at the same time or prior to 
the time that Secretary Rice saw it?
    Secretary Kerry. Senator, National Security Adviser Rice 
has not seen it.
    Senator Inhofe. Well, she said she did yesterday.
    Secretary Kerry. No, she has been briefed on it.
    Senator Inhofe. Well, she did.
    Secretary Kerry. I gave her exact quote to Congressman Poe, 
and the exact quote is that she has seen--she has been briefed 
on it. She hasn't actually seen the agreement.
    Senator Inhofe. Okay. I will give you her quote and make 
sure it is in the record here. It says, ``She said she did. She 
did see it. She did evaluate it. She said she did 6 days ago.'' 
That is 7 days ago now. She said 6 days ago she had seen it and 
reviewed it and that Congress will get to see it in a 
classified session.
    Secretary Kerry. Well, Congressman, you are quoting--
Senator, you are quoting Congressman Poe.
    Senator Inhofe. Who is quoting her. This is in quotation 
marks.
    Secretary Kerry. And I corrected him with her direct quote, 
which we took from public record. Her quote says that she has 
been briefed. She has not seen it.
    Senator Inhofe. I have not seen that because I don't think 
that she did correct that. That was specific on something that 
happened 6 days before. As a matter of fact, that was in The 
Hill magazine.
    Secretary Kerry. The White House press--the White House 
press briefing directly----
    Senator Inhofe. The Hill magazine was--had something about 
that, and that was prior to the time. It was 7 days ago today, 
Secretary Kerry, that we had a confidential, classified 
briefing, right? I was there. You were there. Most of the 
people at this table were there.
    And I would say this. In a classified session, you can't 
say what was said, but was that addressed at all?
    Secretary Kerry. It was.
    Senator Inhofe. Was that addressed at all?
    Secretary Kerry. It was addressed. It was. A question came 
up about it, and the answer was given that, of course, Congress 
will be briefed with respect to the contents. And of course, 
you need to be briefed. Everybody needs to be briefed.
    Senator Inhofe. My point is, Mr. Secretary, that that was a 
classified session where we were in a position to be briefed at 
that time, and we weren't.
    Secretary Kerry. I don't think we had the full material to 
brief. I didn't have it, anyway. But we are prepared, and I 
think Wendy Sherman is going to be briefing very shortly on 
that, Senator.
    But what we did provide, what we can provide is the actual 
road map that the IAEA put out, and the IAEA has issued a full 
road map of what their expectations are.
    Senator Inhofe. I understand that. But I am talking about 
the deal, the secret documents. That is what I am referring to.
    Secretary Kerry. Well, it is not--it is a confidential 
agreement. It is being--it is being postured as this great sort 
of----
    Senator Inhofe. I think----
    Secretary Kerry. It is a confidential agreement, which is 
the standard procedure of the IAEA, and we have lived with the 
IAEA, Senator. We have relied on the IAEA for years and years.
    Senator Inhofe. Okay.
    Secretary Kerry. And historically, the IAEA always creates 
what is called a comprehensive safeguards agreement, a CSA, 
which they negotiate with a country, and we don't get that 
exact--it is not shared with the world. And there are reasons 
that it is confidential that have to do with what you can get 
out of that country, but we do get briefed on it.
    We are aware of it. Secretary Moniz has actually made some 
recommendations to the IAEA for them to actually tighten it up 
a bit. I think, Secretary Moniz, you might--you have certainly 
got confidence in it, in what you have heard----
    Senator Inhofe. Mr. Secretary, my time has expired. But I 
would say to the chairman, it is incomprehensible that we 
didn't have full access to that, and I think most of the people 
agree with that.
    But my time expired. Thank you.
    Chairman McCain. Senator Nelson?
    Senator Nelson. Thank you.
    Gentlemen all, thank you for your public service.
    Mr. Secretary Lew, I want to go down a different road. We 
have heard so many different commentaries about how much of a 
windfall the sanctions relief would be for Iran. We have heard 
$100 billion, $150 billion. The chairman is speaking of $50 
billion or $60 billion.
    You tell me if this is correct. That basically, sanctions 
relief of what has been withheld is about $100 billion, but in 
that $100 billion, there are contractual obligations of Iran to 
pay some $50 billion. And therefore, the net that would 
approximately come to Iran would be about $50 billion.
    Is that somewhere in the ballpark? That is correct?
    Secretary Lew. Senator, that is roughly correct. I am happy 
to walk down the numbers, to the best of my knowledge.
    Senator Nelson. You don't need to. I am trying to get 
concepts here.
    Secretary Lew. Well, the one thing I would add is there is 
between $50 billion and $60 billion that is accessible. But 
that money is not sitting in U.S. banks.
    Senator Nelson. That is where I wanted to go. That money is 
sitting in foreign banks, is it not?
    Secretary Lew. It is sitting around the world in countries 
like China and India and many other countries.
    Senator Nelson. China, India, Japan, even Taiwan, and UAE 
[United Arab Emirates], those banks?
    Secretary Lew. Correct.
    Senator Nelson. Therefore, if we denied the lifting of 
economic sanctions, that money is in the hands of foreign 
banks. What, in your professional opinion, is the likelihood 
that that money would be released----
    Secretary Lew. Well, just to be clear, Senator----
    Senator Nelson.--to Iran?
    Secretary Lew. It is Iran's money that is tied up because 
of sanctions. So they have sold oil. The money has gone into 
these foreign accounts, and it is sitting there. If this 
agreement, this deal were to be rejected, the question is what 
do those other banks do?
    I don't think they will feel bound to hold that money the 
way they have held it in an escrow away from Iran, and I think 
without a nuclear agreement, some of that money will start 
going back to Iran if there is no agreement, if this agreement 
is rejected.
    Senator Nelson. So, to recapitulate then, if we were to 
reject it, the money is likely to flow because it is in the 
hands of foreign banks that would not be compelled to adhere to 
the United States wishes at that point. Is that correct?
    Secretary Lew. Right. We do, obviously, have sanctions that 
we could impose in other ways, but this money is not sitting in 
U.S. banks. We can't lock it up directly. We need the 
cooperation of other governments, other central banks, other 
banks in order to keep this money from Iran.
    And just to add one more detail, I think the notion that 
somehow a $50 billion, $60 billion check gets written is wrong. 
They can't spend all this money. This is the foreign Reserve 
that they need to settle their foreign transactions.
    They are already using--doing transactions in some of these 
countries that are permitted, using their foreign Reserves as 
exchange. They still will need to buy things overseas. So they 
can't just spend all this money, or their ability to conduct 
international commerce goes away.
    And as I have said before, they have hundreds of billions 
of dollars of competing domestic needs. So while I can't say 
that not a penny will go to malign purposes. I have never said 
that. I think the magnitude of resources available is highly 
exaggerated by the notion of thinking that it is some $50 
billion transfer.
    Senator Nelson. Mr. Secretary Moniz, can you explain to the 
committee the insight that you, we--the United States 
Government--will have as a result of this agreement on their 
uranium centrifuge program, number one, and, number two, on 
their plutonium program as a result of the agreement stating 
there has to be modifications and/or dismantlement of the 
plutonium reactor?
    Secretary Moniz. Yes, Senator. On the uranium centrifuges, 
we will have--well, the IAEA will have daily access and the use 
of advanced technologies to make sure that all of the idle ones 
are locked up and used only as replacements for broken ones. 
And they will confirm that they are broken.
    In addition, for 20 years, we will have containment and 
surveillance of all manufacturing of key centrifuge parts. So 
it is, as General Clapper said, we have tremendously enhanced 
insight into their program.
    On the plutonium, we will take--they will be required to 
take out the core part of the reactor, fill it with concrete. 
And then with international collaboration, and we will be part 
of that, we will make sure that the replacement reactor is the 
one that reduces plutonium production by about a factor of 10. 
So it is way below the amount needed for a weapon.
    But second, they have also agreed that belt and suspenders, 
that the spent fuel for life, which is where the plutonium 
resides, will be sent out of the country. So we have very, very 
good containment there.
    Senator Nelson. Thank you, Mr. Chairman.
    Chairman McCain. Senator Sessions?
    Senator Sessions. Thank you, Mr. Chairman.
    And thank all of you.
    I have been a member of and chair now the Strategic 
Subcommittee. I worked with Senator Donnelly and Senator Nelson 
over the years. It has been the unified view of the world's 
developed nations that Iran not have a nuclear weapon. It is a 
grave threat to peace in the world.
    Secretary Kissinger, sitting where you are, said a few 
months ago that if Iran gets a nuclear weapon, he named Turkey, 
Saudi Arabia, Egypt would get nuclear weapons. Proliferation 
dangers are very real, and that is why the whole world and even 
the U.N. [United Nations] has been firm on this.
    So I am very worried about where we are, and I believe the 
initial error was the commencement of negotiations in 2009 
after President Bush had pulled back from that because of the 
behavior of Iran. And experts in the region warned us that the 
Iranians are exceedingly patient, that talking can be a trap.
    And the deeper you get into this talk, the less able you 
are to take corrective action and to alter the situation as we 
see it. So now we are at the end. The Iranians see long term, 
and I am afraid that we have endangered the goal that we had it 
pretty well a unanimous nation, world behind.
    Secretary Carter, do you believe that Iran represents the 
world's foremost sponsor of terrorism?
    Secretary Carter. Let us see, state sponsor, probably so. 
I--there are, unfortunately, it is such a kaleidoscope these 
days that there are lots of sources of terror. But I think for 
state sponsorship, that is probably accurate.
    Senator Sessions. I think that is consensus. Secretary 
Kerry testified yes to that question yesterday in the House.
    Secretary Carter. Right.
    Senator Sessions. And I wish it weren't so.
    Secretary Carter. Me, too.
    Senator Sessions. And there is a goal and dream that 
somehow Iran could be brought in from the cold and we can work 
with them, but I believe that it was former adviser to 
President Reagan, Bud MacFarlane, who said revolutionaries 
don't go back on the revolution. And you believe that the 
Supreme Leader Khamenei remains committed to the revolutionary 
goals of the Iranian revolution?
    Secretary Carter. I only read what he says, which suggests 
that he does.
    Senator Sessions. I think he does. I don't think he has any 
intention to abandon that. Hasn't he--he was recently at an 
event and led a rally in which chants punctuated the rally, 
``Death to America. Death to Israel.'' Do you believe that 
those reflect his views?
    Secretary Carter. Again, I am not an expert, but certainly 
I can read the newspaper. Certainly seems so, and that is the 
reason to be so concerned about Iran, Iran's malign activities, 
support for terrorism, and especially to make sure they don't 
get a nuclear weapon, as which is key.
    Senator Sessions. I think that is the only conclusion we 
can reach. I think he means what he says. We can think it is 
strange and unserious and not serious, but it is serious. It 
represents the radical ideological agenda of this regime, which 
makes it a pariah regime, which makes this a danger to the 
entire world.
    And negotiating an agreement that allows them to obtain 
missiles is also dangerous, even if it is 5 years or 8 years 
out. Iranians are very patient.
    Now you were asked earlier about this, and you said, ``The 
reason we want to stop Iran from having an ICBM program is that 
the `I' in ICBM stands for `intercontinental,' which means 
having the capability to fly from Iran to the United States, 
and we don't want that.''
    I think that was a very clear policy decision of the United 
States. But doesn't this agreement allow after at least 8 
years--and they have been known to cheat--to purchase on the 
open market items that would help assist them in building an 
ICBM system capable of reaching the United States?
    Secretary Carter. Well, I am, and I think we all need to be 
very concerned about their ballistic missile activities with or 
without this agreement. That is why ballistic missile defense 
is so important, including ballistic missile defense of the 
United States.
    I spoke earlier about ballistic missile defense of Israel, 
which we also worked very hard with Israel on.
    Senator Sessions. Well, I think the administration and you 
have supported missile defense for the United States.
    Secretary Carter. And also--I think we have, too.
    Senator Sessions. And you say they shouldn't have this 
capability, and we should stop it. And this agreement, does it 
not, allows them to purchase anything they need on the world 
market after the date in the agreement?
    Secretary Kerry. No, Senator. Could I answer that? It 
actually does not.
    The 8 years represent the best that we were obviously able 
to negotiate with 3 countries of the 7, who said there should 
be nothing. But we were comfortable accepting the idea of the 
8, which, by the way, still leaves us those 8 years with 
Chapter 7 enforcement with respect to that. But we were 
comfortable because we have a number of other tools already 
available to us, Senator, which we can apply to be able to 
prosecute their efforts with respect to missiles.
    Specifically, we have the Missile Technology Control 
Regime. We have the executive order of the President of the 
United States, which allows him to sanction anybody who is 
providing any materials whatsoever for missile construction. We 
have the Proliferation Security Initiative with 100 countries, 
which allows us to block the transfer of materials for weapons 
construction.
    We have the Iran, North Korea, Syria Nonproliferation Act. 
We have an additional two executive orders. So we have huge 
tools available to us way into the future----
    Senator Sessions. It seems to me that last agreement, this 
agreement would trump that.
    Secretary Kerry. No, there is no trumping of anything. 
These are all existing. We also have----
    Senator Sessions. I don't know what the language is in the 
agreement for if it is not--has no meaning, Senator Kerry.
    Secretary Kerry. Senator, these are additional agreements 
that we have outside of this agreement, which allow us to 
continue to protect us with respect to missile development. We 
also have additional U.N. [United Nations] sanctions that 
prohibit the flow of weapons to Hezbollah, prohibit the flow of 
weapons to Iraqi Shia, prohibit the flow of weapons to Houthi, 
prohibit the flow of weapons to----
    Senator Sessions. Well, they are flowing now, are they not?
    Secretary Kerry. Indeed, because they haven't been 
enforced, which is precisely what the administration has 
decided we need to do more effectively. And that is why in 3 
days, I am meeting with the whole GCC in Doha to lay out the 
very specifics of the proposal for how we are going to push 
back against Iran.
    But I would leave you with one thought, Senator. You have 
adequately and appropriately pointed to the rhetoric of the 
leader and to the things they are doing. Simple question. If 
that is what they want to do, are you better off preventing 
them from having a nuclear weapon, or do you want to go right 
back to where we were when they had 19,000 centrifuges, 12,000 
kilograms of material, enough for 10 to 12 bombs.
    They have already mastered the fuel cycle. So don't be 
looking 15 years down the road. Right now, they have this 
ability. And we are stopping that. We are taking that away from 
them and providing a lifetime----
    Chairman McCain. The Senator's time has expired.
    Secretary Kerry.--inspection.
    Chairman McCain. How did that North Korean one deal work 
out for you?
    Senator McCaskill?
    Secretary Kerry. Well, Senator, I can give you the complete 
differentiation.
    Chairman McCain. Senator McCaskill is--your time is 
expired. Senator McCaskill?
    Secretary Kerry. It didn't work out for me. I didn't cut 
the deal.
    Senator McCaskill. General Dempsey, is there anything in 
this agreement that would constrain our ability to take any 
military action that our country thought was necessary against 
Iran?
    General Dempsey. No, Senator.
    Senator McCaskill. Secretary Lew, I am concerned about the 
alternative to the deal. And one of the things I don't think 
has been covered enough in all of the testimony that has 
occurred, and I think all of us are following all of this very 
closely. I got the point that Senator Nelson was trying to make 
that the money is not in our control, and it appears, looking 
at it, if all the other countries walk away from us, if we 
reject this deal, that they are going to get the money one way 
or another.
    Either they are going to get the money because they are 
entitled to it if we do the deal, or they are going to get the 
money because we can't control it. But I don't know that that 
is completely accurate.
    And I think it is important because this is not about is 
this a good deal? This is also about what happens if we don't 
do this deal? And I think it is important to talk about whether 
the power the United States would have if this deal was 
rejected to, in fact, force our will on these countries that 
hold this money.
    We have a lot of tools at our disposal, as the major 
economic power that we are. A lot of these are our NATO allies. 
Obviously, Japan. So I think it is fair that we shouldn't just 
say if we walk away from this deal, they are going to get all 
the money, and they are going--I think it is fair to try to 
really drill down, and you try to give us a picture.
    Let us assume, I know none of you want to assume that this 
deal is rejected. But let us assume it is. At that moment, what 
power do we have as a country to keep this money from flowing 
to Iran and its nefarious activities?
    Secretary Lew. Senator, that is a very fair question. And 
obviously, nobody can give you an entirely precise answer 
because there is perfectly legal ways for them to use some of 
this money now.
    For example, if they buy Chinese goods, they can pay with 
their Reserves that are held in China. So they could make the 
decision that they are going to acquire the things they need to 
acquire through the countries where they have Reserves and chip 
away at those Reserves.
    The question of what our unilateral sanctions can do versus 
multilateral sanctions is a complicated one. We have powerful, 
powerful unilateral tools. The United States is the world's 
banking center. The dollar is the Reserve currency. 
Transactions that go through U.S. financial institutions are 
within our grasp.
    But that doesn't give us the ability to reach out to all 
foreign banks and to all foreign transactions. And I think that 
it is at our own peril if we have a sanctions regime where we 
are enforcing unilateral sanctions that the rest of the world 
is rejecting, which is very different from what has been going 
on over these last few years.
    We have worked bilaterally with countries around the world 
to do things against their own economic interest because they 
agreed with us on the imperative of stopping Iran from getting 
a nuclear weapon.
    If they see us walk away from an agreement that they 
believe would stop Iran from getting a nuclear weapon, I think 
the degree of cooperation we get goes down considerably. It is 
not black and white. It is not we go from being able to do 
everything to doing nothing. But what has made the sanctions 
regime so effective these last few years is the fact that we 
have had the international cooperation.
    India and China have been buying less oil from Iran than 
would have been good for their economy. How do you enforce 
bilaterally with countries around the world doing things 
against their interest just by saying we insist?
    So there are things we can do. There are certainly ways 
that----
    Senator McCaskill. I think it----
    Secretary Lew. But it gets much harder.
    Senator McCaskill. And I appreciate that answer. But I 
really think it would be helpful for those of us who are really 
trying to analyze both scenarios if you all would try, to your 
best ability, put in writing what you envision, what would be 
our best effort at keeping Iran isolated if, in fact, this deal 
is rejected.
    Because I don't think it is fair for us just to assume that 
we have no power if this deal is rejected because, clearly, we 
still are going to have a lot of power.
    I am almost out of time. This is an important question, I 
think, for Secretary Moniz. And I know this is a hard question 
to give an exact answer to. But do you believe that if we walk 
away from this deal, Iran has a nuclear weapon by Christmas?
    Secretary Moniz. Well, I can't really answer that question. 
What I can say is----
    Senator McCaskill. Do your best. I think it is important 
for us to know how close they are.
    Secretary Moniz. They--well. They are a nuclear threshold 
state today. They could certainly generate the nuclear 
materials within months, which is before Christmas. And what is 
then the unknown is the degree to which they have completed, 
which we can't discuss right now, other weaponization 
requirements.
    That is what, of course, the IAEA, in building up its 
dossier over many years, which it now needs to complete, have 
certainly identified, labeled Iran as having had a structured 
program of activities relevant to nuclear weapons in the past. 
So it is a threshold state, and that is the risk we face. The 
deal will walk them back from that threshold and give us 
permanently more insight into their--into any weapons program 
they might choose to pursue.
    Senator McCaskill. Thank you, Mr. Chairman.
    Chairman McCain. Senator Wicker?
    Senator Wicker. They are a nuclear threshold state, and 
they have denied all along that they had any intention of doing 
so up and to the present time. I think that is instructive.
    I think Senator McCaskill may be onto something here with 
regard to all of the options before us. My friend Senator Reed 
asked a question about are we better off with a negotiated 
settlement or a military strike, as if those are the only two 
alternatives. Of course, we know that those are not the only 
two alternatives.
    I wish our European friends, our Western allies had not 
been so eager to leave the sanctions regime, but they were. The 
United States could go it alone. And as the Secretary pointed 
out, we do have unilateral tools that would be effective.
    So, you know, continue trying to get a good deal, continued 
unilateral tools on the part of the United States, making 
people choose between banking with America and banking with 
Iran. Those tools are there.
    Let me say to you, General Dempsey, I appreciate your 
service, and I appreciate the many times you have come before 
this committee. We have disagreed and agreed from time to time. 
It would seem to me that your brief nine- sentence opening 
statement to this committee today amounts to damning this 
agreement with faint praise, I have to say.
    You mentioned that there are six areas in which Iran is a 
bad actor, and you say five--five of these malign activities 
give us real concern, and you list them. But then you end and 
give us these words of assurance.
    ``Ultimately, time and Iranian behavior will determine if 
the nuclear agreement is effective and sustainable.'' That, 
sir, does not give me a confidence level, and I just have to 
tell you that, based upon your very brief and I think tepid 
endorsement of this agreement.
    With regard to the conventional arms embargo, as late as 
the spring, we weren't hearing about this. General Dempsey, 
when did you become aware that there would be this huge relief 
from the conventional arms embargo, and isn't it a fact that it 
caught you by surprise?
    General Dempsey. Well, first, Senator, I would ask you not 
to characterize my statement as tepid nor enthusiastic, but 
rather pragmatic. And I have said from the start that relieving 
the risk of a nuclear conflict with Iran diplomatically is 
superior to trying to do that militarily, but I will sustain 
the military options in case that becomes necessary.
    As to your question about timing, I was consulted or asked 
for my advice episodically when military implications became 
part of the conversation. And probably about a week or two 
before the agreement was finalized, I gave my final 
recommendation regarding sanctions.
    Senator Wicker. Well, late--that is very late in the 
agreement, and I would just say it seems to me that the advice 
that we have been getting on the other side of this agreement 
down through the months and over time, this--this massive 
retreat from conventional arms embargos is something new and 
something very troubling.
    Let me just say, Mr. Chairman, in the minute I have left 
that the assessment of the facts and the assessment of the 
effect this agreement will have by neighbors in the region I 
think is so instructive, should be so instructive to this 
Congress. And I don't blame my friends on the Democratic side 
of the aisle for having concerns also.
    It is striking that from right to left, every ideology 
within the country of Israel is opposed to this agreement. It 
is striking that the Arab neighbors, the Saudis and others, are 
alarmed at this deal.
    And I would submit to the record, Mr. Chairman, in the 
closing seconds an op-ed by Ari Shavit, senior correspondent 
for left of center Israeli newspaper Haaretz, in which he says, 
``The Iranian negotiating team succeeded in destroying 
completely the sanctions mechanism.'' He points out that, ``The 
United States, European Union, Britain, France, Russia, and 
China recognize again and again Iran's right to develop 
advanced centrifuges, which could be 5 to 10 times bigger than 
the capacity of the old ones.''
    ``This means,'' Mr. Shavit concludes, ``that the 
international community is not only enabling, but actually 
ensuring the establishment of a new Iranian nuclear program, 
which will be immeasurably more powerful and dangerous than its 
predecessor.''
    I submit this article for the record, Mr. Chairman----
    Chairman McCain. Without objection.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Wicker.--with a great deal of concern.
    Thank you, sir.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you all very much, both for your efforts on this 
negotiation and for being here today.
    Secretary Carter, you were in the Middle East last week. 
Can you tell us what you heard from our allies in the Middle 
East about how they felt about this agreement, specifically 
Saudi Arabia and Israel? Obviously, we have heard what Prime 
Minister Netanyahu has had to say.
    Secretary Carter. Sure. Sure, Senator.
    Beginning with Israel, Prime Minister Netanyahu was very 
clear, as he has been clear publicly in his opposition to the 
deal. We discussed that, but then we discussed many other 
things as well.
    Hezbollah's activity up on the border with Lebanon. In 
fact, I visited there. Our missile defense activities, our 
cybersecurity cooperation, our intelligence cooperation, lots 
of other regional issues. And so, we discussed many topics, but 
he was very clear.
    Senator Shaheen. And excuse me for interrupting, but would 
you agree with Senator Wicker's characterization that the 
Israelis were united in their opposition to the agreement from 
left to right?
    Secretary Carter. I only spoke about this to the prime 
minister, of course, who is the leader of their country. He 
was, as he has been publicly, very, very clear.
    Senator Shaheen. And what did you hear from some of our 
Arab allies in the Middle East?
    Secretary Carter. I spoke to the king of Saudi Arabia, who 
repeated to me a statement he had issued a few days before 
supporting the agreement. He referenced that--again, I don't 
think this is violating any confidence--that the verification 
and, as he put it, snapback provisions were particularly 
important to him. So he referenced those things.
    And then, again, we went on to talk about other things that 
are more related to the defense agenda, including the--his air 
force's munitions, cyber concerns that Saudi Arabia has, and 
something that we started to discuss at the GCC, namely Saudi 
Arabia's role in countering ISIL, which is a whole other 
subject there.
    Senator Shaheen. And did you hear from any of our other 
Arab allies in the Middle East that they support the agreement?
    Secretary Carter. I spoke to the Jordanians about it. 
Again, this wasn't a major topic with them. We had a lot of 
other things to talk about.
    But did not express any opposition. I don't recall exactly 
what they said.
    Senator Shaheen. Okay.
    Secretary Carter. It wasn't really the subject of our 
meeting there. Those are the three places that I met with.
    Senator Shaheen. Thank you.
    General Dempsey, is there a military option, short of 
invasion, that would roll back Iran's nuclear program more 
substantially over the next 10 years than the JCPOA does, in 
your opinion?
    General Dempsey. Well, I would have to make assumptions 
about how often we would be compelled to conduct airstrikes or 
stand up munitions. But the military options that exist would 
disrupt the program by several years, but there is nothing to 
say we couldn't repeat it if necessary.
    Senator Shaheen. And do you have--is there any intelligence 
information to suggest what Iran's response would be, should we 
engage in an airstrike against them?
    General Dempsey. Yes, I wouldn't say it rises to the level 
of intelligence. But the analysis suggests that they would 
counter our presence in the region at every opportunity and use 
these other malign activities that they have available to them.
    Senator Shaheen. Thank you.
    Secretary Moniz, there has been a lot of discussion about 
the 24-day delay, and you have testified in the Foreign 
Relations Committee that to the extent to which we would be 
able to detect nuclear activity--so uranium--in an extended 
period beyond the 24-day delay.
    What if the activity does not include nuclear material, to 
what extent are you--do you believe we could detect other 
activity other than uranium-related or nuclear-related 
activity?
    Secretary Moniz. Well, Senator, first of all, permit me to 
reinforce the fact that having the 24-day period is itself new 
in the sense that there has never been any time limit in terms 
of access to undeclared sites. Again, to repeat, on nuclear 
materials, we have very, very sensitive capabilities, and 
historically, those have been proved. And we can add more in 
classified context.
    With regard to non-nuclear materials, it gets more 
difficult. However, when one has nuclear weapon specialized 
activities, such as explosively driven neutron initiators, we 
would not be without tools to detect activities in that kind of 
a time period.
    But clearly, as one gets farther and farther away into, let 
us say, just conventional explosives testing, which is 
something militaries do normally, then it is a question of 
intelligence putting together the context for suspicious 
activities. But nuclear material, in the end, you need to do 
nuclear materials to get to the weapon, and that is where we 
have extraordinary techniques.
    Mr. Chairman, if I may add one more comment? If you permit, 
just to go back to Senator Wicker's comment on advanced 
centrifuges, I don't know that particular article you quoted. 
But it appears to have forgotten to mention that their most 
advanced machines, which are 5 <greek-e> their current 
machines, they are already operating at full cascade level, two 
different machines.
    And those are going to be dismantled before this--before 
this is implemented.
    Thank you.
    Senator Shaheen. Thank you, Mr. Chairman.
    Chairman McCain. I am informed that Senator Ernst is 
required to preside over the vital proceedings on the floor of 
the United States Senate, which is critical to her presence. So 
I would ask the indulgence of my colleagues to allow her to 
proceed.
    Senator Ernst. Yes, thank you, Mr. Chair, and thank you, 
colleagues.
    Gentlemen, thank you for being here today.
    This will be one of the most significant votes that we take 
as members of Congress, moving forward. So I believe it is 
imperative that we get this right.
    Not long ago, the United States discovered that we had had 
a data breach at OPM [the Office of Personnel Management]. 
Simple. Data, personnel records had been tapped into. So that 
just is laying the groundwork of where I am going next.
    Secretary Carter and Secretary Moniz, I am very concerned 
regarding the Government's ability to detect, deter, and defeat 
cyber attacks on our Government, particularly by China, Russia, 
and Iran. With respect to Iran in particular, according to 
Director of National Intelligence James Clapper, Iran has 
conducted cyber attacks on U.S. Government officials involved 
in nuclear nonproliferation, hacking which compromised the 
Marine Corps intranet, Sands Las Vegas Casino, and attacks 
against U.S. banks.
    In relation to the Iran deal, these attacks, along with 
recent successful attacks against OPM, leads me to have less 
than full confidence in our own cyber capabilities, let alone 
the cyber capabilities of the IAEA. It is vital IAEA has a 
lock-tight ability to protect its equipment and technology, 
vital to ensuring effective monitoring of Iranian facilities 
under this agreement against cyber attacks.
    Just simple ``yes'' or ``no,'' Secretary Carter. Are you 
concerned regarding Iran's ability to impact the effectiveness 
of IAEA monitoring equipment through cyber?
    Secretary Carter. I am sorry. I can't give you a ``yes'' or 
``no'' answer to that. I am very concerned about Iranian cyber 
activity, and you named three countries. I could go on with the 
ones.
    This is a big problem. And sadly, I share the lack of 
confidence you have in the adequacy of our defenses. In the 
Defense Department, you would think with all that we have paid 
attention to protecting our own networks, that we would be 
secure. But we are not, and we know that.
    And it is not just Iran, but it is others as well. And that 
is why we are trying to make investments in that area and pull 
up our socks in the cyber area.
    Senator Ernst. So----
    Secretary Carter. But I can't reassure you on the cyber 
front.
    Senator Ernst. I am very concerned about this. Secretary 
Moniz, yes or no, do you share a concern that this could be 
vulnerable?
    Secretary Moniz. Oh, I absolutely share a concern. But the 
IAEA does have some robust technologies in terms of----
    Senator Ernst. They are much more advanced than the United 
States?
    Secretary Moniz. I didn't say that, no. Look, cyber is 
tough. General Dempsey also mentioned cyber is something that 
keeps us up all the time, and we have to develop our 
capabilities.
    Senator Ernst. Fantastic. I have no confidence that we 
would not be able to know if there were tampering involvement 
going on as we try and monitor these activities or as IAEA 
tries to monitor these activities.
    Secretary Moniz. The IAEA, Senator, is, of course, quite 
aware of this, and they do have measures.
    Senator Ernst. And I hope that they improve those measures. 
I do believe that we are vulnerable, as we have seen with our 
own infrastructure.
    And General Dempsey, we have heard some other discussion 
today about the choices that the President has with this 
agreement. Now 2 weeks ago, many of our news outlets, USA 
Today, others had quoted President Obama as the choice is the 
Iran nuclear deal or war. This seems to be a military decision, 
and I understand that you advise the President on these issues.
    Is that what you have told the President is that we either 
take this deal or we go to war?
    General Dempsey. No. At no time did that come up in our 
conversation, nor did I make that comment.
    Senator Ernst. Who is advising the President then that we 
must go to war if this deal is not signed?
    General Dempsey. I can't answer that. I can tell you that 
we have a range of options, and I always present them.
    Senator Ernst. And I thank you for that. Because I do think 
and I think it is imperative that everybody on this panel 
understand that there are other options available out there, 
and a multitude of options. We are taught in the military about 
DIME, diplomatic options, information operations, military 
operations, and economic types of sanctions and opportunities 
that we might have.
    So for the President to outright reject everything but war 
is outrageous to me. And I do hope that you are able to better 
advise him that he needs to be careful with his language 
because that seems to be the rhetoric we are hearing out there 
is that we either go to war or we accept this deal, and I 
reject that premise.
    General Dempsey. As long as we agree that the--that 
military strikes on a sovereign nation is an act of war. But 
there are things between here and there.
    Senator Ernst. Absolutely. I agree, General Dempsey.
    Thank you, gentlemen, very much.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    General Dempsey, you answered--well, first of all, let me 
thank everybody at this table for your service to our Nation 
and the hard work and dedicated service that produced this 
agreement. Whether we vote for it or not, and I have made no 
decision for myself, I think the Nation owes you its gratitude 
for the hard work that you have done.
    Is it fair to say, General Dempsey, that the breakout time 
for Iran to produce enough fissile material for a nuclear 
weapon will return to what it is now, about 2 to 3 months, 
after the 10-year period?
    General Dempsey. I don't know that it is fair to say that 
because I think that some of the additional protocols and 
things which are out of my area of expertise could inhibit them 
for a longer period of time.
    Senator Blumenthal. Let us assume for the moment that, in 
fact, the breakout time is reduced at the end of that 10-year 
period to essentially what it is now. Will the United States be 
in a stronger or weaker position militarily if the military 
option is necessary for some future President?
    General Dempsey. The chairman earlier correctly pointed out 
that Iran could procure some weapon systems that could make our 
military option more difficult but will not make it more 
impossible. And I think the answer to your question, Senator, 
is depends how we use the time between now and then, and we 
have got to plan with our allies in the region to increase 
their capabilities over that period of time.
    So if we use the time wisely and we have the resources 
necessary to do it, we should not assume we would be in a 
weakened position.
    Senator Blumenthal. Because the expectation has to be that 
the Iranians will use that time to build their conventional 
forces. At the very least, they will have more revenue from 
various sources as the sanctions are lifted, substantial 
revenue. Is that correct?
    General Dempsey. Yes, but they are starting from an 
extraordinarily weakened position conventionally. But in the 
asymmetric arena, they are starting from a position of relative 
capability.
    Senator Blumenthal. Where I am going with this question is 
what changes in military force structure do you think the 
United States has to take, both to make sure that our National 
security is assured and also that our allies' is as well? What 
specific changes should the Armed Services Committee be 
supporting in the near and longer term?
    General Dempsey. Well, I mean, that is almost a separate 
hearing. But I would suggest to you that we really need to have 
the kind of budget certainty that the Secretary of Defense has 
articulated. And then, second, that we should not at this point 
in time consider reducing our force presence in the Middle East 
area of responsibility.
    Senator Blumenthal. Secretary Lew, let me turn to the 
economic sanctions that could be available, which my colleague 
from Iowa has mentioned. Can those be put back in place? Can 
the United States alone, even without our allies, use its 
finance system and its banks to implement a severe sanctions 
system?
    Secretary Lew. Senator, we certainly have very significant 
tools that we have used unilaterally and we could use again 
unilaterally. But what we have seen over the last several years 
is the impact of multilateral sanctions that have truly had a 
crushing impact on Iran's economy.
    It has brought them to the table. They have reached the 
agreement that we are here discussing. I think the notion that 
we can unilaterally equal or surpass that is something that is 
inconsistent with what we have learned.
    Senator Blumenthal. We may not be able to equal or surpass 
it, but we can certainly make a significant and also severely 
damaging effort if we choose to do so. Is that right?
    Secretary Lew. We can. And what I would say is, 
importantly, that the snapback provisions that are in this 
agreement, if Iran violates it, make it so that both the U.S. 
and the international sanctions would be back in place, which 
puts us in the strongest position.
    Senator Blumenthal. The challenge will be to mobilize our 
partners in that effort.
    Secretary Lew. Well, actually, I don't think it is a 
challenge. The way it was constructed, it is a very strong 
snapback provision. The international sanctions snap back in a 
way that we can work our will by exercising a veto if there is 
a disagreement with us.
    Senator Blumenthal. Secretary Kerry, did you have a 
comment? I noticed that you seemed to be----
    Secretary Kerry. Well, there is a surreality here. I mean, 
and with all due respect, the Senator from Iowa is not here. 
But the President of the United States is not mandating war. He 
is not--doesn't want to go war. It is not his choice, and he is 
not advocating war.
    What he is saying is that if you analyze the alternatives 
here, and this is what I mean by surreality, when you say could 
the United States continue some sanctions? To what end? To 
negotiate? I mean, with whom?
    Do you think the ayatollah is going to come back and 
negotiate after he has already negotiated?
    Chairman McCain. Secretary Kerry, the time has expired. 
Please shorten your remarks.
    Secretary Kerry. Could I just finish one thing, Senator?
    Chairman McCain. Yes.
    Secretary Kerry. The reason that the President talks about 
the possibility of war is Iran has already made it clear that 
if this is rejected, they consider themselves free to go back 
and enrich and to go back to where they were with the 12,000 
kilograms, 10 to 12 bombs, et cetera.
    And the inevitable consequence of that will be a ``What are 
you going to do about it?'' next step. We will have lost the 
international support because the international community is 
ready to enforce this deal. If we reject this unilaterally, 
they walk away.
    So you have huge difficulty with the sanctions, and you 
lose your capacity to have the support for the military strike 
if there had to be one. It is not a choice the President wants 
to make, but it is the inevitable consequence of Iran moving to 
assert what they believe is their right in the furtherance of 
their program.
    Chairman McCain. Senator Ayotte?
    Senator Ayotte. I want to thank the chairman. I want to 
thank all the witnesses for being here.
    I also want to take this opportunity. It is probably going 
to be the last time that General Dempsey testifies before the 
committee. I want to thank you for your dedicated service and 
for the service of your family.
    And I know, General, that when you appeared before the 
committee on July 7th, I was actually the person who asked you 
about there had been floated some views in the press at that 
time that Iran was pushing for lifting of the resolution on 
ballistic missiles and the resolution of arms, which we now 
know are in the agreement at 5 years and 8 years.
    Just to be clear, when you came before the committee then, 
you said under no circumstances should we relieve pressure on 
Iran on those issues. So was it your military recommendation 
that we not agree to lifting of those sanctions?
    General Dempsey. Yes. And I used the phrase ``as long as 
possible,'' and then that was the point at which the 
negotiation continued. But, yes, that was my military advice.
    Senator Ayotte. Thank you.
    I also wanted to ask you about an issue I know Senator 
Ernst had talked about in the Iranian cyber activity. And a 
number of years ago, we saw that there was an interruption of 
Iran's nuclear program through some other cyber activity, I 
think was reported, called Stuxnet. And that was reported in 
the press, I believe.
    In this agreement, according to paragraph 10.2 of Annex 3 
of the deal, the United States is actually obligated under this 
agreement to help strengthen Iran's ability to protect against 
sabotage of its nuclear program. It might be hard for Americans 
to believe that we would agree to help Iran protect against 
sabotage of its nuclear program in light of its prior 
intentions.
    And General Dempsey, I wanted to ask your opinion on that. 
Do you think it is a good idea for the United States to help 
Iran actually protect its nuclear program against sabotage?
    General Dempsey. I hadn't thought about that, Senator, and 
I would like to have the opportunity to do so. I will say there 
is--back to the cyber question that was asked earlier. I think 
next week this committee and the Senate will consider some 
cyber legislation that we have been eager to see passed for 
some time so we can get ourselves better protected.
    Senator Ayotte. Well, when we know that Iran continues 
malign activity on the cyber front, the idea that we would 
agree to help them protect its nuclear program against 
sabotage. And I assume, as I read this language, that that 
would also obligate us to inform the Israelis--inform Iran if 
the Israelis were undertaking any kind of activities that might 
undermine its nuclear program, at least if we are going to 
adhere to the plain language of this agreement.
    So I wanted to also ask about this idea. We have heard a 
lot about sanctions, and sanctions, as I understand, Iran has 
written the United Nations on July 20th about the sanctions 
regime. And one of the issues that has concerned me about this 
agreement is that once the sanctions, the long list of mainly 
congressionally mandated sanctions that will be lifted under 
this agreement are undertaken, if Iran, for example, engages in 
terrorist activity, which it is known to do, separate from the 
nuclear program, Iran seems to have taken the position in its 
letter to the U.N.
    And I have actually read the agreement, and I have been 
concerned that the agreement provides the same that, in fact, 
Iran says it is understood that reintroduction or reimposition, 
including through extension of the sanctions and restrictive 
measures, will constitute significant nonperformance, which 
would relieve Iran from its commitments in part or in whole.
    So my question is, as I read this, I am deeply concerned 
that if we want to reimpose the toughest sanctions on issues 
related to their terrorist activities and support for 
terrorism, which is another tool in the toolbox, General, aside 
from our military options, that Iran can then walk away from 
this agreement.
    And if the answer is you disagree with this 
characterization, please tell me where in the plain language of 
this agreement am I wrong.
    Secretary Lew. Senator, the language says we can't reimpose 
the nuclear sanctions if Iran complies with the nuclear 
agreement. We have never given away any of our ability to use 
other sanctions regimes--terrorism or human rights or----
    Senator Ayotte. But, Secretary Lew, with all due respect, 
the nuclear sanctions are the toughest sanctions that we would 
impose in other context, too, including on crude oil, oil and 
gas, on----
    Secretary Lew. Senator, we Reserve the right, if there is a 
financial institution that is engaging in financing terrorism, 
to put sanctions back on that institution. That is not a 
violation of the agreement. It is not a nuclear sanction.
    Senator Ayotte. But Iran seems to take a different 
position.
    Secretary Lew. Well, what Iran does believe is that we can 
take the nuclear sanctions, put a different label on them, and 
put them right into place. And what we would have to do is make 
the case, as we have on many occasions, that institutions 
should be sanctioned for their behavior on terrorism and human 
rights and regional destabilization.
    We will continue to do that. We will do it vigilantly, and 
all of our sanctions that apply in that area still stand.
    Secretary Kerry. There is no restraint.
    Chairman McCain. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    And General Dempsey, thank you also. Every time we say 
good-bye to you, you come back in another week on another 
panel. And I know it is not by choice, but we are thrilled to 
have you here again.
    Thank you very much for your service.
    Mr. Secretary, Secretary of Energy, if a year from now we 
have suspicions that something is going on at Parchin, does the 
IAEA have access to go inside that building and see it or not?
    Secretary Moniz. Well, again, we certainly have, through 
the initial protocol and this agreement, access anywhere that 
there is suspicion of nuclear activity. The protocols, again, I 
would have to see with the IAEA, but it is certainly a 
different--forward looking is very different from resolving the 
possible military dimensions of----
    Senator Donnelly. We need to know forward looking on this, 
on whether it is Parchin or other military facilities, does the 
IAEA have access to go inside those facilities?
    Secretary Moniz. They certainly must have the access 
granted to, again, resolve the issues that they need to 
resolve. They must have integrity in the process.
    Secretary Kerry. And if they do not, Senator, they would be 
in material breach of the agreement.
    Senator Donnelly. Okay. So this is different moving forward 
than what has gone in the past?
    Secretary Kerry. It is not only--yes, it is different. And 
there is a different mechanism to bring it to a close for the 
15 years. But even under the additional protocol, speaking to 
Senator McCain's concern about North Korea, the lesson of North 
Korea produced the additional protocol, and now there is the 
additional protocol and the modified code, which have huge new 
requirements for access.
    Senator Donnelly. Secretary Lew and maybe Secretary Kerry 
on this. One of the proposals that has been put forward is to 
say no to this deal and then to tell the other countries who 
are involved in regards to sanctions that a viable alternative 
is to simply say to France, Germany, Britain, and others, 
``Choose us or choose them as you move forward economically,'' 
that, you know, if you are going to continue to do business 
with Iran, then you can't do business with us.
    Do you see that as viable moving forward?
    Secretary Lew. Senator, we do have powerful tools that make 
it very dangerous for foreign business to violate U.S. laws. 
And if they do business and violate our sanctions, we will 
enforce.
    Whether we can do that against the whole world effectively 
without doing damage to our own economy is something that we 
have to have serious considerations about. It is one thing when 
we are taking action in concert with the world. It is another 
thing if we are standing on our own.
    So the ability of a technical sanction to work is not the 
same as it being effective or necessarily adding up to what we 
would like to accomplish.
    Senator Donnelly. Okay. Secretary Carter, have you--I know 
you are talking to the GCC countries. You have been in the 
region there.
    It seems to me that one of the challenges here is 
confidence, confidence that they will be safe, that Israel will 
be safe. That is what this comes from is making sure that your 
child can be safe and sleep safe that night. And that is what 
Mr. Netanyahu was trying to ensure, and that is what we are 
trying to ensure.
    So, as you look at it when you talk to our GCC friends and 
others, is there any putting together of a plan that says to 
Iran not one more inch? That as we move forward, you will see 
from year to year to year that in Yemen not one more inch, that 
against Hezbollah there will be massive retaliation if there is 
actions, that we will stand with the Sunni tribal leaders in 
Anbar to make sure that they have success, and we will be 
viable and strong against whatever, you know, efforts Iran has 
in Iraq.
    To lay out the plan, let people know, let Iran know in 
advance would help create, I think, a better sense of 
confidence that there is a reason--that there is a reason to 
stand with us.
    Secretary Carter. I think that is extremely important, and 
that is what the GCC countries are looking for in my 
conversations with them, namely the continued commitment of the 
United States to help them protect themselves so they can sleep 
well at night, maintain our regional role, counter Iran's 
malign influence and activities. At the same time, they 
recognize perfectly well what has been said up here, which is 
an Iran with nuclear weapons would be an enormous problem and 
are supportive of an agreement that heads that off.
    But at the same time, they want to make sure that we are 
there. That is what the GCC countries were told at Camp David 
by the President. My trip was in part to solidify all of the 
things we are doing----
    Senator Donnelly. I am just about out of time. So I just 
want to finish by saying I think it is important to publicly 
state a ``not one inch more'' policy. And then, additionally, I 
am not at all comfortable with our people who are still in 
Iran. They have to come home. I wish they had come home as part 
of this agreement, and I know you do, too.
    But this cannot rest because we don't leave anybody behind, 
and we don't intend to leave them behind either.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Secretary Moniz, I would like to follow up a little bit on 
what Senator Blumenthal was asking you about with regards to 
the breakout time. What are some of the main factors that you 
consider when you calculate that breakout time?
    Secretary Moniz. Well, the key factors are the enrichment 
capacity and the stockpile of enriched uranium. But there are 
many other factors as well which come in, such as the rate at 
which additional capacity could be built in during a breakout 
time. So all of this comes in to our National laboratory 
evaluation.
    Senator Fischer. That would include the number of 
centrifuges as well. Is that correct?
    Secretary Moniz. Correct.
    Senator Fischer. After 15 years of this agreement, what 
limits do you think will be in place on those things that you 
just mentioned?
    Secretary Moniz. Well, after 15 years, they will probably 
expand their capacity after those restraints, and that is why 
such a key element is the--are the verification measures that 
we put in place for all time, basically.
    Senator Fischer. So we are talking about tracking the 
nuclear material to make sure it is not diverted from a 
civilian program. Correct?
    Secretary Moniz. And that is 25 years, right.
    Senator Fischer. Correct. We are basically just checking 
Iran's math. Correct?
    Secretary Moniz. Checking the math? Well, no, we are 
checking our math, if you like. So the idea is to follow----
    Senator Fischer. We are checking our math.
    Secretary Moniz. And for 20 years, we follow all the 
manufacturing. So it is the supply chain that we follow. Making 
a--and our intelligence people will tell you that to actually 
reproduce the entire supply chain covertly probably in multiple 
places would be very, very difficult to conceal.
    Senator Fischer. And we are just looking at, of course, the 
declared facilities. Is that correct?
    Secretary Moniz. No. We have--we have, of course, strong 
measures in the declared facilities. But key is the undeclared 
facilities, which, by definition, ultimately rests on the 
actions of our and our allies' and friends' intelligence 
capacity.
    Senator Fischer. And do you believe--well, do you have 
confidence in that capacity that we will be able to locate any 
undeclared facilities and pressure Iran to allow us to make 
sure that we have verification in those as well?
    Secretary Moniz. Well, again, I would go back to the 
statements of General Clapper and Cardillo and Cohen. Again, 
Clapper said specifically that this will give us much greater 
insight into what they are doing. That then leads us, and other 
intelligence agencies that we work with, to point IAEA in the 
right place, and now we have a unique new tool of a finite time 
to get access to that place, or they are in material breach.
    Senator Fischer. Are you concerned at all on what I view as 
the discrepancies between statements made by our administration 
and compare those to what is being--statements being made by 
the adviser to the supreme leader when it comes to access to 
allowing the IAEA to look at the military centers in Iran?
    Where I think I believe I have heard our administration say 
that we do have access to those. They are declared facilities. 
But yet the adviser to the supreme leader says the access of 
inspectors from the IAEA or from any other body to Iran's 
military centers is forbidden. Who is correct on that?
    Secretary Moniz. Well, I think we are correct. First of 
all, I just might point out that there were many statements 
made before Lausanne, before Vienna, that you could----
    Senator Fischer. This one was made July 21st.
    Secretary Moniz. Yes, but I am saying there were many 
statements made before then, and you can check those statements 
against the agreement. They don't square up all the time, shall 
we say?
    Senator Fischer. How are you----
    Secretary Moniz. Now in terms of----
    Senator Fischer. How are you going to reconcile that?
    Secretary Moniz. In terms of the new--those statements were 
very clear. First of all, the aim is not to go to military 
sites, and by the way, it is not us, it is IAEA, of course. The 
aim is to go to where there is there suspicious or suspicion of 
nuclear-relevant activities.
    If they are in a military site, doesn't matter. There is 
still the IAEA access to those sites.
    Senator Fischer. I only have a few seconds left, but I 
would hope that you would reconcile those statements for the 
public. You have stated that----
    Secretary Moniz. We cannot control their statements.
    Senator Fischer. You have stated that the 24-day waiting 
period for international inspectors won't allow the regime to 
conceal any illegal activity. But as I read the agreement and 
many other people have pointed out, the inspectors' request to 
visit those sites could be delayed much longer than 24 days.
    I know that you are not concerned about the 24-day period. 
You believe that we would or the IAEA would be able to handle 
that. But if you look at different parts in Section Q of Annex 
1 of the agreement, I think we have the potential that we are 
looking at an 89-day delay. Do you think that would be 
possible, and how confident are you about us being able to 
inspect then?
    Secretary Moniz. No, we certainly--we certainly cannot 
allow for that. I might say I did not say any illegal activity. 
I focused specifically or especially on activity with nuclear 
material as my real focus, number one. And number two is the 
IAEA, at any sign of lack of cooperation, they have to launch 
the process with their request for access. Then comes the 24 
days.
    As I have mentioned also, there is in the unclassified 
literature an example in Iran of a 6-month delay, an attempt to 
conceal which did not work. They were caught red-handed.
    Senator Fischer. You said you wouldn't allow the 89 day. 
You just couldn't allow that. How many days after 24 days would 
you allow?
    Secretary Moniz. No, none after 24 days. It is that the 
process to launch the formal request for access from IAEA has 
got to be prompt. That launches the 24-day clock, and that is 
the end.
    Senator Fischer. You would not allow anything past that?
    Secretary Moniz. I would not.
    Senator Fischer. Thank you.
    Secretary Moniz. Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    And thank you all for joining us. Thank you for your 
intense work on this. Obviously, we all care about the National 
security of the United States and our allies.
    Secretary Moniz, you and I had a very long conversation 
about nuclear details, and what I would like you to discuss 
with the committee specifically is the nuclear capabilities 
that Iran has today are considerable, and most experts have 
given it a 2- to 3-month timeframe to have enough enriched 
uranium for one bomb.
    I would like you to talk a little bit about their nuclear 
expertise and, if left unchecked, how quickly can they ramp up 
to greater production to more highly enriched uranium if--
excluding this deal arrangement?
    And then, after you have described that, I would like you 
to describe what the ramp-up time would look like, post 8, 10, 
15 years. Because what I understand from reading the agreement 
is that you have spent a lot of time identifying what can be 
changed and modified in the three existing facilities so that 
they don't run a military risk.
    And so, I would like that more fully described, and 
obviously, and the last point I want you to address is my 
constituents are very concerned about clandestine operations. 
To the extent you can talk about this in this setting, I would 
like you to address how you detect a clandestine enrichment 
facility during the agreement.
    Secretary Moniz. Quite a few questions, Senator. In terms 
of their current capacity, well, they have again demonstrated 
the capacity to enrich uranium. That is clear. But I do want to 
emphasize that they have also demonstrated they have enriched 
to 20 percent enrichment.
    Twenty percent is the cut-off that the IAEA uses for low-
enriched and high-enriched uranium. But the point here is that 
the amount of work needed to get to 20 percent is nearly all 
the work you need to get to 90 percent, which would be weapons 
grade.
    So they have the capability, and as I have already 
mentioned, they already have full cascades running of the next 
generation five times more powerful. This agreement will have 
those dismantled at the time of implementation. So what is 
critical is we are rolling them back in every dimension of 
their program for at least a considerable period.
    Now in terms of the breakout time, again, the President was 
very clear and our P5+1 partners were very clear that a 
quantitative criterion for the negotiation was there had to be 
at least a 1-year breakout time in terms of fissile material 
for at least 10 years. We have accomplished that with this 
agreement. Our lab scientists are fully behind this, as are 
those of other countries.
    Then that will roll off and after 15 years at some point, 
depending upon what they do, then we can revert, we may revert 
to the current kinds of breakout times for fissionable 
material. We still need to keep the lid on weaponization 
activities and make sure those are not taken. And that was a 
notable improvement from Lausanne to Vienna for that.
    Senator Gillibrand. Right. So the agreements says they 
can't ever make the steps towards weaponization?
    Secretary Moniz. They can't ever make those steps, and that 
is the point where we will be much better off at that time than 
today because we will still have enhanced verification 
procedures that can point our and other intelligence agencies 
to any violations.
    Senator Gillibrand. And after modifications at Arak, is 
there any way at that you can reverse those modifications and 
make it a heavy water plutonium facility again?
    Secretary Moniz. The Arak reactor, in its redesign, would 
provide us in this language a breakout time of years.
    Senator Gillibrand. Right. So to unwind, it would be 
significant?
    Secretary Moniz. Because once it is online, they would need 
years of operation to get enough plutonium to be relevant, and 
the IAEA would detect their change of the operation within 1 or 
2 months.
    Senator Gillibrand. And with regard to Fordow, what is the 
assessment there? After modifications, if they wanted to breach 
the agreement and try to get up and running again, does that 
take a significant amount of time?
    Secretary Moniz. Well, first of all, yes. Because, first of 
all, most of the centrifuge and infrastructure will not only be 
stripped out completely, but they will not even be stored at 
Fordow. They must be taken up to Natanz.
    Second, we will have a major international not only IAEA 
daily presence, but an international presence--the Russians 
working with them on stable isotopes, new science 
opportunities. If they kick everybody out, you know----
    Senator Gillibrand. Right away?
    Secretary Moniz. The alarm bells go off.
    Senator Gillibrand. Secretary Carter, with my last few 
seconds, do our military options become marginally better or 
worse before or after the agreement?
    Secretary Carter. If the agreement is implemented, they 
become marginally better for the reason that under the 
agreement, the facilities are--we learn more about them. Many 
of them are dismantled, and so in that sense, that purely 
technical military sense, becomes somewhat easier.
    Chairman McCain. Senator Cotton?
    Senator Cotton. Thank you.
    I want to discuss the two secret side deals between the 
IAEA and Iran. I had to travel to Vienna last weekend to 
discover the existence of these side deals. The administration 
has now confirmed their existence. There is still some lack of 
clarity about their content.
    Secretary Kerry, have you read either of these two side 
deals between the IAEA and Iran?
    Secretary Kerry. No, I haven't read it.
    Senator Cotton. Have you read any previous drafts?
    Secretary Kerry. No, I haven't.
    Senator Cotton. On any form--paper, tablet, computer?
    Secretary Kerry. I have been briefed. I have been briefed 
through our team that met with the IAEA.
    Senator Cotton. Did anyone on your team read the text of 
these agreements?
    Secretary Kerry. I believe one person may have read it at 
the--at the facility but doesn't have it. They don't possess 
it.
    Senator Cotton. What is that person's name?
    Secretary Kerry. It is possible. I don't know for sure, but 
it is possible Wendy Sherman may have. But I don't know that 
for sure.
    Senator Cotton. Secretary Moniz, have you read the text of 
these agreements?
    Secretary Moniz. No, sir. I have not seen them.
    Senator Cotton. Have you read any prior version?
    Secretary Moniz. No, sir.
    Senator Cotton. On any medium--computer, tablet, phone?
    Secretary Moniz. No. No.
    Senator Cotton. Has anyone on your team at the Department 
of Energy?
    Secretary Moniz. Not--I am not sure. I don't know. I think 
not, but I am not sure about that. I can ask in terms of the 
technical team may have--maybe somebody saw something.
    Senator Cotton. Please do and get back to us.
    Secretary Moniz. Okay.
    Senator Cotton. Secretary Kerry, besides potentially Under 
Secretary Sherman, has, to your knowledge, anyone else in the 
United States Government reviewed the text of these agreements?
    Secretary Kerry. Not that I am aware of. I don't know. I 
don't think so.
    Senator Cotton. If Under Secretary Sherman has read the 
text of these agreements, even if they are not in her 
possession, does that not undercut the claims of 
confidentiality between the IAEA and Iran?
    Secretary Kerry. I don't know whether she read a summary or 
a draft, I have no idea. I said I think, and I am not sure. But 
I know she is briefing the Senate very shortly, Senator. So she 
will be briefing in a classified setting.
    Senator Cotton. I have received several classified 
briefings about the deal, and I look forward to another one. 
But what Congress would like is the text of these agreements, 
as required by U.S. law.
    Certain published reports starting--or most recently with 
the Associated Press yesterday say that the content of the side 
deal that discusses Parchin, the military base where detonators 
for nuclear devices may have been tested, will allow Iran to 
collect their own samples and submit those samples to the IAEA, 
much like an NFL [National Football League] player taking his 
own urine sample and sending it to Roger Goodell for a drug 
test.
    Can you confirm or deny that that is the content of those 
side deals?
    Secretary Kerry. I can't here in this session. But what I 
can confirm is that Secretary Moniz, in his discussions both 
with the IAEA and with the team, made recommendations to them 
and I believe is satisfied that this can--whatever the process 
is, that the process will be able to provide the answers we 
need.
    I don't know, Secretary Moniz, if you want to add anything 
to that?
    Senator Cotton. Actually, no, I would like to stick with 
you, Secretary Kerry. Why can't we confirm or deny the content 
of these agreements in public? Why is this classified? It is 
not a sensitive U.S. Government document. The ayatollahs know 
what they agreed to.
    Secretary Kerry. Because we respect the process of the 
IAEA, and we don't have their authorization to reveal what is a 
confidential agreement between them and another country.
    Senator Cotton. So the ayatollahs will know what they 
agreed to, but not the American people?
    Secretary Kerry. Well, the--no, not exactly. Because we 
will share with you in the classified briefing what we 
understand the context to be. But they negotiated the agreement 
with the IAEA.
    The IAEA is an independent entity under the United Nations, 
Senator, as I know you know. And under I don't know even at 
this point what the law says about the United States requiring 
something which another entity's laws prohibit. So we have to 
see whether that is a conflict of law or not.
    Senator Cotton. Well, U.S. law requires any deal between 
any party, not just the United States, to be submitted to 
Congress before the 60-day clock begins to tick. To the extent 
the IAEA, which I respect for the very admirable work they do, 
which is often not supported by their member states, says it is 
unprecedented, I would say this deal is without precedent. And 
past precedence with cooperative countries like South Korea 
or--I am sorry, South Africa cannot be cited.
    I would like to move on to a second topic, specifically 
Iran's support for terrorism. Could I have Chart 1, please?
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Dempsey, this chart describes a particularly 
powerful kind of roadside bomb known as an explosively formed 
penetrator. Are you familiar with what it shows?
    General Dempsey. I am, Senator.
    Senator Cotton. Could you explain exactly what the bottom 
diagram shows of how an explosively formed penetrator works?
    General Dempsey. A copper cone is melted at super high 
temperatures and projected and essentially burns its way 
through armor plate.
    Senator Cotton. The copper disk travels at about 6,000 feet 
per second.
    Could I have Chart 2, please? So we can see what happens to 
a Humvee when a ball of fire travels at 6,000 feet per second.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Dempsey, is that familiar to you?
    General Dempsey. Yes, Senator, it is.
    Senator Cotton. Do you know how many American troops were 
killed by such explosively formed penetrators?
    General Dempsey. That particular incident or in general?
    Senator Cotton. No, in general.
    General Dempsey. Several hundred.
    Senator Cotton. Was Iran a main supplier of these 
explosively formed penetrators?
    General Dempsey. Yes. Yes.
    Senator Cotton. Was Qasem Soleimani and the Quds Force and 
the Revolutionary Guard Corps the main perpetrators in Iran?
    General Dempsey. Yes.
    Senator Cotton. Secretary Kerry, those entities and Qasem 
Soleimani will ultimately receive sanctions relief from this 
deal, not necessarily from the United States Government, but 
from the United Nations and the European Union. What should we 
say to the Gold Star moms and dads of the over 500 American 
troops who were killed by an Iranian ball of fire traveling 
6,000 feet per second?
    Secretary Kerry. Well, we should tell them, obviously, 
first of all, how extraordinarily grateful we are for the 
service of their loved ones. We should also make it very, very 
clear that under the United States initiative, Qasem Soleimani 
will never be relieved of any sanctions.
    We would also tell them and lay out to them what we intend 
to do, which has not been done yet sufficiently, to push back 
against Iran's behavior, that we have a number of laws in 
place, requirements by which we will be able to prevent Iran 
from transferring these weapons.
    And we have already engaged, Senator, in very forward- 
leaning initiatives to do that. We specifically turned around a 
convoy recently in the last months that was bringing weapons to 
Yemen, and we have been crystal clear, and I will be even more 
clear when I meet with the Gulf states, about our united 
efforts to hold them accountable for these kinds of activities.
    Senator Cotton. Thank you, all. My time has expired.
    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    I would like to ask this question of all of the witnesses. 
But I would like to start with Secretary Carter and Chairman 
Dempsey.
    In your assessment and without getting into specifics which 
cannot be discussed in this open setting, is there any 
military, military strategy or response that would achieve the 
same goals as the agreement before us without embroiling the 
United States and our allies in a potentially devastating long-
term war in the region?
    And I would like a ``yes'' or ``no'' answer, given the 
setting. Starting with Secretary Carter?
    Secretary Carter. I am sorry to be difficult on that, but I 
just need to understand the question a little bit more. Do you 
mean if there is no deal, and Iran gets a nuclear weapon?
    Senator Hirono. If there no deal.
    Secretary Carter. Then we have a serious issue.
    Senator Hirono. Well, not even that----
    Secretary Carter. We don't give up at that point, but we 
would have to defend ourselves, our friends, and our allies in 
the face of that reality. Is that responsive to your question?
    Senator Hirono. Well, the reality is that without this 
agreement, Iran can produce a nuclear bomb in 2 to 3 months. 
So, without this agreement, is there any military--I will 
reiterate the question. Is there any military strategy or 
response that would achieve the same goals as this agreement? 
More yes? More no?
    Secretary Carter. I am going to have to say that there is a 
military response--maybe this is responsive to your question, 
Senator. There is a military option, which I know you have been 
briefed on, which has the effect, as I have said earlier, of 
setting back the Iranian nuclear program.
    It doesn't stop it forever, but it substantially sets it 
back. We have talked about that publicly for quite a while. We 
work on that. And so, if that is responsive to your question, 
that exists.
    Senator Hirono. But Mr. Secretary, the other part of my 
question is, though, yes, we can have a military response that 
would set them back, but would that military response involve 
us in a--basically a long-term war in that region? Would that 
be a highly likely outcome in the military?
    Secretary Carter. Iran would surely respond to such an 
attack. So in a hypothetical situation in which that occurred, 
which this deal is intended to make unnecessary, Iran could 
respond for sure.
    Senator Hirono. Chairman Dempsey?
    General Dempsey. One of my jobs, Senator, is never let the 
Nation run out of options. So we would not run out of options, 
but they would become increasingly costly, to be sure.
    Senator Hirono. And long term?
    General Dempsey. And long term.
    Senator Hirono. Yes. Secretary Kerry, would you care to 
respond and the other members of the panel?
    Secretary Kerry. Well, I think--I think General Dempsey 
answered the question earlier when he said that the deal is far 
more durable and provides a more durable option and longer 
term, a period of time where it would be much more durable than 
the military option.
    I mean, my--look, I think it is pretty clear that if Iran 
were to start enriching or move back to its program, we have no 
inspectors. We have no sanctions that are universal. The United 
States can have them, but we have already seen sanctions don't 
get them to give up the program.
    So you are stuck with a situation of what will change the 
dynamic of their program. And the fact is then you are in, as 
Secretary Carter has said and as General Dempsey has just said, 
they will respond. And then we will respond, and then it is 
back and forth.
    The question is, where does that end, and how does it end? 
And does it accomplish the goal of getting rid of their 
program? We don't believe so.
    We believe this agreement accomplishes the goal and 
provides us with the support on a continuing basis of the 
international community.
    Senator Hirono. Thank you.
    Let me go on to another question because I am running out 
of time. This is for Secretary Carter and, again, Chairman 
Dempsey. Are you contemplating any changes in our force 
posture, assuming this agreement goes into effect and stays in 
effect?
    Secretary Carter. Yes. It is a ``yes'' or ``no'' answer. 
Yes, but if I could say more----
    Senator Hirono. Well, this is not a ``yes'' or ``no'' 
answer.
    Secretary Carter. If I could say more, Senator, in all 
seriousness?
    Senator Hirono. Briefly.
    Secretary Carter. Yes. We are doing a great deal in the 
Gulf. That is what I was there talking to our Gulf partners 
about. That is what we talked about at the GCC summit a few 
months ago.
    We are doing a great deal with Israel. I mentioned missile 
defense, the F-35 qualitative military edge. So this is a 
dynamic region with or without a deal, and one that has Iran 
and other problems to boot. And so, we have to and are doing a 
lot to strengthen our posture and our alliances and 
partnerships in the region, and we will continue to do so.
    Senator Hirono. General Dempsey, would you like to weigh 
in?
    General Dempsey. With Israel, we are working on ballistic 
missile defense, maritime security, counterterrorism, and 
counter tunneling, which is a new and emerging challenge for 
the state of Israel.
    And with the GCC, it is ballistic missile defense, special 
operating forces, maritime, counterterror, and cyber.
    Senator Hirono. Thank you. Thank you, Mr. Chairman.
    Chairman McCain. I would like to tell the committee that 
the witnesses have to leave at 12:45 p.m. So the order will be 
Senator Rounds, Senator King, Senator Tillis, Senator Sullivan, 
Lee, and Graham. And no one else. I am sorry.
    So, Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service.
    Today, you have gone through 15 different interrogators. I 
get to be number 16. One of the things that happens when you 
are number 16 is a lot of the questions that you have got have 
been asked. But it also gives you an opportunity to try to 
analyze and see just exactly what it is all about and what the 
real issues are, and I would like to just begin with this.
    It seems to me that one of the concerns that we have is, is 
if we assume that we have a rogue nation who is a threshold 
state today with regard to nuclear weapons, the goal of this 
was to eliminate them from having nuclear weapons or, in the 
second position, to delay the implementation or their 
capabilities with regard to nuclear weapons.
    I would like to know from the panel, and it is very simple, 
are we stopping them from getting nuclear weapons, or are we 
delaying them for a period of 10 to 15 years from getting 
nuclear weapons? In your opinion, General?
    General Dempsey. Well, my opinion, sir, our Government's 
policy has been they will not get a nuclear weapon, and nothing 
we are talking about here today should change that policy.
    Senator Rounds. Mr. Moniz?
    Secretary Moniz. I agree with General Dempsey, and in terms 
of our capabilities to make sure that they are not pursuing a 
nuclear weapon, this agreement will leave us better off with 
the agreement than without the agreement forever.
    Senator Rounds. Mr. Carter, Secretary Carter?
    Secretary Carter. I concur with those two.
    Secretary Lew. Senator, I have worn many hats in this 
administration. In each one, I have said Iran will not be 
permitted to get a nuclear weapon. I believe that deeply.
    Senator Rounds. Secretary Kerry?
    Secretary Kerry. And I agree. The President's policy is 
they won't get it. There is no--if they were to try to not 
implement this agreement or the implementation is not full, the 
other options are still available to us. They will not get a 
weapon.
    Secretary Moniz. So, if I may?
    Senator Rounds. Yes.
    Secretary Moniz. Just one note just to say that, in 
addition, I think it is significant that the agreement codifies 
with the P5+1 that Iran will never get a nuclear weapon.
    Senator Rounds. And yet here is my question then, 
gentlemen. It appears to me that in each time I have heard the 
discussion comes back down to for a period of 10 years, we have 
something in terms of the agreement that restricts them. But 
somewhere between 10 and 15 years we change, and that during 
that time period, they can begin because there is nothing in 
the agreement which stops them from moving back into and adding 
to their nuclear capabilities.
    If they are a threshold state today and if we have delayed 
them, that is one thing. But if, at the end of this time 
period, they may freely pursue nuclear options, then I think 
that is really the gist that we are trying to decide.
    But along that line, and General Dempsey, I appreciated 
your thoughts here earlier when you said that you were 
pragmatic with regards to your comments. It seems to me that we 
had an embargo, which was in place, which many of us were 
relying on when it came to both an arms embargo and also with 
regard to ICBMs. You indicated that just matter of fact on July 
7th of this year, you have heard it earlier, your quote was, 
``Under no circumstances should we relieve pressure on Iran 
relative to ballistic missile capabilities and arms 
trafficking.''
    Secretary Carter said, ``The reason that we want to stop 
Iran from having an ICBM program is that the ``I'' in ICBM 
stands for ``intercontinental,'' which means having the 
capability to fly from Iran to the United States, and we don't 
want that.''
    Secretary Kerry indicated that there were other ways in 
which we could handle the situation. If we had an embargo in 
place and we had concerns about this, what is the purpose for 
the embargo if we had other means in the first place?
    General, clearly, this--seems to me that you were pretty 
clear that this was not exactly the kind of advice that you 
were suggesting that they allow this to come out?
    General Dempsey. Well, as I have said, Senator, I would 
have been happy to see the embargos maintained in perpetuity. I 
think the question would have to be asked, were they likely to 
be sustained in perpetuity, given that they were imposed to 
bring Iran to the table? Once Iran came to the table, it then 
became truly a negotiation.
    And sanctions are only one way to keep pressure on those 
other malign activities. We have other instruments and other 
military options to pursue.
    Secretary Kerry. Senator, if I could add to that? We--
obviously, all of us would prefer have it there forever and 
ever. The problem is we are dealing with a U.N. resolution, the 
nuclear resolution, 1929, which said that the Iranians, if they 
come to negotiate and suspend, then all the sanctions would be 
lifted. That was what was contemplated by the empowering 
resolution here.
    Now the arms embargo was slid in at the very last minute by 
then-U.N. Permanent Representative Susan Rice. She got it in, 
and it really sort of slid into the nuclear provision itself.
    But under the nuclear provision, at the end of a period of 
time, when the IAEA would draw its broad conclusion, this would 
have been lifted completely anyway, and we had no power to stop 
that. So, in effect, our getting the 8 years was a victory. Our 
getting the 5 years was a victory. But we have these other 
tools that completely strengthen our ability to do it in 
perpetuity.
    Senator Rounds. Secretary Carter, would you say that the--
that today Iran does not have the capability of getting ICBM 
and that 10 years from now, based upon the provisions in place 
without the embargo, that they would still not be able to have 
an ICBM?
    Secretary Carter. They don't have an ICBM today. I wouldn't 
rule out that in 10 years Iran could progress to an ICBM. We 
have seen in North Korea develop and test missiles of 
increasing range, and they can do that on their own, as the 
North Koreans have done without a lot of external help.
    Now that doesn't mean they would, and that is not a crystal 
ball of the future. But judging from principally the experience 
with North Korea, you can't rule that out, and that is why we 
need to protect ourselves, whichever, whatever happens with the 
nuclear agreement, protect ourselves with missile defenses, 
with the other statutory and other international agreement 
protections that we have, deterrence and everything else.
    Chairman McCain. Senator King? Your time has expired, 
Senator.
    Senator King? And I would ask the Senators to respect the 
time limit.
    Senator King. You heard the chairman. We are going to try 
to go through some of these questions as quickly as possible.
    Secretary Lew, what would the allies' reaction be in terms 
of the sanctions if the U.S. rejected this agreement?
    Secretary Lew. Senator, I think that they have made clear 
that they think the agreement should be put into force. I don't 
want to speak for any of them, but they are already taking 
actions to show that they are beginning to deal with Iran in a 
different way.
    The vice chancellor of Germany was over there with a group 
of business people. There is a French delegation over there. I 
think that, you know, they are going to take a very dim view of 
our rejecting this agreement.
    On the other hand, I do believe they respect our unilateral 
sanctions. They fear them, and that will put them in a very 
difficult bind. But I don't think that we will have as much 
capacity to bring the world community together in that 
situation as we have had up until now.
    Senator King. And I suspect the reaction would be different 
among--China and Russia may have a different reaction than 
Germany?
    Secretary Lew. Yes. And I think if you look at like the 
developing countries, countries like India, they are not in the 
P5+1. And I just pick them because they are a big economy that 
is dependent on oil imports.
    We have had a sustained diplomatic engagement with many 
countries to keep them in line with our oil sanctions. That 
will get harder and harder if they see the rest of the world 
going another way. They are going to look and ask how much 
capacity do we have to take enforcement actions? Can they find 
ways around them?
    And ultimately, they will start doing business more and 
more in other countries.
    Senator King. Would it be fair to say that the sanctions 
regime would fray, if not unravel?
    Secretary Lew. I think that is fair. I have been trying to 
be measured.
    Senator King. Erode?
    Secretary Lew. Yes, I have been trying to be measured 
because I don't believe it is black and white. I think it would 
start to fray, yes.
    Senator King. I appreciate that. Secretary Carter, you just 
visited the Middle East. Is the danger of proliferation greater 
or lesser as a result of this agreement? In other words, are 
the allies or some of our allies in that region who may think 
about their own weapon, are they less likely to acquire a 
weapon because of this agreement or more likely?
    Secretary Carter. Well, I think logic would suggest that if 
the agreement is implemented, meaning that Iran doesn't have a 
nuclear weapon, that it is less likely that other states in the 
region get a nuclear weapon.
    Senator King. Mr. Moniz, I know we are going to have a lot 
of time to talk about this, but there has been all this 
discussion about the secret agreement. It is true, is it not, 
that this agreement between the IAEA and Iran applies to the 
past--the past actions of Iran with regard to nuclear weapons 
at Parchin and other places but does not apply to future 
inspections?
    We know what the future inspection regime is going to be in 
order to implement this agreement. Is that correct?
    Secretary Moniz. That is correct. Again, what the JCPOA 
accomplished is forcing Iran to cooperate with IAEA to finish 
the examination of past behavior.
    Senator King. So the so-called ``secret agreement'' is for 
a small part of this deal, but it is not the essence of it, 
which is the inspections and verification of Iran's compliance 
from today forward?
    Secretary Moniz. That is correct, yes.
    Senator King. And finally, in 28 seconds, this famous 24 
days. Is there any way that they could clean up a facility 
where they had been processing fissile material sufficiently 
that it could not be discovered if the inspection took place 
after 24 days?
    Secretary Moniz. Well, you know, I can never say 0.00 
percent, but--but with very, very high confidence, I think we 
would find nuclear material utilization evidence. Certainly the 
risk of getting caught would be extremely high.
    Senator King. Thank you.
    Chairman McCain. Senator Tillis?
    Senator Tillis. Thank you, Mr. Chair.
    I hope that--I want to get back to, and Chairman Dempsey, I 
will start with you. But I want to go back to what you said, I 
think, in one of your responses to the malign activities that I 
believe that Secretary Carter in response to a question says he 
has no reason to believe that they will change.
    That is the Iran terror network. That is their increasing 
threat in terms of cyberterrorism. It is their ballistic 
missile program. It is their weapons trafficking. We could get 
into human rights violations, all the other things they are 
guilty of. We could get into an ayatollah sending a tweet out 
that has the image of some have said it is the President, some 
says it is an American. It is someone wearing an American lapel 
pin.
    These people are evil people, and they are going to 
continue to expand in the areas where they think they can. They 
are people who have violated 27 international agreements or 
treaties.
    They have violated some of the terms of the 
Nonproliferation Treaty. Some of that language is similar, as I 
understand, in the agreement that we have here today.
    So they are a dangerous--they are dangerous. I understand 
why you would be concerned with the nuclear threat because it 
could limit other military options if it existed.
    So my question is if this deal goes through, what does our 
posture look like in the Middle East and with our partners over 
the next 2 years? What looks measurably different to make us 
feel like we are in a position to make it untenable to the 
Iranian leadership to move forward with a nuclear weapon?
    General Dempsey. Senator, first, I do want to highlight the 
fact that when we talk about Iran, it is really the regime, and 
I know you know that.
    Senator Tillis. There is no doubt about it. It is not about 
the Iranian people.
    General Dempsey. It is not the Iranian people. It is Qasem 
Soleimani, the IRGC [Iranian Revolutionary Guard Corps], Quds 
Force, and their leadership. The Iranian people, there is some 
reason to hope that this would actually cause them to 
understand that there is a place for them in the international 
community.
    But how does our posture change? Our posture changes on the 
basis of these areas on which we have agreed to work with our 
partners, both Israel and the GCC nations. And we are very 
muscular. We have a muscular posture in the region right now.
    For the most part, it will stay the same, but it may shift 
its activities a bit.
    Senator Tillis. Secretary Carter or Chairman Dempsey, I am 
trying to get my hands around the thought process that would 
make the Saudis less likely to acquire a nuclear weapon, 
probably acquire a nuclear weapon most likely from Pakistan, a 
warhead, and a ballistic missile from China that is capable of 
delivering a Pakistani warhead.
    Why would any of the leadership in Saudi Arabia, and then 
as a result of that, you only need one to spark other nuclear 
proliferation. Why on earth, if we are talking about a nation 
that has violated a number of treaties and agreements, the 
possibility that that could occur and a nation having to be 
prepared to have their own deterrent, where is the logic in 
this agreement preventing them from going ahead and moving 
forward and having that capability themselves?
    Secretary Carter. Well, the agreement doesn't limit what 
anybody else does.
    Senator Tillis. Yes, I agree with you. I am saying why 
wouldn't they?
    Secretary Carter. The logic--I can't speak for any of those 
countries, but the logic is that if Iran is effectively 
prevented from having a nuclear weapon, which is the purpose of 
this, then that cause at least for a Saudi Arabia or an Egypt 
or a Turkey to get their own nuclear weapon is removed, and 
logic would suggest that. I can't speak for the psychology, but 
that is what logic would suggest.
    With respect to Iranian behavior, I mean, this comes down 
to a question of managing that risk because we see exactly what 
Iran's--they say what at least the leadership is thinking. And 
the point is that it is better if they don't have a nuclear 
weapon than if they do.
    This is an effective way of making sure that they don't 
have a nuclear weapon. It does not eliminate all risk, 
especially with Iran.
    Senator Tillis. Thank you.
    Chairman McCain. Senator Heinrich?
    Senator Heinrich. Thank you, Mr. Chair.
    Secretary Carter, some have suggested that military strikes 
against Iran could be both quick and effective, without 
acknowledging the costs and consequences and risks that that 
might entail. Could you talk a little bit about what the 
primary risks, both to the U.S. and to our allies, would be if 
we had to take that course of action?
    And could you speak to what would set Iran's nuclear 
program back further, a military strike or this accord in terms 
of timeline?
    Secretary Carter. Well, speaking now just very generally 
and not specifically, the two things that make the successful 
implementation of the agreement preferable from that point of 
view to a strike is that the effects of a strike are temporary. 
And second, that Iran would, as I said earlier, respond to an 
American military strike upon Iran, and one needs to think 
through then what the subsequent steps are, including the 
possibility that Iran, at that point, would become 
irreconcilably committed to getting a nuclear weapon.
    Now I say that is predicated on the effective 
implementation of this agreement. And effectively implemented, 
the agreement stops Iran from getting a nuclear weapon not just 
for 10 years and not just for 15 years, but by dint of the 
provision Secretary Moniz was talking about, way beyond that. 
So we are comparing that situation, which is effective 
implementation, complete implementation of this agreement, to 
the military option.
    Now we also have to recognize that there may not be 
effective implementation of this agreement. We have to 
recognize there may not be any agreement and so forth, and that 
is why we are under instructions from the President to preserve 
and, indeed, we are improving--and I can't go into that here--
the military option.
    Because temporary as it is and so forth, it needs to be 
there because that is our fallback if it is the only path left.
    Senator Heinrich. Since we are pursuing this accord, under 
this accord, do you think that that option gets more effective 
and stronger or less effective over the course of 
implementation of this deal?
    Secretary Carter. As I indicated earlier, from a purely 
technical and military point of view, it gets marginally more 
effective, and the reason for that is that we have a more 
complete understanding of where everything is that could be 
associated with their nuclear program that we might strike and 
have more detail about the nature of those things. And so, it 
just follows that we----
    Senator Heinrich. That makes perfect sense. Secretary 
Moniz, I want to get you because I don't have a lot of time 
left. But can you talk a little bit, from the point of view of 
a nuclear physicist, about why it is so difficult to--if you 
have a covert facility where enrichment occurs, why it is so 
hard to sort of clean up the signs of having uranium or, for 
that matter, plutonium at a facility like that?
    And would you answer the question, would an undeclared 
facility itself be a violation of the JCPOA?
    Secretary Moniz. Well, on the second part, absolutely an 
undeclared facility would be--would be a violation, and I 
think, frankly, a stern response would be in order.
    With regard to the cover-up, there is not too much we can 
say here in public. But just to say that the dealing with 
nuclear materials, whether it is enrichment or looking at the 
characteristics of uranium in an explosive situation, for 
example, would tend to leave lots of very, very small 
particles, difficult to clean up. But beyond that, we could 
talk in a classified environment.
    Senator Heinrich. Thank you both very much.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    You know, one of the frustrations that you are seeing here 
with the Congress is we are reading it. We are digging into it. 
And yet when we have questions, looking at the language, we 
seem to get these spin answers that don't seem to comport with 
the language.
    So, Secretary Lew, Secretary Kerry, I want to go back to 
the snapback provision. But is there a term called ``the 
snapback provision'' in the agreement?
    Secretary Kerry. I don't think it is specifically referred 
to as such.
    Senator Sullivan. No, there isn't. The word ``snapback'' is 
not in the agreement.
    Secretary Lew. No, but it is created by the----
    Senator Sullivan. Let me let me make my point, Mr. 
Secretary. I got a lot of questions, and I don't have a lot of 
time.
    I think it would be helpful if you didn't use that term 
much. It is not in the agreement. I think, in some ways, it is 
deceitful because it is an illusion. And I think that, in many 
ways, the provision in the agreement--and I will have my 
question--the snapback is actually more focused on the United 
States than it is Iran.
    And as you know, Mr. Secretary, those of us who were 
involved, I was, in the Bush administration with getting 
countries to actually economically isolate Iran, we used a lot 
of leverage. We did use leverage with countries, saying, hey, 
you either are going to be in their market or ours. And that 
was effective.
    But it goes to this idea if there is some kind of snapback, 
that was a slog. That wasn't a snap. That took years to get 
countries to divest out of the Iranian economy. It will take 
years to do it again.
    But let me ask a hypothetical. It was actually a question I 
asked during the closed hearing. A number of Senators, 
Republicans and Democrats, were not satisfied with the answer, 
and it focuses a little bit on what Senator Ayotte said.
    So let us assume sanctions are lifted. We get the, 
whatever, $60 billion--the Iranians are looking for $120 
billion of additional investment. So that is on top of what we 
would have in terms of whether it is $59 billion or $60 
billion.
    No violations of the agreement. The economy is humming 
along. There is an act of terrorism. By the way, the sanctions 
that are lifted are Annex 2, which is essentially all our 
bullets. This is a lot of American power, including the 
unilateral sanctions that you mentioned, Secretary Lew, on the 
financial system.
    An act of terrorism happens. It is big. They kill more 
American troops. They blow up a consulate. It is likely. I 
think it is likely that they are going to do that in the next 
10 years.
    The Congress is upset. The new President is upset. We 
impose sanctions. We reimpose Annex 2 sanctions. This is our 
power.
    And Mr. Secretary, Secretary Lew, I am glad that you have 
talked about how this is power. We do have a lot of unilateral 
power with regard to sanctions. So then Iran cites paragraph 26 
of the agreement, and I am going to read it.
    It says, ``Iran will treat such a reintroduction or 
reimposition of sanctions as grounds to cease performing its 
commitments.'' Deal is over.
    They are cranking. Their economy is cranking. We just 
sanction them for terrorism with these sanctions, and they can 
walk. They can legally walk from this agreement.
    So let me ask you this. If we ever, ever impose so- called 
snapback sanctions, isn't the deal over? Where am I wrong on 
that question?
    Secretary Lew. Well, Senator, we would snap sanctions back 
once they violated the agreement.
    Senator Sullivan. No, no. I am talking about--no, no. I am 
not talking about a violation of the agreement.
    Secretary Lew. Let us talk about two different about two 
different worlds. One, they violate----
    Senator Sullivan. Answer the question. You didn't answer it 
in the closed setting. You are not answering it now.
    Secretary Lew. You asked two questions. I was answering the 
first one. I was just taking them in order.
    The first set of questions you asked was about the 
snapback, does it work? Yes, it works because if they violate 
the agreement, our unilateral sanctions, we can do. As you 
know, I have the authority to put those back into place. The 
U.N. sanctions were structured so they will go back into place.
    Senator Sullivan. And they can walk.
    Secretary Lew. No. That is if they violate the nuclear 
agreement. So scenario one is they violate the nuclear 
agreement.
    Scenario two, they blow up some facility. They take an act 
of terrorism. They do something non-nuclear. We have the right 
to put these kinds of measures in place. They are not nuclear 
sanctions at that point. They are terrorism sanctions at that 
point.
    Senator Sullivan. Iran has stated that it will treat such 
reintroduction, reimposition of the sanctions in Annex 2----
    Secretary Lew. But, Senator, it is not----
    Senator Sullivan.--in Annex 2 as grounds to cease 
performing its commitments. How am I not reading that 
correctly?
    Secretary Lew. Sir, Annex 2 illustrates, lists the nuclear 
sanctions----
    Chairman McCain. The Senator's time has expired.
    Senator Sullivan. I know what is in Annex 2. It is huge.
    Secretary Lew. Right.
    Senator Sullivan. The Senator's time has expired.
    Secretary Lew. And I am happy to pursue this in greater 
detail. It is an important issue, but we have not given away 
our ability to put these kinds of measures in place for non-
nuclear purposes, provided they comply with the nuclear 
agreement.
    If they don't live with the nuclear agreement, they go back 
for violation of the nuclear agreement.
    Senator Sullivan. I think the Iranians have a different 
view.
    Chairman McCain. Senator Lee?
    Senator Lee. Thank you, Mr. Chairman.
    I have got a number of questions regarding the military 
implications of this deal. There is one other issue I want to 
follow up on, though.
    Secretary Kerry, why isn't this a treaty? And as a treaty, 
why isn't it subject to advice and consent with two-thirds of 
the Senate concurring?
    Secretary Kerry. Well, there are many reasons why, Senator, 
not the least of which is that we don't have diplomatic 
relations with Iran. This is a situation with a multilateral 
agreement with many countries, and you don't normally negotiate 
a treaty in that kind of context. So it is a political 
agreement, and we believe that the leverages that are in it 
through the snapback of sanctions, through the oversight and 
the inspections are very powerful incentives for Iran's 
compliance.
    Senator Lee. Okay. I would note that there is nothing in 
Article II, Section 2 that limits the definition of treaty 
along the lines of what you described. And in fact, nothing in 
your definition of the term ``treaty'' on the State 
Department's own Web site limits it that way, and it defines 
``treaty'' as ``a formal written agreement between sovereign 
states or between states and international organizations.''
    It doesn't limit it to the fact that it has to be between 
two. I don't think that is an adequate answer, but we will move 
on.
    General Dempsey, presumably, one of the weapon systems that 
Iran is likely to acquire and that Russia has indicated a 
willingness to sell would be an advanced air defense system. 
Can you describe for us what kind of impact this might have on 
U.S. military operations? For example, a hostage rescue 
operation, reconnaissance operations, and so forth?
    General Dempsey. Yes, there is no question, Senator, it 
would make application of the military option to reduce their 
nuclear capability more difficult and--but not impossible. But 
more difficult.
    Senator Lee. Thank you.
    Now Wendy Sherman, the chief negotiator for the United 
States during these talks, stated in February of last year, of 
2014, to the Senate Foreign Relations Committee that Iranian 
ballistic missiles were ``indeed going to be part of something 
that would have to be addressed as part of the comprehensive 
agreement.''
    Now, Secretary Kerry, at that time, was Secretary Sherman 
referring to lifting the U.N. embargo on ballistic technology 
when she made this statement to the Foreign Relations 
Committee, or did the United States intend to include 
restrictions on ballistic missiles in this agreement?
    Secretary Kerry. Well, it does include. In fact, it is 
under Chapter 7 and enforceable therefore under the United 
Nations Article 41. And there are restrictions within this 
agreement.
    And I would also comment on the earlier question that the 
defensive weapons are not covered by the embargo. So the S-300, 
for instance, from Russia is not covered anyway.
    Senator Lee. I do have to ask you another question, 
Secretary Kerry. Given the fact that one of the problems that 
we have got with Iran, one of the reasons why we are so 
concerned about Iran getting nuclear weapons has to do with the 
fact that this is a roguish state, a state that has made not 
only threats, but taken aggressive actions toward the United 
States and her allies.
    It has taken--made threats to wipe Israel off the map, for 
example. There are real reasons why we don't want them getting 
nuclear arms.
    In light of the fact that that is the biggest reason why we 
are so concerned, why we are willing to enter into negotiations 
to possibly lift sanctions against Iran, giving Iran a big 
economic benefit, why, why on earth didn't we insist as a 
condition precedent to getting any deal at all that Iran, for 
the love of God, cease and desist from its terrorist ambitions, 
cease and desist from making comments like that it wants to 
wipe Israel off the map, cease and desist from undertaking and 
funding acts of terrorism against the United States and her 
allies?
    Secretary Kerry. Well, as was mentioned earlier, look, it 
would be great and ideal if one could negotiate that. I am not 
sure how long it would take. And given the imperatives that we 
had with respect to Iran's 19,000 centrifuges, 12,000 kilograms 
of weapons fissile material equal to 10 to 12 bombs already, 
their mastering of the fuel cycle, and their near imminent 
finishing of the Arak reactor, which would have produced 
weapons-grade plutonium at the rate of two weapons a year, we 
felt that we had to keep this targeted on the greatest threat 
of all that you have just defined, which is the potential of 
their having a nuclear weapon.
    And if, indeed, they are meaning to translate their slogans 
of ``death to America, death to Israel'' into policy, then 
getting rid of the nuclear weapon is everybody's first 
imperative here. So that is what we focused on because we knew 
that you could get tangled up. Our definition, you know, one 
man's freedom fighter is another man's terrorist.
    You can be fighting forever on the issue of Sunni, Shia, 
definitions of who is protecting whom, and you won't get 
anywhere. You literally will not get there. That is why we 
separated those activities.
    Now that does not----
    Chairman McCain. Senator Manchin?
    Secretary Kerry. That does not reduce our commitment, as we 
have defined here again and again, to push back on every one of 
those activities. But it is easier to push back against an Iran 
that doesn't have a nuclear weapon than one that does.
    Chairman McCain. Senator Manchin has one question, I 
believe?
    Senator Manchin. I just have one. Yes, one question very 
quick.
    I read--and I just want to go over this and just any 
reaction you may have. Fareed Zakaria wrote, and I read this in 
my local paper back home.
    ``Let us imagine the opponents of the nuclear agreement 
with Iran get their way. The United States Congress kills it. 
What is the most likely consequence? Within 1 year, Iran would 
have more than 25,000 centrifuges. Its breakout time would 
shrink to mere weeks, and the sanction against it would 
crumble. How is this in America's national interest, Israel's 
or Saudi Arabia's or any of the people in that area?''
    And they say it is not a plausible scenario. In 2005, three 
European powers rejected a nuclear deal with Iran with 2 years 
of negotiation. So all I would ask is if this does collapse, 
does it put them on an accelerated--with their intentions being 
shown already, does it put them on an accelerated path? And I 
think maybe it might be----
    Secretary Kerry. Well, we believe so. The President 
believes it. Our intel community believes it. Our intel 
community has made it very clear to us what--that there is no 
return to negotiations with this ayatollah and that they will 
then believe we have given them the reason that they have to 
develop a nuclear weapon.
    Senator Manchin. Well, let me just say----
    Secretary Kerry. Because we won't deal in good faith.
    Senator Manchin. John--I'm sorry, Secretary. Between 
November 2012 and 2013, even when we had the noose around their 
neck, they still produced 6,000 more centrifuges. So their 
determination is to do it no matter how much we have them 
strangled. Correct?
    And Secretary Moniz, have you all followed that as far as--
--
    Secretary Moniz. That is quite correct, yes.
    Senator Manchin. So they are determined. They are going to 
move forward?
    Secretary Moniz. Absolutely. They have declared they would 
go to hundreds of thousands of SWU [Separative Work Unit] 
versus the current 20,000----
    Senator Manchin. And you believe in the heart of hearts and 
deep in your soul----
    Chairman McCain. The one question is now expired.
    Senator Graham?
    Senator Manchin. Thank you, sir.
    Senator Graham. Thank you.
    General Dempsey, do you believe the Iranians have been 
trying to build a bomb or a nuclear power program for peaceful 
purposes all of these years?
    General Dempsey. I believe they have a militarization 
aspiration.
    Senator Graham. Who is the commander-in-chief of the 
Iranian armed forces, Secretary Carter? Who calls the shots?
    Secretary Carter. The supreme leader.
    Senator Graham. Who decides if Iran goes to war? The 
supreme leader, right?
    Secretary Carter. I believe so, yes.
    Senator Graham. Who decides if they try to break out, the 
supreme leader?
    Secretary Carter. Yes.
    Senator Graham. Does the supreme leader's religious views 
compel him over time to destroy Israel and attack America?
    Secretary Carter. I don't know. I don't know the man. I 
only----
    Senator Graham. Well, let me tell you, I do.
    Secretary Carter.--read what he says. I read what he says.
    Senator Graham. I know the man. I know what he wants. And 
if you don't know that, this is not a good deal.
    Could we win a war with Iran? Who wins the war between us 
and Iran? Who wins? Do you have any doubt who wins?
    Secretary Carter. No. The United States wins a war.
    Senator Graham. We win. Is it your testimony here that 
Saudi Arabia is okay with this deal, and they have committed to 
you they are not going to feel compelled to get a bomb because 
of this deal?
    Secretary Carter. No. My testimony is that I can't speak 
for Saudi Arabia. I have spoken to Saudi Arabia.
    Senator Graham. Well, you have spoken for Saudi Arabia all 
over the American media, reassuring everybody on this committee 
they are okay.
    Secretary Carter. I reported what they said. So----
    Senator Graham. Well, you think they were lying to you?
    Secretary Carter. Of course not. Of course not.
    Senator Graham. Or do you think they would want weapons? Do 
you think they were telling you what you wanted to hear to give 
them weapons?
    Secretary Carter. I only could say what they said. This is 
a little bit like what is the ayatollah thinking? I only read 
what he says.
    Senator Graham. Yes, okay. Fine.
    Secretary Carter. And I just take it at face value.
    Senator Graham. Who is your counterpart, Mr. Moniz? What is 
his name?
    Secretary Moniz. Mr. Salehi.
    Senator Graham. Have you read what he said on July 22nd, 
according to Middle East Media Research Institute, about the 
side deal? He said, let us see, ``We have reached an 
understanding with the IAEA. God willing, there will be very 
positive results. We do not accept the PMD [Previous Military 
Dimensions] arrangement. We don't agree with that, and we 
reject the concept.''
    What kind of arrangement has he made to make him feel so 
positive?
    Secretary Moniz. First of all, I had not read it. That is 
the first question----
    Senator Graham. I am going to give it to you.
    Secretary Moniz. Second----
    Senator Graham. You don't have to answer. Would it be 
surprising to you that he is telling the Iranian people don't 
worry about this side deal. We are going to get a good outcome?
    Secretary Moniz. I assume what he is suggesting is that----
    Senator Graham. Well, if you didn't know about it----
    Secretary Moniz. Is that there were no nuclear materials in 
Parchin, and that remains to be seen. That is my assumption, 
but I don't know.
    Senator Graham. I assumed that he is saying that we have 
reached an arrangement that we are okay with. That is what I 
assume, but the difference does matter.
    Secretary Moniz. I would read it differently just from 
hearing it.
    Senator Graham. Okay. Well, we don't know what he means. 
And apparently, we don't know what the ayatollah wants. I know 
what he means. He means he has reached an agreement where they 
don't have to worry about an inspection, and I think the 
ayatollah will eventually acquire a nuclear weapon unless 
somebody stops him.
    Do our allies in Israel, across all party lines, believe 
this is a bad deal, Secretary Kerry?
    Secretary Kerry. No. Not everybody believes it is a bad 
deal.
    Senator Graham. Name one political party in Israel.
    Secretary Kerry. Oh, political party? I am sorry.
    Senator Graham. Yes, people who are actually governing the 
country. Name one political party in Israel that is for this 
deal.
    Secretary Kerry. I didn't hear you say political party.
    Senator Graham. I am sorry. I----
    Secretary Kerry. Political parties are opposed.
    Senator Graham. Every political party in Israel is opposed 
to this deal. So when you speak about Israel in this deal, it 
is not BiBi [Netanyahu], it is everybody.
    Thank you.
    Secretary Kerry. No, Senator, it is not.
    Chairman McCain. The Senator's time has----
    Secretary Kerry. It is actually not everybody. Ami Ayalon, 
the former head of Shin Bet----
    Senator Graham. Not a political party.
    Secretary Kerry. No, but you said everybody in Israel.
    Chairman McCain. The time has expired. I don't think we--
Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. I would ask that your 
answers be brief because my time is limited.
    General Soleimani, the head of the al-Quds Forces, has more 
blood of American service members on his hands than any living 
terrorist. Under this agreement, the sanctions on General 
Soleimani are lifted.
    Now Secretary Kerry said to the families of those men and 
women who gave their lives, who were killed by General 
Soleimani we should apologize.
    Secretary Kerry. I never said we should apologize.
    Senator Cruz. Secretary Carter, I understand that the Joint 
Personnel Recovery Agency has a classified list of roughly 500 
American soldiers who were murdered by Iranian IEDs [improvised 
explosive devices]. I would ask, Secretary Carter, so that we 
can do what Secretary Kerry suggested, that the Defense 
Department release that list to every member of this committee, 
declassify that list and release it directly to the service 
members' families who were murdered by General Soleimani.
    Secretary Carter. Well, let me look into that, and I will 
get back to you, Senator.
    Secretary Kerry. Senator, I never said the word 
``apology.'' I never mentioned apologize. I said we should 
thank them for their extraordinary service. I never said a word 
``apologize.'' Please, don't distort my words.
    Senator Cruz. Secretary Kerry, it is duly noted that you do 
not apologize to the families of the service members who were 
murdered by the Iranian military.
    Secretary Kerry. That is not what I said, Senator.
    Senator Cruz. Do you apologize or not? I don't want to put 
words in your mouth. So which one is it?
    Secretary Kerry. I thank them. I thank them for their 
extraordinary service, and I would remind them that the United 
States of America will never take the sanctions off Qasem 
Soleimani.
    Senator Cruz. Sir, I just want clarity. Do you apologize or 
not? Because you wanted to clarify that point.
    Secretary Kerry. I said we thank them for their service, 
but we will not take the sanctions off Qasem Soleimani.
    Senator Cruz. All right. Secretary Moniz, I want to turn to 
a different question. The single greatest threat to the United 
States if Iran acquires a nuclear weapon is that of an 
electromagnetic pulse, a nuclear weapon detonated in the 
atmosphere over the Eastern Seaboard that could kill tens of 
millions of Americans.
    On July 23rd in testimony before Congress, you told the 
United States Senate you hadn't read the congressionally 
mandated commission on EMPs [electromagnetic pulses] and that 
you didn't know what an EMP was.
    Secretary Moniz. That is incorrect. I said I did not know 
this 2008 report recommendations. I said I was quite familiar 
with the issue, and we all know about EMPs from airburst 
nuclear weapons.
    Senator Cruz. Secretary Moniz, let me read the testimony 
verbatim so that I don't mischaracterize you.
    ``Senator Johnson--'' Let me--sir, let me read what you 
said.
    Secretary Moniz. Please.
    Senator Cruz. ``Senator Johnson: Are you familiar with the 
EMPs commission's 2008 report?''
    ``No, I am not, sir.''
    ``You are not? Do you know--do you know what an EMP is?''
    ``You will have to explain it to me, please.''
    Secretary Moniz. What?
    Senator Cruz. I find that stunning. This is testimony. You 
can read the record.
    Secretary Moniz. That was about the report. If you read 
further in the testimony, you will see my explicit statement. 
Of course, I know about the issue. I happen to know something 
about nuclear weapons. I know about EMPs. I know about various 
actions----
    Senator Cruz. Do you agree that an EMP detonated by Iran in 
the atmosphere could kill tens of millions of Americans?
    Secretary Moniz. An EMP detonated by anyone obviously is a 
very potent weapon.
    Senator Cruz. It could kill tens of millions of Americans. 
Do you agree with that?
    Secretary Moniz. That would depend, obviously, on the 
specifics of the case.
    Senator Cruz. But do you agree that it could?
    Secretary Moniz. It depends upon the specifics. These are 
highly variable.
    Senator Cruz. Does that mean, yes, it could?
    Secretary Moniz. I said it is highly variable in its 
impact.
    Senator Cruz. Okay. You are refusing to answer the 
question.
    Secretary Carter, is it correct that Iran is the leading 
state sponsor of terrorism in the world?
    Secretary Carter. I was asked before, and I believe that is 
true, yes.
    Senator Cruz. Do you have any doubt whatsoever if in excess 
of $100 billion goes to Iran that some of that money will go to 
jihadists who will use it to murder Americans?
    Secretary Carter. I can't say that. I can say that their 
malign activities about which we are extremely concerned are 
quite well funded today.
    Senator Cruz. Okay. But finally, because I just have a 
second left----
    Secretary Carter. And it is those malign activities and the 
rest of the conduct that makes it so important that they not 
also have a nuclear weapon.
    Senator Cruz. Finally, because I just have a second left, 
Secretary Kerry, you told Senator Lee that this was not a 
treaty because we don't have diplomatic relations with Iran. I 
would note that is directly contrary to the testimony you gave 
yesterday to the House.
    Secretary Kerry. No, it is----
    Senator Cruz. When you were asked--when you were asked why 
is this not considered a treaty? And I will read your answer 
verbatim.
    ``Well, Congressman, I spent quite a few years----''
    Secretary Kerry. Senator, I know what I----
    Senator Cruz. Sir, let me ask the question.
    Secretary Kerry. You are not reading my whole answer 
because I also said what I just said.
    Senator Cruz. Well, Congressman--Secretary Kerry?
    Chairman McCain. The Senator's time--I apologize. The 
Senator's time has expired, and I promised the witnesses that I 
would get them out, as every member that wanted to was able to 
ask questions.
    I would appreciate--I want to tell the witnesses I 
appreciate their patience. I know it has been a very long 
morning for them. I also know that they appreciate the gravity 
of this issue and the importance of allowing every member of 
the committee to at least ask questions and be informed by your 
testimony.
    So, Senator Reed?
    Senator Reed. Mr. Chairman, could we keep the record open 
in case there are Senators that have written questions?
    Chairman McCain. I am sure that Senator Manchin will have a 
written question for you.
    Senator Nelson. And I will as well.
    Chairman McCain. So--as will Senator Nelson.
    Chairman McCain. So I want to thank the witnesses, and this 
is a very important issue and the testimony has been very 
important I think not only to members of the committee, but the 
entire Senate. I thank the witnesses.
    We are adjourned.
    [Whereupon, at 1:02 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Roger F. Wicker
                         trust with gulf allies
    Senator Wicker. Secretary Carter and General Dempsey, let me start 
by making some observations about the Persian Gulf, and then ask some 
questions about our allies in the Gulf--specifically Saudi Arabia and 
the UAE. In 2009 the U.S. entered into a civilian nuclear energy 
cooperation agreement or 123 agreement with the United Arab Emirates 
(UAE). As part of the agreement, the UAE renounced the military use of 
nuclear technology and signed the IAEA's Additional Protocol, which 
institutes a more stringent inspections regime on the UAE's nuclear 
activities.
    The UAE 123 agreement is now known as the nonproliferation ``gold 
standard'' for nuclear cooperation agreements. I would observe that 
this gold standard addresses Israel's primary concerns about nuclear 
cooperation with our partners in the Gulf. I would also observe that 
the U.S. has not reached a 123 agreement with Saudi Arabia because the 
Saudis will not agree to an agreement that achieves a similar gold 
standard.
    Finally, I'd observe that despite being a party to the Nuclear 
Nonproliferation Treaty (NPT), Iran swore never to obtain nuclear 
weapons or to use nuclear technology for military purposes. But Iran 
has consistently cheated and lied to the IAEA for 30 years, with seven 
of eight major nuclear sites started secretly in violation of the NPT.

    1. Secretary Carter, you recently returned from a visit to Saudi 
Arabia. How did you explain to our Saudi friends that the 
Administration trusts Iran more than we trust the Saudis? How would you 
explain to our friends in the UAE that the Administration trusts Iran 
more than we trust the Emirates?
    Secretary Carter. To be clear, the nuclear accord with Iran is not 
about trust but about verification. As Secretary of Defense, I will 
continue to ensure that appropriate military options are available to 
the President. During my trip to Saudi Arabia in July, I conveyed this 
message at the highest levels of the Saudi government and reiterated 
that the Iran nuclear deal is in our common interest as it will further 
a more stable and secure region. Furthermore, I reminded the Saudis of 
the strength of our strategic partnership, as well as that U.S. 
assurances to protect Saudi Arabia's security do not change in light of 
a nuclear agreement with Iran. The United States continues to work with 
each country--as well as multilaterally with the Gulf Cooperation 
Council States--toward strengthening the regional security architecture 
in a manner that, combined with the strong U.S. military force posture 
in the region, deters Iran from coercing its neighbors. My message to 
the United Arab Emirates is and will remain in the same vein. Advanced 
partnerships with our Gulf partners, as well as the Joint Comprehensive 
Plan of Action, clearly support U.S., Saudi, and Emirati strategic 
interests in Middle East stability.

    2. Senator Wicker. General Dempsey, based on your engagement with 
your Saudi counterparts, is it your professional military judgement 
that the Saudi military and intelligence services view Iran as a 
threat? The U.S. has Patriot missile batteries on alert in Bahrain. Is 
it correct to say that these missile batteries are intended to thwart a 
missile attack from Iran?
    General Dempsey. [Deleted.]
                      iran and the military option
    Senator Wicker. The arms embargo and ballistic missile restrictions 
on Iran will be lifted not later than eight years from now, and 
possibly much sooner.

    3. What problems do you see the lifting of these restrictions 
creating for our regional allies and for our own forces operating in 
the Middle East?
    Secretary Carter. The only arms and missile sanctions that will be 
relieved are those that were put in place by the United Nations 
Security Council, which expressly linked the sanctions to concerns 
about Iran's nuclear program. The United States has a number of 
domestic and other multilateral authorities related to counterterrorism 
and counter proliferation that we will continue to use to counter 
Iran's destabilizing activities. Those tools include sanctions under 
U.S. law that generally target weapons of mass destruction and missile 
proliferation around the world. The United States will continue efforts 
to counter missile proliferation to Iran through the use of U.S. 
domestic law sanctions, export controls, and the 34-country Missile 
Technology Control Regime (MTCR). Finally, the U.S. military is 
postured in the region to act as a deterrent against any Iranian 
military aggression.
    Furthermore, the Department will continue to advocate for strong 
international responses, including U.S. action, if Iran should violate 
U.S. or other multilateral sanctions. Coalition efforts to stop Iranian 
shipments to Yemen demonstrate our resolve on this matter.
    General Dempsey. Our regional allies understand that the United 
States is committed to defense of the region. Our military remains 
engaged through forward basing, joint and combined exercises, and 
senior-leader engagements. In my discussions with our allies in the 
region, they express their confidence in our security cooperation and 
security assistance efforts to develop their respective armed forces 
into a deterrent force to counter Iran's malign activities in the gulf.

    4. Senator Wicker. What steps can we take to deal with the 
challenges created by Iran expanding its activities in these arenas?
    Secretary Carter. The Administration is fully aware of the threat 
posed by the Iranian ballistic missile program. That is why the 
Administration has taken the steps to ensure that the United States is 
protected today by the Ground-based Midcourse Defense (GMD) system from 
potential Iranian Inter-continental Ballistic Missiles. The 
Administration is also taking steps to increase the effectiveness of 
the GMD system by 1) improving the reliability of the Ground-Based 
Interceptor kill vehicle; 2) deploying a Long-Range Discrimination 
Radar in Alaska; and 3) enhancing the discrimination capabilities of 
currently deployed ground-based sensors. The Department continuously 
monitors Iran's efforts to develop ballistic missiles and are prepared 
to take steps, as necessary, to ensure that the United States remains 
protected from future Iranian threats.
    General Dempsey. The first step will be to prevent Iran from 
acquiring advanced, offensive weapons by working with our partners to 
be selective in what they choose to sell to Iran. With respect to 
curbing ballistic missile acquisition, we will continue to employ the 
Missile Technology Control Regime members' voluntary export. I don't 
assume that these efforts will be 100 percent successful, so the second 
step will be to deter and contain Iran's conventional and ballistic 
missile capabilities. If Iran continues to abide by the JCPOA, they 
will one day be able to legally import and export weapons, but we will 
retain the right--through multiple UNSCRs--to interdict illegal 
shipments to their proxies. In addition to enabling our partners' 
conventional forces, we will also help to build missile defenses in 
both the region and at home that will significantly diminish Iran's 
ballistic missile threat.
                    arms embargo and missile embargo
    Senator Wicker. The JCPOA makes no mention of the arms embargo or 
the missile embargo. Rather, these provisions were included in United 
Nations Security Council Resolution 2231. Regarding this, Foreign 
Minister Zarif said on July 21, ``The issue of missiles and the 
purchase and sale of arms is implicitly beyond the [scope of the] deal. 
It is only included in a resolution and its non-implementation will not 
be considered a violation of the deal,''

    5. General Dempsey, according to UN Security Council Resolution 
2231, the arms embargo on Iran will be lifted if the IAEA submits a 
report that concludes that Iran's nuclear program is peaceful. General 
Dempsey, is that of concern to you?
    General Dempsey. While it is unlikely that the IAEA will reach its 
Broader Conclusions before the 5 or 8 year thresholds, it may do so if 
Iran proved cooperative, open and honest about its program. The JCPOA 
buys us time while we continue to focus on Iranian malign activity.

    6. Senator Wicker. General Dempsey, can you clarify whether 
violations of the arms embargo would be considered violations of the 
JCPOA? Would we be able to snapback sanctions should Iran violate the 
arms and missile embargos?
    General Dempsey. Yes, a violation of the arms embargo would be a 
violation of the JCPOA. According to the agreement, the U.S. may 
unilaterally respond to an Iranian violation by choosing not to meet 
its commitments in whole or in part. The U.S. may also invoke its 
option to call for a U.N. Security Council vote to maintain the 
suspension of sanctions. Under the agreement, the U.S. may act 
unilaterally to snap-back sanctions through its veto option as a 
standing member of the U.N. Security Council.

    7. Senator Wicker. General Dempsey, is Iran continuing to provide 
arms to Shiite militias in Iraq? To Houthi rebels in Yemen? To the 
Assad regime? To Hezbollah? If the answer is yes, isn't Iran already 
violating key UNSC resolutions?
    General Dempsey. Iran has sent arms and humanitarian aid to the 
Houthis, supported the Assad regime through weapons, funds, and 
advisors, and remains Lebanese Hezbollah's principal supporter. As a 
result, Iran is in violation of a number of UNSCRs including the 
resolution that established the arms embargo against Iran, UNSCR 1747.
                       qualitative military edge
    Senator Wicker. We are Israel's strongest strategic ally. We work 
closely together in areas like missile and cyber defense and to uphold 
the IDF's qualitative military edge (QME). Israel believes this deal 
with Iran will create significant additional defense challenges.

    8. General Dempsey, beyond the high-profile and valued cooperation 
on programs like Iron Dome, David Sling and the sale of the F-35 Joint 
Strike Fighter, how can we work more closely with Israel to tangibly 
bolster their security and deterrence in this more challenging regional 
strategic environment?
    General Dempsey. The United States is Israel's strongest strategic 
ally. Preserving Israel's Qualitative Military Edge remains a priority. 
Our military cooperation with the Israel Defense Force is extensive and 
we will continue to work closely with our Israeli partners to 
prioritize Israel's security concerns and support them through the most 
advanced technology.
                           ballistic missiles
    Senator Wicker. The threat from ballistic missiles, rockets and 
cruise missiles continues to expand with terrifying speed across the 
Mideast. These weapons are being regularly used in Egypt, Gaza, Syria, 
Iraq, Yemen and elsewhere throughout the region. And yet we have just 
concluded an agreement with the nation supplying most of these weapons 
to its Middle East proxies in which constraints on such delivery 
systems are noticeably absent. In fact, the nuclear deal with Iran 
actually lifts current missile restrictions on Tehran after eight 
years. The Iranian regime certainly can be expected to increase its 
missile programs with investment from unfrozen financial assets in 
order to project strategic dominance while waiting out the decade-long 
clock limiting its atomic arms program.

    9. General Dempsey, what is your current assessment of Iran's 
ballistic missile program and the capabilities of the U.S. and our 
regional allies to defend against Iranian missile attacks?
    General Dempsey. [Deleted.]

    10. Senator Wicker. General Dempsey, do you foresee the possibility 
that if Iran's ballistic missile capabilities continue to expand in 
size and sophistication there may be a similar phenomenon with other 
regional states?
    General Dempsey. Yes, the other regional states feel threatened by 
Iran and will look to improve their ballistic missile defense 
capabilities as well as seek an offensive strike capability to counter 
potential Iranian aggression.

    11. Senator Wicker. General Dempsey, what are the consequences for 
U.S. and partner security of Iran's unrestricted missile and rocket 
developments? Is there a probability that our Gulf partners will seek 
their own advanced surface-to-surface delivery systems in response? 
What is the risk for American forces in theater?
    General Dempsey. Iran's missile and rocket development continues to 
pose a potential threat for U.S. forces and partner nations in the 
region. I believe our Gulf partners will seek their own advanced 
surface-to-surface delivery systems. Iran's missile and rocket 
capability will place our own forces operating in the Middle East in 
more danger as Iran develops more capable weapon systems and continues 
its malign activities in the region.

    12. Senator Wicker. General Dempsey, what more--beyond current 
activities--do our Israeli partners need from us in countering the 
ballistic capabilities of Iran and its proxies that surround the Jewish 
state on virtually all sides?
    General Dempsey. We are commited to working with Israel to address 
the Iranian ballistic missile threat. We are co-developing missile 
defense technology with Israel on David's Sling and the Arrow system 
and continue to prioritize Israel missile defense efforts. Since 2001, 
we have provided over three billion dollars for Ballistic Missile 
Defense to Israel, including funding for Iron Dome. More recently, the 
Secretary visited Israel in July and discussed this topic with both 
Prime Minister Netanyahu and Minister of Defense Ya'alon. Our continued 
work with Israel on the threat posed by Iran's ballistic missile forces 
is steadfast.

    Senator Wicker. Current assessments of Iran's capabilities indicate 
the range, accuracy and quantity of Iran's ballistic arsenal today is 
improving dramatically in real time. Iran has been successfully using 
its space launcher program as a civilian cover for development of an 
ICBM.

    13. General Dempsey, can U.S. and allied missile defenses 
sufficiently cope with this rapidly-evolving situation?
    General Dempsey. We are matching the threat through the deployment 
and development of missile defense systems as part of European Phased 
Adaptive Approach capability as the US contribution to NATO ballistic 
missile defense. We currently have a radar system deployed to Turkey 
and an Aegis BMD ship in the Eastern Mediterranean. Soon we will 
activate the Aegis Ashore site in Romania and begin construction of one 
in Poland.
                        implications for israel
    Senator Wicker. Secretary Carter, you had the opportunity to visit 
Israel last week and General Dempsey, you did the same last month. As 
you both no doubt heard, the Israeli defense and security leadership 
have profound reservations about the Iran agreement--viewing it as so 
fundamentally flawed as to be in essence an international recognition 
of Iran as an emergent nuclear weapons state in the region.

    14. Secretary Carter, what can you tell us about Israel's concerns 
about the proposed deal, based on your conversations with your Israeli 
counterparts?
    Secretary Carter. Israel has made its concerns with the nuclear 
agreement with Iran well known. The concerns shared with me during my 
visit to Israel are consistent with those being publicly articulated. 
Friends can disagree, however, and ultimately I believe that the best 
way to protect Israel from a nuclear-armed Iran is the negotiated 
nuclear framework reached between the P5+1 and Iran. The United States 
is steadfast in its commitment to Israel's security. During my visit to 
Israel last month, I discussed with Minister of Defense Ya'alon several 
opportunities for deepening cooperation with Israel, including on 
Iranian missile threats and asymmetric regional challenges.
                 countering iranian regional activities
    Senator Wicker. I think we all can agree that Iran is unlikely to 
change its regional behavior in the wake of this agreement. If 
anything, flush with new resources, Iran will increase its regional 
mischief. The administration has indicated the U.S. will continue to 
confront Iran in the region.

    15. Secretary Carter, what specific actions will the U.S. take if 
Iran, after sanctions relief, provides more funding to terrorist groups 
and expands its malign activities in the region?
    Secretary Carter. First, Iran's economy is faltering and I would 
expect that any financial gains Iran realizes from sanctions relief 
will be needed for the domestic economy--some Iranian leaders have said 
as much. Iran needs about half a trillion dollars to meet pressing 
investment needs and government obligations. That said, Iranian support 
to militants or terrorists does not require substantial resources.
    Therefore, it is important to focus on strategies that counter this 
behavior, especially by working with our partners in the Gulf. The 
United States has sufficient domestic authorities--including sanctions 
authority under U.S. law--to counter Iran's support for terrorism and 
other destabilizing activities. The United States continues to enforce 
U.S. sanctions based on Iran's support for terrorism and human rights 
abuses. The United States will also continue to work with key partners 
to counter Iran's destabilizing activities in the region.
    Deterrence is always a complex enterprise, but our partnerships and 
preparations keep us well postured to counter Iranian destabilizing 
activity. The Department will remain vigilant, but as the President 
stated, Iran won't use the majority of sanctions relief for its support 
to terrorism, and the United States' unilateral sanctions targeting 
those activities will remain in place. The Department will continue to 
work with interagency partners to check Iranian destabilizing 
activities.

    16. Senator Wicker. Secretary Carter, what is your plan to confront 
Iranian actions in Lebanon, in Syria, in Yemen, in Iraq and in the 
Palestinian territories?
    Secretary Carter. The United States will continue to counter 
Iranian malign influence in the region. The Department remains prepared 
and postured to bolster the security of regional partners, including 
Israel, to defend against aggression and to ensure freedom of 
navigation in the Gulf. The United States remain cognizant of Iran's 
continued support for the Assad regime in Syria, and that Iran has 
supported rebel groups in Yemen and throughout the region. U.S. forces 
will remain postured to challenge that activity when it runs counter to 
U.S. interests or destabilizes the region.
    The President has made clear his readiness to further strengthen 
U.S. support to Israel's security, including through negotiating a new 
ten-year Foreign Military Financing (FMF) memorandum of understanding 
and increasing missile defense funding. The Department is also 
supplying Israel with a large resupply package of essential munitions 
to deter and defend against any threats.
    Furthermore, the U.S.-Gulf Cooperation Council (GCC) Summit at Camp 
David was about strengthening historical partnerships in order to 
confront new challenges facing the Middle East. There was a recognition 
that all of the GCC States, as well as the United States, need to 
commit to broadening and deepening bilateral U.S.-GCC relationships to 
advance our shared regional security interests.
    Toward this shared goal of advancing the U.S.-GCC partnership, the 
United States and the GCC States seek to develop strengthened 
capabilities and coordination on issues such as maritime security, 
cyber security, ballistic missile defense and arms transfers, special 
operations forces, and exercises and training.

    17. Senator Wicker. Secretary Carter, based on your conversations 
in the region last week, do you believe that Iran is part of the 
problem or part of the solution in Syria and Iraq?
    Secretary Carter. The Department of Defense has no plans to 
cooperate with Iran directly on Syria or Iraq. With that in mind, there 
is some space for Iran to begin playing a more constructive role in the 
region, specifically in Syria as it relates to a transition of power to 
end the Syrian civil war.

    Senator Wicker. Last week, Secretary Kerry told the Senate Foreign 
Relations Committee that the U.S. will work to enforce UN Security 
Council Resolution 1701, which prohibits the transfer of weapons to 
Hezbollah.

    18. Secretary Carter, how is the Pentagon planning to prevent the 
transfer of weapons to Hezbollah?
    Secretary Carter. The Department will rely on bilateral cooperation 
with countries in the region to block Iranian access to their territory 
for activities related to the illicit shipping of arms or missiles. The 
Department is already preparing with our Gulf partners--as discussed 
between the President and Gulf leaders at Camp David in May--to ramp up 
regional interdiction activities to ensure continued restrictions on 
Iranian missile and arms activity. Executive Orders 12938 and 13382 
authorize U.S. sanctions on foreign persons involved in the 
proliferation of weapons of mass destruction or their means of 
delivery, including missiles capable of delivering such weapons, by a 
country of proliferation concern, such as Iran. The Iran, North Korea, 
and Syria Nonproliferation Act of 2006 provides for U.S. sanctions on 
entities and individuals involved in the transfer or acquisition of 
ballistic and cruise missiles. The Lethal Military Equipment Sanctions 
provision in the Foreign Assistance Act, the Iran Sanctions Act of 
1996, and the Iran-Iraq Arms Nonproliferation Act of 1992, also provide 
for U.S. sanctions in certain cases involving the sale or transfer of 
conventional arms. In addition, Executive Order 13224 provides for the 
imposition of sanctions on persons that provide material support to 
Hizballah, an entity designated under that executive order.
    The Department will still rely on a series of United Nations 
Security Council Resolutions (UNSCRs) that levy arms embargos relating 
to key countries of concern and help counter Iran's destabilizing 
activities in the region. Iranian arms transfers to prohibited 
recipients would thus still be a violation of UNSCRs, including to the 
Houthis in Yemen, to non-state actors in Iraq (including Shia 
militants), to non-state actors in Lebanon (including Hizballah), to 
Libya, and to North Korea. The Department will work with over 100 
countries around the world that are participants in the Proliferation 
Security Initiative (PSI) to help limit Iranian missile-related imports 
or exports. The Missile Technology Control Regime (MTCR) also plays a 
critical role in preventing the spread of critical missile technology. 
The MTCR Guidelines maintain a strong presumption of denial of the 
transfer of Category I systems, which include ballistic missiles. The 
Department will continue to rely on countries' adherence to the MTCR 
Guidelines to stop transports in support of Iran's missile program.
                      inspections and verification
    Senator Wicker. Throughout the negotiations, including in the weeks 
prior to the agreement, the administration promised ``anywhere, 
anytime'' inspections. The agreement now allows ``managed access'' and 
could take up to 24 days to resolve any disputes over access and allow 
actual inspections.

    19. Secretary Carter, the administration argues that having IAEA 
inspectors on the ground is going to give us additional insight into 
the Iranian nuclear program. Under the JCPOA, will these inspectors 
have the freedom to go to any other Iranian sites, including military 
sites, at-will?
    Secretary Carter. The International Atomic Energy Agency (IAEA) 
will be able to get timely access to the places it needs to go, or Iran 
will be in violation of the agreement. If the IAEA has a question about 
an undeclared facility, it will be able to request timely access 
through the Additional Protocol. This access requires notice of at 
least 24 hours--but such access has proven very successful in deterring 
and detecting illicit activities around the world. Even if Iran were to 
attempt to clean out a location before granting access, radioactive 
evidence is not easily removed. IAEA testing almost certainly would 
detect the recent presence of nuclear material if it had been present. 
And, most importantly, we will have robust insight into every part of 
Iran's nuclear program. Certain transparency measures will last for 15 
years, others for 20 to 25 years, and some will last forever--such as 
Iran's adherence to the Additional Protocol. With this transparency, if 
Iran tried to reverse course and break out, we would see it and have 
time to respond.
                               __________
              Questions Submitted by Senator Kelly Ayotte
                   enrichment or advanced centrifuges
    20. Senator Ayotte. Secretary Moniz, how many countries produce 
their own nuclear power but don't enrich their own uranium?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    21. Senator Ayotte. Why did we agree to allow Iran to build 
advanced centrifuges in the first 10 years of the deal?
    Secretary Kerry. Under the JCPOA, Iran is constrained to using only 
its first generation IR-1 centrifuges to enrich uranium for the first 
10 years. Testing of Iran's more advanced centrifuge designs will be 
significantly constrained. Iran will have the option after Year 10 to 
undertake a gradual development of its enrichment program, consistent 
with an enrichment research and development plan, but it will be 
limited to enriching only up to 3.67 percent and constrained to a 300 
kg stockpile of this low-enriched uranium for another five years. These 
limitations are important to ensuring that Iran's breakout timeline 
does not drop dramatically after Year 10. Importantly, the transparency 
measures under the JCPOA will ensure unparalleled insight into Iran's 
program. Certain transparency and monitoring measures will last for 15 
years, others for 20-25 years, and some will last indefinitely--such as 
Iran's adherence to the Additional Protocol. After 15 years, should we 
suspect Iran is pursuing nuclear weapons, we would have the same 
options available to us then as we do today to prevent such an effort 
from coming to fruition.
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    22. Senator Ayotte. What kind of centrifuge research and 
development can Iran undertake in the first 10 years under the JCPOA?
    Secretary Kerry. Under the JCPOA, Iran is constrained to using only 
its first generation IR-1 centrifuges to enrich uranium for the first 
10 years. Research and development related to Iran's more advanced 
centrifuge designs will be significantly constrained. Under the JCPOA, 
Iran may only continue to conduct centrifuge research and development 
in a manner that does not accumulate enriched uranium. Iran may build 
or test, with or without uranium, only those centrifuges specified in 
the JCPOA. For 15 years, Iran must conduct all testing of centrifuges 
with uranium only at Natanz, and must conduct all mechanical testing of 
centrifuges only at Natanz and the Tehran Research Centre. For 10 
years, Iran's enrichment R&D with uranium must only include IR-4, IR-5, 
IR-6, and IR-8 centrifuges. Mechanical testing on up to two single 
centrifuges for each type may be carried out only on the IR-2m, IR-4, 
IR-5, IR-6, IR-6s, IR-7 and IR-8.
    Consistent with the JCPOA, Iran may continue the testing of a 
single IR-4 centrifuge machine and IR-4 centrifuge cascade of up to 10 
centrifuge machines for 10 years. Iran may only test a single IR-5 
centrifuge machine for 10 years. Iran may continue testing of the IR-6 
on single centrifuge machines and its intermediate cascades, and may 
commence testing of up to 30 centrifuge machines from one and a half 
years before the end of Year 10. Iran may commence testing of the IR-8 
on single centrifuge machines and its intermediate cascades, and may 
commence the testing of up to 30 centrifuge machines from one and a 
half years before the end of Year 10. Iran must proceed from single 
centrifuges to small cascades to intermediate cascades in a logical 
sequence.
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.
                           excluding congress
    23. Senator Ayotte. Secretary Kerry, does the administration 
believe the U.N. Security Council's Resolution is legally binding on 
the United States if Congress rejects the deal?
    Secretary Kerry. Nothing in the resolution requires the United 
States to take any action that would be inconsistent with the Iran 
Nuclear Agreement Review Act of 2015 (INARA). If Congress were to enact 
a resolution of disapproval over a veto by the President, the United 
States would not be under any legal obligation to cease the application 
of U.S. sanctions on Iran (as contemplated by the JCPOA) as a result of 
the UN Security Council's adoption of Resolution 2231. In fact, the 
same is true if such a resolution is not enacted.
    However, if Congress were to override a veto on a resolution of 
disapproval and the United States walked away from this deal, the most 
likely scenario would be that Iran would refuse to meet its commitments 
under the JCPOA, the JCPOA would collapse, and the UN sanctions relief 
contemplated under UNSC Resolution 2231 would never materialize. This 
is because the UN sanctions relief under UNSC Resolution 2231 does not 
occur until the IAEA verifies that Iran has taken the nuclear steps 
outlined in the JCPOA. Without sanctions relief from the United States, 
Iran would not disconnect centrifuges, or get rid of its uranium 
stockpile, or fill the core of the current Arak reactor with concrete. 
In such a scenario, the existing UNSC sanctions regime would remain in 
place, but we anticipate that it would be much harder to ensure that 
these measures are adequately enforced. If the United States walked 
away from the strong deal that has been negotiated, other states would 
be less willing to cooperate with us in enforcing these measures, such 
as by interdicting suspicious cargo at our request. This would put us 
in the worst possible position of having no deal on the nuclear side, 
and losing our leverage to ensure the effectiveness of multilateral and 
national sanctions.

    24. Senator Ayotte. Secretary Kerry, if Congress rejects this deal, 
will the President attempt to implement portions of it anyway?
    Secretary Kerry. Any action by the President to implement the JCPOA 
will be taken consistent with U.S. law, including the Iran Nuclear 
Agreement Review Act of 2015 (INARA).
    If Congress rejected the deal by enacting a joint resolution of 
disapproval, the United States would not be in a position to fulfill 
its sanctions relief commitments under the JCPOA because of the 
restrictions under INARA. The expected result would be that Iran would 
refuse to meet its commitments, and the JCPOA would collapse. Without 
sanctions relief from the United States, Iran would very likely not 
take the significant nuclear steps required by the JCPOA to roll back 
and constrain its nuclear program, or provide unprecedented access to 
monitor it. In this scenario, the existing UNSC sanctions regime would 
remain in place because the IAEA would not be in a position to confirm 
that Iran has taken the nuclear steps outlined in the JCPOA. Compliance 
with these and other sanctions would begin to erode, however, as 
countries perceived that the U.S. had turned its back on a feasible 
negotiated solution. This would put us in the worst possible position 
of losing our constraints on Iran's nuclear program while our leverage 
begins to ebb.

    25. Senator Ayotte. Would you characterize the Iran deal as a 
``significant arms control agreement''?
    Secretary Carter. No, the Joint Comprehensive Plan of Action is not 
an arms control agreement. It is a strong non-proliferation deal that 
cuts off all of Iran's pathways to a nuclear bomb. It is not an ``arms 
control agreement'' in that it does not limit U.S. arms in any way and 
is not a legally binding international agreement.
    Secretary Kerry. The JCPOA is a strong non-proliferation deal that 
cuts off all of Iran's pathways to a bomb. The JCPOA goes beyond 
standard IAEA safeguards requirements in providing for assured access 
to undeclared locations. It contains the most comprehensive inspection 
and verification regime ever negotiated to monitor a nuclear program. 
It is not an ``arms control agreement'' in that it does not limit U.S. 
arms in any way and is not a legally binding international agreement.
                              centrifuges
    Senator Ayotte. The administration, including in Secretary Kerry's 
testimony for the hearing, has repeatedly emphasized that the deal will 
require Iran to get rid of ``two-thirds of its installed centrifuges.''

    26. Secretary Moniz, under the deal, how many Iranian centrifuges 
would be dismantled and destroyed--as opposed to disconnected and 
moved?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    27. Senator Ayotte. Secretary Moniz, if Iran were to violate the 
agreement and move to reinstall 1,000 IR-2 centrifuges for use in a 
breakout, how long would that take?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.
                      inspections and verification
    Senator Ayotte. The deal establishes a tedious and time-consuming 
process that we can expect Tehran to exploit for gaining access to 
undeclared sites. As I understand it, the IAEA cannot even begin this 
24-day process until after it informs Iran of its concern about a site, 
requests ``clarification,'' and awaits Tehran's explanation. (Appendix 
1, page 23, para 75.)

    28. Secretary Moniz, this initial process will alert Iran to the 
IAEA's suspicions, and will take an undetermined amount of time. The 
JCPOA was supposedly crafted under the assumption that Iran will try to 
cheat. Assuming Iran will delay an inspection as long as it can within 
the terms of the plan--how long could it take from when the IAEA 
notifies Iran of its concern with an undeclared site until inspectors 
can enter the site?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    29. Senator Ayotte. Secretary Moniz, for undeclared sites, it could 
take much longer than 24 days, couldn't it?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    Senator Ayotte. A great deal of weaponization work does not include 
nuclear material and does not leave a radioactive footprint.

    30. Secretary Moniz, won't Iran be able to conceal or move non-
nuclear related weaponization work easily within the 24 day window?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    Senator Ayotte. As Olli Heinonen, the former Deputy Director 
General for Safeguards of IAEA, has testified, ``A 24-day adjudicated 
timeline reduces detection probabilities exactly where the system is 
weakest: detecting undeclared facilities and materials.''

    31. Secretary Moniz, while monitoring facilities with satellites 
during the 24 day period will detect large-scale efforts at deception, 
i.e. re-paving areas, ferreting out nuclear material or equipment, how 
will you prevent Iran from covering up other activities, like computer 
modeling for weaponization purposes?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    32. Senator Ayotte. What happens if during the 24 day period we 
observe Iran cleansing a site?
    Secretary Kerry. If Iran were to deny an International Atomic 
Energy Agency (IAEA) request for access to a suspicious undeclared 
location, and Iran and the IAEA cannot resolve the issue within 14 
days, the issue is brought to the Joint Commission, which then has 
seven days to consider the issue. If Iran still will not provide access 
but five members of the Joint Commission (such as the United States, 
United Kingdom, France, Germany, and the European Union) determine that 
access is necessary, Iran must then provide access within three days.
    Iran understands that any failure to cooperate with the IAEA will 
raise significant suspicions among the P5+1 and could lead to a 
snapback of sanctions. Following a request for access by the IAEA to a 
suspicious undeclared location, we would continue to closely monitor 
for indications that Iran was attempting to sanitize a site, and would 
respond appropriately should we observe such sanitization activities.
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    33. Senator Ayotte. Would this constitute a significant violation 
of the agreement?
    Secretary Kerry. If we believe that there has been a violation 
related to any commitment in the Joint Comprehensive Plan of Action 
(JCPOA), we can refer the issue to the Joint Commission. If, after a 
short period of time, our concerns are not resolved to our 
satisfaction, we could notify the United Nations (UN) Security Council 
that we believe Iran's actions constitute ``significant non-
performance'' of its JCPOA commitments. We have full discretion to 
determine what is and is not significant non-performance.
    The United States has the ability to re-impose both unilateral and 
multilateral nuclear-related sanctions in the event of non-performance 
by Iran. And, in the case of UN sanctions, under UN Security Council 
Resolution 2231 we could do so even over the objections of any member 
of the Security Council, including China or Russia. In addition, we 
have a range of other options for addressing minor non-compliance. 
These include snapping back certain domestic sanctions to respond to 
minor but persistent violations of the JCPOA. Our ability to calibrate 
our response will serve as a deterrent to Iranian violations of the 
deal.
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    34. Senator Ayotte. Secretary Moniz, will the IAEA inspectors be 
able to move around the country without Iranian approval? The former 
Deputy Director General for Safeguards of IAEA, Olli Heinonen, has said 
that nuclear bombs or warheads can be put together in a relatively 
small space, some 239 square yards in size. How can the inspectors find 
a place like that without freedom to move without prior approval?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    35. Senator Ayotte. Secretary Moniz, what happens if after the 24 
day period Iran has still not provided access to a site? Are there 
consequences spelled out in the agreement for specific violations?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    Senator Ayotte. As part of the IAEA process of requesting site 
access, the agency must provide Iran ``reasons for access in writing 
and will make available relevant information.''

    36. Secretary Moniz, couldn't this reveal sources and methods and 
jeopardize future monitoring capability? Will we be limited in the 
number of times we are willing to come forward because we are concerned 
about exposing our sources?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.
                  nuclear arms race in the middle east
    37. Senator Ayotte. Secretary Carter, isn't it detrimental to U.S. 
national security interests to have more countries in the Middle East 
enriching uranium?
    Secretary Carter. I do not anticipate a nuclear arms race because 
of the deal. However, the Department will remain vigilant on this issue 
and watch regional developments closely. I believe this agreement will 
verifiably prevent Iran from acquiring a nuclear weapon and curtail, 
rather than exacerbate, the risk of an arms race. Additionally, the 
United States will remain committed to ensuring compliance with the 
Nuclear Non-Proliferation Treaty by all parties to the treaty, not just 
Iran. The United States retains authorities and capabilities to prevent 
nuclear proliferation around the globe, and continue to use these 
effectively.

    38. Senator Ayotte. Secretary Carter, isn't it reasonable to say 
that the more countries we have enriching uranium in the Middle East, 
the more likely it is that bad actors or terrorist groups could get 
their hands on nuclear materials that could be used against Americans?
    Secretary Carter. [Deleted.]

    Senator Ayotte. Referring to the nuclear negotiations with Iran, 
former Saudi intelligence chief Prince Turki al-Faisal, recently told 
BBC ``I've always said whatever comes out of these talks, we will want 
the same. So if Iran has the ability to enrich uranium to whatever 
level, it's not just Saudi Arabia that's going to ask for that. The 
whole world will be an open door to go that route without any 
inhibition . . .''

    39. Secretary Moniz, if this deal goes forward and Iran's 
enrichment program is legitimized and recognized, isn't it likely that 
countries like Saudi Arabia and the UAE will develop their own 
enrichment programs as well?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.
  deal implementation independent of iaea report on previous military 
                               dimensions
    Senator Ayotte. On July 22, the Head of Atomic Energy Organization 
of Iran said, ``By December 15, at the end of the year, the issue (of 
the PMD) should be determined. The IAEA will submit its report to the 
board of governors. It will only submit it. The Joint Comprehensive 
Plan of Action will continue independently of the results of this 
report.''

    40. Secretary Kerry, will the implementation of this deal continue 
independently of the results of the IAEA report on Iran's previous 
military dimensions?
    Secretary Kerry. The International Atomic Energy Agency (IAEA) and 
Iran have agreed on a time-limited ``Roadmap'' through which Iran will 
address the IAEA's concerns regarding past and present issues, 
including the possible military dimensions (PMD) of Iran's nuclear 
program and those specific issues set out in the IAEA Director 
General's November 2011 report. Under the Joint Comprehensive Plan of 
Action (JCPOA), Iran must complete the activities required of it in 
this Roadmap by October 15, well in advance of any sanctions relief. 
The IAEA will report whether or not Iran has taken those steps. If Iran 
does not take those steps, we will not provide sanctions relief.
                                duration
    41. Senator Ayotte. Secretary Kerry, does the new U.N. resolution 
expire in ten years?
    Secretary Kerry. Ten years after JCPOA Adoption Day all provisions 
of UN Security Council Resolution (UNSCR) 2231 will be terminated, 
unless UN sanctions on Iran have been snapped back as permitted by the 
resolution. The P5+1 have indicated their intention to extend the 
snapback provisions of UNSCR 2231 for an additional five years beyond 
the resolution's ten-year duration.

    42. Senator Ayotte. Secretary Kerry, what does that mean for 
Iranian restrictions and obligations after the ten year mark?
    Secretary Kerry. This is a long-term deal that has many elements 
and different phases, and some key elements that last forever. UNSCR 
2231's snapback provision will provide a significant incentive for Iran 
to meet its commitments for the ten years of the resolution, plus an 
additional five years if the P5+1 are able to extend the snapback 
provision as they have stated they will do. However, the risk that 
UNSCR sanctions will snap back is not the only incentive for Iran to 
meet its commitments, as U.S. and EU sanctions may be re-imposed at any 
time if Iran fails to comply with the JCPOA.
    For 10 years, Iran will be subject to very strict limitations on 
its domestic enrichment capacity and research and development--ensuring 
a breakout time of at least a year.
    For at least 15 years, Iran will be subject to strict limitations 
on core elements of its nuclear program, including an enriched uranium 
stockpile limit of 300 kg of UF6; a limit on heavy water, consistent 
with Iran's needs following conversion of the Arak reactor; no uranium 
enrichment or fissile material at the Fordow facility; all enrichment 
capped at no more than 3.67 percent, far short of what is usable in a 
nuclear weapon; no production of reactor fuel in Iran unless approved 
by the United States and our partners; and no reprocessing of 
irradiated nuclear fuel, which prevents the acquisition of plutonium 
for weapons.
    In addition, for 15 years, Iran is committed not to conduct work on 
uranium or plutonium metals, which are essential elements for a nuclear 
weapon; not to seek or acquire highly enriched uranium or plutonium, 
either indigenously or through foreign procurement; and not to work 
with other countries on enrichment technologies absent approval by the 
Joint Commission established under the JCPOA. Inspections and 
transparency measures will continue well beyond 15 years, with some 
continuing for 25 years and others lasting forever. For example, the 
deal provides for Iran's ratification of the IAEA's Additional 
Protocol, which would make those transparency obligations permanent.
    All spent fuel from the Arak reactor will be shipped out of Iran 
for the lifetime of the reactor. Iran has also committed indefinitely 
to not engage in specific activities that could contribute to the 
design and development of a nuclear weapon. It has also committed to 
rely only on light water for its future nuclear reactors.

    43. Senator Ayotte. Secretary Kerry, do the snapback sanction 
provisions extend beyond 10 years?
    Secretary Kerry. The P5+1 have indicated in writing their intention 
to extend the snapback provision of UNSCR 2231 for an additional five 
years beyond the ten-year duration of that resolution. With respect to 
U.S. sanctions, we can snap back our sanctions at any time if Iran 
violates its JCPOA commitments.
                          snap back sanctions
    Senator Ayotte. Foreign Minister Zarif reportedly told Iran's 
parliament recently that ``the surge of foreign businesses into the 
country [after sanctions are lifted] would make it difficult for the 
United Nations to restore sanctions.''
    He said the ``swarming of business for reinvesting their money is 
the biggest barrier for such an action.'' He also said the P5+1 
countries ``would hesitate to seek renewed sanctions if the move cut 
off new and lucrative business ties to the Iranian market.''

    44. Won't the rush of cash and investment back into Iran after 
sanctions are lifted give the Iranians increased immunity to the 
possible re-imposition of sanctions and will create a broad and 
formidable international European, Russian, and Chinese government and 
business coalition opposed to the re-imposition of sanctions?
    Secretary Kerry. We have been very clear that should Iran violate 
its commitments under the JCPOA after we have suspended sanctions, we 
will be able to promptly snap back both U.S. and UN sanctions, and our 
EU colleagues have made clear their intention to do so with respect to 
their sanctions as well. In the event that there is an Iranian 
violation, we expect to have strong international support for 
sanctions, as evidenced by the broad international coalition that we 
have built in recent years in response to the Iranian nuclear threat. 
Moreover, while the increased economic activity of our partners with 
Iran could raise the cost of snapping back sanctions, it is important 
to bear in mind that this increased economic activity also 
significantly raises the cost to Iran of non-compliance given the 
threat of snapback.
    Secretary Lew. Did not respond in time for printing. When received, 
answer will be retained in committee files.

    45. Senator Ayotte. Secretary Kerry, in a noteworthy comment, Zarif 
also reportedly reassured Iran's parliament that sanctions can be 
restored only for a major breach of the deal and not for a small 
infraction. Doesn't that comment suggest that Iran, consistent with 
their past behavior, does not plan to fully abide by the agreement?
    Secretary Kerry. While we would not want to speculate on Foreign 
Minister's Zarif's intent, the fact remains that under the JCPOA and 
under our own sanctions laws, we have a wide range of options to 
respond to any Iranian non-compliance, from significant non-performance 
to more minor instances of non-compliance.
    Specifically, the United States has the ability to re-impose 
unilateral and multilateral nuclear-related sanctions in the event of 
Iran's non-performance. In the case of UN sanctions, under UN Security 
Council Resolution 2231 we could do so over the objections of any 
member of the Security Council, including China or Russia, if we deemed 
Iran's actions to constitute ``significant non-performance,'' and we 
would judge for ourselves what non-performance was ``significant.'' 
This unilateral ability to snap back all of the UNSC sanctions gives us 
extraordinary leverage to get cooperation from other countries if we 
seek to take lesser steps instead. In addition, we have a range of 
other options for addressing relatively minor non-compliance. These 
include designating specific entities that are involved in activities 
inconsistent with the JCPOA, snapping back certain domestic sanctions 
to respond to minor but persistent violations of the JCPOA, or using 
our leverage in the Joint Commission on procurement requests.
                 arms embargo and missile restrictions
    Senator Ayotte. The JCPOA makes no mention of the arms embargo or 
the missile embargo. Rather, these provisions were included in United 
Nations Security Council Resolution 2231. On July 26, 2015, Iran's 
Defense Minister said, ``Missile-related issues have never been on 
agenda of the nuclear talks and the Islamic system will resolutely 
implement its programs in this field.''
    On July 22, 2015, Iran's Deputy Foreign Minister said ``Whenever we 
consider it necessary for our own security, [or] to help our allies in 
the region we will provide weapons. . . . We don't feel shy. We will 
provide weapons to whomever and whenever we consider appropriate. And 
we will buy weapons from wherever we can.''
    According to UN Security Council Resolution 2231, the arms embargo 
on Iran will be lifted as soon as the IAEA submits a report that 
concludes that Iran's nuclear program is peaceful.

    46. Could the IAEA make that determination before five or eight 
years? So does that mean that the arms embargo and missile restrictions 
could be lifted sooner than five and eight years, respectively?
    Secretary Kerry. Under United Nations Security Council Resolution 
2231 (2015), transfers of certain types of arms and related materiel to 
Iran remain prohibited for a period of five years and transfers of 
ballistic missile-related items, technology, and assistance to Iran 
remain prohibited for eight years, unless the IAEA reaches the Broader 
Conclusion that there are no undeclared nuclear material and activities 
in Iran and all nuclear material in Iran remains in peaceful 
activities. Based on the IAEA's past practice in other countries and 
the extent of Iran's nuclear program, we expect it will take a 
substantial number of years of applying the Additional Protocol and 
evaluating the full range of Iranian nuclear activities to reach that 
milestone.
    Separate from the UN Security Council restrictions, we will 
continue to implement a number of robust domestic and multilateral 
authorities related to counter-terrorism and proliferation to address 
Iran's arms and ballistic missile activities. For example, we will keep 
in place the U.S. sanctions that apply to Iran's missile program, 
including the ``secondary'' sanctions that apply to foreign banks that 
engage in transactions with entities that have been designated for 
their role in Iran's missile program, and will continue our efforts to 
counter the spread of missiles and related technology to or from Iran 
through the use of U.S. sanctions, export controls, and cooperation 
with partner states, including through the 34-country Missile 
Technology Control Regime (MTCR).
    Secretary Carter. Annex B of United Nations Security Council 
Resolution (UNSCR) 2231 calls upon Iran to ``not undertake any activity 
related to ballistic missiles designed to be capable of delivering 
nuclear weapons, including launches using such ballistic missile 
technology.'' The resolution also prohibits certain arms and missile-
related transfers to or from Iran absent approval on a case-by-case 
basis by the UN Security Council. The United States would be able to 
block UN Security Council approval of any transfer of weapons or 
ballistic missile-related items covered by the restrictions that remain 
in force under UNSCR 2231, and it is difficult to imagine any 
circumstance in which we would consider allowing the Council to approve 
such a transfer. This arms embargo is to remain in place for five years 
and the missile-related restrictions are to remain in place for eight 
years, unless the IAEA reaches the Broader Conclusion that there are no 
undeclared nuclear material and activities in Iran and all nuclear 
material in Iran remains in peaceful activities. Based on the IAEA's 
past practice in other countries and the extent of Iran's nuclear 
program, we expect it will take a substantial number of years of 
applying the Additional Protocol and evaluating the full range of 
Iranian nuclear activities to reach that milestone. After that, there 
are still a number of domestic and multilateral authorities related to 
missile proliferation that the United States can continue to use to 
disrupt transfers of missile-related technologies to Iran.
    The Administration is fully aware of the threat posed by the 
Iranian ballistic missile program. That is why the Department has taken 
the steps to ensure that the United States is protected today by the 
Ground-based Midcourse Defense (GMD) system from potential Iranian 
intercontinental ballistic missiles. The Administration is also taking 
steps to increase the effectiveness of the GMD system by 1) improving 
the reliability of the Ground-Based Interceptor kill vehicle, 2) 
deploying a Long-Range Discrimination Radar in Alaska, and 3) enhancing 
the discrimination capabilities of the currently deployed ground-based 
sensors. The Department continuously monitors Iran's efforts to develop 
ballistic missiles and is prepared to ensure the United States remains 
protected from future Iranian threats.
    General Dempsey. Although it is highly unlikely, if the IAEA 
reaches a Broader Conclusion that all nuclear material in Iran remains 
in peaceful activities before the five or eight year embargos are set 
to end, then the restrictions could be lifted early.

    47. Senator Ayotte. Can you clarify whether violations of the arms 
embargo would be considered violations of the JCPOA? Would we be able 
to snapback sanctions should Iran violate the arms and missile 
embargos? Would the administration do so?
    Secretary Kerry. The arms embargo and missile-related restrictions 
on Iran under UN Security Council Resolution (UNSCR) 1929 were designed 
to pressure Iran specifically to address the international community's 
concerns with its nuclear program. UNSCR 1929 anticipated that these 
restrictions would be lifted as Iran addressed these concerns. Not 
surprisingly, Iran and Russia pushed for an immediate lifting of the 
arms embargo and missile restrictions as soon as Iran took the key 
nuclear steps provided for in the JCPOA. Through hard bargaining, we 
were able to ensure that UNSCR 2231 endorsing the JCPOA extends arms- 
and missile-related restrictions for a significant period of time after 
the JCPOA takes effect, even though these restrictions are not part of 
the JCPOA. Even after these restrictions on Iran are lifted, we can 
still rely on a broad set of multilateral and unilateral tools, 
including other UNSCRs and domestic sanctions, to continue to restrict 
Iranian conventional arms and missiles. We will also keep in place the 
U.S. sanctions that apply to Iran's missile program, including the 
``secondary'' sanctions that apply to foreign banks that engage in 
transactions with entities that have been designated for their role in 
the missile program.
    Secretary Carter. Annex B to United Nations Security Council 
Resolution (UNSCR) 2231 provides for a five-year-long arms embargo and 
eight-year-long missile-related restrictions on Iran (which would end 
earlier if the IAEA reaches the Broader Conclusion that there are no 
undeclared nuclear material and activities in Iran and all nuclear 
material in Iran remains in peaceful activities). However, it is our 
understanding that Iranian attempts to circumvent these restrictions, 
which are not directed against the nuclear program, would not be 
considered a violation of the Joint Comprehensive Plan of Action 
(JCPOA). With that in mind, the administration would take any 
prohibited arms transfers or missile procurement attempts seriously, 
and act accordingly to respond to noncompliance by Iran and any nation 
supporting such efforts within the framework of existing UN sanctions, 
international counter proliferation regimes, and U.S. laws. We will 
continue to have a range of unilateral and multilateral means available 
to halt Iranian arms transfers and restrict Iran's missile program, 
just as we do today. Recent coalition efforts to stop Iranian military 
shipments to the Houthis in Yemen demonstrate our resolve and our 
capabilities on this matter.
    General Dempsey. Yes, a violation of the arms embargo would be a 
violation of the JCPOA.
    According to the agreement, the U.S. may unilaterally respond to an 
Iranian violation by choosing not to meet its commitments in whole or 
in part. The U.S. may also invoke its option to call for a U.N. 
Security Council vote to maintain the suspension of sanctions. Under 
the agreement, the U.S. may act unilaterally to snap-back sanctions 
through its veto option as a standing member of the U.N. Security 
Council.

    48. Senator Ayotte. Is Iran continuing to provide arms to Shiite 
militias in Iraq? To Houthi rebels in Yemen? To the Assad regime? To 
Hezbollah?
    Secretary Kerry. The U.S. sees Iran clearly for what it is: the 
world's foremost state sponsor of terrorism; a supporter of terrorist 
groups such as Hizballah and Hamas; a backer of the Asad regime's 
brutality in Syria; and a force for instability in Yemen. That is why 
we will maintain and continue to aggressively enforce our sanctions 
against Iran's support for terrorism, destabilizing activities in the 
region, and human rights abuses. If Iran intensifies these actions, 
we--along with our partners--will combat them.
    U.S. support to our regional partners will continue to be key to 
countering Iranian aggression in the region. That is why we are working 
to expand our cooperation across the board with regional partners that 
share our concerns over Iran, as the President agreed with regional 
leaders at the Camp David summit in May. This effort will strengthen 
our regional partners across a range of areas, while making clear we 
will not accept Iranian efforts to spread instability and strengthen 
its terrorist proxies.
    Secretary Carter. [Deleted.]
    General Dempsey. Yes, Iran has provided arms to all of these 
entities.

    49. Senator Ayotte. If the answer is yes, isn't Iran already 
violating key UNSC resolutions?
    Secretary Kerry. We are certainly concerned that Iran continues to 
violate the UN sanctions imposed against it, including through illicit 
procurement and arms transfers. Iran's export of weapons, including to 
some of the most extreme and irresponsible actors in the region, 
remains a serious factor fostering instability. We continue to deter 
and respond to such violations, including through interdiction, 
sanctions, and law enforcement measures, as appropriate.
    We also have longstanding engagement with the United Nations on 
sanctions evasion issues related to Iran. We report violations and 
bring issues to the Sanctions Committee and the UN Panel of Experts 
when we have releasable information and doing so would further our 
nonproliferation objectives. Other countries are expected to do the 
same. We continue to work closely with likeminded partners on the UN 
Security Council to urge the Security Council's Iran Sanctions 
Committee to follow up on reported sanctions violations.
    Secretary Carter. Any Iranian arms transfers to Houthis in Yemen, 
non-state actors in Lebanon (including Hizballah), and/or Iraqi Shi'a 
militias would violate relevant UN Security Council resolutions that 
call upon all member States to comply fully and effectively with UN 
Security Council-mandated arms embargoes on providing weapons to these 
groups.
                               __________
              Questions Submitted by Senator Deb Fischer.
                      breakout time after year 15
    50. Senator Fischer. Secretary Moniz, you stated that Iran would 
probably expand their capacity to enrich uranium after 15 years of this 
agreement. Please elaborate on the impact this increased capacity could 
have on Iran's breakout time to produce a sufficient amount of highly 
enriched material for a nuclear weapon in year 16 and beyond, including 
any factors that will prevent said breakout time from being reduced 
significantly below the one-year period this agreement seeks to ensure 
until year 15?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.
                       civil nuclear cooperation
    51. Senator Fischer. Secretary Moniz, are there any plans for the 
United States to directly finance modifications to Arak or any other 
part of Iran's nuclear program?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    52. Senator Fischer. Secretary Moniz, the agreement includes 
numerous provisions related to civilian nuclear cooperation; has any 
U.S. assistance been offered? Please describe the assistance you 
believe you are authorized to provide.
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.
                   possible military dimensions (pmd)
    53. Senator Fischer. Secretary Kerry, will Congress be able to 
review in a timely manner the full extent of the IAEA's final 
assessment, described in paragraph 8 of the ``Roadmap for Clarification 
of Past and Present Outstanding Issues'' and scheduled to be submitted 
to the Board of Governors by December 15, 2015?
    Secretary Kerry. Under the Joint Comprehensive Plan of Action 
(JCPOA), the IAEA will provide to the IAEA Board of Governors by 
December 15, 2015, the IAEA's final assessment on the resolution of all 
past and present outstanding issues regarding the Possible Military 
Dimensions of Iran's nuclear program. Consistent with past practice, we 
expect the report will be made public by the Board of Governors. We 
will continue to brief Congress in a timely manner on the PMD 
investigation.

    54. Senator Fischer. Secretary Kerry, you have stated that Iran 
will not receive any type of sanctions relief until the outstanding 
issues, as set out in the annex of the 2011 Director General's report 
(GOV/2011/65) and often described the possible military dimensions 
(PMDs) of Iran's nuclear program, are clarified. Do all the members of 
the E3/EU+3 share this view? Please provide the specific legal basis 
contained in the Joint Comprehensive Plan of Action (JCPOA) for denying 
Iran sanctions relief if these issues are not clarified.
    Secretary Kerry. We have always said that we consider Iran 
addressing Possible Military Dimensions (PMD) with the IAEA to be of 
critical importance, and the P5+1--including all of our E3 partners--
has spoken with one voice on this throughout the negotiations. It is 
this unity that provided the leverage the IAEA needed to secure the 
Roadmap Agreement with Iran.
    Under the Roadmap, Iran agreed to a time-bounded process to address 
the IAEA's concerns regarding past and present issues, including the 
Possible Military Dimensions of Iran's nuclear program and those 
specific issues set out in the IAEA Director General's November 2011 
report.
    To be clear, this process cannot stretch out forever. Iran has 
committed in the JCPOA to take all the steps required of it under the 
Roadmap by October 15. Iran will obtain sanctions relief only if it 
takes those steps--in addition to the other major nuclear steps it must 
take.
                               __________
                Questions Submitted by Senator Sullivan
                               sanctions
    55. Senator Sullivan. Secretary Lew, under the Dispute Resolution 
Mechanism of the agreement, Sec. 37 language suggests that foreign 
investors would be allowed to fulfill the length of newly negotiated 
contracts with Iran, even in the aftermath of a violation or act of 
terrorism. The language itself states that `` . . . provisions [of the 
old UN Security Council resolutions] would not apply with retroactive 
effect to contracts signed between any party and Iran or Iranian 
individuals and entities prior to the date of application.'' How does 
this grandfather clause impact the fidelity of a ``snapback'' sanctions 
regime when foreign investors have the legal authority, under this 
agreement, to complete their contracts?
    Secretary Lew. Did not respond in time for printing. When received, 
answer will be retained in committee files.

    56. Senator Sullivan. Secretaries Kerry and Lew, the agreement 
outlines the parameters of an ``implementation day'' which includes the 
``comprehensive lifting of all UN Security Council sanctions as well as 
multilateral and national sanctions related to Iran's nuclear program, 
including steps on access in areas of trade, technology, finance and 
energy.'' Although this occurs with IAEA verification that Iran has 
completed certain commitments over a couple of months, why are the bulk 
of these sanctions being lifted at the beginning, and not incrementally 
over several years? Typically in diplomacy, we exchange one thing for 
another and so on and so forth, until the final objective is achieved. 
Why did we give up all of the benefits upfront, by lifting the entire 
scope of Annex II sanctions before Iran achieved a series of benchmarks 
or swore to disavow acts of terrorism?
    Secretary Kerry. Iran must complete a series of key nuclear-related 
measures, as verified by the IAEA, before it receives any sanctions 
relief under the Joint Comprehensive Plan of Action (JCPOA). These 
measures are substantial and extensive. They include the export of 
Iran's enriched uranium stockpile in excess of 300 kg of uranium 
hexafluoride enriched up to 3.67 percent, the removal and storage of 
two-thirds of its centrifuges (an amount totaling well over 12,000 
centrifuges), the removal and permanent disablement of the existing 
reactor core at Arak, and the implementation of a number of additional 
transparency measures. The cumulative effect of these steps would leave 
Iran with a breakout time to acquire enough fissile material for a 
nuclear weapon at one year or more, and would increase our visibility 
into any would-be breakout attempt. Iran must take all of these steps 
before receiving any JCPOA sanctions relief.
    Secretary Lew. Did not respond in time for printing. When received, 
answer will be retained in committee files.

    57. Senator Sullivan. Secretaries Kerry and Lew, I posed a 
hypothetical in today's hearing: All sanctions against Iran have been 
lifted. Its economy is humming. It's abiding by the nuclear agreement. 
And then it commits a major act of terrorism, killing American 
civilians or soldiers. The Congress and the president then re-impose 
biting sanctions. However, Iran cites Paragraphs 26 and 37 within the 
agreement pertaining to sanctions relief, which state that if 
``sanctions are reinstated in whole or in part, Iran will treat that as 
grounds to cease performing its commitments under this JCPOA in whole 
or in part.'' They also refer to their own interpretation of that 
clause filed with the U.N. Security Council which states: ``It is 
understood that reintroduction or re-imposition, including through 
extension of the sanctions and restrictive measures will constitute 
significant non-performance which would relieve Iran from its 
commitments in part or in whole.'' In my mind, if we impose sanctions 
in any respect, the deal is over. If this is not the case, please 
elaborate.
    Secretary Kerry. It is essential to recall that this deal does not 
provide for all U.S. sanctions on Iran to be lifted. All of our non-
nuclear sanctions authorities remain in place and are unaffected by the 
JCPOA.
    In any event, we would not violate the JCPOA if we imposed new 
sanctions on Iran for supporting terrorism, committing human rights 
abuses, acquiring ballistic missile technology, or any other non-
nuclear reason. We have been clear about this fact with Iran and the 
other P5+1 countries. Additionally, the JCPOA does not provide Iran any 
relief from U.S. sanctions under these authorities.
    What we have committed to do is quite specific: not to re-impose 
those specific nuclear-related sanctions provisions specified in Annex 
II to the JCPOA and not to impose new nuclear-related sanctions, 
contingent on Iran abiding by its JCPOA commitments. That does not mean 
that we would be precluded from sanctioning specific Iranian actors or 
sectors if the circumstances warranted. All of our other sanctions 
authorities remain in place and are unaffected by the JCPOA. 
Additionally, we have made it clear to Iran that we would continue to 
use and enforce sanctions to address its other troubling activities, 
including its destabilizing activities in the region. That said, this 
does not give us free rein to simply re-impose tomorrow all of our 
nuclear-related sanctions under some other pretext. Iran would 
obviously see that as bad faith, as would our international partners. 
In the end, if we decide to impose new sanctions, it will be important 
that we have a credible rationale for doing so. This has always been 
the case and will be no different in the future.
    Secretary Lew. Did not respond in time for printing. When received, 
answer will be retained in committee files.
                language and technical nuances of jcpoa
    58. Senator Sullivan. Secretary Kerry, the Senate Armed Services 
Committee has heard testimony from several high ranking military 
officials, that Iran is or has been responsible for facilitating the 
maiming or deaths of hundreds--if not thousands--of American troops. 
Yet in 2007, then Iranian Ambassador to the U.N., Javad Zarif 
maintained that ``Iran has no interest in providing weapons to any 
insurgents groups in Iraq'' and that ``the United States . . . is 
trying to find or fabricate evidence.'' It has been reported that you 
have a constructive relationship with the now Iranian Foreign Minister. 
The State Department has additionally acknowledged that you have logged 
more one-on-one time with him than with any other foreign minister 
since becoming Secretary of State. Given the substance of this 
relationship, has he ever acknowledged or admitted that Iran is 
directly or indirectly responsible for the maiming and deaths of 
American servicemen?
    Secretary Kerry. We will continue to counter Iran's destabilizing 
and threatening actions in the Middle East region aggressively. We have 
made very clear to the Iranian regime these activities are 
unacceptable. I have often raised regional conflicts with Foreign 
Minister Zarif as part of our ongoing discussions. The President and I 
are committed to working closely with Israel, the Gulf countries, and 
our other regional partners to counter Iran's destabilizing activities 
in the region.

    59. Senator Sullivan. Secretaries Kerry and Lew, the JCPOA lays out 
how the P5+1 desires a ``new relationship'' with Iran. Typically, in a 
contract such sentiments are expressed by both parties, but nowhere in 
the 150 pages of this agreement, do you see Iran making a reciprocal 
pledge. Secretaries, don't you think this is indicative of manner in 
which Iran currently views the United States and do you see this 
attitude undergoing a transformational change in 10 years or so when 
the UN Security Councils concludes its ``consideration of the Iran 
nuclear issue''?
    Secretary Kerry. We have been clear from the beginning of this 
process that these negotiations are only about the nuclear issue and 
that our end goal is preventing Iran from obtaining a nuclear weapon 
and ensuring that Iran's nuclear program is and will remain peaceful 
going forward.
    There are different trends inside of Iran. It is possible that if 
the JCPOA is properly implemented, and Iran's economy improves as a 
consequence of sanctions relief, it would strengthen the hand of 
moderate forces inside of Iran. However, the key point is that the deal 
is not dependent on anticipating those changes. If they do not change 
at all, we are still better off having the deal.
    Secretary Lew. Did not respond in time for printing. When received, 
answer will be retained in committee files.

    60. Senator Sullivan. Secretaries Kerry and Moniz, my colleague, 
Senator Ayotte raised a very good question regarding United States 
cooperation in ``strengthening Iran's ability to protect against, and 
respond to nuclear security threats--including sabotage.'' Given the 
United States' past history in facilitating disruptions and subversions 
of Iran's nuclear program, does this agreement now prevent us from 
conducting similar operations in the future?
    Secretary Kerry. We believe that the JCPOA, if implemented, will be 
the most effective means to ensure that Iran does not obtain a nuclear 
weapon and ensuring that Iran's nuclear program is and will remain 
peaceful going forward. We expect Iran to meet its commitments under 
the JCPOA. To be absolutely clear, the JCPOA in no way commits us to 
defend Iran's nuclear facilities. The language in the JCPOA is designed 
to help bring Iran's nuclear security and safety practices in line with 
those used by other peaceful nuclear programs around the world. It is 
in the interest of all countries that nuclear material be safeguarded 
from nuclear accidents, theft and terrorist attacks, including cyber-
attacks, so any training provided by the IAEA or others will be solely 
for that purpose.
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.
                     icbm/conventional weapons ban
    61. Senator Sullivan. General Dempsey, earlier this month you told 
this committee that ``under no circumstances should we relieve pressure 
on Iran relative to ballistic missile capabilities and arms 
trafficking.'' General Dempsey, Secretary Carter, can you provide any 
rationale on why our negotiators have conceded on this incredibly 
important issue and whether or not this concession is in the United 
States' national security interests? Would a military response by the 
United States be riskier in 8 years, when Iran has both conventional 
weapons and ICBM's, than it would be now, should they commit a major 
act of terrorism?
    Secretary Carter. It is the Department of Defense's job to plan and 
prepare for contingencies in the event that Iran chooses to violate the 
nuclear agreement. The Department continuously evaluates and updates 
U.S. forces posture to ensure a qualitative military advantage in the 
Middle East and are able to address Iran's malign behavior 
appropriately. There are no limits placed on the Department's 
preparedness as a result of this agreement. All military options remain 
on the table.
    Additionally, even once the UN Security Council's arms embargo and 
missile restrictions on Iran are lifted, the United States can continue 
to restrict Iranian conventional arms and missile-related transfers. 
There is a comprehensive set of multilateral and unilateral tools, 
including sanctions that can be relied on to restrict these transfers.
    General Dempsey. I was not part of the negotiation process, however 
as I understand it, our team decided that because the embargo was based 
on Iran's nuclear activity, maintaining the UN embargo was impossible. 
As the lifting the embargos is contingent on Iranian compliance with 
the deal, and because we will still maintain authorities to interdict 
shipments to Iranian proxies like Hezbollah, I am comfortable with the 
terms of the agreement.
    Although Iran may buy weapons from Russia and China, developing 
into a conventional power would take time. A globally integrated 
economy would best support a modern conventional force. Conversely, 
should Iran continue to agitate and support malign activity, the 
country's pariah status and resultant poor economic performance will 
likely check traditional military power. Whichever direction Iran 
takes, U.S. military forces will continue to outmatch Iranian 
capabilities by advancing our own weapons and building partner 
capacity.
                             miscellaneous
    62. Senator Sullivan. General Dempsey, given your own review of the 
agreement and analysis of the potential strengths and weaknesses--
especially as it pertains to upholding American national security 
interests--do you endorse this agreement?
    General Dempsey. The agreement is not the military's to endorse. 
That said, this deal clearly makes it more difficult for Iran to move 
towards a nuclear weapon than without an agreement. The deal primarily 
rolls back Iran's nuclear program and provides the international 
community with unprecedented access to Iran's nuclear facilities and 
nuclear supply chain.
    In any case, we are confident in our military options and stand 
determined in our commitment to prevent Iran from acquiring a nuclear 
weapon.
                               __________
                Questions Submitted by Senator Mike Lee
                    dod consultation on negotiations
    63. Senator Lee. How often and under what circumstances were you, 
other members of the Joint Chiefs, or the Commander of CENTCOM 
consulted by members of the negotiating team on the military dimensions 
of the Iran agreement? Where there ever points in these consultations 
where you or DOD personnel disagreed with the direction of the 
negotiations or specific aspects to which our negotiators were 
agreeing?
    Secretary Carter. The negotiating team kept the Department updated 
on the direction of negotiations and frequently consulted with myself 
and General Dempsey in regards to the military dimensions of the Iran 
agreement. The Department of Defense believes this is a good deal, 
because it verifiably blocks all pathways for Iran to achieve a nuclear 
weapon.
    General Dempsey. Throughout the negotiations, I performed my role 
as the principal military advisor to the President. Because of the 
complexity of constraints placed on Iran to comply with the deal, I am 
comfortable with the terms of the agreement.
                       iran's funding for proxies
    64. Senator Lee. How has Iran historically dispersed funding and 
military assistance to its proxies in the Middle East, is there 
anything in this agreement that will prohibit this new economic 
windfall from being used to fund such operations, and what impact will 
a large increase of funding and assistance to these proxies have on 
American forces and the security of our allies in the region? What will 
be done to protect our forces in the region from these threats?
    Secretary Carter. Iran faces a major economic challenge, and we 
would expect that any financial gains from sanctions relief will be 
needed for its domestic economy--and some Iranian leaders have said as 
much. Iran needs about half a trillion dollars to meet pressing 
investment needs and government obligations. Conversely, Iranian 
support to militants or terrorists does not require substantial 
resources. It is therefore more effective for the United States to 
focus on strategies that counter this behavior, especially by working 
with our partners in the Gulf.
    But regardless of the Joint Comprehensive Plan of Action, the 
Department remains absolutely committed to supporting the safety and 
security of our regional partners, especially Israel. The President has 
expressed his desire to strengthen our security partnership with Israel 
through efforts such as a new ten-year Foreign Military Financing 
agreement and increased missile defense funding. Additionally, the 
U.S.-Gulf Cooperation Council (GCC) Summit at Camp David was about 
strengthening historical partnerships in order to confront new 
challenges facing the Middle East. There was a recognition that all of 
the GCC partners, as well as the United States, need to commit to 
broadening and deepening bilateral U.S.-GCC relationships and the 
multilateral U.S.-GCC relationship, to the advancement of our shared 
regional security interests.
    Finally, there are numerous domestic authorities--sanctions or 
otherwise--to counter Iran's support for terrorism or other 
destabilizing activities. The Department will continue to work with 
interagency partners to check Iran's destabilizing activities. The 
Department is an important part of a broader government effort to 
counter these malign behaviors.
    Secretary Kerry. The U.S. sees Iran clearly for what it is: the 
world's foremost state sponsor of terrorism; a supporter of terrorist 
groups such as Hizballah and Hamas; a backer of the Asad regime's 
brutality in Syria; and a force for instability in Yemen. That is why 
we will maintain and continue to aggressively enforce our sanctions 
against Iran's support for terrorism, destabilizing activities in the 
region, and human rights abuses. If Iran intensifies these activities, 
we--along with our partners--will combat them.
    Iran has used the Islamic Revolutionary Guard Corps-Qods Force 
(IRGC-QF) to implement its foreign policy objectives and provide cover 
for intelligence operations. The IRGC-QF is the regime's primary 
mechanism for cultivating and supporting destabilizing activities 
abroad.
    However, of Iran's approximately $100 billion in overseas foreign 
reserves, we estimate that, after sanctions relief, Iran will be able 
to freely access only slightly more than half--a little over $50 
billion. That is because over $20 billion is dedicated to projects with 
China, where it cannot be freely spent, and tens of billions in 
additional funds are effectively non-performing loans to Iran's energy 
and banking sectors that are unlikely to be repaid, at least not in the 
next few years.
    U.S. sanctions on the IRGC will not be relieved under this deal. 
The United States will also maintain sanctions on the IRGC-QF, its 
leadership, and its entire network of front companies. This includes 
secondary sanctions that would penalize foreign financial institutions 
that engage in transactions with any of these designated entities. We 
retain the ability to impose additional sanctions on individuals and 
entities providing support to the IRGC or those involved in supporting 
terrorism or human rights abuses, if circumstances warrant.
    Secretary Lew. Did not respond in time for printing. When received, 
answer will be retained in committee files.
                      lifting of the arms embargos
    65. Senator Lee. When the conventional weapons and ballistic 
missile embargos are lifted, what specific weapons and technology do 
you believe Iran is most likely to acquire, and for what purpose? What 
countries do you anticipate will be supplying Iran with these weapons, 
and will the United States have any level of control over, or oversight 
on, what Iran is acquiring and how it will be used?
    Secretary Carter. [Deleted.]
    Secretary Kerry. The existing UNSCRs impose obligations on all 
States to implement the arms and missile embargoes and provide 
authorities to facilitate enforcement. To work, they are dependent on 
the compliance of all UN Member States, not Iran's compliance. Under 
UNSCR 2231 that endorsed the JCPOA, those sanctions will continue for 
another five and eight years after Adoption Day (or until the IAEA 
reaches the broader conclusion that all nuclear materials in Iran 
remain in peaceful activities, whichever is earlier).
    After that, we will retain a number of unilateral and multilateral 
tools to counter Iran's arms transfers and other destabilizing 
activities in the region. We would refer you to the Office of the 
Director of National Intelligence with any further questions regarding 
Iranian procurement intentions and activities. Any discussion of 
specific procurements by Iran would need to be in a classified setting.

    66. Senator Lee. Secretary Carter, given that the embargo on 
ballistic missile technology could be lifted in 8 years, do you 
anticipate that this agreement will have any impact on our current 
regional and homeland missile defense plans?
    Secretary Carter. In the near term, we do not anticipate that the 
nuclear agreement will have any impact on our missile defense plans. 
Iran's large and growing ballistic missile force continues to present 
substantial risks to our deployed forces and bases in the Middle East 
and Europe, to our NATO European Allies and partners, as well as to 
Israel and our Gulf Cooperation Council partners. The United States 
will maintain its missile defense posture across the Middle East, and 
will continue to encourage partners to build interoperable ballistic 
missile defense systems through acquisition of U.S. platforms and 
enhanced cooperation. We will continue with plans to deploy U.S. 
missile defenses in Europe. We are also enhancing and modernizing our 
Ground-based Midcourse Defense system, which provides protection of the 
U.S. homeland against Inter-continental Ballistic Missile (ICBM) 
attacks from countries like North Korea and Iran.
    In the future, we will reevaluate our missile defense plans and 
make adjustments, if necessary, to meet the Iranian ballistic missile 
threat. This could include expanding our homeland missile defense 
system to defend against an emerging ICBM threat from Iran.
                      regional rivalries with iran
    67. Senator Lee. General Dempsey, if Gulf countries and others in 
the region who view Iran as a geopolitical rival or existential threat 
do not believe that this agreement will prevent Iran from acquiring a 
nuclear weapon, or believe that Iran is in violation of the agreement, 
how do you anticipate they will respond? What role would the United 
States play in any potential conflict stemming from a suspected Iranian 
nuclear program?
    General Dempsey. Although Saudi Arabia and others in the region 
have noted concerns publicly over this deal it is unlikely that they 
would pursue a nuclear program in the way Iran has over the last 
decade. We continue to work with our partners in the region regarding 
the development of peaceful nuclear power and to encourage a Middle 
East that is fully compliant with the Nuclear Nonproliferation Treaty.
               ongoing iranian policies and u.s. posture
    68. Senator Lee. Secretary Carter, in an address in Tehran last 
week, Ayatollah Khamenei stated: ``Our policy towards the arrogant U.S. 
government will not change at all'', amid chants of ``Death to 
America'' and ``Death to Israel''. Again, this is a country whose 
policy towards the United States has included direct or indirect 
responsibility for the deaths of hundreds of U.S. military personnel 
over the past 35 years and countless acts of terror and belligerence 
towards our allies. How will the continuation of these Iranian policies 
towards the United States impact our military posture in the CENTCOM 
area of responsibility and intelligence posture around the world?
    Secretary Carter. Existing partnerships and preparations keep the 
United States well-postured to counter Iranian destabilizing activity. 
The Administration remains cognizant of Iran's continued support for 
the Assad regime in Syria, and the extent to which Iran has supported 
rebel groups in Yemen and throughout the region. The United States will 
remain postured to challenge that activity when it runs counter to U.S. 
interests or destabilizes the region.
    Additionally, the Defense Department will continue to work with 
interagency partners to check Iran's destabilizing activities. The 
Department is an important part of a broader government effort to 
counter these malign behaviors, and continues to maintain plans, 
preparations, and posture to be able to execute a robust military 
option, if called upon to do so.
                   consideration of jcpoa as a treaty
    69. Senator Lee. Secretary Kerry, you have given several 
justifications at hearings on this agreement as to why it was not 
submitted as a treaty for advise and consent in the Senate. Why 
specifically was the decision made not to submit this as a treaty, and 
how does the Department of State define ``treaty'' and determine if an 
agreement will be a treaty or an executive agreement?
    Secretary Kerry. The JCPOA is neither a treaty nor an executive 
agreement. The JCPOA consists of political commitments between Iran and 
the United States, the United Kingdom, France, Germany, Russia, China, 
and the European Union. The United States has a longstanding practice 
of addressing sensitive problems in negotiations that culminate in 
political commitments.
    The JCPOA does not need to be a binding agreement under 
international law to be rigorous and enforceable; verifiability and 
transparency are built into the deal itself, and leverage and 
accountability flow from our ability to re-impose sanctions, including 
UN Security Council sanctions, if Iran does not fulfil its commitments 
with respect to its nuclear program.
                               __________
                  Questions Submitted by Senator Cruz
                   iranian threat with nuclear weapon
    70. Senator Cruz. General Dempsey, in your personal opinion, how 
grave is the threat of an Iranian regime that possesses nuclear 
weapons? Is there any reason we shouldn't believe them when they 
declare their intentions to destroy Israel and the United States?
    General Dempsey. [Deleted.]

    71. Senator Cruz. General Dempsey, as the Acting Commander of 
Central Command in 2007 through early 2008, I presume that you met with 
the leadership of our allies in the Middle East? Can you provide your 
opinion on what their reaction to a nuclear Iran will be? Will our 
allies in the Middle East seek to increase their conventional military 
capability? Do you believe our allies in the Middle East will be forced 
to purchase or develop their own nuclear weapons, or do you foresee 
them having to do both?
    General Dempsey. I have had long-lasting relationships with leaders 
in the Middle East from my time at Central Command, as you noted, but 
also during my tenure as Chairman. I have discussed the JCPOA with 
leaders throughout the region. If you are asking what their reactions 
to the deal have been, it runs the gamut. Israel has very publically 
expressed opposition, other countries have privately expressed some 
concern, some have expressed support, and some have not expressed a 
strong opinion either way. If you are asking what their response would 
be to an Iranian regime with nuclear weapons that is a hypothetical 
that I cannot answer. I will say that the JCPOA was designed 
specifically to prevent Iran from developing nuclear weapons. If Iran 
cheats on the deal, and if our very strong verification regime fails, 
and if Iran develops nuclear weapons, it is likely that other Middle 
East allies that have the resources will look to bolster their own 
military capabilities as well. That is why one of our priorities in the 
Department of Defense is to reassure our partners in the Middle East 
through continued military-to-military engagement.

    72. Senator Cruz. Secretary Carter, you recently travelled through 
the Middle East and talked to some of those same leaders. What did they 
tell you about their concerns, and what actions do you see them taking? 
Which country's reaction to the agreement alarmed you the most?
    Secretary Carter. During my late July trip to the Middle East, I 
discussed common strategic threats with partners in the region, and 
sought to advance our bilateral and multilateral partnerships. Although 
our Gulf country partners are rightfully skeptical of Iran's 
intentions, they understand that the lack of trust in Iran is precisely 
why the President sought a nuclear agreement that relies on 
verification to prevent Iran from acquiring a nuclear weapon. Further, 
our Gulf partners understand fully that the U.S. commitment to regional 
security is enduring. Our Gulf partners also understand that the U.S. 
commitment of a robust military presence in the region will continue to 
serve as the ultimate deterrent against any aggression they could face.

    73. Senator Cruz. Secretary Carter, as I understand it, the Defense 
Threat Reduction Agency is designed to provide the Defense Department's 
core expertise with respect to countering the threats from weapons of 
mass destruction. How much did the Defense Threat Reduction Agency 
participate and inform decision making during the negotiation process? 
If so, how much deference was given to their expertise during the 
negotiations led by Secretary Kerry? What is DTRA's foremost concern 
with the JCPOA?
    Secretary Carter. The Defense Threat Reduction Agency/US Strategic 
Command Center for Combating Weapons of Mass Destruction was not 
involved in the negotiations on the JCPOA. The negotiating team kept 
the Department updated on the direction of negotiations and frequently 
consulted with myself and General Dempsey in regards to the military 
dimensions of the Iran agreement. The Department believes this is a 
good deal, because it verifiably blocks all pathways for Iran to 
achieve a nuclear weapon.

    74. Senator Cruz. Secretary Kerry, the Iranian Supreme Leader's top 
adviser for international affairs, Ali Akbar Velayati stated that 
``(the westerners) have made some comments about defensive and missile 
issues, but Iran will not allow them to visit our military centers and 
interfere in decisions about the type of Iran's defensive weapons.'' 
Iranian Ground Force Commander, Brigadier General Ahmad Reza 
Pourdastan, echoed similar statements as well. What mechanisms will we 
have to detect, interdict, or delay nuclear capabilities if we suspect 
that Iran is using military facilities to violate the terms of the 
agreement, particularly if they deny inspectors access to the sites 
after exhausting any proposed alternative arrangements, a review by the 
Joint Commission, and potentially the dispute resolution process?
    Secretary Kerry. If any JCPOA participant has reason to believe 
that Iran is using military facilities or any other facility to violate 
the terms of the JCPOA, it would have the option to share that 
information with the International Atomic Energy Agency (IAEA), and the 
IAEA could request access as appropriate to clarify any questions. If 
Iran were to deny an IAEA request for access to a suspicious undeclared 
location, including military facilities, and Iran and the IAEA cannot 
resolve the issue within 14 days, the issue is brought to the Joint 
Commission, which then has seven days to consider the issue. If Iran 
still will not provide access but five members of the Joint Commission 
(such as the United States, United Kingdom, France, Germany, and the 
European Union) determine that access is necessary, Iran must then 
provide access within three days.
    Iran understands that any failure to cooperate with the IAEA will 
raise significant suspicions among the P5+1 and could lead to a 
snapback of sanctions. Following a request for access by the IAEA to a 
suspicious undeclared location, we would continue to closely monitor 
for indications that Iran was attempting to sanitize a site, and would 
respond appropriately should we observe such sanitization activities.
    The United States has the ability to re-impose both unilateral and 
multilateral nuclear-related sanctions in the event of non-performance 
by Iran. And, in the case of UN sanctions, under UN Security Council 
Resolution 2231, we could do so even over the objections of any member 
of the Security Council, including China or Russia. In addition, we 
have a range of other options for addressing minor non-compliance. 
These include snapping back certain domestic sanctions to respond to 
minor but persistent violations of the JCPOA. Our ability to calibrate 
our response will serve as a deterrent to Iranian violations of the 
deal.

    75. Senator Cruz. Secretary Kerry, the JCPOA stipulates that its 
signatories will cooperate with Iran to provide technical assistance, 
facilitate commercial licenses for supply of nuclear fuel, collaborate 
on technology projects, and most worrisome ``nuclear security.'' This 
entails ``training courses and workshops to strengthen Iran's ability 
to prevent, protect and respond to nuclear security threats to nuclear 
facilities and systems as well as to enable effective and sustainable 
nuclear security and physical protection systems,'' as well as to 
``strengthen Iran's ability to protect against, and respond to nuclear 
security threats, including sabotage, as well as to enable effective 
and sustainable nuclear security and physical protection systems.'' If 
military facilities are still viewed to be of concern, does the fact 
that other nations will be able to improve the physical defense 
capabilities at Iran's nuclear sites concern you? Can any such action 
on behalf of the US to address these military sites be deemed grounds 
for Iran to pull out of the deal?
    Secretary Kerry. Nothing in Annex III of the JCPOA requires the 
United States to participate in any specific cooperation activity. The 
language in the JCPOA is designed to help bring Iran's nuclear security 
and safety practices in line with those used by other peaceful nuclear 
programs around the world. It is in the interest of all countries that 
nuclear material be safeguarded from nuclear accidents, theft and 
terrorist attacks; any training provided by the IAEA or others would be 
for that purpose. While there could be some activities where it would 
be beneficial for the United States to participate, we would only 
participate in such an engagement after a careful review to ensure that 
it meets our overall policy objectives and in ways that are consistent 
with our laws and regulations, which significantly restrict the types 
of interactions that we could have. Any cooperation with Iran in these 
areas would be with respect to declared, peaceful nuclear facilities 
operating consistently with the requirements of the JCPOA. We would not 
expect this to include any military facilities.
    We believe that the Joint Comprehensive Plan of Action (JCPOA), if 
implemented, will be the most effective means to ensure that Iran does 
not obtain a nuclear weapon and ensuring that Iran's nuclear program is 
and will remain peaceful going forward.

    76. Senator Cruz. Secretary Carter, what possible rationale is 
there in providing assistance to the Iranians for hardening their 
nuclear facilities, when we must reserve the capability and the will to 
strike and destroy those facilities in the event the Iranians fail to 
comply?
    Secretary Carter. To clarify, the Joint Comprehensive Plan of 
Action (JCPOA) does not commit the United States--or any of our P5+1 
partners--to undertake any particular nuclear cooperation activity with 
Iran, with the exception of Russia's explicit commitment to stable 
isotope production at the Fordow facility. The JCPOA does contemplate 
the possibility of cooperative activities to assist in ensuring Iranian 
facilities are in compliance with global nuclear safety standards. This 
is work that the International Atomic Energy Agency and its member 
states, including the United States, carry out in dozens of countries 
around the world. I believe it would be irresponsible not to provide 
basic cooperation to improve Iran's capacity to prevent the theft or 
diversion of these nuclear materials. None of the work would reduce our 
ability to take military action against Iran if that was necessary to 
prevent their pursuit of a nuclear weapon.
    With that in mind, the Department's primary responsibility with 
regard to the nuclear deal is to ensure that the President has all 
military options available for any Iran contingency. Therefore, the 
Department will maintain the plans, preparations, and posture to be 
able to execute a robust military option, if called upon to do so. If 
Iran violates the agreement, options that are available today will be 
available to any U.S. President in the future. The United States will 
likely be in a far stronger position 10 or 15 years from now, when Iran 
is further away from a nuclear weapon, and with the inspections and 
transparency measures in place that allow us to monitor the Iranian 
program.

    77. Senator Cruz. Secretary Carter, throughout these negotiations, 
proponents of this deal have stated that the alternative to the deal is 
war. That statement is nonsense. Walking away wouldn't have led to war; 
it would have led to a better deal. This deal doesn't prevent war; it 
leads to a conflict with Iran. As we continue to decrease the size of 
our military to historic levels, Iran is increasing their military 
spending by a third next year, funded by the $100 billion signing bonus 
Secretary Kerry is providing them. Just last month, the Navy announced 
that it would have to remove its aircraft carrier presence from the 
Arabian Gulf for a couple months because they simply don't have the 
capacity. How capable and prepared are we to protect our allies? How 
much improvement in air and missile defense has been accomplished 
across the Gulf Cooperation Council and Israel?
    Secretary Carter. The United States remains fully committed to 
maintaining the defense capacity necessary to protect national security 
interests in the region, including security assurances to regional 
partners. Extensive access to the region provides the capacity and 
capability to respond credibly and effectively to regional threats, as 
well as the capacity to assess regional threats rapidly and 
efficiently. Furthermore, U.S. defense support for Israel remains 
ironclad and has reached unprecedented levels under this 
Administration. The Administration recognizes that Israel faces missile 
threats from a number of actors in the region. That is why in addition 
to Foreign Military Financing assistance, the United States has 
provided more than $3 billion in missile defense assistance to Israel 
since 2001. The Department has worked with Israel to develop a multi-
layered missile defense architecture that includes Iron Dome, David's 
Sling, and Arrow. The U.S. Government also continues to work toward 
advancing the U.S.- Gulf Cooperation Council (GCC) security partnership 
as discussed at the Camp David Summit in May. The Department is focused 
on advancing cooperation in numerous areas, including in missile 
defense and military preparedness. In broadening and deepening the U.S. 
security relationship with GCC States through increased collaboration, 
coordination, and capacity-building, we bolster our ability to mitigate 
potential regional security threats.

    78. Senator Cruz. General Dempsey, do you believe that Iran could 
develop significantly more capable air defense systems between now and 
when the deal lapses that might change its calculus on agreement 
compliance?
    General Dempsey. [Deleted.]
                             hezbollah/arms
    79. Senator Cruz. Secretary Kerry, this week you attempted to ease 
these concerns regarding arms transfers to Hezbollah, stating: ``There 
is a U.N. resolution, 1701, that prevents the transfer of any weapons 
to Hezbollah. That will continue, and what we need to do is make sure 
we're enforcing it.'' Yet, President Obama said in a recent press 
conference: ``It's not like the U.N. has the capacity to police what 
Iran is doing.'' Are the American people and our allies relying on the 
assurances of a UNSC resolution, one which has not been enforced in 
terms of Hezbollah, or will the United States monitor and prevent 
illicit weapons transfers throughout the Middle East?
    Secretary Kerry. We will continue to use the multilateral and 
unilateral tools that are available to us to counter the transfer of 
weapons to Hezbollah.
    The existing UNSCRs impose obligations on all States to implement 
the arms embargo on Iran and provide authorities to facilitate 
enforcement. Under UNSCR 2231 that endorsed the JCPOA, those sanctions 
will continue for another five years after Adoption Day (or until the 
IAEA reaches the broader conclusion that all nuclear materials in Iran 
remains in peaceful activities, whichever is earlier).
    After that, we will continue to have a number of other unilateral 
and multilateral tools available to us to counter Iran's arms transfers 
and other destabilizing activities in the region. Equally important, we 
also continue to work with our partners to counter Iran's destabilizing 
activities in the region and disrupt Iran's weapons transfers.

    80. Senator Cruz. Secretary Kerry, Annex B of UNSC Resolution 2231 
stipulates the five-year conventional weapons embargo extension and the 
eight-year ballistic missile embargo extension can be waived subject to 
``a case-by-case'' determination of the Security Council. Under what 
circumstances will the UNSC approve arms sales to or from Iran?
    Secretary Kerry. The United States would be able to block UN 
Security Council approval of any transfer of weapons or ballistic 
missile-related items covered by the restrictions that remain in force 
under UNSCR 2231, and it is difficult to imagine any circumstance in 
which we would consider allowing the Council to approve such a 
transfer.

    81. Senator Cruz. Secretary Kerry, will the US come to the aid of 
Israel in the event Iranian arms in Hezbollah hands are used or 
deployed on our ally?
    Secretary Kerry. The JCPOA does not alter our relationship with 
Israel or our unwavering commitment to Israel's security and right to 
self-defense. We will continue to aggressively counter Iran's 
destabilizing actions in the region.
    We are also helping Israel address new and complex security threats 
by continuing to ensure Israel's Qualitative Military Edge. We remain 
committed to working together with Israel to provide new capabilities 
to detect and destroy terror tunnels, build highly effective rocket and 
missile defense systems to protect the Israeli people, and help Israel 
improve its cyber-defense capabilities.
                      possible military dimensions
    82. Senator Cruz. Former CIA and DNI Director Michael Hayden said 
this past month: ``We, of course, do not have total knowledge of how 
much progress the Iranians had made . . . I was stunned about a month 
ago when Sec. Kerry declared that we had ``absolute knowledge'' of 
their weaponization effort and that we need not overly focus on the 
past. I know of no American intelligence officer who would claim that 
we have ``absolute knowledge'' of the Iranian weaponization program.'' 
Last month, former Defense Department senior analyst J. Matthew McInnis 
said: ``We have a long history of getting it wrong on these states' 
weapons of mass destruction (WMD) programs . . . No intelligence 
professional would ever (or should ever) say they have absolute 
confidence in their knowledge on any subject, let alone on an 
adversary's nuclear program. But the president and the secretary appear 
to be expecting exactly that of our intelligence officers. Moreover, 
they are basing the legitimacy and success of a nuclear agreement on 
it. Expecting the US intelligence community to have `absolute 
knowledge' of a subject is unprecedented, and frankly absurd.'' At this 
moment, does the US intelligence community have full knowledge of 
Iran's past activities in relation to the possible military dimension? 
If the US does not obtain such knowledge, how are our officials 
supposed to gauge Iran's progress without a baseline to reference?
    Secretary Kerry. A 2007 Director of National Intelligence report 
assessed with high confidence that until fall 2003, Iranian military 
entities were working under government direction to develop nuclear 
weapons.
    Our ability to implement this deal is not linked to Iran's past 
work. This deal is about what Iran's nuclear program will look like in 
the future, and about Iran taking steps to show that it is not 
undertaking current or future nuclear weapons work. We are confident 
that this deal can verifiably ensure that Iran's nuclear program will 
remain peaceful going forward.
    Under the JCPOA, Iran must provide the IAEA with the information 
and access required under the Roadmap Agreement to investigate concerns 
regarding Iran's nuclear program in the past.
    Secretary Carter. [Deleted.]
    General Dempsey. [Deleted.]

    83. Senator Cruz. Secretary Kerry, as I understand it, the 
``Roadmap for Clarification of Past and Present Outstanding Issues'' is 
a mere framework that calls for ``separate arrangements,'' solely 
between the IAEA and Iran, to address undeclared sites, past 
activities, and Parchin. Congress is not able to review these 
arrangements, and therefore has no basis to judge the progress or lack 
thereof regarding Iran's possible military dimension. Additionally, 
none of the P5 countries are allowed to view these separate 
arrangements. This constitutes extraordinary terms of confidentiality. 
Are any other similar separate arrangements between the IAEA and any 
state under its inspection subject to comparable levels of 
confidentiality?
    Secretary Kerry. In the JCPOA, Iran committed to take certain steps 
set forth in the Roadmap Agreement negotiated between the IAEA and 
Iran. The Roadmap refers to two ``separate arrangements'' between the 
IAEA and Iran. Within the IAEA system, such arrangements related to 
safeguards procedures and inspection activities are confidential and 
are not released to other member states. The United States does not 
have a right to demand these documents from the IAEA. However, the 
United States was briefed on these separate arrangements, and we have 
briefed and will continue to brief Congress on them as well.
    It is standard practice for the IAEA and member states to treat 
bilateral documents as ``safeguards confidential.'' This is a principle 
the United States has championed throughout the IAEA's existence to 
protect both proprietary and proliferation-sensitive information. There 
are many cases where states would have liked access to safeguards 
information, including the denuclearization efforts in South Africa, 
investigations in South Korea, and efforts to safeguard enrichment 
plants in Brazil and elsewhere, but where that information remained 
confidential.

    84. Senator Cruz. Secretary Kerry, why are the terms of these 
``separate arrangements'' so stringent that not even the P5 countries 
are allowed to view it?
    Secretary Kerry. In the JCPOA, Iran committed to take certain steps 
set forth in the Roadmap Agreement negotiated between the IAEA and 
Iran. The Roadmap refers to two ``separate arrangements'' between the 
IAEA and Iran. Within the IAEA system, such arrangements related to 
safeguards procedures and inspection activities are confidential and 
are not released to other member states.
    It is standard practice for the IAEA and member states to treat 
bilateral documents as ``safeguards confidential.'' This is a principle 
the United States has championed throughout the IAEA's existence to 
protect both proprietary and proliferation-sensitive information. The 
United States does not have a right to demand these documents from the 
IAEA. However, the United States was briefed on these separate 
arrangements, and we have briefed and will continue to brief Congress 
on them as well.

    85. Senator Cruz. Secretary Kerry, the Defense Threat Reduction 
Agency is responsible for partnering, verifying, researching, 
responding, defending, and preparing against the full threat spectrum--
chemical, biological, radiological, nuclear and high yield explosives. 
According to DTRA's website, the agency partners with ``countries that 
have been our allies for centuries, and we partner with countries that 
have recently opened their doors to the United States . . . with any 
country that wants to reduce and eliminate weapons of mass destruction, 
or be prepared for a crisis involving WMD.'' Did DTRA in any way 
participate in negotiating the JCPOA before a final agreement was 
struck?'' Has DTRA been consulted on the terms of the JCPOA since it 
was released? Can you verify that DTRA will not be a partner in 
protecting or securing Iran's nuclear facilities, pursuant to Annex III 
Section D, whether through technology development, academic workshops, 
or information sharing?
    Secretary Kerry. The negotiation of the JCPOA was a fully 
interagency effort of the U.S. government. Implementation of the deal 
will similarly draw on the full spectrum of expertise within the U.S. 
interagency, including, where appropriate, the Department of Defense.
    Nothing in Annex III of the JCPOA requires the United States to 
participate in any specific cooperation activity. While there could be 
some activities where it would be beneficial for the United States to 
participate, we would only participate in such an engagement after a 
careful review to ensure that it meets our overall policy objectives 
and in ways that are consistent with our laws and regulations, which 
significantly restrict the types of interactions that we could have.
                   iaea inspections and verification
    86. Senator Cruz. Please explain the rationale for a potential 
delay of up to 24 days for IAEA inspections.
    Secretary Kerry. The Joint Comprehensive Plan of Action (JCPOA) 
includes the most comprehensive and rigorous verification regime ever 
negotiated, including an unprecedented access provision that ensures 
both timely and effective IAEA access to any undeclared location in 
Iran necessary to verify Iran's compliance, including at military 
locations.
    To be clear, the IAEA can request access to any suspicious location 
with 24 hours' notice under the Additional Protocol, which Iran will 
implement under this deal. This deal does not change that baseline. It 
enhances it, by creating a new mechanism to ensure the IAEA gets the 
access it needs to undeclared locations and by setting a firm limit to 
resolve access issues--24 days. Without the special access provisions 
we negotiated in the JCPOA, Iran could stonewall the IAEA for years and 
not be in violation. The IAEA has been seeking access to the Parchin 
facility for well over three years.
    Either Iran must provide the necessary access to resolve the IAEA's 
concerns within 24 days (at the maximum), or Iran would be in violation 
of its Joint Comprehensive Plan of Action (JCPOA) commitments and 
sanctions could be snapped back. Our experts believe, and the history 
in Iran and elsewhere has shown, that a site contaminated with nuclear 
materials is very unlikely to be successfully sanitized within 24 days, 
or longer for that matter.
    Iran understands that any failure to cooperate with the IAEA will 
raise significant suspicions among the P5+1 and would likely lead to a 
snapback of sanctions. If Iran refused access after a decision of the 
Joint Commission, the United States could take appropriate action at 
that time.
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    87. Senator Cruz. Is the IAEA relying on Iran to provide samples 
from the Parchin site? If so, who or what entity in Iran is designated 
to carry out this task?
    Secretary Kerry. Under the Joint Comprehensive Plan of Action 
(JCPOA), Iran must complete the activities required of it in the 
``Roadmap for Clarification of Past and Present Outstanding Issues 
regarding Iran's Nuclear Program with the IAEA.'' This includes a 
separate arrangement on Parchin. This arrangement, like other 
arrangements related to safeguards agreements and inspections 
activities, is confidential within the IAEA system. We cannot address 
publicly the details of what the Roadmap activities entail. As we have 
said before--and as we briefed Congress fully in classified settings--
the U.S. government's nuclear experts are confident that the Agency's 
plans for Parchin are technically sound. Finally, Iran will not get 
additional sanctions relief until the IAEA verifies that Iran has 
completed its nuclear steps, including those related to PMD.
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    88. Senator Cruz. Secretary Moniz, the JCPOA limits the stockpile 
of enriched uranium, or its equivalent in chemical forms, at 300 kg of 
up to 3.67 percent. However, Annex I outlines three significant 
instances when enriched uranium is not counted toward this limit when: 
(1) fabricated fuel assemblies from Russia are used at Russian reactors 
inside Iran, (2) when enriched uranium from other countries is used in 
Iran's reactors, and (3) when enriched uranium in fuel assemblies are 
manufactured in Iran. How will the IAEA account for this additional 
uranium, and will it be reported on?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    89. Senator Cruz. The JCPOA stipulates that, in the event Iran 
seeks to purchase fuel for the TRR and enriched uranium targets, the 
signatories to the Agreement ``will supply a quantity of 19.75 percent 
enriched uranium oxide (U3O8) and deliver [it] to Iran.'' Can you 
guarantee that the United States will not engage as a supplier of 
enriched uranium oxide to Iran when it seeks to purchase this material?
    Secretary Kerry. Under the JCPOA, Iran will seek to enter into a 
commercial contract for the external supply of fuel for the Tehran 
Research Reactor (TRR). In the case of lack of conclusion of such a 
contract with a fuel supplier, the E3/EU+3 will supply a quantity (in 
increments no greater than approximately 5 kg) of enriched uranium 
oxide to Iran, exclusively for the purpose of TRR fuel and target 
fabrication. Nothing in the JCPOA would require such a transfer 
specifically from the United States.
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.
                               __________
               Questions Submitted by Senator Bill Nelson
                             iran sanctions
    90. Senator Nelson. Secretary Lew, If Congress does not permit 
sanctions to be lifted under the terms of the Joint Comprehensive Plan 
of Action (JCPA), will other countries continue to cooperate with U.S. 
sanctions? Specifically, will countries that import Iranian oil--China, 
India, Japan, South Korea, and Taiwan--continue to comply with 
sanctions imposed by Section 1245 of the Fiscal Year (FY) 2013 National 
Defense Authorization Act (P.L. 112-239)?
    Secretary Lew. Did not respond in time for printing. When received, 
answer will be retained in committee files.

    91. Senator Nelson. Secretary Lew, could the Department of Treasury 
compel their continued cooperation with threat of economic sanction? 
Would such a threat be credible?
    Secretary Lew. Did not respond in time for printing. When received, 
answer will be retained in committee files.
                               __________
          Questions Submitted by Senator Kirsten E. Gillibrand
              negative iranian activity in the middle east
    Senator Gillibrand. We've heard a lot of concerns about the fact 
that this deal did not address Iran's bad behavior in the region.

    92. Secretary Kerry, what were the Administration's reasons for not 
addressing these issues?
    Secretary Kerry. Iran's destabilizing activities in the region are 
a top concern of the Administration. An Iran with a nuclear weapon 
would make this aggressive behavior even more concerning. That is why 
the Administration believes the first step is to prevent Iran from 
developing a nuclear weapon. This arrangement addresses that concern by 
ensuring that Iran cannot obtain a nuclear weapon as we continue our 
work to hold Tehran accountable for its destabilizing regional 
activities, including its support for terrorism. The President is 
committed to working closely with Israel, the Gulf countries, and our 
other regional partners to do just that.

    93. Senator Gillibrand. Secretary Kerry, how will we ensure that 
the loosening of sanctions and the integration of Iran into the world 
economy does not backfire and generate more violence in the region?
    Secretary Kerry. We remain vigilant against threats to regional 
stability from Iran, and have not let up on our efforts to address 
Iran's support for terrorism and destabilizing activities in the 
region, including through designations of Iranians involved in support 
for terrorism during the Joint Plan of Action (JPOA) period. We have 
made clear to Iran that we will continue to utilize all our tools to 
disrupt such activities by Iran. First, we are undermining Iran's 
capacity to execute attacks directly or through its partners and 
proxies by expanding our cooperation with and strengthening the 
capacity of regional partners. Second, we are working to restrict 
Iran's ability to move money and material for illicit purposes through 
sanctions and interdiction actions when necessary. Third, we remain 
committed to Israel's security and that of our other regional allies 
and we continue to build up our partners' capacity to defend themselves 
against Iranian aggression. Fourth, we are working unilaterally and 
with allies to weaken Hizballah's financial networks. Finally, we are 
working to disrupt Iran's relationships with its partners by 
publicizing Iran's meddling wherever we can and over the long-term by 
strengthening democratic institutions and the rule of law in countries 
facing threats from Iranian proxy activities.

    94. Senator Gillibrand. Secretary Carter, do you anticipate that 
Iran will use some of its freed-up cash to fund its proxies like the 
Houthis in Yemen, Bashar al-Assad in Syria, Hezbollah in Lebanon, and 
Hamas in Gaza?
    Secretary Carter. [Deleted.]

    95. Senator Gillibrand. Secretary Carter, what is the U.S. counter-
strategy?
    Secretary Carter. The Defense Department's primary responsibility 
with regard to the nuclear agreement is to ensure that the President 
has all military options available for any Iran contingency. The 
Department will maintain plans, preparations, and posture to be able to 
execute a robust military option, if called upon to do so. The 
Department remains prepared and postured to bolster the security of 
regional partners, including Israel, to defend against aggression, 
ensure freedom of navigation in the Gulf, and to check Iranian malign 
influence. Finally, the Department is postured and prepared to respond 
to possible Iranian non-compliance with the agreement.
                              verification
    Senator Gillibrand. Secretary Moniz, the Additional Protocol 
specifies that for access to undeclared and other sites, ``advance 
notice shall be in writing and shall specify the reasons for access and 
the activities to be carried out during such access.'' The JCPOA says 
the IAEA will ``provide Iran the reasons for access in writing and will 
make available relevant information.'' I have talked to IAEA inspection 
experts who both have told me that the amount of information required 
under the JCPOA for access to an undeclared site appears to be greater 
than under the Additional Protocol.

    96. Secretary Moniz, can you explain to me why the agreement 
requires the IAEA to ``make available relevant information'' when the 
Additional Protocol does not? Could this requirement to ``make 
available relevant information'' be difficult to implement and perhaps 
inhibit a request for access if, for example, the request is based on 
intelligence information?
    Secretary Moniz, the Administration has indicated that it would 
take no more than 24 days to gain access to an undeclared site where 
there is suspicion of activities contrary to the JCPOA. However, the 
JCPOA also that states that the 24 day clock begins with the ``IAEA's 
initial request for access'' and the initial request for access cannot 
be made until after a request for clarification and Iran's response, 
potentially creating a delay longer than 24 days. According to the 
agreement, once a site is identified by the agency, and before the 
``IAEA's initial request for access,'' the IAEA must ``provide Iran the 
basis for such concerns and request clarification'' and then allow Iran 
to attempt to explain. The IAEA can only request access if ``If Iran's 
explanations do not resolve the IAEA's concerns.
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    97. Senator Gillibrand. Secretary Moniz, does this initial period 
potentially extend the time for access significantly beyond 24 days 
from the time a suspicious site is identified by the IAEA and the 
concern is communicated to Iran?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    98. Senator Gillibrand. Secretary Moniz, some have suggested that 
the 24 day clock begins with the initial request for clarification, 
notwithstanding the language of the agreement. If this is the 
Administration position, has Iran agreed to this?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    99. Senator Gillibrand. Secretary Moniz, what kind of cheating 
could Iran do within 24 days?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    100. Senator Gillibrand. Secretary Moniz, according to Dr. Olli 
Heinonen, former Deputy Director of the IAEA, Iran could theoretically 
sanitize a suspected site of materials--including nuclear materials--
within 2 weeks and has done so in the past. Do you agree with this 
assessment? Why or why not?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    101. Senator Gillibrand. Secretary Carter, some analysts believe 
that if Iran is allowed to continue to enrich nuclear materials, even 
for allegedly peaceful purposes, that other countries in the region 
will follow suit and begin their own nuclear programs. What is your 
assessment of this likelihood? Will this deal lead to a nuclearization 
of the Middle East?
    Secretary Carter. [Deleted.]

    102. Senator Gillibrand. Secretary Moniz, this agreement begins 
with a significant roll back of Iran's capabilities and levels of 
inspection that include access to known facilities, limitations on the 
number of centrifuges they can have spinning, the 24-day access window 
and oversight of the supply chain. But over time, these restrictions 
and additional access are eliminated and after 25 years, all that is 
left are Iran's responsibilities under the Nonproliferation Treaty and 
the Additional Protocol. Can you walk us through what we gain in the 
interim and at the end of 25 years, are we back where we started?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    103. Senator Gillibrand. Secretary Moniz, what kind of inspections 
regime (frequency, access, and clear consequences) will be necessary to 
create an effective deterrent so Iran will not cheat?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    104. Senator Gillibrand. Secretary Moniz, does the IAEA have those 
capabilities?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    105. Senator Gillibrand. Secretary Moniz, Iran's clandestine 
activities, rather than just the existing facilities, are of great 
concern considering its history. What do we know about Iran's past 
efforts to cheat and set up a clandestine program?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.
                        past military dimensions
    106. Senator Gillibrand. Secretary Moniz, what do we still need to 
learn through the PMD process with the IAEA?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    107. Senator Gillibrand. Secretary Moniz, what, if anything, does 
this deal do in response to that?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    108. Senator Gillibrand. Secretary Moniz, what guarantees are there 
that the deal's PMD process will cover everything clandestine that's 
potentially out there?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    109. Senator Gillibrand. Secretary Carter, will the access for 
these first 10-15 years help in the future should Iran later be found 
to have developed a covert program and broken its commitments under the 
nuclear Nonproliferation Treaty (NPT) and Additional Protocol?
    Secretary Carter. Ten or fifteen years from now, the United States 
will likely be in a far stronger position with Iran further away from a 
nuclear weapon, and with the inspections and transparency measures in 
place that allow for stronger international monitoring of the Iranian 
program than would be in place without this deal. I will not comment on 
the specifics of military planning, but I am confident in the 
Department's ability to serve as an insurance policy against possible 
Iranian non-compliance.

    110. Senator Gillibrand. Secretary Moniz, Which countries have the 
best weapons inspectors? Will they be on the ground in Iran?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    111. Senator Gillibrand. Secretary Moniz, The agreement calls for 
130+ inspectors from IAEA to monitor Iran's program. In your opinion, 
is this number sufficient?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    112. Senator Gillibrand. Secretary Moniz, Does IAEA have sufficient 
technical expertise to adequately monitor Iran's nuclear program, 
particularly any clandestine activities?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    113. Senator Gillibrand. Secretary Moniz, what about IAEA's funding 
and resources? Are they sufficient?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    114. Senator Gillibrand. Secretary Moniz, what if anything can the 
U.S. do to strengthen the IAEA's hand?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    115. Senator Gillibrand. Secretary Moniz, Do you believe that, at 
the end of the 10-15 years of more restricted activity, Iran will be a 
``nuclear threshold'' state capable of being able to move rapidly to 
weaponization?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.

    116. Senator Gillibrand. Do you have any concerns about Russia 
reprocessing spent fuel from Arak or with converting centrifuges at 
Fordow to isotope production?
    Secretary Moniz. Did not respond in time for printing. When 
received, answer will be retained in committee files.
    Secretary Kerry. Under the Joint Comprehensive Plan of Action 
(JCPOA), Iran must export all spent fuel from the redesigned Arak 
reactor, for the lifetime of the reactor, to a mutually determined 
location in a P5+1 country or third country, for further treatment or 
disposition, as provided for in relevant contracts between the parties. 
While there are no such contracts to date, we would welcome one of our 
P5+1 partners--including Russia--taking on this role.
    Regarding Fordow, the JCPOA provides for two centrifuge cascades to 
be modified for the production of stable isotopes, conducted in joint 
partnership between Russia and Iran on the basis of mutually agreed 
arrangements. We welcome Russia's willingness to cooperate with Iran on 
activities to transition the Fordow facility from a uranium enrichment 
facility--which is its current use without a JCPOA--to a nuclear, 
physics, and technology center without nuclear material and where no 
uranium enrichment or uranium enrichment research and development is 
conducted.
                ramifications of congress rejecting deal
    Senator Gillibrand. Secretary Kerry, the Administration has stated 
that the consequences would be ``catastrophic'' if Congress were to 
reject the agreement.

    117. Secretary Kerry, please walk us through exactly what you 
foresee happening in such a scenario.
    Secretary Kerry. If Congress rejects the deal, the United States 
would not be in a position to fulfill its sanctions relief commitments 
under the JCPOA because of the restrictions under the Iran Nuclear 
Agreement Review Act (INARA). The expected result would be that Iran 
would refuse to meet its commitments, and the JCPOA would collapse. 
Without sanctions relief from the United States, Iran would very likely 
not take the significant nuclear steps the JCPOA requires to roll back 
and constrain its nuclear program, or to provide unprecedented access 
to monitor it. In this scenario, the existing UNSC sanctions regime 
would remain in place because the IAEA would not be in a position to 
confirm that Iran has taken the nuclear steps outlined in the JCPOA. 
Compliance with these and other sanctions would begin to erode, 
however, as countries perceived that the U.S. had turned its back on a 
feasible negotiated solution. This would put us in the worst possible 
position of losing our constraints on Iran's nuclear program while our 
leverage begins to weaken.

    118. Senator Gillibrand. Secretary Kerry, please explain why it 
wouldn't be possible for the P5+1 to return to negotiations to get a 
stronger deal.
    Secretary Kerry. Our international partners joined us in applying 
tough sanctions to Iran because we made the case that Iran's nuclear 
program was an uncontained threat to global security. Sanctions were 
used to bring Iran to the negotiating table, which worked. Now, after 
two years of negotiating with Iran, the international community does 
not believe that ramping up sanctions will result in a better deal. 
Instead, should Congress reject the deal and impose new sanctions, the 
international community would blame us for walking away from a credible 
solution and would move forward with their desire to re-engage with 
Iran. We would no longer be able to maintain the tough international 
sanctions regime that forced Iran to negotiate.
    The countries whose cooperation we need--including those in the 
European Union, China, Japan, India and South Korea, as well as the 
companies and banks that handle their oil purchases and hold foreign 
reserves--are among the largest economies in the world. These partners, 
should they believe our efforts to negotiate a nuclear deal were 
disingenuous, would likely decide to stop cooperating with our 
sanctions.
    If Congress voted to reject the deal, we would go from a situation 
in which Iran is isolated to one in which the United States is 
isolated. That would be damaging in general, but would represent a 
significant setback in our ability to mitigate the profound threat to 
international peace and security the Iranian nuclear program poses.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                       sanctions on iranian banks
    119. Senator Blumenthal. Secretary Lew, thank you for your efforts 
and those at treasury working to stop terror financing and the entire 
OFAC team. You have a real challenge here with this proposed agreement 
because it is a Sisyphean task to disambiguate Iranian banks involved 
in terror financing from those involved in financing Iran's covert 
nuclear program. They are really two sides of the same coin, both state 
enterprises of the Government of Iran. With Iran being a state sponsor 
of terror, I am deeply troubled that the sanctions relief in this 
proposed agreement will allow banks engaged in terror financing back 
into SWIFT and global commerce. While I have been assured that Bank 
Saderat remains sanctioned because of its terror finance activities, 
Oner Bank, which is a bank directly owned or controlled by Bank Saderat 
is removed from sanctions. Likewise, Karafarin Bank is given sanction 
relief. As you know the Karafarin Bank is a private bank controlled by 
Iran's Supreme Leader, Seyed Ali Khamenei, through holding companies. 
Please explain to the Committee how the private bank of the Ayatollah 
is not engaged in terror financing.
    Secretary Lew. Did not respond in time for printing. When received, 
answer will be retained in committee files.

    120. Senator Blumenthal. Secretary Lew, another example is Bank 
Tejerat. This bank financed Iran's attempts to acquire yellowcake 
uranium. But it also supports the activities of subsidiaries and 
subordinates of Iran's Islamic Revolutionary Guard Corps and we know 
the IRGC is coordinating terrorism across the Middle East as we speak. 
So will you pledge today that Bank Tejerat will remain on our SDN 
(Specialty Designated Nationals) list and that you will work with our 
EU allies keep this and the other banks I mentioned out of the SWIFT 
system?
    Secretary Lew. Did not respond in time for printing. When received, 
answer will be retained in committee files.



                 THE JOINT COMPREHENSIVE PLAN OF ACTION
          (JCPOA) AND THE MILITARY BALANCE IN THE MIDDLE EAST

                              ----------                              


                        TUESDAY, AUGUST 4, 2015


                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Sullivan, Reed, Nelson, McCaskill, Manchin, Shaheen, 
Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, King, and 
Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Before we commence the hearing, I would 
like to say, since a quorum is now present, I ask the committee 
to consider two civilian nominations and a list of 1,476 
pending military nominations.
    First, I ask the committee to consider the nomination of 
Ms. Joyce Louise Connery to be a member of the Defense Nuclear 
Facility Safety Board, and Mr. Joseph Bruce Hamilton to be a 
member of the Defense Nuclear Facilities Board. Is there a 
motion to favorably report these two civilian nominations to 
the Senate?
    Senator Reed. So moved.
    Senator Inhofe. Second.
    Chairman McCain. Is there a second?
    Senator Inhofe. It's me.
    Chairman McCain. All in favor?
    [A chorus of ayes.]
    Chairman McCain. All those opposed?
    [No response.]
    Chairman McCain. The ayes have it.
    Second, I ask the committee to consider a list of 1,476 
pending military nominations, including General Mark A. Milley 
to be Chief of Staff of the Army, Admiral John R.--John M. 
Richardson to be Chief of Naval Operations, and Lieutenant 
General Robert B. Neller to be General and Commandant of the 
Marine Corps.
    Of these nominations, 298 nominations are 1 day short of 
the committee's requirement that nominations be in committee 
for 7 days before we report them out. No objection has been 
raised, these nominations. I recommend the committee waive the 
7-day rule in order to permit the confirmation of the 
nominations of these officers before the Senate goes out for 
the August recess.
    Is there a motion to favorably report these 1,476 military 
nominations to the Senate?
    Senator Reed. So moved.
    Chairman McCain. Is there a second?
    Senator Reed. Second.
    Chairman McCain. All in favor, say aye.
    [A chorus of ayes.]
    Chairman McCain. The motion carries. This--a significant 
turnover in the--on the leadership--top leadership of the 
United States military.
    The committee meets today for our second oversight hearing 
on the Joint Comprehensive Plan of Action, which the United 
States and other major powers have signed with Iran.
    We welcome our distinguished witnesses and thank them for 
joining us today: General Michael Hayden, Principal at the 
Chertoff Group and former Director of the Central Intelligence 
Agency; Ambassador Nicholas Burns, Goodman Professor of 
Diplomacy and International Relations at the Harvard Kennedy 
School and former Under Secretary of State for Political 
Affairs; Ambassador Eric Edelman, Distinguished Fellow at the 
Center for Strategic and Budgetary Assessments and former Under 
Secretary of Defense for Policy; and Dr. Richard Haass, 
President of the Council on Foreign Relations and former 
Director of Policy Planning at the State Department. A very 
distinguished panel, and I thank all of them for coming to 
testify before us today.
    The committee's oversight is primarily focused on the 
strategic and military implications of the agreement, which is 
the responsibilities of the Armed Services Committee. Among 
other things, we want to know how this agreement will affect 
regional security, proliferation, and the balance of power in 
the Middle East; what impact it may have on Iran's malign 
activities and hegemonic----
    Senator Reed. Dominating-the-region stuff.
    [Laughter.]
    Chairman McCain.--ambitions in the region--hegemonic 
ambitions in the region; what it means for perceptions of 
American credibility and resolve among our allies and partners; 
and what the consequences are for U.S. defense policy, military 
planning, and force posture.
    From this broader strategic perspective, this bad deal only 
looks that much worse. The committee is eager to hear our 
witnesses' assessments of the vital details of this agreement, 
especially the verification and monitoring mechanisms, which 
include two side agreements between the IAEA and Iran, neither 
of which the administration or the Congress have seen. At the 
same time, what is even more troubling are the military 
implications of this agreement.
    Iran is not just an arms-control challenge, it is a 
geopolitical challenge. For years, many of us have urged the 
administration to adopt a regional strategy to counter Iran's 
malign activities in the Middle East. Unfortunately, if such a 
strategy exists, there is no evidence of it. Instead, we have 
watched with alarm as Iran's military and intelligence 
operatives have stepped up their destabilizing activities in 
Iraq, Syria, Lebanon, Yemen, Bahrain, Gaza, and elsewhere. Iran 
did all of this under the full pressure of sanctions. Now Iran 
will receive a windfall of sanctions relief estimated at 
roughly $60 billion, or possibly much more. It is only fair to 
assume that billions of additional dollars will soon flow to 
the Iran's Revolutionary Guards Force, or Quds Force, money 
that will be used to boost arms supplies to Iran's terrorist 
proxies, to sow chaos and instability across the region, and 
double down on Bashar Assad right when he needs it most. This 
will present a host of new challenges for the Department of 
Defense.
    This agreement will not only strengthen Iran's malign 
activities in the region, it will also further Iran's emergence 
as a dominant military power in the Middle East. Despite 
repeated assurances that negotiations were strictly limited to 
the nuclear program, the administration made major concessions 
related to conventional weapons and ballistic missiles, 
concessions that the Chairman of the Joint Chiefs of Staff 
warned, before the agreement, should occur under, quote, ``no 
circumstances.''
    In 8 years, this agreement would lift restrictions on 
ballistic missiles whose only conceivable military purpose 
would be to deliver nuclear weapons against the United States 
and its allies. In 5 years, this agreement would lift the 
international arms embargo against Iran, freeing up the regime 
to acquire advanced conventional military capabilities. With 
billions of dollars in sanctions relief, Iran is sure to find 
plenty of states that are eager to sell those weapons, 
especially Russia and China.
    These concessions have direct and dangerous implications 
for the U.S. military. The administration says that the 
military option will remain on the table if Iran violates the 
agreement. And that is true. Yet, the agreement itself would 
enable Iran to construct the very kind of advanced military 
arsenal, the anti-access and area denial capabilities, that 
could raise the cost of employing our military option. In 
short, if this agreement fails, United States servicemembers 
are called upon to take action against Iran, their lives would 
be at greater risk because of this agreement.
    And that is perhaps most troubling of all about this 
agreement, what it means for America's credibility in the 
Middle East. For decades, the United States has sought to 
suppress security competition in the region between states with 
long histories of hostility toward one another and to prevent 
war. I fear this agreement could further undermine our ability 
and willingness to play that vital stabilizing role.
    Our allies and partners in the Middle East have 
increasingly come to believe that America is withdrawing from 
the region, and doing so at a time when Iran is aggressively 
seeking to advance its ambitions. Now we have reached an 
agreement that will only legitimize the Islamic Republic as a 
threshold nuclear state with an industrial enrichment 
capability, but will also unshackle this regime and its long-
held pursuit of conventional military power, and may actually 
consolidate the current regime's control in Iran for years to 
come.
    The President and his advisors are fond of saying that the 
only alternative to this deal is war. This kind of false choice 
is all too familiar from this administration. And these cheap 
scare tactics have no place in a national security debate of 
this magnitude. And our military leaders know better. The 
Chairman of the Joint Chiefs, General Dempsey, told this 
committee last week, quote, ``We have a range of options.'' 
Likewise, the President's nominee to be the next Chief of Naval 
Operation testified that, quote, ``There are other options 
besides going to war.''
    In addition to your analysis of the agreement and its 
consequences, all of us are eager to hear from each of you 
today what realistic alternatives there is to this agreement 
and what role the Congress should now play.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    And we are, indeed, fortunate to have before us today 
witnesses that have served time in the military and our 
diplomatic service, intelligence entities of our government. 
They have a wide range of knowledge and experience in issues 
relating to the Middle East, nonproliferation, asymmetric 
warfare, and matters of war and peace in general.
    This is our second hearing relating to the Joint 
Comprehensive Plan of Action, or the JCPOA. And I want to thank 
Chairman McCain for his effort to make sure the committee is 
presented with a range of views and opinions on the JCPOA.
    In the weeks ahead, Congress has an obligation to review 
carefully the details of this agreement and to validate that 
the agreement will meet our common goal of stopping Iran from 
acquiring a nuclear weapon. This week's hearings are part of 
that effort.
    Last week, the committee held a hearing with the 
Secretaries of Treasury, State, Defense, and Energy, and the 
Chairman of the Joint Chiefs of Staff. That hearing was 
important, as it provided the committee with the 
administration's views on the agreement, plans for regional 
engagement in the months and years ahead, and an opportunity to 
better understand the details of the agreement, from Iran's 
enrichment capabilities under the JCPOA to how snap-back 
provisions and sanctions would be imposed if the terms of the 
agreement were violated.
    I hope our witnesses today will provide their assessment of 
whether the deal is in--the best available option to present 
the Iranians from obtaining a nuclear weapon, both in the near 
and long term. I specifically hope they will address a number 
of areas: the terms of the agreement itself, particularly with 
respect to cutting off a path to a nuclear device, past 
military dimensions of the program, duration, and the breakout 
time necessary for Iran to acquire a nuclear weapon; the 
alternatives, if any, to the JCPOA--and I think these 
alternatives are something that we must consider; three, the 
inspection regime under the deal, including lessons learned 
from past international inspections that have been incorporated 
into this deal; four, the role and capacity of the 
International Agency--the Atomic Energy Agency to implement 
this deal; and finally, the sanctions regime under the JCPOA, 
and availability of those tools to be used against Iran in 
situations of terrorism, regional destabilization activities, 
and human rights abuses.
    While the implementation of this agreement will not be 
performed by the Department of Defense, the Department will 
have a critical role in implementing the regional engagement 
policies and programs laid out at Camp David with our Gulf 
Cooperation Council partners. Secretary Kerry is in the region 
this week and is working with our GCC partners for the next 
steps of this policy: to enhance the ballistic missile defense 
capability of the GCC and to improve their interoperability and 
collective defense against asymmetric threats. These are 
important efforts that I look forward to hearing about today.
    Israel rightly views Iran as a significant ongoing threat 
to their national security interest. And, while Prime Minister 
Netanyahu is unlikely to ever endorse this agreement, the 
United States should make every effort to deepen further our 
cooperation on military and intelligence matters with Israel. I 
would be interested in hearing the assessment of the witnesses 
on how the United States might successfully move forward with 
the Netanyahu government if this agreement is ultimately 
adopted.
    I want to make one final point. These negotiations focused 
on denying Iran a pathway to a nuclear weapon. A nuclear weapon 
would be a more critical factor in the region. In fact, Iran 
would be a more formidable force in the region if it had a 
nuclear weapon, and, as it is repeatedly demonstrated, not a 
force for peace and stability, but one that supports terror and 
seeks to impose its will throughout the Middle East. Moreover, 
a nuclear Iran would likely prompt a regional nuclear arms race 
that, through accident or design, could lead to catastrophe. 
None of us would condone or ignore Iran's support of terror or 
other destabilizing activities in the region, but these 
negotiations were properly focused on nuclear weapon.
    I look forward to the panel's responses as we continue to 
deepen our understanding of this agreement.
    Thank you, Mr. Chairman.
    Chairman McCain. Welcome the witnesses.
    General Hayden, we'll begin with you.

STATEMENT OF GENERAL MICHAEL V. HAYDEN, USAF (RET.), PRINCIPAL, 
 THE CHERTOFF GROUP AND FORMER DIRECTOR, CENTRAL INTELLIGENCE 
                             AGENCY

    General Hayden. Thank you, Mr. Chairman, Mr. Vice Chairman, 
for the invitation and including me in such a distinguished 
panel.
    I actually will be very brief in my opening remarks, 
because I know we've got an awful lot of questions with which 
we have to deal.
    I do appreciate, however, in my conversation with the 
committee staff, that the committee seems to be organizing its 
inquiry along a pattern of what I will call--the staff 
doesn't--what I will call three bubbles:
    One bubble is the nature of the agreement itself. And 
that's the part that the President has asked us to focus on. He 
actually has said, ``Judge this agreement on whether or not it 
prevents Iran from getting a nuclear weapon in the next 10 
years.'' I actually think that's a fairly narrow focus, and 
that is not the only consideration that we must bring to mind 
in considering this agreement. Now, we can argue within that 
bubble as to whether or not it's actually sufficient for that 
more narrowly defined task with regard to possible military 
dimensions, the inspection regime, the realism of snap-back 
inspections, and so on. And I'm sure we will discuss that, 
going forward. But, frankly, of the three bubbles I'm going to 
describe, it's probably, in my eye, the most favorable, despite 
its weaknesses.
    A second bubble has to do with time. Where are we in 10 
years? And where we will be in 10 years, if the agreement is 
honored, we will be, within Iran, with an industrial strength 
nuclear complex and permanent nuclear weapons threshold status. 
That's what we have negotiated. And so, I think that's also a 
second very important consideration, not just what it does from 
zero to 10.
    And then, finally and perhaps most immediately, it's what 
the agreement does now to all the other aspects of Iranian 
behavior that are so troubling to us: what they do with regard 
to support to terrorism, Hamas, Hezbollah, their activity in 
Iraq, in Lebanon, shoring up the Bashar al-Assad government in 
Syria, and, of course, their contribution to the civil war in 
Yemen. Iran is doing that now, and is doing that as an 
isolated, impoverished, considered, renegade nation-state in 
the region. What might Iran be doing in those regards if Iran 
is no longer isolated, no longer considered renegade, brought 
back into the family of nations, and considerably richer than 
it is today?
    Mr. Chairman, the night before you arrived at Aspen, a few 
weeks ago, General Clapper was out in the big tent answering 
some questions, and he was asked about the agreement. And his 
bottom line was, ``A terrorist-supporting state without a 
nuclear weapon, a terrorist-supporting state with a nuclear 
weapon, I think the choice is clear.'' Jim's a good friend, and 
that is an incredibly important consideration. But, I don't 
think we can isolate ourselves to that consideration. As soon 
as he said it, I kind of perked up and said, ``Let me give''--I 
didn't say it out loud, but to myself--``Let me give you a 
contrary calculus.'' Okay? ``A terrorist-supporting state, 
isolated, renegade, impoverished, and not able to have normal 
dialogue or intercourse with the community of nations, and a 
terrorist-supporting state rich, engaged, accepted, and 
legitimated.'' Those are the kinds of problems I think the 
immediate and predictable--not only--beyond that, inevitable--
byproducts, even if bubble one were acceptable, that we would 
have to deal with before we consider the entire agreement 
acceptable.
    Thank you very much, Mr. Chairman. I know we'll have lots 
of questions, going forward.
    Chairman McCain. Thank you.
    Dr. Haass.

 STATEMENT OF RICHARD N. HAASS, PRESIDENT, COUNCIL ON FOREIGN 
    RELATIONS AND FORMER DIRECTOR OF POLICY PLANNING, U.S. 
                      DEPARTMENT OF STATE

    Dr. Haass. Thank you, Mr. Chairman. Thank you for this 
opportunity.
    Look, this agreement with Iran, like any agreement, is 
filled with compromise. And I would say the--what we can simply 
do is summarize it as a tradeoff. Inconsistent, I think, with 
what General Hayden said, the agreement places significant 
limits on what Iran is permitted to do in the nuclear sphere 
for 10 to 15 years. But, these limits, even if respected in 
full, come at a steep price. And there's essentially two 
principal prices. One is that it certainly facilitates Iran's 
efforts to carry out what I would call an imperial foreign 
policy in the Middle East and Persian Gulf, starting now. And 
secondly, the agreement does not in any way resolve the 
problems posed by Iran's actual or potential nuclear 
capabilities. And indeed, many of these problems grow 
significantly worse as we come out to 10 or 15 years.
    My own view is that a better agreement could and should 
have been materialized, but I also understand this is 
unprovable, and this is why historians can make a living. So, I 
will simply address the agreement that we have before us. But, 
I do think it needs to be judged on its merits rather than on 
the hopes it might lead to some type of a political 
transformation of Iran. We simply cannot know what, if any, 
effect it will have on Iran. And I think this is one we can 
argue round or flat. It could just as easily encourage 
radicalism in Iran as it could encourage moderation.
    I also have three baskets, not bubbles:
    One is the question of compliance. Given Iran's history, 
there's ample reason for concern. My own prediction, and it's 
just that, is, Iran may well be tempted to cut corners and 
engage in what you might describe as retail noncompliance, but 
probably not wholesale noncompliance, lest it risk the 
reintroduction of sanctions or even military attack. I also 
come to this conclusion because I think, from Iran's point of 
view, this is a good agreement, and it would be undisciplined 
on their part if they were to engage in wholesale 
noncompliance. Still, we've to guard against it, and I think we 
ought to be explicit as to what the penalties would be if they 
were to do that.
    On the regional side, as I said, Iran is an imperial power, 
and sanctions relief will be an enabler for them to do all the 
things they have been doing, but on a larger scale, and it 
could well extend, among other things, to Syrian civil war. 
This comes against the backdrop, I would simply add, of a 
Middle East which is already the least successful part of the 
world. I've used the analogy that the Middle East is a latter-
day 30-years war of political and religious strife within and 
across boundaries. I see nothing in this agreement that will 
make that situation better, and, quite possibly, it will make 
it worse.
    And I'm happy to discuss, if people want, what I think, 
therefore, we need to think about doing in places like Iraq, in 
Syria and other places in the region. I would simply say, more 
broadly, is that we need to discourage the Saudis and others 
from developing a nuclear option to hedge against what Iran 
might do down the road. I mean, as bad as the Middle East now, 
a Middle East with one or more additional nuclear threshold 
states or actual states would be a nightmare, particularly 
since several of these regimes are brittle. So, it's not just 
simply the question of nuclear use that we have to think about, 
it's the loss of custodianship over nuclear weapons and 
materials.
    Establishing strategic trust--or reestablishing strategic 
trust with Israel, I would also put high on the list. And, for 
the Israelis and others, including Jordan and other countries, 
we have got to have real, strategic dialogues to make sure they 
can contend with the very real threats, either stemming from 
Iran, ISIS, or what have you.
    My third area of concern deals with the long-term nuclear. 
And, in some areas, I think that's the most serious. It's 
necessary, but not sufficient, that Iran not be able to 
assemble one or more nuclear weapons down the road. And one 
thing I would recommend immediately is consultations with 
European and regional governments to deal with the question of 
a follow-on agreement to this one. What--again, if I'm right in 
my analysis that this agreement buys us 10 or 15 years, then we 
need to begin immediately on what is the aftermath. Because 10 
or 15 years is not all that much. And we, ourselves, need to do 
serious planning, not simply diplomatically, but about 
sanctions, covert action, and military force.
    Now, I'm aware that you all, unlike me, have the 
responsibility to vote on this agreement. And I--as I've said, 
I believe it is a flawed agreement. But, I also think the 
framing is important here. And the issue before the Congress is 
not whether the agreement is good or bad, but whether, from 
this point on, the United States would be better or worse off 
with or without it. And I simply think there are several 
drawbacks to passing a resolution of disapproval, presumably 
overriding a presidential veto. And the two most serious ones 
are obviously what Iran could do in the nuclear realm in the 
short run, and secondly, the questions and doubts this would 
raise, not simply in the region, but around the world, about 
American reliability and predictability.
    At the other end of the scale or spectrum is the option of 
voting for the agreement. But, that would do nothing to address 
the flaws and the drawbacks and shortcomings of the agreement 
that exists.
    So, let me just put on the table a third option that I 
think is worth exploring, which is the idea to associate or 
link or somehow accompany any vote on this agreement with 
either legislation or some type of a formal communication 
between the White House and the Congress about American 
policies that would deal with each one of these three baskets. 
What would be American policy in the case of noncompliance? 
What would be certain principles that would guide American 
policy towards regional challenges? And what would be the 
principles and policies that would guide U.S.--the United 
States over the 10- and 15-year period and beyond when it came 
to Iranian policies in the nuclear realm. And what this--what 
the statements or these--this accompanying legislation would 
lay out is what would be intolerable and what the United States 
is prepared to do in the event of certain types of Iranian 
behavior. And I think such a statement would both have elements 
of reassurance to our friends and allies to help manage their 
behavior, but also send clear warnings to Iran about what would 
be the consequences of certain actions on their part.
    Thank you very much.
    [The prepared statement of Dr. Haass follows:]

                 Prepared Statement by Richard N. Haass
    Mr. Chairman: Thank you for this opportunity to speak about the 
``Joint Comprehensive Plan of Action'' (JCPOA) signed on July 14 by 
representatives of the five permanent members of the UN Security 
Council, Germany, and Iran. I want to make it clear that what you are 
about to hear are my personal views and should not be interpreted as 
representing the Council on Foreign Relations, which takes no 
institutional positions.
    The agreement with Iran, like any agreement, is a compromise, 
filled with elements that are attractive from the vantage point of US 
national security as well as elements that are anything but. A simple 
way of summarizing the pact and its consequences is that at its core 
the accord represents a strategic tradeoff. On one hand, the agreement 
places significant limits on what Iran is permitted to do in the 
nuclear realm for the next ten to fifteen years. But these limits, even 
if respected in full, come at a steep price. The agreement almost 
certainly facilitates Iran's efforts to promote its national security 
objectives throughout the region (many of which are inconsistent with 
our own) over that same period. And second, the agreement does not 
resolve the problems posed by Iran's actual and potential nuclear 
capabilities. Many of these problems will become greater as we approach 
the ten year point (when restrictions on the quantity and quality of 
centrifuges come to an end) and its fifteen year point (when 
restrictions pertaining to the quality and quantity of enriched uranium 
also end).
    I was not a participant in the negotiations; nor was I privy to its 
secrets. My view is that a better agreement could and should have 
materialized. But this debate is better left to historians. I will as a 
result address the agreement that exists. I would say at the outset it 
should be judged on its merits rather than on hopes it might lead (to 
borrow a term used by George Kennan in another context) to a mellowing 
of Iran. This is of course possible, but the agreement also could have 
just the opposite effect. We cannot know whether Iran will be 
transformed, much less how or how much. So the only things that makes 
sense to do now is to assess the agreement as a transaction and to 
predict as carefully as possible what effects it will likely have on 
Iran's capabilities as opposed to its intentions.
    I want to focus on three areas: on the nuclear dimension as 
detailed in the agreement; on the regional; and on nuclear issues over 
the longer term.
    There is understandable concern as to whether Iran will comply with 
the letter and spirit of the agreement. Compliance cannot be assumed 
given Iran's history of misleading the IAEA, the lack of sufficient 
data provided as to Iran's nuclear past, the time permitted Iran to 
delay access to inspectors after site-specific concerns are raised, and 
the difficulty likely to be experienced in reintroducing sanctions. My 
own prediction is that Iran may be tempted to cut corners and engage in 
retail but not wholesale non-compliance lest it risk the reintroduction 
of sanctions and/or military attack. I should add that I come to this 
prediction in part because I believe that Iran benefits significantly 
from the accord and will likely see it in its own interest to mostly 
comply. But this cannot be assumed and may be wrong, meaning the United 
States, with as many other governments as it can persuade to go along, 
should both make Iran aware of the penalties for non-compliance and 
position itself to implement them if need be. I am assuming that the 
response to sustained non-compliance would be renewed sanctions and 
that any military action on our part would be reserved to an Iranian 
attempt at breaking out and fielding one or more nuclear weapons.
    The regional dimension is more complex and more certain to be 
problem. Iran is an imperial power that seeks a major and possibly 
dominant role in the region. Sanctions relief will give it much greater 
means to pursue its goals, including helping minority and majority 
Shi'ite populations in neighboring countries, arming and funding 
proxies such as Hezbollah and Hamas, propping up the government in 
Damascus, and adding to sectarianism in Iraq by its unconditional 
support of the government and Shia militias. The agreement could well 
extend the Syrian civil war, as Iran will have new resources with which 
to back the Assad government. I hope that Iran will see that Assad's 
continuation in power only fuels a conflict that provides recruiting 
opportunities for the Islamic State, which Iranian officials rightly 
see as a threat to themselves and the region. Unfortunately, such a 
change in thinking and policy is a long shot at best.
    The United States needs to develop a policy for the region that can 
deal with a more capable, aggressive Iran. To be more precise, though, 
it is unrealistic to envision a single or comprehensive US policy for a 
part of the world that is and will continue to be afflicted by multiple 
challenges. As I have written elsewhere, the Middle East is in the 
early throes of what appears to be a modern day 30 Years War in which 
politics and religion will fuel conflict within and across boundaries 
for decades, resulting in a Middle East that looks very different from 
the one the world has grown familiar with over the past century.
    I will put forward approaches for a few of these challenges. In 
Iraq, I would suggest the United States expand its intelligence, 
military, economic, and political ties with both the Kurds and Sunni 
tribes in the West. Over time, this has the potential to result in 
gradual progress in the struggle against the Islamic State.
    Prospects for progress in Syria are poorer. The effort to build a 
viable opposition to both the government and various groups including 
but not limited to the Islamic State promises to be slow, difficult, 
anything but assured of success. A diplomatic push designed to produce 
a viable successor government to the Assad regime is worth exploring 
and, if possible, implementing. European governments likely would be 
supportive; the first test will be to determine Russian receptivity. If 
this is forthcoming, then a joint approach to Iran would be called for.
    I want to make two points here. First, as important as it would be 
to see the Assad regime ousted, there must be high confidence in the 
viability of its successor. Not only would Russia and Iran insist on 
it, but the United States should as well. Only with a viable successor 
can there be confidence the situation would not be exploited by the 
Islamic State and result in the establishment of a caliphate 
headquartered in Damascus and a massacre of Alawites and Christians. 
Some sort of a multinational force may well be essential.
    Second, such a scenario assumes a diplomatic approach to Iran. This 
should cause no problems here or elsewhere. Differences with Iran in 
the nuclear and other realms should not preclude diplomatic 
explorations and cooperation where it can materialize because interests 
are aligned. Syria is one such possibility, as is Afghanistan. But such 
diplomatic overtures should not stop the United States acting, be it to 
interdict arms shipments from Iran to governments or non-state actors; 
nor should diplomatic outreach in any way constrain the United States 
from speaking out in reaction to internal political developments within 
Iran. New sanctions should also be considered when Iran takes steps 
outside the nuclear realms but still judged to be detrimental to other 
US interests.
    Close consultations will be required with Saudi Arabia over any 
number of policies, including Syria. But three subjects in particular 
should figure in US-Saudi talks. First, the United States needs to work 
to discourage Saudi Arabia and others developing a nuclear option to 
hedge against what Iran might do down the road. A Middle East with 
nuclear materials in the hands of warring, potentially unstable regimes 
would be a nightmare. This could involve assurances as to what will not 
be tolerated (say, enrichment above a specified level) when it comes to 
Iran as well as calibrated security guarantees to Saudi Arabia and 
others. Second, the Saudis should be encouraged to reconsider their 
current ambitious policy in Yemen, which seems destined to be a costly 
and unsuccessful distraction. The Saudi government would be wiser to 
concentrate on contending with internal threats to its security. And 
thirdly, Washington and Riyadh should maintain a close dialogue on 
energy issues as lower oil prices offer one way of limiting Iran's 
capacity to pursue programs and policies detrimental to US and Saudi 
interests.
    The agreement with Iran does not alter the reality that Egypt is 
pursuing a political trajectory unlikely to result in sustained 
stability or that Jordan will need help in coping with a massive 
refugee burden. Reestablishing strategic trust with Israel is a must, 
as is making sure it as well as other friends in the region have what 
they need to deal with threats to their security. (It matters not 
whether the threats come from Iran, the Islamic State, or elsewhere.) 
The United States should also step up its criticism of Turkey for both 
attacking the Kurds and for allowing its territory to be used as a 
pipeline for recruits to reach Syria and join the Islamic State.
    The third area of concern linked to the nuclear pact with Iran 
stems from its medium and long-term capabilities in the nuclear realm. 
It is necessary but not sufficient that Iran not be permitted to 
assemble one or more nuclear bombs. It is also necessary that it not be 
allowed to develop the ability to field a large arsenal of weapons with 
little or no warning. This calls for consultations with European and 
regional governments to begin sooner rather than later on a follow-on 
agreement to the current JCPOA. The use of sanctions, covert action, 
and military force should also be addressed in this context.
    I am aware that members of Congress have the responsibility to vote 
on the Iran agreement. As I have said, it is a flawed agreement. But 
the issue before the Congress is not whether the agreement is good or 
bad but whether from this point on the United States is better or worse 
off with it. It needs to be recognized that passage of a resolution of 
disapproval (presumably overriding a presidential veto) entails several 
major drawbacks. First, it would allow Iran to resume nuclear activity 
in an unconstrained manner, increasing the odds the United States would 
be faced with a decision--possibly as soon as this year or next--as to 
whether to tolerate the emergence of a threshold or actual nuclear 
weapons state or use military force against it. Second, by acting 
unilaterally at this point, the United States would make itself rather 
than Iran the issue. In this vein, imposing unilateral sanctions would 
hurt Iran but not enough to make it alter the basics of its nuclear 
program. Third, voting the agreement down and calling for a reopening 
of negotiations with the aim of producing a better agreement is not a 
real option as there would insufficient international support for so 
doing. Here, again, the United States would likely isolate itself, not 
Iran. And fourth, voting down the agreement would reinforce questions 
and doubts around the world as to American political divisions and 
dysfunction. Reliability and predictability are essential attributes 
for a great power that must at one and the same time both reassure and 
deter.
    The alternative to voting against the agreement is obviously to 
vote for it. The problem with a simple vote that defeats a resolution 
of disapproval and that expresses unconditional support of the JCPOA is 
that it does not address the serious problems the agreement either 
exacerbated or failed to resolve.
    So let me suggest a third path. What I would encourage members to 
explore is whether a vote for the pact (against a resolution of 
disapproval) could be associated or linked with policies designed to 
address and compensate for the weaknesses and likely adverse 
consequences of the agreement. I can imagine such assurances in the 
form of legislation voted on by the Congress and signed by the 
president or a communication from the president to the Congress, 
possibly followed up by a joint resolution. Whatever the form, it would 
have to deal with either what the United States would not tolerate or 
what the United States would do in the face of Iranian non-compliance 
with the recent agreement, Iran's long-term nuclear growth, and Iranian 
regional activities.
    Mr. Chairman, thank you again for asking me to meet with you and 
your colleagues here today. I of course look forward to any questions 
or comments you may have.

    Chairman McCain. Thank you, Dr. Haass.
    Ambassador Edelman.

STATEMENT OF HON. ERIC S. EDELMAN, DISTINGUISHED FELLOW, CENTER 
   FOR STRATEGIC AND BUDGETARY ASSESSMENTS AND FORMER UNDER 
                SECRETARY OF DEFENSE FOR POLICY

    Ambassador Edelman. Chairman McCain, Senator Reed, thank 
you very much for inviting me to join this panel today. I'm 
delighted to be here with them and before you.
    I submitted to the committee staff yesterday a lengthy 
statement, and I would ask that it be included in the----
    Chairman McCain. Without objection.
    Ambassador Edelman.--on the record.
    First, let me say that I agree with much of what General 
Hayden and Richard Haass have said, but not all. The most 
important point I want to make this morning is, I think that 
you all are to be commended for the deliberation that you are 
engaging in on this agreement. I believe that major arms-
control agreements that bind the Nation in matters vital to the 
national interest ought to rest on a strong public consensus. 
And that's the reason why the Founders vested the power to 
ratify treaties with the Senate. And, although this is not a 
treaty--I recognize it's not a treaty--I think the general 
proposition still remains very sound, so I appreciate the due 
diligence with which you're approaching this.
    As Richard's colleague, Ray Takeyh, and I wrote in the 
Washington Post last month, I believe that the Joint 
Comprehensive Plan of Agreement is deeply flawed because it 
concedes an enrichment capability that's too large to Iran, a 
sunset clause that's too short, a verification regime that's 
too leaky, and enforcement mechanisms that are too suspect. The 
Institute for Science and International Security, which is one 
of the premier nonpartisan authorities on nonproliferation in 
general, has assessed that, on the agreement, after year 10, 
and particularly after year 15, as limits on its nuclear 
program end, Iran could reemerge as a major nuclear threat. 
Even if the deal succeeds during the first 10 years, it's 
unknowable whether the agreement will continue to accomplish 
its fundamental goal of preventing Iran from getting nuclear 
weapons in the long term.
    As Leon Wieseltier wrote earlier this week in The Atlantic, 
10 years is a young person's idea of a long time. And I'm--
unfortunately, now reached the age where I'm allowed to say 
things like that.
    I need to say that I've come to this judgment with some 
difficulty, because I've spent 30 years in the Foreign Service 
as a colleague of Ambassador Burns, and I have a strong belief 
in deference to executive authority in the conduct of foreign 
relations. And a multilateral agreement negotiated over many 
years should not be rejected for light or transient causes, for 
the reasons that Dr. Haass just mentioned in his statement. The 
only legitimate grounds for doing so, I believe, are when you 
believe that the agreement is so manifestly deleterious to the 
national interest that it warrants rejection and renegotiation. 
And I believe this agreement meets that standard because it 
will put the imprimatur of the international community and the 
United States on an industrial-scale enrichment program that 
will leave Iran, even if the negotiated limits are adhered to, 
as a threshold nuclear state when the various provisions 
expire, as General Hayden said just a minute ago. This, in 
effect, reverses 50 years of U.S. nonproliferation policy.
    As my SAIS colleague, Michael Mandelbaum, wrote last week, 
``We are abandoning the policy of prohibiting the spread of 
enrichment technology even to friendly democratic governments. 
And, as a result, it will henceforth be extremely difficult to 
prevent other countries, at first in the Middle East, but 
ultimately elsewhere, particularly in East Asia, from equipping 
themselves with the capacity for enrichment. In my view, this 
prospect of Iranian nuclear latency will, in turn, put the 
Middle East on the path to a catastrophic arms race.''
    The sanctions regime, with its snap-back provisions, I'm 
afraid will not be easily reconstituted once we have the entry 
into force of this agreement. And I would say, tellingly, that 
Foreign Minister Zarif noted, a few days ago, that sanctions 
would only be reimposed on Iran in case of serious violations 
of its obligations, and not in the case of small-scale 
violations--to Dr. Haass's point. So, the Iranians are already 
telling us that they're not worried about being held to account 
for incremental violation of the agreement. And, given Iran's 
history of serial violation of its earlier obligations under 
the NPT, I think there's a heavy burden on advocates of the 
agreement to show that the verification provisions will be 
adequate.
    We were told during the course of the negotiation that we 
would have anytime/anywhere verification for nondeclared sites. 
We now know that we're going to have a much more complicated 
set of provisions that will leave potentially 24 days for Iran 
to deny and--engage in denial and deception about its nuclear 
activities if it, in fact, is violating the agreement.
    The President has said that there's--you know, this is not 
really a long time, it doesn't really matter, you can't really 
hide this activity. But, again, the Institute for Science and 
International Security has said that, in fact, these cumbersome 
procedures for requesting access to undeclared sites would 
allow Iran to disguise many small-scale nuclear and nuclear-
weapons-related activities, including high-explosive testing 
related to nuclear weapons, small centrifuge manufacturing, and 
small centrifuge plants using advanced centrifuges.
    The termination of the United States-led sanctions against 
Iran's energy, financial, and industrial sectors would 
repatriate as much as $150 billion, if all the frozen funds 
that Iran has accumulated are released, to rebuild its 
straightened economy and to modernize its military. As, again, 
Foreign Minister Zarif recently told the Majlis, once the 
structure of sanctions collapses, it will be impossible to 
reconstruct it.
    The deal, itself, will legitimize years of illegitimate 
conduct and enhance Iran's drive for hegemony--that's easy for 
me to say----
    [Laughter.]
    Ambassador Edelman.--and, through sanctions relief that 
will provide for the modernization of Iranian military 
capabilities across the board and increasing its support for 
proxies and for terror.
    One example of what might happen is an effort by Iran to 
shift the strategic balance back in Syria against the Assad 
regime once and for all. Tehran's military assistance to 
Baghdad and its extension of control through Shiite militias 
can be expected to continue. It may feel empowered to take a--
undertake a counteroffensive to the gains that have been made 
by the progovernment forces in Yemen in the last few days. And 
the larger strategic problem I think we face is that Iranian 
hegemony in Yemen could be matched by additional Iranian moves 
in Saudi Arabia's eastern province as well as in Bahrain, and 
thus, put Riyadh in the equivalent of an East-West strategic 
vice. Even an Iranian policy in Yemen that was not able to 
achieve its maximal gains would deepen the security vacuum, 
which has been a boon to the growth of al-Qaeda in the Arabian 
Peninsula.
    With our allies dismayed and increasingly concerned about 
the value of U.S. guarantees, they will become more inclined to 
pursue policies of self-help. For Israel, this means trying to 
manage an intrinsically unstable virtual nuclear balance with 
Iran. Both Iran and Israel will face a high potential penalty 
for not shooting first in a crisis. Both countries will 
necessarily adopt extremely high alert postures and be certain 
to pursue preemptive strategies that will lead to chronic--what 
we used to call, in the Cold War days, chronic crisis 
instability.
    For Saudi Arabia and other Sunni Arab allies, the result 
will be further efforts to seek new security partners, perhaps 
bringing China into the Gulf arena as a major security player--
we've already seen some indications of that--and increased 
pursuit of conventional arms, as well as seeking their own 
latent nuclear capability to offset Iran's relatively short 
breakout timeline. Unfortunately, it seems that the interaction 
between three or more nuclear-armed powers in the region would 
be much more prone to miscalculation and escalation than in the 
bipolar competition that characterized the Cold War. As Henry 
Kissinger and George Shultz wrote in the Wall Street Journal 
recently, ``Traditional theories of deterrence assumed a series 
of bilateral equations. Do we now envision an interlocking 
series of rivalries, with each nuclear program counterbalancing 
others in the region?''
    There will be other knock-on effects, as Chairman McCain 
indicated in his opening statement, in the region across the 
Middle East as a result of this agreement. United States 
conventional deterrence in the traditional forms--carrier 
strike groups, expeditionary strike capability, long-range 
strategic airpower, and, when needed, boots on the ground--will 
become increasingly difficult to maintain in the region as 
Iran's own military power grows and improves. In fact, we're 
already under stress due to budgetary and other constraints, as 
Admiral Richardson admitted last week in his confirmation 
hearing.
    Because it--Tehran knows it cannot compete head to head 
with U.S. conventional capabilities, it has long pursued an 
asymmetric anti-access area-denial strategy, including mobile 
missile launchers, the development of anti-ship cruise 
missiles, advanced air defenses, burying and hardening its 
nuclear facilities, increasingly effective torpedoes, smart 
mines, and possibly, in the future, anti-ship ballistic 
missiles akin to those that are being deployed by China in the 
Pacific to hold United States carriers at greater risk, albeit 
on a smaller scale.
    The problems--one of the major problems I find with the 
agreement is the fact that, in 5 and 8 years respectively, and 
possibly shorter, depending on the agreement of the powers, the 
U.N. embargos on conventional arms and ballistic missiles to 
Iran will come off. And Foreign Minister Zarif, again, recently 
underscored to the Majlis that Iran's pursuit of its ballistic 
missile and other defense capabilities while violating existing 
U.N. Security Council Resolutions will not violate the Joint 
Comprehensive Plan of Agreement.
    As a result, I don't think, in the future, you and your 
colleagues, nor my former colleagues in the Department of 
Defense, will be able to maintain the assumption of unimpeded 
access and control in all domains of warfare in the Persian 
Gulf that we have had in the past. I think we're going to have 
to expand our regional military presence to reassure Israel and 
the Gulf states and to deter Iran. And, as Iran's A2AD 
capabilities mature, the United States must take concerted 
efforts to maintain or achieve superiority in a range of areas, 
including long-range strike, advanced bunker-buster munitions 
like the massive ordnance penetrator, sustainable unmanned ISR 
and strike platforms, advanced integrated and layered air and 
missile defenses for our in-theater forces and for our allies, 
and greater capability for undersea precision strike, and 
perhaps relying on close-in weapon system and directed energy 
to defend our fielded forces against cruise missile and 
swarming boat attacks. This is going to be extremely difficult, 
particularly in an environment where defense spending is 
constrained under the caps of the Budget Control Act and 
sequestration, a subject about which I've had the privilege of 
testifying before this committee in the past.
    The administration's constant refrain has been that no 
other agreement would have been possible, and this is the best 
deal achievable, and the only alternative is war. I reject all 
of those propositions. As the historian E.H. Carr once 
suggested, ``In politics, the belief that certain facts are 
unalterable or certain trends are irresistible commonly 
reflects a lack of desire or a lack of interest to change or 
resist them.'' I believe the U.S. still has options, short of 
war, that it could exercise to try and secure a more acceptable 
agreement. Iran is in violation of multiple legally binding 
U.N. Security Council Resolutions, some of them negotiated by 
my colleague to the left. Its regime relies heavily on energy 
export revenues and remains vulnerable both to sanctions and 
the persistently low price of oil, which is likely to remain 
low for the next several years. It is footing the bill and 
providing the manpower to keep its proxies on the front lines 
in Syria and Iraq. And those proxies are facing rising pressure 
at home to keep morale high and continue the fight in the wake 
of extremely high casualties. And I see that the Washington 
Institute has just released a study this morning about the IRGC 
casualties in Syria.
    In short, Iran needs an agreement more than the United 
States. And, while I recognize that rejecting the current deal 
will create a great deal of discomfort for the administration, 
and will be very messy and a very vexing task to renegotiate, I 
still believe that the United States has powerful tools, in the 
form of sanctions, to discourage others from making a headlong 
embrace of Iran, a fact which a number of our P5+1 partners 
have recently acknowledged, even though it's been a bit of a 
discomforting acknowledgment for them.
    Finally, let me make one observation about something Dr. 
Haass said which I think was important, which is, if this 
agreement is rejected, the administration has argued that it's 
possible--and others have suggested--it's possible Iran might 
make a sprint to a bomb. Now, on the one hand, that contradicts 
some of the argumentation that the administration has made 
about the fatwah that's been issued by the Supreme Leader 
against nuclear weapons, and also against a longstanding 
conclusion of the intelligence community--and I'd defer to 
General Hayden here--that the Iranians have tried to put in 
place the means to have a nuclear weapon, but have not made the 
decision to actually weaponize. But, we do need to recognize 
that that is a possibility and that Iran might do that. And so, 
I would encourage the Congress, whether you approve or 
disapprove of the agreement in the end, to add to it a--an 
authorization for the use of force to prevent Iran from 
acquiring a nuclear weapons capability under either 
eventuality--that is to say either the approval or disapproval 
of the agreement--in order send a very strong signal to Iran 
that the objective for which we were negotiating, preventing 
them from getting a nuclear weapon, will be realized.
    Thank you very much for your time and attention. I look 
forward to questions.
    [The prepared statement of Ambassador Eric Edelman 
follows:]

             Prepared Statement by Ambassador Eric Edelman
                              introduction
    Mr. Chairman, Ranking Member Reed, Members of the Committee, thank 
you for giving me the opportunity to appear before you today to discuss 
the full range of issues connected with the Joint Comprehensive Plan of 
Action (JCPOA) to resolve the Iranian nuclear issue, including regional 
security and United States defense policy in the Middle East. I have 
followed this issue for more than a decade as the United States 
Ambassador to Turkey and then as Under Secretary of Defense for Policy. 
Since retiring from government service in 2009, I have continued to 
track the progress of Iran's nuclear program and the negotiating effort 
to prevent Iran from developing a nuclear weapons capability. I have 
worked with several of my colleagues at the Center for Strategic and 
Budgetary Assessments on the broader threat that the program presents 
to the nuclear non-proliferation regime and regional security in the 
Middle East. I am also the co-chair with Ambassador Dennis Ross of a 
bipartisan Iran Task Force sponsored by the Gemunder Center for Defense 
and Strategy that has produced a series of detailed appraisals of the 
negotiations and now the JCPOA, but I want to stress that my comments 
today reflect only my personal views.
    First, let me say that I appreciate the care and deliberation that 
you and your colleagues are taking in examining this agreement. Major 
arms control agreements that bind the nation in matters vital to the 
national interest should rest on a broad public consensus and not 
purely on the preferences and actions of one individual. That is why 
the Founders required treaties to be ratified by a two-thirds majority 
of the Senate. As Constitutional scholar George Anastaplo observed many 
years ago,

        The arrangements in Section 2 with respect to treaties and 
        appointments take it for granted that the Senate can be 
        depended upon to be as well equipped as the President to know, 
        or at least to be told, what is needed by the Country from time 
        to time. The Senate shares the Executive power here, however 
        convenient it may be to vest in a single man the negotiation of 
        treaties . . . The President is not assumed to know things the 
        Senate does not know or that the Senate cannot be told in 
        appropriate circumstances.

    Although this agreement is not a treaty, I believe the general 
proposition remains sound. \1\
---------------------------------------------------------------------------
    \1\ George Anastaplo, The Constitution of 1787: A Commentary 
(Baltimore, MD: Johns Hopkins University Press, 1989), p. 112.
---------------------------------------------------------------------------
    As I wrote with my colleague and Iran Task Force member Ray Takeyh 
in The Washington Post last month, a careful examination of the JCPOA 
reveals that it is deeply flawed because ``It concedes an enrichment 
capacity that is too large; sunset clauses that are too short; a 
verification regime that is too leaky; and enforcement mechanisms that 
are too suspect.'' \2\ The Institute for Science and International 
Security, one of the most respected non-partisan authorities on non-
proliferation in general and Iran's nuclear program in particular, was 
straightforward in its assessment:
---------------------------------------------------------------------------
    \2\ Eric Edelman and Ray Takeyh, ``On Iran, Congress Should Just 
Say No,'' Washington Post, July 17, 2015.

        After year 10, and particularly after year 15, as limits on its 
        nuclear program end, Iran could reemerge as a major nuclear 
        threat. Even if the deal succeeds during the first ten years, 
        it is unknowable whether the agreement will continue to 
        accomplish its fundamental goal of preventing Iran from getting 
        nuclear weapons in the long term. \3\
---------------------------------------------------------------------------
    \3\ Institute for Science and International Security (ISIS), The 
Joint Comprehensive Plan of Action ``Kicks the Can Down the Road'': How 
to Prepare for the Day When the Can Finally Lands (Washington, DC: 
ISIS, July, 22, 2015).

    Given these serious concerns, among many others, I believe the most 
judicious course is for Congress to disapprove the agreement, which 
would then allow for a more stringent deal to be renegotiated. As a 
career Foreign Service Officer for nearly 30 years, with a strong 
belief in the role of executive authority in foreign affairs, I have 
come to this recommendation extremely reluctantly. A multilateral 
agreement, negotiated over many years, should not be rejected for light 
or transient causes. The only legitimate grounds for doing so is when 
one believes that an agreement is so manifestly deleterious to the 
national security that it warrants rejection and renegotiation. In this 
case, I believe this agreement will put the imprimatur of the 
international community and the United States of America on an 
industrial-scale enrichment program that will leave Iran--even if the 
negotiated limits on enrichment are adhered to scrupulously--as a 
threshold nuclear state when the various provisions expire. President 
Obama conceded as much in an interview with NPR in April, when he 
observed, ``In year 13, 14, 15, they have advanced centrifuges that 
enrich uranium fairly rapidly, and at that point the breakout times 
would have shrunk almost down to zero.'' The Institute for Science and 
International Security analysis cited above confirms the President's 
judgment, noting that after 15 years, ``Iran's breakout timelines could 
shrink to just days.'' \4\
---------------------------------------------------------------------------
    \4\ ``Transcript: President Obama's Full NPR Interview on Iran 
Nuclear Deal,'' NPR, April 7, 2015; and ISIS, ``The Joint Comprehensive 
Plan of Action ``Kicks the Can Down the Road.''
---------------------------------------------------------------------------
    This agreement reverses almost 50 years of U.S. non-proliferation 
policy. As my colleague at Johns Hopkins SAIS, Michael Mandelbaum, has 
noted, the agreement abandons the ``policy of prohibiting the spread of 
enrichment technology even to friendly democratic governments . . . as 
a result, it will henceforth be extremely difficult to prevent other 
countries, at first in the Middle East but ultimately elsewhere, 
particularly in East Asia, from equipping themselves with the capacity 
for enrichment.'' \5\
---------------------------------------------------------------------------
    \5\ Michael Mandelbaum, ``The Iran Deal: It's The Deterrence, 
Stupid,'' The American Interest, July 30, 2015.
---------------------------------------------------------------------------
    It is likely, in my view, that the prospect of Iranian nuclear 
latency will, in turn, put the Middle East on the path to a 
catastrophic arms race. Five to ten or twelve years down the road, such 
an arms race is likely to result in a more proliferated region, with 
multiple adversaries, each armed with small and vulnerable nuclear 
arsenals struggling to co-exist in an inherently unstable strategic 
environment. The flight times between the competitors will be mere 
minutes, and hence the decision-making space will be considerably 
constrained. This would present an unprecedented challenge for the 
region, the United States, and the world at large with every 
possibility that the ultimate weapons will be used by accident or 
miscalculation for the first time since 1945.
                           jcpoa shortcomings
    Last week, the Task Force I co-chair issued a detailed assessment 
of the problems and questions posed by the JCPOA. This is a deal that 
would essentially legitimize Iran's nuclear program, require the 
international community to provide it with assistance, and leave it as 
a threshold nuclear state, with no clear mechanisms that would remain 
after the provisions sunset to ensure that Iran will adhere to its Non-
Proliferation Treaty (NPT) obligations.mechanisms that would remain 
after the provisions sunset to ensure that Iran will adhere to its Non-
Proliferation Treaty (NPT) obligations.mechanisms that would remain 
after the provisions sunset to ensure that Iran will adhere to its Non-
Proliferation Treaty (NPT) obligations. \6\
---------------------------------------------------------------------------
    \6\ JINSA Gemunder Center Iran Task Force, Scorecard for the Final 
Deal with Iran (Washington, DC: JINSA, July 29, 2015); Jonathan Ruhe, 
the associate director at the Gemunder Center has provided me with 
invaluable assistance in preparing this statement. The report is 
available at www.jinsa.org/publications/scorecard-final-deal-iran.
---------------------------------------------------------------------------
    Indeed, though Iran's breakout time would be rolled back over the 
next decade and beyond, all major restrictions on its nuclear and 
conventional military programs would be removed over 5-15 years, 
including the prohibition on new nuclear-related facilities. 
Furthermore, the sanctions regime that originally weakened Iran and 
brought it to the negotiating table to begin with would be rolled back 
quickly with Iran getting an early windfall when its frozen assets are 
released. The sanctions regime, despite the efforts to create a ``snap-
back'' mechanism, could not be easily reconstituted. Tellingly, Foreign 
Minister Zarif has noted that sanctions could be ``re-imposed on Iran 
only in case of serious violation of its obligations and not in case of 
small-scale violations.'' In other words, Iran doesn't need to worry 
about being held to account for incremental violation of the agreement. 
\7\
---------------------------------------------------------------------------
    \7\ ``Foreign Investments in Iran to Serve as Barrier for Sanctions 
Snapback--FM,'' Voice of the Islamic Republic of Iran, Radio Farhang, 
July 21, 2015, available via BBC Monitoring Trans Caucasus Unit. I am 
indebted to my colleague Ray Takeyh for drawing my attention to these 
statements by Foreign Minister Zarif.
---------------------------------------------------------------------------
    While Iran's nuclear activities would be made more transparent by 
some of the requirements of the JCPOA, these measures would still be 
insufficient to detect or deter every possible attempt at a breakout or 
sneak out. The failure to secure the much bruited ``anytime/anywhere'' 
inspections standard is a case in point. As a recent Institute for 
Science and International Security study notes, under the cumbersome 
procedures for requesting access to undeclared sites:

        Iran could likely move and disguise many small scale nuclear 
        and nuclear-weapon-related activities. These include:

        <bullet>  High explosive testing related to nuclear weapons;
        <bullet>  Small centrifuge manufacturing plant;
        <bullet>  Small centrifuge plant that uses advanced centrifuges 
        (in this case, we assume a facility of tens of, or at most a 
        few hundred, centrifuges organized in specially designed 
        facilities suitable for rapid removal and with a containment 
        system). \8\
---------------------------------------------------------------------------
    \8\ ISIS, Verification of the Joint Comprehensive Plan of Action 
(Washington DC: ISIS, July 28, 2015), p. 7.

    I have focused here on the question of verification, as opposed to 
other deficiencies, because the history of arms control arrangements is 
replete with instances of cheating--Versailles, the Strategic Arms 
Limitation Treaties, and INF Treaties offer just a few examples--and 
because Iran's record of serial violation of earlier NPT obligations 
creates a particular burden on defenders of this arrangement.
    Whether or not Iran complies fully--and there are diverse reasons 
to believe it would not--the net result would be a regime in a much 
stronger position than it is today. The termination of United States-
led sanctions against Iran's energy, financial, and industrial sectors 
would repatriate as much as $150 billion in frozen funds while allowing 
Iran to rebuild its straitened economy through rejuvenated oil exports 
and foreign investment. Moreover, the Iranian leadership is counting on 
a surge of business activity, unleashed by the ending of sanctions, to 
immunize them against future efforts to re-impose sanctions in the 
event that Iran violates the agreement. As Foreign Minister Zarif 
recently noted, ``Once the structure of the sanctions collapses, it 
will be impossible to reconstruct it.'' \9\
---------------------------------------------------------------------------
    \9\ ``Foreign Investments in Iran to Serve as Barrier for Sanctions 
Snapback--FM,'' Voice of the Islamic Republic of Iran, Radio Farhang.
---------------------------------------------------------------------------
    Combined with lifting the U.N. arms embargo and sanctions against 
Iran's ballistic missile program within eight years and possibly less, 
these increased revenues would enable the country to modernize and 
expand its military capabilities across the board and to boost its 
support for terrorist and other proxy forces across the Middle East. At 
the same time, the JCPOA's sunset provisions would transform Iran from 
a near-pariah to being treated ``in the same manner as that of any 
other non-nuclear weapon state party to the NPT.'' The ``deal'' itself 
will legitimize years of illegitimate conduct and will enhance its 
drive for hegemony, and through sanctions relief, it will provide the 
means and mechanisms to accomplish this end. Therefore, rather than 
being isolated and restrained, Iran would be unleashed by the sunset of 
the agreement to continue its struggle for mastery in the Middle East. 
Iran's Supreme Leader has said as much in the days and weeks since the 
JCPOA was signed in Vienna (amidst a number of large public rallies 
marked by the continuing mantra of ``Death to America,'' which seems to 
be a core ideological principle of the current regime). \10\
---------------------------------------------------------------------------
    \10\ Aresu Eqbali and Asa Fitch, ``Iran's Ayatollah Ali Khamenei 
Says Nuclear Deal Won't Change U.S. Ties,'' Wall Street Journal, July 
18, 2015.
---------------------------------------------------------------------------
                            regional impact
    With a latent nuclear deterrent, enhanced military capabilities, 
and bolstered revenues, Iran would attempt to push its influence 
further around the Middle East through proxies and subversion. Even 
under the weight of crippling sanctions, Tehran has backed Bashar al-
Assad to the hilt in the Syrian Civil War, spending billions of dollars 
and inserting the forces of the Islamic Revolutionary Guard Corps 
(IRGC) and its proxies in Hezbollah ever more deeply in major combat 
operations to keep the regime on life support. An influx of cash from 
sanctions relief could encourage Iran to try to shift the strategic 
balance back in the regime's favor once and for all. Subsequently 
Hezbollah, which has been forced to direct much of its energy to 
defending the Syrian regime, could re-prioritize the ``resistance'' 
struggle and increase the already significant threat to Israel on both 
the Lebanese and Syrian fronts. Undoubtedly it would enjoy even greater 
support from Iran after the agreement. This is no small consideration, 
since Hezbollah already possesses roughly 100,000 rockets and missiles, 
including many long-range surface-to-surface and sophisticated anti-
tank and anti-ship missiles.
    Tehran's military assistance and political control in Baghdad (and 
possibly Erbil) would increase as well, allowing it to further 
consolidate its grip over Shia-majority swathes of the country while 
doing nothing to soften the sharp sectarian divisions that foster 
instability within and beyond Iraq. This would play a role in driving 
the radicalization of Iraqi Sunnis, in effect, recruiting new foot 
soldiers for ISIL. Similarly in Yemen, Iran's support for the Shia-
affiliated Houthi insurrection has already helped unravel that 
country's tenuous efforts at constitutional reform, while 
simultaneously hindering United States counterterrorism cooperation and 
creating a potential quagmire for Saudi Arabia and other United States 
regional allies. The larger strategic problem is that Iranian hegemony 
in Yemen could be matched by additional Iranian moves in Saudi's 
Eastern Province as well as in Bahrain (both majority Shia), and thus 
put Riyadh in an east-west strategic vice. An increase in Iran's 
influence there could create myriad challenges, including: the growth 
of a proxy force on Riyadh's doorstep and greater instability astride a 
global energy chokepoint in Bab el-Mandeb. Even an Iranian policy that 
did not achieve its maximal aims would result in deepening the security 
vacuum within Yemen, which has proven to be a boon to the growth of al-
Qaeda in the Arabian Peninsula.
    Many of these problems potentially could be mitigated or addressed 
by the United States in cooperation with its allies. U.S. policy, 
however, has been self-defeating in this regard. Our closest regional 
partners, namely Israel and the Gulf Arab states, have been 
disconcerted by the Iran nuclear deal. The serial concessions that 
moved United States redlines in the nuclear negotiations from 
prevention of an Iranian nuclear capability to limiting the time for 
breakout to one year, as well as the failure to enforce the red line on 
Syrian CW use two years ago, have called into question the credibility 
of United States promises to defend our allies against a reinvigorated 
and resurgent Iran. Finally, and most importantly, the actual terms of 
the JCPOA confront our allies with the prospect of a nuclear-capable 
Iran that is better situated to realize its hegemonic aspirations in 
the Middle East.
    With our allies dismayed and increasingly concerned about the value 
of U.S. guarantees, they will become more inclined to pursue policies 
of self-help. For Israel, this means trying to manage an intrinsically 
unstable virtual nuclear balance with Iran. Given the geographic, 
demographic, and military asymmetries between Iran and Israel (and the 
high potential penalty for not shooting first in a crisis), both 
countries will assume extremely high alert postures and be certain to 
pursue pre-emptive strategies that will lead to chronic crisis 
instability.
    For Saudi Arabia and our other Sunni Arab allies, the result will 
be further efforts to seek new security partners, perhaps bringing 
China into the Gulf arena as a major security player, and increased 
pursuit of conventional arms as well as seeking a latent nuclear 
capability of their own to offset Iran's relatively short breakout 
timeline. Unfortunately, it seems likely that the interaction among 
three or more nuclear-armed powers in the region would be more prone to 
miscalculation and escalation than a bipolar competition. \11\
---------------------------------------------------------------------------
    \11\ Eric Edelman, Andrew Krepinevich, and Evan Braden Montgomery, 
``The Dangers of a Nuclear Iran,'' Foreign Affairs, January/February 
2011.
---------------------------------------------------------------------------
    In the Cold War the spread of nuclear weapons among United States 
allies was a collective good, since Britain, France, and the United 
States were members of the same formal security alliance, with a 
nuclear planning group to coordinate deterrence efforts and official 
policy declaring nuclear weapons integral to Western Europe's 
collective defense. A similar process in the Middle East would be a 
zero-sum phenomenon, since an unstable Iran-Israel nuclear dyad would 
be replicated between both countries and Saudi Arabia, were Riyadh to 
pursue an arsenal, and so on with Turkey, Egypt, or others. As Henry 
Kissinger and George Shultz commented recently, ``Traditional theories 
of deterrence assumed a series of bilateral equations. Do we now 
envision an interlocking series of rivalries, with each new nuclear 
program counterbalancing others in the region?'' \12\
---------------------------------------------------------------------------
    \12\ Henry Kissinger and George P. Shultz, ``The Iran Deal and Its 
Consequences,'' Wall Street Journal, April 7, 2015.
---------------------------------------------------------------------------
                            military effects
    These regional impacts would be daunting enough for U.S. defense 
planners who already face serious difficulties maintaining credible 
conventional deterrence in the region, given the prevailing trends and 
budgetary constraints. The aforementioned shortcomings of the JCPOA, 
however, will have knock-on military effects across the Middle East.
    United States conventional deterrence, in the forms of carrier 
strike groups, expeditionary strike capability, long-range strategic 
airpower, and (when needed) boots on the ground, will become 
increasingly difficult to maintain as Iran's own military power grows 
and improves. In fact, they are already under stress due to budgetary 
and other constraints, as Admiral Richardson admitted last week during 
his confirmation hearing. \13\
---------------------------------------------------------------------------
    \13\ Travis J. Tritten and Chris Church, ``Admiral: Carrier Gap in 
Persian Gulf hinders War effort,'' Stars and Stripes, July 30, 2015.
---------------------------------------------------------------------------
    Because Tehran knows it cannot compete head-to-head with the United 
States in conventional capabilities, it has long pursued its own 
asymmetric anti-access/area-denial (A2/AD) capabilities in the Gulf, 
including: mobile missile launchers, anti-ship cruise missiles, 
advanced air-defense systems, new deeply-buried and hardened nuclear 
facilities, increasingly effective torpedoes, smart mines, and possibly 
anti-ship ballistic missiles akin to those deployed by China in the 
Pacific Ocean to hold United States carriers at greater risk, albeit on 
a smaller scale.
    As the JCPOA sunsets, Iran will be able to access the materiel and 
technology to bolster these forces. Russia and China, not to mention 
Iran, pushed for the lifting of the arms embargo and ballistic missile 
restrictions not because they believed the windfall in unfrozen assets 
would ameliorate the condition of the long-suffering Iranian people, 
but because Iran wished to secure, and Russia and China hoped to sell, 
precisely these capabilities. \14\ Foreign Minister Zarif recently 
underscored to the Majlis that Iran's pursuit of ballistic missile and 
other enhancements of its defense capabilities, while violating 
existing UNSCRs, is not a violation of the JCPOA. \15\
---------------------------------------------------------------------------
    \14\ David Lerman and Anthony Capaccio, ``How Iran Arms Embargo 
Became Key Sticking Point in Vienna Talks,'' Bloomberg, July 10, 2015.
    \15\ For a more detailed background on Iran's pursuit of anti-
access/area-denial capabilities in past years, see Andrew Krepinevich, 
Why AirSea Battle? (Washington, DC: Center for Strategic and Budgetary 
Assessments, 2010), pp. 27-36; for Zarif's comment see ``Iran Can Deny 
Access to Nuclear, Military Sites Under Deal--FM,'' Voice of the 
Islamic Republic of Iran, Radio Farhang, July 21, 2015, available via 
BBC Monitoring Trans Caucasus Unit. I am grateful to Ray Takeyh for 
providing this reference.
---------------------------------------------------------------------------
    As a result, the United States will not be able to rely, as it has 
for the past 30 years, on an assumption that it will have unimpeded 
access and control in all the domains of warfare in the Persian Gulf. 
In the wake of this deal, the United States will likely have to expand 
its regional military presence to reassure Israel and the Gulf States 
and to deter Iran. The Iranians, however, would now have an additional 
$150 billion dollars to beef up its A2/AD capabilities, the IRGC Quds 
Force, and the ability to project power regionally through subversion 
and proxies. The United States will need to upgrade both its own and 
allied capabilities to counter this growing threat from Iran and will 
likely have to ``reassess the validity of its legacy planning 
assumptions, operational concepts, and forward military posture for the 
Persian Gulf.'' In particular this means developing concepts that 
enable the United States to fight both within range of Iranian missile 
forces as well as from extended range. \16\
---------------------------------------------------------------------------
    \16\ An excellent preliminary examination of future requirements to 
counter Iran's emerging A2/AD complex is Mark Gunzinger with Chris 
Dougherty, Outside-In: Operating from Range to Defeat Iran's Anti-
Access and Area-Denial Threats (Washington, DC: Center for Strategic 
and Budgetary Assessments, 2011), quotation on p. 19.
---------------------------------------------------------------------------
    The potential acquisition by Iran of an upgraded S-300 air defense 
systems from Russia--which appears already to be in the works--as well 
as upgrades for its outdated air fleet and potential expansion of its 
nuclear infrastructure, would pose a severe challenge to the air 
supremacy currently enjoyed by United States forces in and around the 
Persian Gulf. \17\ Thus far, Tehran's attempts to challenge the status 
quo in the Strait have been met with firm demonstrations from the 
United States Navy that underscore Iran's inability to mount any 
realistic opposition--most notably sending additional United States 
carrier battle groups into the Gulf. As time goes on these steps may 
carry greater risk for U.S. forces than we assume today.
---------------------------------------------------------------------------
    \17\ ``Russia modernizing S-300 missile system for Iran: RIA, 
citing Putin aide,'' Reuters, July 30, 2015.
---------------------------------------------------------------------------
    As Iran's A2/AD capabilities mature, the United States must make 
concerted efforts to maintain or achieve superiority in a range of 
areas, including: long-range U.S. strike and stealth capabilities; 
advanced bunker buster munitions like the Massive Ordnance Penetrator 
(MOP); sustainable unmanned intelligence, surveillance and 
reconnaissance strike platforms; and advanced, integrated, and layered 
air and missile defense systems for its in-theater forces and for its 
allies. We will need to develop greater capability for undersea 
precision strike and the ability, perhaps relying on close-in weapon 
systems and directed energy weapons, to defend our fielded forces in 
the theatre against cruise missile and swarming fast boat attacks. All 
of this will be extremely difficult, especially in an environment where 
defense spending is constrained under caps imposed by the Budget 
Control Act of 2011 and the continuing threat of 
sequestration.environment where defense spending is constrained under 
caps imposed by the Budget Control Act of 2011 and the continuing 
threat of sequestration.environment where defense spending is 
constrained under caps imposed by the Budget Control Act of 2011 and 
the continuing threat of sequestration. \18\
---------------------------------------------------------------------------
    \18\ See Mark Gunzinger with Chris Dougherty, Outside-In: Operating 
from Range to Defeat Iran's Anti-Access and Area-Denial Threats.
---------------------------------------------------------------------------
                           jcpoa alternatives
    The Administration's constant refrain has been that no other 
agreement would have been possible; that this is the best deal that 
could have been achieved, and that the only alternative is war. I 
reject these propositions. As the historian E. H. Carr once suggested, 
``In politics, the belief that certain facts are unalterable or certain 
trends irresistible commonly reflects a lack of desire or lack of 
interest to change or resist them.'' \19\
---------------------------------------------------------------------------
    \19\ Edward Hallett Carr, The Twenty Years' Crisis, 1919-1939 
(London: Macmillan and Company, 1939), p. 89.
---------------------------------------------------------------------------
    A better deal--an acceptable deal that ensures basic U.S. national 
security interests--is possible and absolutely necessary. The many 
deficiencies of the agreement need to be addressed now, as they will 
not be susceptible to remediation after Iran has received the upfront 
benefits of sanctions relief. Our Iran Task Force has maintained 
throughout the negotiations that Iranian concessions will come only if 
Tehran believes it has more to lose than its counterparts. Fortunately, 
the United States still has options short of war that it could exercise 
to secure an acceptable agreement. Iran is in violation of multiple 
legally binding U.N. Security Council resolutions. Its regime relies 
heavily on energy export revenues and remains vulnerable both to 
sanctions and to oil prices that will likely remain low for the next 
year or more. It is footing the bill, and providing manpower, to keep 
its proxies on the frontlines in Syria and Iraq, even as those proxies 
face rising pressures at home to keep morale high and continue the 
fight.
    For all these and other reasons, Iran needs an agreement more than 
the United States. Rejecting the current deal will create discomfort 
for the Administration, and will require it or its successor to embark 
on a new round of diplomacy. This will undoubtedly be a messy, vexing 
task for whoever takes it on, but the United States retains powerful 
tools in the form of sanctions to discourage others from undertaking a 
headlong embrace of Iran--a fact which some of our P5+1 partners have 
recently acknowledged, much to their discomfort. \20\
---------------------------------------------------------------------------
    \20\ 20 Josh Rogin, ``Top French Official Contradicts Kerry on Iran 
Deal,'' Bloomberg View, July 30, 2015; French officials have denied 
that Monsieur Audibert made these comments, but other members of the 
congressional delegation who heard him say these things have 
corroborated the initial account. Furthermore, Audibert in his denial 
to Le Monde has reinforced the potential power of the U.S. sanctions. 
The original story is found at http://www.bloombergview.com/articles/
2015-07-30/top-french-official-contradicts-kerry-on-iran-deal. For the 
denial and follow-up see http://freebeacon.com/national-security/
lawmakers-confirm-french-diplomat-supports-congress-rejecting-iran-
deal/; and http://tempsreel.nouvelobs.com/monde/20150731.OBS3527/info-
obs-le-conseiller-diplomatique-de-hollande-au-centre-d-une-polemique-a-
washington.html
---------------------------------------------------------------------------
    The Administration has suggested that, in the event the agreement 
is blocked by Congress, Iran might sprint to a bomb (although this 
contradicts both the Administration position that the Supreme Leader 
has issued a fatwa against pursuit of nuclear weapons, and the 
intelligence community's consistent assessment that Iran is pursuing 
the means to build weapons, but has not made a decision to proceed with 
weaponization). The reality is that Iran could undertake such an 
effort, but only at great potential peril to itself. Congress might 
consider raising the potential costs by coupling its disapproval of the 
deal with authorization for the use of force to prevent Iran from 
acquiring a nuclear weapons capability.
    To succeed, a new round of negotiations must use increasing 
pressure, including additional authorities beyond the tools that 
Congress has already provided. This is crucial if we hope to redress 
the manifest inadequacies of the existing agreement. Otherwise, we will 
put ourselves on a path that leads to a catastrophic war in the Middle 
East.
    I thank you, Mr. Chairman, for my time, and I look forward to the 
Committee's questions.

ABOUT THE CENTER FOR STRATEGIC AND BUDGETARY ASSESSMENTS

    The Center for Strategic and Budgetary Assessments (CSBA) is an 
independent, nonpartisan policy research institute established to 
promote innovative thinking and debate about national security strategy 
and investment options. CSBA's analysis focuses on key questions 
related to existing and emerging threats to U.S. national security, and 
its goal is to enable policymakers to make informed decisions on 
matters of strategy, security policy, and resource allocation.

    Chairman McCain. Thank you.
    Ambassador Burns.

   STATEMENT OF HON. R. NICHOLAS BURNS, GOODMAN PROFESSOR OF 
 DIPLOMACY AND INTERNATIONAL RELATIONS, HARVARD KENNEDY SCHOOL

    Ambassador Burns. Mr. Chairman, thank you--Senator Reed, 
members of the committee. It's an honor to testify. I 
appreciate it. It's an honor to testify with three great public 
servants and friends of mine, to my right.
    Mr. Chairman, I've submitted my written testimony. I'll 
just cite a few quick points to summarize my views.
    I support this agreement that the Obama administration has 
negotiated. I think it will help to prevent Iran from becoming 
a nuclear weapons power. I think the agreement also has many 
advantages that are specific to us. It's going to arrest Iran's 
forward movement of the last 10 years since Ahmadinejad took 
over, in 2005. And it's going to freeze their program for the 
next decade or more. It will effectively prevent Iran from 
producing fissile material for a weapon through uranium 
enrichment or plutonium processing. Its current breakout time--
and this, I think, is the most significant advantage we have--
the administration says now it's 2 to 3 months; under this 
agreement, for 10 to 15 years, Iran's breakout time would be 
extended to a year. So, we have line of sight. We have the 
opportunity to act, should Iran subvert the agreement. There 
will also be significantly strengthened inspections of the 
nuclear supply chain to the Iranian plants for the next 25 
years, and the additional protocol.
    The sanctions are important. They're not going to be lifted 
until Iran implements the agreement in every respect. That 
could be 3 to 4 to 5 to 6 months. I don't anticipate it any 
sooner. And the administration has to maintain sanctions on 
Iran for terrorism violations and human rights violations.
    A final advantage. This is an opportunity for us to deter 
Iran from becoming a nuclear weapon state through diplomacy and 
negotiations rather than by war. I certainly support the 
President's right--obligation to use force, if necessary, but, 
if we can take this step first, our country is far stronger.
    My second point, Mr. Chairman, Senator Reed, while the 
benefits are substantial, there are risks. And my colleagues 
have pointed out the risks. I don't want to minimize those 
risks. The most significant, for me, is that the superstructure 
of Iran's enrichment and plutonium programs will remain intact. 
They'll be frozen, they'll be in mothballs, they can be taken 
out of mothballs. Ten to 15 years from now, Iran could 
reconstitute--I think, will--a civil nuclear program. It could 
possibly use that civil nuclear program as a base to construct 
a covert program.
    So, the first 10 to 15 years of this agreement are a 
decided advantage for the United States. It's the follow-on 10 
or 15 years that represent a major challenge for us. And, 
should Iran seek a nuclear weapon during that time, the United 
States would need to do something that's going to be difficult: 
reconstitute a global sanctions regime and also have the will 
and the capacity to use force to prevent Iran from becoming a 
nuclear-weapons power. I don't think it's impossible, but it 
would depend on a strong and assertive and self-confident 
American President at the time, either President Obama's 
successor or the person after that.
    A final risk, Mr. Chairman. The conventional arms sales and 
ballistic missiles, the compromise that they'll end in 5 and 8 
years, respectively, I remain opposed to this compromise. I 
don't think it's in our interest. I'm sorry that it was made. 
What it will mean is that we'll have to reconstitute a 
coalition of sanctions countries against Iran 5 years from now 
on conventional weapons, 8 years from now on ballistic 
missiles.
    Third point. I see the nuclear deal much in the way that I 
think Dr. Haass does, as a combination of benefits and of 
risks. And I, thus, fully understand why this is a difficult 
vote for many members, and why you're deliberating in the way 
that you are. I would suggest that all of us--and I certainly 
include myself in this--need to go beyond the conventional 
wisdoms as we think about Iran. For example, I don't believe 
that congressional defeat of the President's proposal would 
lead inevitably to war, as some in the administration are 
saying. But, neither do I believe that the nuclear deal leads 
inevitably to an Iranian nuclear weapon, as some of the critics 
are suggesting. I think a lot's going to depend on the United 
States. Can we create strategic deterrence against the 
Iranians? Can we coerce and intimidate them from becoming a 
nuclear-weapons power, not in the next 10 years, because we'll 
freeze them, but in the follow-on 10 to 15 years? In that 
respect, the no-deal solution that many critics believe is 
preferable--and that would be walking away, ending the talks, 
continuing to sanction Iran, and negotiating a better deal--
it's an option that deserves to be looked at. I mean, I think 
we have a responsibility to look at it.
    I've tried to think about this. Ultimately, I think it 
probable that such a course would leave us weaker rather than 
stronger. It's not at all certain to me--and I spent the years 
2005 to 2008 working with the P5 as a member of it, sanctioning 
Iran--not at all certain that our partners would follow us out 
the door if we walked out unilaterally. Global unity that we've 
created, both President Bush and President Obama, against Iran, 
the sanctions regime, I think it would--not automatically, 
probably not even quickly--but, over time, it would begin to 
fray, and it would weaken. And, most importantly, the 
restrictions that have frozen Iran's nuclear program since 
January 2004, and that would freeze them for the next 10 to 15 
years, they'd be lifted, because I think the Iranian response, 
the likely response, would be to walk away from--itself, from 
the deal if we chose to do so. So, instead of Iran being a year 
away from a nuclear weapon, it would go back to being a nuclear 
threshold state in this no-deal scenario.
    So, on balance, I believe the benefits outweigh the risks. 
In fact, I think there are greater risks in rejecting this 
agreement, because it would free Iran from the considerable 
restrictions that they will have to live under for a very long 
time.
    Just two more points, Mr. Chairman. Thank you for your 
patience.
    My fourth point. To implement the deal successfully, 
however, the administration, I think, has to do more to 
strengthen our strategic deterrence and to coerce the Iranians 
over the short and long term. So, specifically, I hope, maybe 
as early as tomorrow, when the President makes his speech, that 
the President will threaten publicly and unambiguously that the 
United States would and should use force against Iran, should 
it break the agreement and race towards a nuclear weapon. The 
U.S. should certainly reaffirm what Secretary Kerry's been 
trying to do this week with the Gulf Cooperation Council--
reaffirm our support for the Gulf Cooperation countries--and, 
as the Pentagon is trying to do--strengthen their missile 
defense and strengthen their ability to defend themselves.
    The President also needs to close ranks with Israel. It's a 
glaring problem for American policy in the Middle East when we 
are openly feuding with our strongest partner. That's a two-way 
street. And so, both leaders need to do this. But, certainly, 
especially for this committee, as the United States negotiates 
its next 10-year military assistance agreement with Israel--the 
current one expires in 2017--assuring Israel's qualitative 
military edge should be a priority for the United States. So, 
in effect--and this gets to the point of your hearing today on 
the regional implications--as we going forward with a nuclear 
deal, we will simultaneously need to go forward to contain Iran 
in the Middle East. And we'll have a greater success, as 
Senator Reed has suggested in his opening remarks, of 
containing Iran if it's a non-nuclear state over the next 10 to 
15 years than it would have been as a nuclear-weapon state.
    Finally, I recommend that Congress support the agreement. I 
fear a vote of disapproval will weaken the United States and 
our credibility in the region. It would let Iran off the hook. 
It would leave Iran closer to a nuclear weapon. I think what 
Dr. Haass has suggested at the end of his remarks is 
instructive. Could the Congress also pass accompanying 
legislation that might seek to strengthen our ability to be the 
strongest power in the Middle East and to coerce Iran in the 
future?
    Thank you very much.
    [The prepared statement of Ambassador Burns follows:]

           Prepared Statement by Ambassador R. Nicholas Burns
    Mr. Chairman, Ranking Member Reed and members of the committee, 
thank you for this opportunity to testify on the international 
agreement to prevent Iran from becoming a nuclear weapons power.
    This is one of the most urgent and important challenges for our 
country, for our European allies as well as for Israel and our Arab 
partners in the Middle East. The United States must thwart Iran's 
nuclear weapons ambitions and its determination to become the dominant 
military power in the region.
    This will be a long-term struggle requiring the focus and 
determination of the next two American Presidents after President Obama 
to ensure Iran complies with the agreement. We should thus marshal our 
diplomatic, economic and military strength to block Iran now and to 
contain its power in the region in the years ahead.
    With this in mind, I support the Iran nuclear agreement and urge 
the Congress to vote in favor of it in September.
    This is, understandably, a difficult decision for many members of 
Congress. It is an agreement that includes clear benefits for our 
national security but risks, as well. It is also a painful agreement, 
involving trade-offs and compromises with a bitter adversary of our 
country--the government of Iran.
    I believe, however, that if it is implemented effectively, the 
agreement will restrict and weaken Iran's nuclear program for more than 
a decade and help to deny it a nuclear weapons capacity over the long 
term. That crucial advantage has convinced me that the Obama 
Administration is right to seek Congressional approval for this 
agreement.
    I have followed the Iran nuclear issue closely for the last decade. 
From 2005 until 2008, I had lead responsibility in the State Department 
on Iran policy. During the second term of the George W. Bush 
Administration, we worked hard to blunt Iran's nuclear efforts. We 
created in 2005 the group that has since led the global effort against 
Iran--the United States, the United Kingdom, France, Russia, China and 
Germany (the P-5 plus One). This group offered to negotiate with Iran 
in 2006 and again in 2007. We were rebuffed on both occasions by the 
Iranian regime.
    When Iran accelerated its nuclear research program, we turned to 
sanctions. I helped to negotiate for the U.S. the first three United 
Nations Security Council Chapter VII sanctions resolutions to punish 
Iran for its actions. Led by the Treasury Department, we initiated 
United States financial sanctions and encouraged the European Union to 
do the same. We built a global coalition against Iran. While Iran 
became increasingly isolated, however, it chose to accelerate its 
nuclear research efforts in defiance of international law.
    When President Obama came into office in 2009, Iran had made 
considerable progress in advancing its uranium and plutonium programs. 
It made further progress in his first years in office and was on its 
way to become, in effect, a nuclear threshold state. In response, 
President Obama expanded the sanctions and coordinated an aggressive 
international campaign to punish and isolate the Iranian regime.
    Congress made a vital contribution by strengthening American 
sanctions even further. This increasingly global and comprehensive 
sanctions campaign weakened the Iranian economy and ultimately 
convinced the Iranian government to agree to negotiate during the past 
eighteen months.
    The Obama and Bush Administrations and the Congress acted over ten 
years to expand American leverage against Iran and to coerce it to 
accept negotiations. Despite these efforts, Iran was far along the 
nuclear continuum when negotiations began in earnest in 2013.
    It made sense for the United States to commit to negotiations with 
Iran in 2013. We retained then, as we do now, the capacity and right to 
use military force to prevent Iran from achieving a nuclear weapon 
should that be necessary. It is important to note that there were 
alternative negotiating frameworks available to the Obama 
Administration in 2013 that might have served our interest in 
containing Iran's nuclear program more effectively. But, the issue 
before the Congress now is the specific agreement that has been 
negotiated by the Obama team. That is thus the focus of my own 
testimony today.
    In my judgment, the Joint Comprehensive Plan of Action (JCPOA) 
negotiated by Secretaries Kerry and Moniz is a solid and sensible 
agreement. It has many concrete advantages for the United States.
    First, the agreement will arrest Iran's rapid forward movement on 
its nuclear research programs over the past decade since the 
inauguration of former President Mahmoud Ahmadinejad. It will 
essentially freeze that program. The restrictions the United States 
negotiated will effectively prevent Iran from producing fissile 
material for a nuclear weapon (either through uranium enrichment or the 
plutonium process) at its nuclear facilities for at least ten to 
fifteen years.
    The number of centrifuges at the Natanz plant will be reduced by 
two thirds. Use of advanced centrifuges will not be permitted for a 
decade. Iran's store of enriched uranium will be restricted to levels 
below those needed for a nuclear device. In addition, there will be no 
enrichment at all at the Fordow plant for fifteen years.
    The Administration also succeeded in blocking Iran's plutonium 
program. The core of the Arak Heavy Water Reactor will be dismantled. 
The reactor will be transformed to make it impossible to produce 
sufficient quantities of plutonium for a nuclear device. Spent fuel 
will be transported out of Iran. There will be no reprocessing of fuel 
for at least fifteen years.
    The most important advantage for the U.S is that Iran's current 
breakout time to a nuclear weapon will be lengthened from two to three 
months now to roughly one year once the agreement is implemented. This 
is a substantial benefit for our security and those of our friends in 
the Middle East. It sets back the Iranian nuclear program by a 
significant margin and was a major concession by the Iranian government 
in this negotiation.
    Significantly strengthened inspections of Iran's nuclear supply 
chain for the next twenty-five years is a second advantage of the 
nuclear agreement. Iran has also agreed to be subjected to permanent 
and enhanced IAEA verification and monitoring under the Additional 
Protocol. This will give the IAEA much greater insights into Iran's 
nuclear program and will increase substantially the probability of the 
United States detecting any Iranian deviations from the agreement.
    Third, sanctions will not be lifted until Iran implements the 
agreement in every respect. This could take up to three to six months. 
The United States and other countries should demand full and 
unambiguous Iranian implementation to deconstruct and modify its 
nuclear program according to the letter of the agreement. And, after 
sanctions are lifted, we must be ready and willing to re-impose them 
should Iran seek to cut corners, cheat or test the integrity of the 
agreement in any way.
    A final advantage, Mr. Chairman, is that this agreement gives us a 
chance to prevent an Iranian nuclear weapon through diplomacy and 
negotiations, rather than through war. While the United States should 
be ready to use force against Iran if it approaches our red line of 
acquisition of a nuclear weapon, the more effective strategy at this 
point is to coerce them through negotiations. And, it will be more 
advantageous for the United States to contain a non-nuclear Iran in the 
Middle East for the next decade than to contend with a country on the 
threshold of a nuclear weapon. In this respect, I admire the 
commitment, energy and the achievements of Secretary Kerry, Secretary 
Moniz and their team.
    While the benefits of this agreement for the U.S. are substantial, 
there are also risks in moving ahead. The most significant, in my 
judgment, is that while Iran's program will be frozen for a decade, the 
superstructure of its nuclear apparatus will remain intact, much of it 
in mothballs. Iran could choose to rebuild a civil nuclear program 
after the restrictions begin to end ten to fifteen years from now. This 
could give Tehran a base from which to attempt to build a covert 
nuclear weapons program at some point in the future.
    Here is where considerable challenges may arise for the U.S. and 
its allies. While we can be confident Iran's program will be 
effectively stymied for the first ten to fifteen years of the 
agreement, many of those restrictions will loosen and disappear 
altogether in the decade after. We will need to put in place a series 
of mitigating measures to deter Iran from diverting any part of its 
revived civil nuclear program to military activities.
    President Obama and his team will need to reassure Congress about 
the effectiveness and credibility of these initiatives to keep Iran 
away from a nuclear weapon after the first decade of this agreement. 
This should include a direct, public and unambiguous American 
commitment to use military force to deter Iran should it ever get close 
to construction of a nuclear weapon. In addition, the United States 
should assemble a coalition of strong partners willing to re-impose 
sanctions should Iran deviate from the agreement. The United States and 
its partners should also bolster the capacity of the IAEA and our own 
governments to be fully capable of detecting Iranian cheating. In sum, 
we will have to construct a long-term strategic deterrent to convince 
the Iranian government that it is not in its interest to pursue a 
nuclear weapons program a decade from now.
    Containing Iran will be a difficult challenge for American 
diplomacy. I differ with those critics, however, who believe that the 
expiration of the agreement will make Iranian acquisition of a nuclear 
weapon all but certain a decade or two from now. Much will depend on 
the Iranian leadership at that time. Will they want to risk another 
generation of international isolation and sanctions if they drive 
toward a nuclear weapon? Will they risk the possibility of an American 
or Israeli use of military force in response? A decision by Iran to 
turn back to a nuclear weapons ambition is a possibility, but by no 
means a certainty. The actions and resolve of the United States will 
have a major impact on Iran's calculations. It will be up to the 
President and Congress at that time to make clear to Iran that we will 
be ready to use any option available to us, including the use of 
military force, to prevent Iran from becoming a nuclear weapons power.
    The overall effectiveness of the agreement will thus require the 
Obama Administration and its successors to maintain a very tough 
inspections regime and to be ready to re-impose sanctions if Iran seeks 
an illicit nuclear weapons program in the future.
    Congress is right to focus on these concerns and to require 
concrete assurances from the Administration that they can be overcome. 
Specifically, the Administration will need to focus hard on the 
possibility that Iran will cheat, as it has done so often in the past 
and attempt to construct covert facilities. Should this occur, the U.S. 
would need to ensure that the ``managed inspections'' set out in the 
agreement would work effectively. If Iran were to violate the 
agreement, American sanctions should be re-imposed. Gaining broader 
international agreement for sanctions would be a more effective way to 
intimidate the Iranian authorities. This would be a priority, but also 
a challenging hurdle, for American diplomacy.
    A final risk is the agreement that the prohibitions on Iran's 
conventional arms sales and purchases and ballistic missiles will end 
in five and eight years, respectively, after the agreement is in force. 
I remain opposed to this compromise. In my view, it could embolden Iran 
and strengthen its conventional capacity in ways detrimental to our own 
interest. The next United States Administration will need to construct 
a new coalition to attempt to restrict and sanction Iran in these two 
areas.
    On balance, however, I believe the nuclear deal will deliver more 
advantages than disadvantages to the U.S. There are greater risks, in 
my judgment, in turning down the agreement and freeing Iran from the 
considerable set of restrictions it has now accepted for the next 
decade and beyond.
    Most importantly, I do not see a more effective, credible or 
realistic alternative that would give the United States a greater 
probability at this point of preventing an Iranian nuclear weapon. That 
is the key question members of Congress should ask before you vote. Is 
there a more effective way forward than the one negotiated by the Obama 
Administration?
    The most common criticism of the nuclear deal is that the United 
States should have walked away from the talks during the last year, 
sanctioned Iran further and attempted to negotiate a better and 
stronger agreement. Some experts have recommended that Congress vote to 
disapprove the President's policies or to pass a bill that would alter 
the deal in such a way that a fundamental renegotiation of the 
agreement would be necessary.
    If I thought it was realistic to renegotiate the agreement to make 
it stronger, I would support that option. But, I don't believe it would 
be possible to do so and, at the same time, to maintain the integrity 
of our coalition against Iran.
    While this ``No Deal'' scenario could play out in many, different 
ways, I think it is probable that it would leave the United States 
weaker, rather than stronger, in confronting Iran's nuclear program. If 
the United States left the negotiations unilaterally, I don't believe 
it is likely that Russia and China and even possibly the European 
allies and other key international economic powers would follow us out 
the door. These countries are all strong supporters of the nuclear deal 
before the Congress today. The global coalition and the sanctions 
regime we spent the last ten years building would likely fray and 
weaken over time. We would lose the strong leverage that brought Iran 
to the negotiating table. While American sanctions were very important 
in convincing Iran to negotiate, it was the global nature of the 
sanctions with buy-in from nearly every major economy in the world, 
that also made a critical difference in cutting off Iran from the 
international banking and financial system during the past few years. 
All of these benefits would be at risk after a U.S. walkout.
    Most importantly, the strong restrictions that have effectively 
frozen Iran's nuclear program since January 2014 would all be lifted if 
the negotiations are ended. The negotiated agreement would cease to be 
in force. Iran would be free to resume its advanced uranium enrichment 
and plutonium programs. We would lose the IAEA's insights into Iran's 
program as the inspections regime would weaken. Iran would not be one 
year away from a bomb under the Obama agreement but on the threshold of 
a nuclear weapons capability.
    While I don't agree that this `No Deal'' scenario would lead 
inevitably to war, it would leave the U.S. worse off. On balance, this 
alternative is not preferable to the concrete restrictions on Iran's 
program ensured by the nuclear deal.
    If it seeks to disapprove the President's policy, Congress should 
offer a realistic and effective alternative. But, I am unaware of any 
credible alternative that would serve our interests more effectively at 
this point than the agreement proposed by the Obama Administration and 
the other major countries of the world.
    Rather than vote to disapprove the President's policy, I hope 
members of both parties will work with the Administration to strengthen 
the ability of the United States to implement the agreement 
successfully and to contain simultaneously Iranian power in the Middle 
East.
    We should create, in effect, a two-track American policy towards 
Iran in the future. On the one hand, we should work to ensure Iran 
implements the nuclear deal. On the other hand, we will need to 
construct a renewed effort with Israel, Turkey and our friends in the 
Arab world to contain Iran's growing power in the region.
    Now that we are talking to Iran again after thirty-five years of 
minimal contact, there may be issues on which contact with Tehran will 
be in our interest. Protecting the Afghan government from Taliban 
assaults is one such possibility. Convincing Iran to withdraw its 
support for President Assad in Syria is another.
    But, I do not believe we will experience anything approaching a 
normal relationship with the Iranian government as some in our own 
country have suggested. This is not the time to restore full diplomatic 
relations with its government. There is too much that still separates 
us to justify such a decision. In fact, our larger interests in the 
Middle East require the creation of a coalition of countries to oppose 
Iran as it makes an assertive push for power into the heart of the 
Sunni world in Iraq, Syria, Lebanon and Yemen. The United States will 
have greater success, however, in confronting a non-nuclear Iran over 
the next decade rather than an Iran with nuclear weapons. This is 
another advantage of the nuclear deal.
    With this in mind, there is more the Obama Administration can do to 
ensure effective implementation of the nuclear deal and to push back 
against a more assertive Iranian policy in the region. Here are some 
concrete suggestions toward that end.

    <bullet>  A first-order diplomatic priority should be for the 
United States to do everything in its power to maintain the ability to 
re-impose sanctions on Iran, if necessary. Russia and, especially, 
China will likely be weak and undependable partners in this regard. The 
United States should thus focus on securing commitments from the 
European allies that they will work with us to re-impose sanctions in 
the future, if necessary. The Administration should also convince 
Japan, South Korea, India and other major economies to be ready to 
curtail commercial links to Iran should it violate the nuclear 
agreement;
    <bullet>  The United States should set a very high bar for Iran on 
implementation of the agreement. Specifically, the United States should 
call attention to even the most minor Iranian transgressions from the 
start of the implementation process. If we don't set an exacting 
standard, Iran may well diminish the integrity of the inspections 
regime by cutting corners and testing its limits. Establishing a tough-
minded policy now is the right way to convince Iran there will be 
immediate penalties should it not implement the deal fully and 
completely;
    <bullet>  The United States should reaffirm publicly that we have 
vital national interests in the Persian Gulf and that we will use 
military force, if necessary, to defend them. That was the essence of 
the Carter Doctrine of the late 1970s and has been the policy of 
Republican and Democratic Administrations since. President Obama should 
continue the campaign he has already begun to assemble a strong 
coalition of Gulf States to contain Iranian power in the region. This 
will require accelerated military assistance to our Arab partners and a 
strong, visible and continuous American military presence in the 
region;
    <bullet>  The United States should also try to close ranks with 
Israel and to strengthen even further our long-standing military 
partnership. The United States-Israel ten-year military assistance 
agreement that I led in negotiating in 2007 expires in two years. The 
Obama Administration could reaffirm our ongoing commitment to Israel's 
Qualitative Military Edge (QME) over any potential aggressor in the 
Middle East region. The Administration should accelerate military 
technology transfers to Israel to head off any potential challenge to 
Israel from Iran or, as is more likely, from its proxies, Hezbollah and 
Hamas.

    The United States and Israel should also make a renewed effort to 
diminish their public divisions. President Obama should take steps to 
work more effectively with Prime Minister Netanyahu. But, repairing 
such a wide public dispute requires both leaders to make it work. Prime 
Minister Netanyahu would be well advised to diminish his excessive 
public criticism of the United States government. I found in my 
diplomatic career that allies work best when they work out their 
differences privately rather than publicly.

    <bullet>  President Obama should reaffirm publicly and in the most 
unmistakable terms, his readiness to deploy military force to strike 
Iran should it violate the agreement and seek to race toward a nuclear 
weapon. This would help to create a more durable American strategic 
deterrence to convince Iran that abiding by the nuclear agreement is in 
its best interest.
    <bullet>  Finally, the United States should also press Iran to meet 
the grievances of American families who lost their loved ones in 
Iranian-inspired attacks on American citizens in past decades. This 
includes, of course, the bombings of the United States Embassy in 
Beirut and the United States Marine Barracks in 1983. It also includes 
the assassination of Dr. Malcolm Kerr, President of the American 
University of Beirut, in January 1984. His family has brought suit 
against Iran in United States Federal Court as they believe Iran 
authorized his murder through its proxies in Lebanon. There are many 
other such civilian cases against Iran. Implementation of the nuclear 
deal should not be made conditional on resolution of these cases, in my 
judgment. But, we should not agree to resume full diplomatic relations 
until Iran has agreed to settle them. By raising them now, we would 
send Iran an unmistakable signal that we expect these cases to be 
adjudicated fairly and with justice for the American families in the 
future.
    <bullet>  At the same time, the Administration must continue to 
press as an urgent priority for the release of those Americans 
imprisoned or missing in Iran.

    These steps would help to strengthen our ability to implement the 
Iran nuclear agreement and to put Iran on notice that it has a long way 
to go before it can resume a normal relationship with the United 
States.
    Successful implementation of the nuclear deal will require strong, 
self confident and determined American leadership. We are the 
indispensable center of the P-5 plus One group that negotiated the 
agreement. We have to insist on full Iranian implementation of the 
agreement. We must assemble an Arab coalition to contain Iran in the 
region. And we have to remain Israel's strong and faithful partner in a 
violent, turbulent, revolutionary era in Middle East history.
    Mr. Chairman, I urge members of Congress to support this agreement. 
A vote of disapproval in the absence of a credible alternative, would, 
after ten years of effort, be self-defeating for our country.
    If Congress votes to disapprove and manages to override the 
President's veto, it would very likely dismantle the agreement, lead to 
the gradual disintegration of the global sanctions regime and remove 
all current restrictions on Iran's nuclear efforts. Such a result would 
leave Iran closer to a nuclear weapon. That is not a sensible course 
for our country.
    I also fear a vote of disapproval would weaken the effectiveness 
and credibility of the United States in the Middle East and around the 
world.
    There is another path open to Congress. Work with the President to 
strengthen America's position in the Middle East. Move forward with the 
nuclear deal. Push back against Iranian power in the region. A Congress 
that sought greater unity with President Obama would help to strengthen 
our country for the struggles that are inevitably ahead with Iran in 
the years to come.

    Chairman McCain. Well, thank you.
    I want to thank the witnesses for very important testimony. 
And I note that all--a large number of my colleagues paid close 
attention.
    Is there any agreement among--disagreement among the 
witnesses that Iran is the largest state sponsor of terror in 
the world? Is there anyone who disagrees with that?
    [No audible response.]
    Chairman McCain. Is there any disagreement that the Iranian 
are now spending billions of dollars on those adventures, 
whether it be in Iraq or Syria or Yemen, or even now, we--I 
understand they are providing weapons to the Taliban--is there 
anyone who disagrees with their activities throughout the 
region?
    [No audible response.]
    Chairman McCain. Is there any doubt that they're spending 
quite a bit of money on these efforts to destabilize and exert 
their influence in these nations?
    [No audible response.]
    Chairman McCain. Well, if that's true, then obviously 
verification is a key issue. And we understand now that, quote, 
``side agreements'' have been made between the IAEA and Iran on 
the vital issue of verification. Is there anyone that thinks--
that doesn't think that Congress should be informed as to this 
vital part of the enforcement of any agreement?
    [No audible response.]
    Chairman McCain. Well, then I guess my question is that--
oh, and, in case we missed it, I'd like to have the witnesses' 
comment on the top advisor to Supreme Leader Ali Khamenei, who 
appeared on al-Jazeera on July 31st and was asked about United 
Nations (U.N.) inspection of Iran's military sites. Here's how 
he replied, according to the translation, quote, ``Regardless 
of how the P5+1 countries interpret the nuclear agreement, 
their entry into our military sites is absolutely forbidden. 
The entry of any foreigner, including International Atomic 
Energy Agency (IAEA) inspectors or any other inspector, to the 
sensitive military sites of the Islamic Republican--Republic is 
forbidden, no matter what.''
    What do--first of all, if all those facts are true that you 
agreed to, and verification is a key item, here we are faced 
with these statements--and it's not the first one that's made a 
statement about entry into military sites--but also, shouldn't 
the Congress know, shouldn't the American people--more 
importantly, shouldn't the American people know that there is 
verification the--on a--about inspections, and they should not 
be some secret side agreement that no one knows about? Isn't 
this a critical item in ensuring that the nation that has been 
the constant violator, the constant cheater of international 
law concerning nuclear weapons--isn't--doesn't this give reason 
to some very deep concern on the part of those of us who are 
responsible and the American people?
    I'll begin with--well, I'll begin with you, Ambassador 
Burns, and we'll work the other way.
    Ambassador Burns. Thank you, Mr. Chairman.
    I do agree with you. You know, the protocol here with the 
IAEA is that, when it has an agreement with any member state, 
they're confidential. But, it----
    Chairman McCain. Yes. But, you know that this is not with 
any other state, Ambassador. I've heard that line. This is a 
country that has consistently cheated. It's not Brazil. So, to 
just dismiss it in that way, I think, is, frankly, pure 
sophistry.
    Go right ahead.
    [Laughter.]
    Ambassador Burns. I was actually just going to make--say 
exactly what you said.
    [Laughter.]
    Ambassador Burns. However, I think, in this case----
    Chairman McCain. I have factitized.
    [Laughter.]
    Ambassador Burns. It's okay. I'm in violent agreement with 
you on this question.
    [Laughter.]
    Ambassador Burns. I think, in the--they lied about the 
existence of Natanz. They lied about the existence of Fordow. 
We have to assume they're going to cheat, on the margins or 
grossly, in the future. They're in the dock of international 
public opinion. A way should be found for the IAEA Secretary 
General to brief in full the United States Government about 
what's in the agreement. And I think the administration should 
find a way, perhaps in classified session, to brief the 
Congress. I agree with that.
    Chairman McCain. Thank you.
    Ambassador Edelman.
    Ambassador Edelman. Mr. Chairman, there are two issues 
here, I think.
    Chairman McCain. I apologize for interrupting a--what I 
wanted to hear, Ambassador.
    [Laughter.]
    Ambassador Edelman. There are two issues, I think, with the 
verification provisions. One, I talked about in my statement, 
which is the 24 days between a challenge to see a suspect, 
undeclared site, and the potential of actually getting access 
to it.
    The side agreements with the IAEA have to do with the issue 
of past military dimensions to Iran's activity and Iran being 
held to account for all that and cooperating with the IAEA to 
resolve those issues.
    The problem here is that, until that is accomplished, I 
don't understand, for the life of me, how you can even begin to 
assess the verification provisions, because we won't know 
exactly the full scale of what their activity encompassed. So, 
that part is extremely important. And I agree with you, Mr. 
Chairman, there is no reason why the IAEA should not be able to 
explain to members of the Senate how they are going to go about 
working through with Iran the account--accounting for what Iran 
did in the past. That seems to me to be just a basic that one 
couldn't even begin to go forward without having.
    Chairman McCain. Dr. Haass.
    Dr. Haass. Senator, we have a structural problem here, 
which is--because the IAEA is essentially a gentlemen's regime. 
It's a cooperative arrangement, where countries essentially 
declare what is meant to be inspected, and the IAEA is meant 
not to discover so much as confirm. The IAEA essentially 
doesn't have hunting licenses, it has very restricted licenses 
to go look at certain places, under certain conditions, at 
certain times. That is clearly not adequate, given Iran's 
histories. We've got a problem there.
    I would think the United States would want to have very 
candid conversations with the IAEA. We would want to establish 
a regime for intelligence-sharing that might be unique to the 
Iran situation.
    And, coming back to something I had in my statement, this 
is exactly the sort of area where I think Congress and the 
administration ought to spell out, in terms of what are the--
what are our expectations about what Iran and the--would allow 
the IAEA to do? And what would be the consequences if Iran were 
not prepared to do that? And, very early on, I think we should 
test this. We've had all these statements by the Iranians about 
certain things are off limits, including military bases. Let's 
test that. Let's very quickly see what they're prepared to--if 
this thing unravels--if this agreement unravels after a month 
or 2 months, so be it. But, I think it's important that, if it 
were to unravel, that it is because the Iranians are unprepared 
to meet their obligations. So, very quickly on, we ought to 
test them, and we ought to hold them to a very high standard.
    Chairman McCain. General Hayden.
    General Hayden. I agree with everything that's been said so 
far. And, Senator, I would add that, in my view, that Iranian 
statement is an accurate reflection of what it is that the 
Iranians believe they have and have not agreed to. We claim 
that we will have access to the sites. And there are a lot of 
meanings tucked under the word ``access.'' I would press our 
administration to define precisely whether or not ``access'' 
includes physical presence in the site, to enter and go about 
the facility, not whether you allow technical equipment, Geiger 
counters, or cameras to be entered into the facility by the 
Iranians.
    And then I guess I'd offer one additional caution. We 
should not allow our executive branch to tell you that access 
will be sufficient based upon the definitions provided by the 
IAEA, because, as Richard just pointed out, that's not the kind 
of organization that they are. I think, absent your forcing 
that issue, access will not include physical entry into any 
facility the Iranians do not want to permit physical entry.
    Chairman McCain. Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Ambassador Burns, one of the arguments against the 
arrangement is that there's a better arrangement out there. Do 
you think that there is an arrangement out there, short of a 
military confrontation, that would be supported by the 
international community if we stepped back and essentially 
either try to increase sanctions or just step back and wait for 
the Iranians to come back to the table?
    Ambassador Burns. Senator, I think this is the best 
alternative available to us right now. We could go back 10 
years, 5 years, and perhaps design a different framework to 
these negotiations. Many of us would. But, this is the 
agreement that's been negotiated. And, as I said in my oral 
remarks, I fear that if the United States is the one that walks 
away, the Iranians will have agreed to this, they'll have 
accepted--they'll have made major concessions, their program 
frozen for 10 to 15 years. It would give them the upper hand.
    It would be complicating in two respects. Beyond our 
agreement with the Europeans--the European oil and gas embargo, 
the European financial sanctions--we've been able to get the 
Indians, the Japanese, the South Koreans, the Indonesians 
onboard. I think it's that global coalition that would fray and 
weaken first.
    And second, I think we'd also have problems with the 
Europeans. The Germans, the French, and the British all support 
this agreement. Their Parliaments are very likely--I think 
almost certainly--to support these agreements, given the nature 
of their systems. And so, we--they would be in a tough spot. I 
think their inclination would be to try to help us figure out a 
way forward. But, extraterritorial sanctions, which some 
Members of Congress have said would be our key instrument, 
would be very controversial in allied countries in Europe, 
unfortunately. And I think it would be difficult to carry that.
    The EU also has to reauthorize sanctions, and they vote by 
consensus. And so, of the 28 EU members, I can think of three 
to four who would be sorely tempted to withhold consensus, 
meaning the sanctions would end. So, keeping this coalition 
together is critical.
    What we've had, over 10 years now in the Bush and Obama 
administrations, is leverage over the Iranians--through the 
global coalition, through the financial and--sanctions, and 
through the Security Council Resolutions. That's what we would 
give up. And so, I don't see walking away, waiting for a better 
deal, as a credible alternative.
    Senator Reed. And if we did walk away, would there be an 
internal dynamic in Iran, because of their institutional and 
political structures, to sort of show us that they're going to 
go forward now, because they've given their best? They're going 
to start accelerating their development of fissile material, 
they're going to essentially get back on the path they were, 
which would bring forward very quickly options that we might 
have to contemplate--either intelligence options or military 
options?
    Ambassador Burns. I suspect that the--if we walked out and 
abrogated, effectively, the agreement by failing to implement 
it, the Iranians would feel compelled not to abide by the 
agreement. And, I think, for domestic reasons, but also for 
reasons of trying to position themselves perhaps for the next 
round of this drama, they would lift the restrictions that 
they've agreed to. They'd go back to being a threshold nuclear 
state.
    And, you know, we've had the upper hand over the last 10 
years because most of the rest of the world feared the Iranians 
were heading towards a nuclear weapon. If we walk out first, I 
think that reduces our credibility to keep it together.
    Senator Reed. And just very quickly, Secretary Kerry was 
with the Gulf Cooperation Council (GCC) yesterday. It appears 
that they've endorsed it, maybe with not enthusiasm, but--is 
that your impression?
    Ambassador Burns. You know, I--it is. I mean, the statement 
by the Qatari Foreign Minister said that they would support 
this agreement, and they would it implemented. They also want 
their defenses strengthened. And there is also announcement by 
several dozen Israeli officials--former officials--Shin Bet 
Mossad military yesterday--I don't think they embraced the 
deal, but they said that the--Israel should go along with it 
and work on strengthening Israeli-United States relations.
    Senator Reed. Dr. Haass, I thought your statement was--no 
surprise--very insightful. And one of the lines is critical, 
``But, the issue before the Congress is not whether the 
agreement is good or bad, but whether, from the point of it 
on--this point on, the United States is better or worse off 
with it.'' I know you've proposed a third track, but I think, 
essentially, we're on one track of a motion to disapprove, and 
then whether it's veto, and the veto sustained. So, basically, 
the track is, either this agreement's going to be eventually 
sustained or it's rejected. And my presumption from your 
comments is that, with all the shortcomings, that you would 
feel that, on that track, sustaining the agreement makes more 
sense.
    Dr. Haass. It's always odd to push back against someone who 
gave you a compliment.
    [Laughter.]
    Senator Reed. I respect you. That's why I asked the 
question.
    Dr. Haass. Thank you, sir. And it's mutual.
    I would, at this point, urge you and your colleagues to 
think, though, about some version of what I would call the 
third track. I mean, for example, Ambassador Edelman talked 
about the authorization for the use of military force. General 
Hayden talked about the conditions of access. Ambassador Burns 
talked about certain things we do with our allies. I could 
imagine a comprehensive statement--and I'm not a legal or 
political expert on what form it would take--presidential 
communication, legislation, resolution, what have you--but, 
something that would address the shortcomings, and, in some 
ways, fill out. This is a narrow agreement. It's not just a 
flawed agreement, in some ways, but it's a narrow agreement. 
And even if it were flawless, there would be lots of issues. 
And I would think it's very much in our interest to do that, 
because one of our jobs here is to reassure friends in the 
region, so they don't follow suit, and it's to signal Iran so--
in particular, on the longer-term nuclear question. I--that, to 
me, is the biggest single set of concerns. And I would, very 
early on, sit down with the--ourselves and then the Europeans 
to think about what a follow-on framework would look like.
    Let me just make one other point. I think it's--Senator 
McCain and I were talking about this a little bit beforehand--I 
find it frustrating and, in some ways, sad and problematic, we 
are where we are today, having this hearing. And I wish, 
earlier on, the administration and the Congress had worked more 
in tandem. And I think that would have strengthened our hand, 
vis-a-vis the Europeans, the Chinese, the Russians, and also 
the Iranians, so we could have come up with a sense of minimal 
collective requirements or standards. So, now we're in a after-
the-fact situation trying to do that. It is imperfect. But, I 
still think it's--some version of that still makes the most 
sense at this point.
    General Hayden. May I add just one comment to what Dr. 
Haass just said, Senator?
    There are global implications to the nonproliferation 
regime, as well as regional implications. And I am--and so, Dr. 
Haass suggests a second regime after the 10-year period. 
Because there is such a danger to the global nonproliferation 
regime that this agreement actually explicitly says, (a) Iran 
gets all the benefits of an NPT party, but no other NPT party 
should believe that anything in this agreement sets a precedent 
for them. And so, what you've got if you don't go to a second 
agreement is a regime with the Iranians that then threatens to 
undercut global nonproliferation.
    Senator Reed. My time expired.
    Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I'm going to make this real quick since we have a full 
panel up here and everyone has to have access to their time.
    You know, prior to the time the first reports came out, I 
have to tell you--and I'll address this to General Hayden and 
to Ambassador Edelman, because I know you guys better than the 
other two--prior to that time, I just thought the mere concept 
of negotiating with terrorists seems not a good idea. But, then 
there are two things that came out that I've realized that, 
when I go back to Oklahoma and talk to real people, that are 
problems with this. One is the lack of verification, the other 
is the billions of dollars going to terrorists. And I--I've--
the last person I would expect to say what she said were the 
words that came from Susan Rice. She's the one that said things 
that were not true about Benghazi, on the Sunni programs. And 
when she came out and said--I think this is with Wolf Blitzer, 
and this is a quote--she said, ``We should expect that some 
portion of that money would go to the Iranian military and 
could potentially be used for the kinds of bad behavior that we 
have seen in the region up until now.''
    Now, I really believe, building on that, that this could 
fund the terrorism efforts through Hamas in Palestine, Bashar 
al-Assad in Syria, Yemen, and the rest of the places. The 
Pentagon currently estimates that Iran provides approximately 
$200 million a year to Hezbollah, alone. Now, on that thing, I 
asked the two of them, ``What am I overlooking?'' I mean, isn't 
that pretty obvious, just on its face, that this would expand 
the use of money going to terrorists?
    General Hayden?
    General Hayden. Very quickly, Senator. Of course it will. 
Now, the intelligence community put out an estimate that was, I 
think, intentionally leaked, that most of the money would not 
go. But, you know, ``most'' is like 51 cents on the dollar, so 
that leaves an awful lot of headroom for that estimate----
    Senator Inhofe. Sure.
    General Hayden.--beyond that. Right? Let's just imagine a 
world in which none of it goes. You realize that you've created 
a situation for the Iranian regime, where they can do guns and 
butter, that there is no pressure, internally on the regime, 
for continuing their current behavior, which is not the case 
today before the sanctions are lifted. But, I agree, it's even 
worse than guns and butter. It's more guns and butter.
    Senator Inhofe. Okay, I thought--
    Ambassador?
    Ambassador Edelman. I agree, Senator Inhofe, with what 
General Hayden just said, and I would add one--you know, one 
other factor here, which is the fact that the Iranians, at the 
last minute in the negotiations, suggested that the price for 
getting the deal was to lift the conventional arms embargo and 
the embargo on ballistic missiles in the U.N. Security Council, 
which my colleague earlier talked about, and that it was 
supported vigorously by Russia, I don't think, as I might have 
said in my earlier career as a Sovietologist, was ``by 
accident, comrade.'' This happened because the Iranians intend 
to use with this windfall--to use it to purchase advanced 
conventional systems with anti-access area denial elements to 
it, and the people who are going to sell it to them are going 
to be Russia and China.
    Senator Inhofe. Okay. Very good answers.
    The second thing that I looked at was, you know, if you're 
talking about 5 days, 10 days, 24 days, or whatever length of 
time, if you have to give a site warning that an inspection is 
going to take place, which that immediately sent up a red flag 
to me, then we had the statements by the Deputy Director 
Heinonen, who said that a 24-day adjudicated timeline reduces 
detection possibilities. He goes on to talk about what all can 
be done.
    Now, during the last hearing, Senator Fischer pursued it a 
little bit with Secretary Moniz and talked about the timeline. 
And I got a little confused there, because, first of all, you 
start off with the 24 days. We know how that's broken out. 
However, if Iran believes that any or all of the--you know, are 
not meeting their equipment--their commitments, it could refer 
the issue to the Joint Commission for 15 days, then the 
Ministers of Foreign Affairs for another 15 days. Now, that's a 
total of 54 days. Now, I don't know how much further it could 
go out. Is--do you agree that that could happen, in terms of 
something that would have to be verified?
    Ambassador Edelman. I'm aware of the provisions that you've 
talked about with regard to referring issues to the Joint 
Commission. You know, like any agreement, you know, we're going 
to find out, once it's actually in place, how it actually will 
work. But, I think it is possible that you could get a longer-
than-24-day period from the----
    Senator Inhofe. Yeah.
    Ambassador Edelman.--request to an inspection.
    Senator Inhofe. Yeah, okay.
    Ambassador Edelman. I think that's----
    Senator Inhofe. Okay, that adds up to----
    Ambassador Edelman.--perfectly plausible.
    Senator Inhofe.--some 56 days.
    General Hayden, do you think that they would be able to 
cover up a lot of stuff in 24 days, leave alone 56 days?
    General Hayden. Well, more time is better. And again, I 
think we all agree----
    Senator Inhofe. Okay.
    General Hayden.--that there's not going to be a sprint out 
to a new Natanz somewhere. It will be--there will be cheating, 
but it will be incremental. And that'll be the kind that will 
be very, very difficult.
    And, Senator, one additional thing. In addition to your 
adding onto the back end, there's some fuzziness at the front 
end before the 24-day clock starts, because there's a dialogue 
between the IAEA and the Iranians about what it is--to identify 
what really the issues are, about which facilities.
    Senator Inhofe. Thank you.
    Chairman McCain. Senator Nelson.
    Senator Nelson. I want to thank all of you for very 
reasoned statements. And this is--I consider it one of the most 
important decisions that I will make. And I'm sure all of us in 
the Senate feel that same responsibility.
    General Hayden, in your opening comments, and later 
amplified, you think it will be more guns and butter if the 
agreement goes through, and you characterized it earlier, 
versus if the deal is rejected, it would be a more impoverished 
Iran.
    And so, I want to take that and ask Ambassador Burns--given 
the fact that, when you subtract out all of what Iran owes 
under contracts, it's my understanding it's a net of about $56 
billion that would flow to Iran, most of which are in the banks 
of five countries: China, India, Taiwan, Japan, and South 
Korea. So, if the deal is rejected, my question is, What's the 
incentive for those banks in those foreign countries that hold 
those dollars for Iran's oil if those countries want additional 
Iranian oil--is there any incentive for them to keep them and, 
therefore, keep Iran impoverished?
    Ambassador Burns. I think one of the problems is--and I've 
been in a couple of hearings now, and Senators and 
congresspeople are focusing on this issue, is--there's really 
no Plan B. The expectation by all the adherents to this 
agreement is that it's going to go forward. But, if it does 
fall apart, for whatever reason--or if the United States 
Congress decides to disapprove, and the President can't sustain 
a veto--I think there's going to be a dynamic that develops 
that's not going to be in our favor.
    I've paid attention, of course, to Secretary Lew's 
testimony about the amount of money he thinks would be 
available to the Iranians. I'm not competent to answer the 
question specifically. I would think some of that money will go 
to long-term contracts, some will have to go to the Iranian 
economy, because it's been so impoverished. They'll have to 
spend on social welfare, infrastructure projects. No question, 
some of it will go to the IRGC, given the relationship of 
Qassem Soleimani, the head of the IRGC Quds Force, to the 
Supreme Leader, Ali Khamenei. That's to our disadvantage. And 
that's what we're going to have to compensate for.
    But, I look at this from a very practical viewpoint. I 
think if we get into this realm where the deal falls apart, the 
Iranians have more of the advantage than we do. And I think we 
will lose the grip on the international sanctions regime. And 
some of those banks around the world that have been--that had 
funded the Iranians, some of the long-term contracts will come 
back. It will be difficult, in that scenario, to impose 
extraterritorial sanctions, even in Europe, because the 
consensus would have broken down. So, I really don't see the 
logic of that no-deal scenario. And that's why I prefer and 
support the President's initiative.
    Senator Nelson. I've been reading some of these annexes. 
And the one on access, which is Annex Q, it goes through this 
process on undeclared sites, that so many days, and so many 
days, and a vote of this Council, five of the eight members, 
another 7 days and 3 days, which is the maximum of 24 days. If 
Iran still balks at giving us access, giving the IAEA access, 
to an undeclared site after that process, and, with the overlay 
of our intelligence, isn't it pretty well that we're going to 
be able to understand that that is covert activity, and we 
could operate accordingly?
    Anyone.
    General Hayden. I guess I'll take that, Senator, because 
I've--in my previous life, I would be the one going into the 
Oval with the case.
    There's actually a phenomenon in intelligence that 
describes that dilemma. It's called the Phenomenon of the 
Unpleasant Fact. And you're going in to your senior leadership 
with something that cuts across their policy goals, their 
policy preferences, and maybe even their politics. And there, 
the burden of proof is incredibly high. So, I actually think 
it's going to take a long time to convince any President who 
would believe in the deal to go ahead and put the deal at risk 
by responding to what still is ambiguous behavior. And then, 
even after you've convinced our government, it's going to be 
even more difficult to convince other governments that further 
action has to be taken if your evidence remains ambiguous. 
There will always be arguments for alternative explanations.
    Senator Nelson. You can't--I don't think you can hide 
traces of enriched uranium. And that's why I think the IAEA 
plus our intelligence apparatus is going to be able to find it.
    General Hayden. No, I--number one, there would--there can 
be cheating that actually could approach being substantial 
without enrichment activity. But, I assumed in your scenario, 
Senator Nelson, that the IAEA would not get physical access in 
order to go ahead and do the swipes for the detection of 
isotopes. And that's what I meant by ``and it will remain 
ambiguous.''
    Chairman McCain. Senator Sessions.
    Senator Sessions. Thank you all for your wise insight and 
help us make some tough decisions here.
    I asked Secretary Carter, last week, and Secretary Kerry 
testified before the House last week that Iran is the number-
one world sponsor of terrorism. So, we're negotiating with a 
very problematic country whose religion transcends, sometimes, 
normal political discourse, I think, creates an ideological 
extremism that's dangerous there.
    Dr. Haass, you mentioned the historical perspective. I 
remember Mr. O'Hanlon, from Brookings, testifying. I followed 
up on something he said about the fact that this may be 30, 40-
plus years of dealing with this spasm of Islamic extremism that 
we're seeing. And he just said, ``Yes.'' That was his answer.
    So, what we do with Iran, would you agree, should be 
consistent with an overall historic strategy, over decades 
perhaps, to help subside this extremism that we're seeing?
    Dr. Haass. In principle, yes. But, in practice, it's going 
to be extraordinarily hard, simply because, even though Iran 
would say, from their point of view, the principal threat to 
stability in the region is the Islamic State, much of what Iran 
is doing is actually encouraging people to go join that 
organization by, for example, using Shiite militias inside of 
Iraq or supporting the Assad government. So, Iran's own policy, 
I would argue, is against their own professed self-interest. 
And that's why this is going to be so difficult.
    It's one of the reasons, Senator, I'll be honest with you, 
I am so pessimistic about the trajectory of this part of this 
world. We haven't even discussed Turkey, we haven't discussed 
Egypt, we haven't discussed Yemen. We could--Saudi Arabia's own 
internal dynamics. I think there's more fault lines in this 
part of the world than we have fingers on our hands. And Iran 
is a significant, but not the sole, contributor to the 
pathologies of this part of the world.
    Senator Sessions. Ambassador Edelman, it seems to me that 
we've gotten into this negotiation improvidently. Bush 
administration said we can't negotiate with this terrorist 
state. And President Obama decided to commence those 
negotiations. A wise Middle Eastern leader told us that you've 
got to know how to get out of a talking trap; otherwise, you 
can't--you know, you lose all kind of ability to act.
    So, I guess what I'm asking, first and foremost--it seems 
to me that the--that an agreement of any kind with Iran should 
be founded on a--as part of an overall strategy to deal with 
the problems in the Middle East. And it seems to me this has 
been an ad hoc agreement, this situation that started talking 
that we couldn't get out of it, and now we've ended up with an 
agreement that, I agree with you, does not serve the national 
interest. Is that incorrect, or you have any thoughts on that?
    Ambassador Edelman. Senator Sessions, thank you.
    First, I think, in fairness, although we were not directly 
involved in the negotiations with Iran during the Bush 
administration, my colleague to the left was constantly working 
with the then-EU3. And I believe, at the very end of the Bush 
administration, the other Ambassador, Burns, actually 
participated in one round of negotiations. So----
    Senator Sessions. Were those official negotiations?
    Ambassador Edelman. They were official negotiations, but--
and his participation was brief and fleeting, I would say, but 
it was a part of the process.
    You're right that--and, first, one of the occupational 
hazards of negotiating is, negotiators get the bit in their 
teeth, understandably; they work on something, and then they 
want to get a conclusion, they want to get a deal. And there is 
always the danger that the objective--in this case, preventing 
Iran from developing a nuclear weapon--gets lost, particularly 
in the final effort to conclude a deal, which is difficult and 
arduous. And, in this case, I think the negotiators got a lot 
of things. If you read the entire document, there are a lot of 
things I would have been--you know, I would have predicted they 
wouldn't have gotten. It's, you know, surprising in some of the 
limits, et cetera. But, the overall result, I agree with you, 
is not satisfactory.
    The--I think that, you know, my colleague, Ambassador 
Burns, said there seems to be no Plan B. I don't quite 
understand that. I mean, the administration said, throughout 
the negotiation, it was prepared to walk away from a bad deal. 
It said repeatedly that a bad deal was worse than no deal. So, 
presumably, if they were prepared to walk away, there had to be 
some Plan B somewhere, because someone had to be thinking about 
what they were going to do if they didn't actually get the 
deal. So, the idea that there's no other deal out there that's 
available, I don't think is credible.
    I would add another thought experiment to this. Let's say, 
for the sake of argument, that the Majlis actually act before 
you all do. And let's say, for the sake of argument, the Majlis 
were to reject the deal. I don't believe that the 
administration's first response would be, ``Oh, my God, there's 
no deal. Now we have to go to war.'' I think they would say, 
``We've got to figure out a way to get the Iranians back to the 
table and start negotiating again and get a--you know, get 
something we can do.'' I don't understand why that principle 
wouldn't apply to this body, as well.
    Senator Sessions. Do you think--just to--do you--all right. 
My time is up. I'm sorry. He didn't answer the question.
    Chairman McCain. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    And thank you all of you. This is extremely enlightening, 
and it's extremely important, and I think the decision that we 
make is one of the toughest decisions any of us have ever made 
since I've been here. And I'm sure the rest of our committee 
here agrees. But, it's one that's going to have world 
implications, not just to the United States, and not just Iran.
    With that being said, I look back in history. I grew up at 
a period of time when Iran was a friendly nation or a favored 
nation, with the Shah. And I remember, 1979, we had 52 hostages 
that were held for 444 days. The regime changed. I don't know 
if any of--look--of you all look back in history, thinking this 
regime would withstand 36 years. Did anybody predict they would 
be able to hang on for that long? And if that's the situation 
or evaluation, do we believe that they are on the brink of 
breaking, to where the people will revolt and change because of 
the hardship after 36 years? I would have thought--this 
hardship's been going on for quite some time. They didn't 
progress like they did prior to this regime change in '79. And 
if that would be the case, then what's the chance of this 
regime changing if we do the deal or don't do the deal? Which 
puts more pressure on them? Because I would think the only way 
we're going to change that country, or even that part of the 
world, is if some of these regimes and some of these people who 
want a--more of a peaceful life are going to be able to take 
hold again. So, that's one question.
    And also, the other question I would have is, Is there any 
possible way of stopping the flow of money if we walk away from 
the deal? I think we've touched on it. I think Senator Nelson 
asked the question. I know we all have been thinking about 
that. But, we act like we're in control. And if we walk away, 
the money--we just put a grip on it, and nothing moves.
    The third thing I would ask you all is, If you were going 
to meet with the P5+1--if you were sitting down with all the 
representatives, whether they be ambassadors or spokespeople 
for these countries, what question would you ask?
    So, we'll start with the third, if you--first--regime 
change. Can it be done if--with or without the deal? And then 
down to the three.
    So, we can start either way you want to start. Do you want 
to start?
    General Hayden. Regime change has not been the American 
objective, looking backward as far as my experience allows me 
to see. That said, the Iranian leadership has never wavered 
from the conviction that this was always all about regime 
change. So, that's made our dialogue with them even more 
complex.
    I would say that one course of action gives a better chance 
of coercing regime change. That's no deal. And then, there are 
hopes that, if you do have this deal, you might entice regime 
change because of integrating the state, the people, into the 
larger community. I actually think both chances are very low. I 
don't think it's going to happen.
    Senator Manchin. Money?
    General Hayden. One more on regime change. That is most--
actually, looking at it, it is most tightly tied to 
demographics, and it's a nation's youth bulge that creates 
disturbances that lead to regime change. It's very--it's 
actually a very predictive indicator. Egypt just went through a 
youth bulge. Our youth bulge was----
    Senator Manchin. I'm sorry, General, we're going to have be 
very quickly, because I--I'm running out of time.
    General Hayden. Our youth bulge was '68 to '70. The 
Iranians are now on the back end of their youth bulge.
    Senator Manchin. Okay.
    Money, Dr. Haass? Or which way--do whatever, real quick.
    Dr. Haass. Regime change, I don't think it's in the cards, 
unfortunately.
    Senator Manchin. Either way.
    Dr. Haass. Either way.
    Senator Manchin. With or without.
    Dr. Haass. It's the impact--first of all, it's likely to be 
slight, either way. Second of all, you can't count on it.
    Senator Manchin. Gotcha.
    Dr. Haass. Regime change may happen----
    Senator Manchin. Gotcha.
    Dr. Haass.--for reasons that we can't predict. If it does, 
it could be for the better, it could be for the worse. Took the 
Soviet Union over 70 years, happened rather quickly at the end. 
But, it simply--to me, it--it's more wishful thinking right now 
than it's----
    Senator Manchin. Okay.
    Dr. Haass.--than a strategy.
    P5+1. I would sit down, very quickly, and have the 
conversation both about how to deal with noncompliance, and, 
second of all, how to deal with the long-term nuclear 
challenge. Because this agreement stores it up, if you will, 
for years 10 and years 15.
    Very quickly, I'm worried that too many think--people think 
this agreement solves the problem. It parks the problem. And 
that's the conversation I would begin with the P5+1.
    Senator Manchin. Thank you.
    Ambassador Edelman. Senator Manchin, excellent questions. 
In the interest of time, I won't add anything on the regime 
change----
    Senator Manchin. Okay.
    Ambassador Edelman.--question, except to say I think, on 
the margin, this agreement strengthens the regime rather than 
weakens it.
    On the flow of money, I think actually there are ways to 
staunch it. I think a strong vote in the Congress against this 
deal would help staunch it. And the reason I say that is the 
comments that my former colleague, Jacques Audibert, the French 
National Security Advisor to President Hollande, made in 
denying the conversations he allegedly had with some members of 
the House. He did say that he told them that it would be a 
powerful disincentive, given the kind of penalties BNP Paribas 
paid for violating U.S. sanctions.
    Senator Manchin. Could I have Mr. Burns just answer the 
two--
    Ambassador Edelman. Yeah.
    Senator Manchin.--because we just ran out of time.
    Real quick.
    Ambassador Burns. Very quickly. We should hope for regime 
change, but we can't bank on it. And I would say this is a 
tough regime which will likely survive, unfortunately.
    On the money, long line of European and Asian officials and 
businesspeople in Tehran ministries over the last weekend. So, 
I think it would be very difficult for us to kind of reimpose 
and rejigger that whole sanctions regime if we walked away.
    And finally, on the last question, I was in the P5+1 for 3 
years. They need to stick with us on sanctions reimposition. I 
think the Europeans would. I don't think the Russians and 
Chinese would.
    Senator Manchin. And your question to P5 would be what, 
right today?
    Ambassador Burns. Excuse me?
    Senator Manchin. Your----
    Ambassador Burns. My question would be, we--I think it's 
inevitable the Iranians will test the restrictions and try to 
cheat. And we're going to need P5 unity. And that's one of the 
downsides. It's going to be difficult to have----
    Senator Manchin. Commitment to do that. Thank you.
    I'm sorry, Mr. Chairman.
    Senator Inhofe [presiding]: Senator Ayotte.
    Senator Ayotte. Thank you, Chairman.
    I want to thank all of you for being here. This has been 
very helpful.
    One of the issues that General Hayden raised, and some of 
you have raised on the inspection regime on undeclared sites--I 
think, if you look at the language in Annex 1, Section Q, that 
lays out the procedure for undeclared sites, it--I don't see 
anywhere in that Annex--in fact, what I see in it, in 
paragraphs 75 and 76, is that, first, the IAEA has to raise the 
concerns of undeclared sites to the Iranians, then, at that 
point, they actually have to put in writing their concerns. The 
Iranians have an opportunity to respond, and they actually get 
to suggest alternatives to what the IAEA would like, in terms 
of access to undeclared sites.
    So, in that language, to General Hayden's point, do you 
remain concerned, if the IAEA is not given physical access to 
undeclared sites, that that could undermine their ability, even 
if you use the most advanced testing to know, in fact, whether 
an undeclared site is being used for their nuclear program? I 
mean, is this a real issue?
    As I look at this--by the way, I think this is a lawyer's 
dream. I mean, as we look at the back-and-forth on this, I 
mean, I can only imagine, my prior life as a litigator, I could 
have a ball with this.
    I'd just like your comment on physical access. Nothing in 
this can I see guarantees us any--or the IAEA, obviously--any 
physical access to their undeclared sites.
    Dr. Haass. I'd say two things. It--you're right, it doesn't 
guarantee it. The question of access is not explicitly defined. 
But, second of all, we shouldn't kid ourselves. For certain 
activities, even physical access is not a panacea. By 
definition, undeclared sites are just that. You can't know 
something is going on if you don't know what's going on. So, 
for example, if there's certain weaponization activity going on 
at an undeclared site, by definition we're not going to have 
access to it, because we won't know it's going on. And certain 
types of activities don't leave traces. So, even physical 
access is valuable, as it would be in some cases, is not a 
solution. Inspection is meant to be a cooperative enterprise. 
And I think we have to accept the limits that we've got a 
noncooperative party on the other end of this agreement.
    Senator Ayotte. Ambassador?
    Ambassador Burns. Thank you very much, Senator.
    If we get into this realm of the managed inspections, the 
24 days, we're into, likely, a significant violation. If the 
Iranians ultimately, in those 24 days, don't provide access, 
that's a violation of the agreement. And I think we would have 
the--if we're serious and we would prosecute this, we would 
have the upper hand in getting a lot of international support--
not from everybody, but from key countries.
    Senator Ayotte. So, one other--I have a number of 
questions, but--Dr. Haass, you mentioned that we need to 
reassure our friends in the region so they don't follow suit. 
One of the issues that many of us have heard an earful about is 
from our allies in the region and their potential desire to 
have threshold programs or programs, themselves, to hedge 
against the Iranian program, and that this is a real concern 
for us as a result of their ability to keep their 
infrastructure in this agreement. Could you all comment as to 
what the impact could be on our allies in the region, in terms 
of their own nuclear programs or desire for this capability?
    Dr. Haass. What it's going to take is the combination of 
things. One is going to be that they're going to have 
confidence in how we pursue this, noncompliance as well as 
follow-on--there's clear ceilings, shall we say, on Iranian 
capabilities. We're going to have to look at defensive systems 
of all sorts for these countries.
    I actually think the most interesting area may well be 
security guarantees. If we don't want them to each go down that 
path themselves, the question then is, What are we prepared to 
do for them and with them in this area? Because, despite our 
best efforts, Iran may still achieve, you know, at a minimum, 
threshold status. So, I think if we don't want--and we don't 
want--the United Arab Emirates (UAE), the Saudis, and others 
going down that path, then I think it's actually a big debate 
for the United States, which is, To what extent are we prepared 
to put, however conditional, various types of nuclear umbrellas 
out there in the region?
    Senator Ayotte. Do others want to comment on that?
    Ambassador Edelman. Senator Ayotte, I would just add one 
thing, which is, if you take a country like the UAE, which has 
signed a 123 Agreement with the gold standard of no enrichment, 
they have been very vocal about, you know, what this means for 
them now that this very large industrial-scale program is being 
okayed by the international community. You see that in Saudi 
Arabia, as well. So, I think the concern you've expressed is 
extremely well placed and goes to General Hayden's comment 
about the threat that this agreement, I think, represents to 
the broader nonproliferation regime over time.
    General Hayden. And, Senator, one solution is to compensate 
with conventional weapons to our allies in the region, which 
has its own second- and third-order effects with regard to the 
balance between the Arabs and the Israelis. And we may end up, 
as a byproduct of this agreement, with a far more militarized 
Persian Gulf than we've had in the past.
    Ambassador Burns. One option for President Obama and his 
successor is to reaffirm the doctrine that the Persian Gulf is 
vital for the national security interests of our country. I 
think all administrations, Republican and Democrat, have 
essentially said that since Jimmy Carter's administration, but 
we haven't heard it in those terms, clear terms from the Obama 
administration. That would help to reassure the Gulf allies.
    Senator Ayotte. I thank all of you for being here. 
Appreciate your insight.
    Chairman McCain [presiding]: Senator Shaheen.
    Senator Shaheen. Thank you.
    And thank you all very much for being here this morning.
    You have all suggested, and I have heard this in virtually 
every other hearing on this Iran deal, that the likelihood of 
Iran breaching this agreement is more that they would breach it 
incrementally rather than that they would walk away or have a 
very flagrant breach. And so, one of the things that we ought 
to be thinking about if it goes forward is what other measures 
we could take with the other signatories to the agreement that 
would show Iran that we are strong and we're not going to 
tolerate those incremental breaches.
    So, I wonder if you could speak--and maybe I'll start with 
you, Dr. Haass--about what other steps that we should be 
thinking about as we're looking at the potential for 
incremental breaches.
    Dr. Haass. Well, again, I think your premise is exactly 
right, and I think the Iranians--getting back to something 
General Hayden said--hope that the inevitable ambiguity gives 
them protection and that these issues get talked to death and, 
at the end, there's no clarity. But, I--what I would think is--
the only response I can think of is that we have--how would I 
put it?--lesser responses to lesser breaches. If we only have 
all-or-nothing responses, then I----
    Senator Shaheen. Right.
    Dr. Haass.--I think we tie ourselves in knots. So, we ought 
to have gradations of responses, if you will, in some ways 
geared to the breaches. I think we have a much better chance of 
getting something like that through the P5+1, the--something 
that seems, if you will, proportionate.
    Also, could I say one other thing? We have to think about 
if there is something of a breach, what is our goal? And our 
goal is not simply to penalize at that point, it's also to get 
the Iranians back into compliance. And I think that's got to be 
an important part of our policy, as well.
    Senator Shaheen. And so, what are--Ambassador Edelman----
    Ambassador Edelman. Yeah.
    Senator Shaheen.--what are other actions that we might 
take?
    Ambassador Edelman. You know, Senator Shaheen, you've 
raised an important question, and it's one that I find 
particularly troubling, because my own experience in government 
is--and I'm saying it in light of the comments by Minister 
Zarif, that, ``Basically, oh, we're only going to get penalized 
for big violations, not for little violations.'' Of course, you 
pile little violations up on top of each other incrementally 
over time, and it can actually amount to, you know, serious 
capability being developed.
    The problem is, as General Hayden said earlier in the 
hearing, you're always going to be dealing with ambiguous 
information. There will be an argument inside the intelligence 
community first about whether this information actually is a 
violation----
    Senator Shaheen. And----
    Ambassador Edelman.--and how important the violation is. 
Then we'll have an----
    Senator Shaheen. I'm sorry to interrupt you, but----
    Ambassador Edelman.--then we'll have an interagency debate 
about it.
    Senator Shaheen. I appreciate that. But, what I'm 
suggesting is that--what I think everyone was saying is that, 
if an agreement goes forward, we ought to be prepared that 
we're going to respond to those incremental breaches. And so, 
what--what's the menu of options that we've got, to do that?
    Ambassador Burns?
    Ambassador Burns. I think the administration is prepared 
and should set a very high bar for the Iranians; meaning, if 
you anticipate that they're going to begin to cheat, you have 
to be very tough-minded and call them on those early rounds, or 
else they're going to be emboldened, the way that Foreign 
Minister Zarif predicted in his public statement. And, at least 
from my own understanding of the administration's position, 
they're determined to be very tough-minded at the beginning. 
And I think that's what we have to be. We'll have to have the 
Europeans with us. In a strange sort of way, President Putin 
has stayed with President Obama on this particular issue, 
despite our sanctions on Russia over Ukraine. The Russians 
don't want Iran to become a nuclear-weapons power. I'm not 
predicting they're going to be a great partner, but you have to 
work on the Russians, as well.
    Senator Shaheen. Let me also ask--I think it was you again, 
Dr. Haass, and Ambassador Edelman, as well, who suggested that 
there were other steps that Congress could take, should an 
agreement go forward, that would help strengthen the U.S. 
position with respect to any agreement. And, Ambassador 
Edelman, you suggested an AUMF, which, you know, I think many 
of us might be open to, except that we haven't been able to get 
an AUMF done on the actions that were taken against ISIS. But, 
what other kinds of measures are you suggesting that Congress 
might take that would help to strengthen our position?
    Dr. Haass?
    Dr. Haass. It's a longer conversation than your time limit 
would have, but certainly we would spell out of some of the 
parameters of the follow-on nuclear deal beyond the 10 and 15 
years. I actually think that would be critical, dealing with, 
for example, questions of levels of arrangement. Just because 
the agreement ends at certain points, and may not preclude Iran 
from doing certain things, doesn't mean we couldn't put into 
place something that would be a follow-on that would preclude 
those things, or say, ``If you are tempted to do it, here would 
be the results or the consequences.'' So, I would think that is 
high on the list. We would also talk about some of the help we 
would provide for other countries in the region against certain 
kinds of threats from Iran.
    But, essentially, Senator, I would go through each of the 
three baskets--the noncompliance basket, the regional basket, 
and the follow-on nuclear basket--and say, each one of those, 
what do we see as the problems or the shortcomings or the 
issues likely to arise? What can we do now, looking at them--
some would be immediate, some would be towards the future--to 
reinforce this agreement? And that--that's the conversation I 
think Congress should be having with the executive branch, 
sooner rather than later.
    Senator Shaheen. Thank you.
    Thank you all very much.
    Chairman McCain. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Gentlemen, I would like to follow up on an answer that 
General Hayden gave to Senator Reed on his questions dealing 
with precedent and nonproliferation. As you all probably know, 
in paragraph 11 of the preamble, it states that, ``This 
agreement should not be considered as setting precedents for 
any other state.'' And, Ambassador Edelman, in your beginning 
comments, in your opening comments, you said that this 
agreement reverses 50 years of nonproliferation policy, even to 
friendly governments. So, a couple of questions, here.
    First question. Does including a caveat like this in the 
preamble, does that really accomplish anything? And my second 
question would be, To what extent will this agreement impact 
future nuclear cooperation agreements?
    You know, if we're prepared to embrace the idea of a serial 
violator building an enrichment program, and leave open the 
possibility that they begin reprocessing activities in 15 
years, I don't see how we can object to extending similar terms 
to other countries that actually have good nonproliferation 
records.
    So, I would like you to begin, in any order you'd like to. 
Ambassador Edelman, would you like to start?
    Ambassador Edelman. Senator Fischer, yeah, you've put your 
finger on something that I found troubling in the agreement, as 
well. And I think what you're seeing there is that the 
administration has gotten that inserted into the agreement so 
that it can say, in principle, we have denied Iran the right to 
enrich; we've just recognized it, in practice, because we're 
allowing them to have an industrial-scale enrichment 
capability. So, that's why I think you see it there. And I 
think, notwithstanding the fact that people say it's not a 
precedent, other people will say that it's a precedent, just 
as, for instance, we asserted that the recognition of Kosovo's 
independence unilaterally was not a precedent; Russia used that 
precedent against us in 2008, in Georgia.
    Dr. Haass. Two things. Whenever you say something is not a 
precedent, it's the equivalent of saying, ``With all due 
respect.''
    [Laughter.]
    Dr. Haass. And you inevitably run into it.
    That said, Iran is sui generis. And a lot of the countries 
we're going to have to deal with nuclear programs are not Iran, 
thank God. Iran is an outlier. Whether it's the UAE or 
potentially Saudi Arabia. I mean, they are qualitatively 
different sorts of challenges.
    So, I think we ought to, to the best we can, deal with this 
as a one-off. Yes, it's going to be pushed in our face 
sometimes with people that are saying, ``Well, you agreed to 
this,'' and we're going to have to argue, ``But, that was a 
special case.''
    So, I think it is in our interest, to the extent this is a 
problematic agreement, to make it as sui generis as we can, 
understanding that others are going to cite it. But, it's not 
the same as most-favored-nation status. It's not that 
problematic, because we're not dealing with a world of rogues. 
Iran is, to some extent, an outlier, as is North Korea and 
several others. And the more likely conversation is going to be 
one, two, or three agreements with friends. And I think that is 
a qualitatively different sort of conversation.
    Senator Fischer. So, you think, if a country that we are 
somewhat friendly with, if they want to say, ``Okay, for 15 
years, we won't be running centrifuges, we're not going to 
reprocess any reactor fuel, you know, we're going to abide by 
that for 15 years, but, you know, hey, 15 years later, all 
those bets are off,'' what's the option then?
    Ambassador Edelman. Well, but we've had the----
    Senator Fischer. We're going to say, ``But, you're a good 
actor, you're not going to do this.''
    Ambassador Edelman. But, that's exactly what's worked. Look 
at Japan, look at South Korea, and others. We've had a whole 
experience of close American relationships which have been, I 
would argue, the best nonproliferation tool available to the 
United States. So, to the extent we have good relations and 
there's confidence in American reliability, then I don't think 
we have to worry about proliferation across the board.
    So, at the end of the day, proliferation is part of a 
larger thing, called American foreign and national security 
policy. We've got to get the larger thing right. Then we'll be 
in a better position to address proliferation pressures, just 
as we have in Asia. People predicted many countries in the 
Asia-Pacific would go down certain paths. They have not, I 
would argue, because we had military presence, we had credible 
security arrangements and commitments to them, and, with them, 
we dealt with their adversaries. So, I don't think, if you 
will, it is hopeless in this area.
    Senator Fischer. I'm running out of time.
    So, if Iran decides it wants to build a reprocessing spent-
reactor fuel and produce highly enriched uranium or build a 
massive uranium enrichment program after year 15 of this 
agreement, what are our options?
    Ambassador Burns. Our options will be to reimpose--well, 
first of all, they have--they will have the right to 
reconstitute a civil nuclear program. The danger will be, Will 
they use it as a cover for a covert military program? And we'll 
have--this is where it gets challenging for us in years 10 to 
15 to 20 to 25--we'll have to, I think, reassert our ability to 
use military force, should they get close to a weapon, and 
reimpose a sanctions regime, should that be necessary.
    So, in essence, we'll be back, if you will, to what we've 
been doing for the last 10 years, in trying to contain them.
    Senator Fischer. Thank you.
    Chairman McCain. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you all for being here, and thank you for your very 
thoughtful and insightful testimony today.
    Dr. Haass, I think that one of the very important points 
you make is that we can agree or disagree that a better 
agreement could and should have materialized. Many of us, I 
think, have expressed the view that a better agreement was not 
only possible, but perhaps should have been reached. But, the 
reality today is that we have this agreement. And the question 
before us is not the one for historians, as you've said, it's 
what the consequences are, the practical and real-world 
effects. And I know that you said that you did not have time, 
in response to my colleague Senator Shaheen's question about 
what the follow-on could be, but perhaps you could expand on 
what you think, specifically, the Congress could insist on the 
administration doing, even if there are the votes to sustain 
the President's veto.
    Dr. Haass. Senator, I'd want to think about it in greater 
detail and have that conversation with some other experts, 
including the three gentlemen at this table for whom I have 
great respect. But, I would think that we would want to have 
certain limits on Iranian enrichment levels, possibly on the 
amount of enriched material. I would probably want to have 
limits on delivery systems. I would want to talk about what 
exactly is the--is meant by the implementation of the 
additional protocol, what is our understanding of that. So, I 
would want to, essentially, keep ceilings and tabs on the 
Iranian nuclear program beyond 10 and 15 years.
    The Non-Proliferation Treaty (NPT) is an open-ended 
document. I believe our approach to Iran in the nuclear realm 
ought to be similarly open-ended. And we ought to decide in our 
own minds what--to what degree--what's an acceptable threshold 
and what isn't. Because, I think, to simply say that Iran is 
allowed to be a threshold nuclear power, but not a nuclear-
weapon state, that leaves me uneasy, because that could--
because it would mean zero breakout time, and that would put 
tremendous pressures on others to follow suit. So, where I 
think we ought to be detailing is, What sort of--what is our 
definition of an acceptable threshold? And I would want to get 
into--in many ways, many of the things addressed by this 
agreement for 10 and 15 years, I want to--I would want to see 
how they could be extended, either in their current form or in 
a modified form.
    Senator Blumenthal. And I hope that conversation will 
continue even before the Congress has to vote on this issue.
    General Hayden, if the United States Congress rejects this 
agreement, does it lead to a better agreement? And, if so, how?
    General Hayden. It could lead to a better agreement, but it 
would require a powerful amount of American enthusiasm for Plan 
B. You don't improve on Plan A without really strong American 
leadership. And that may actually be an important factor as to 
how much willingness the current administration would have into 
pursuing Plan B.
    I think it was Ambassador Edelman who suggested, earlier, 
you know, that there always seemed to--there had to have been a 
Plan B; otherwise, you can't make the statement that, you know, 
a bad agreement is worse than no agreement. But, there doesn't 
seem to have been any construct put forward the--what Plan B 
might look like. And so, again, very powerful American 
leadership, probably from both political branches.
    With regard to the Iranians, I don't think they sprint to a 
weapon. I think we get more of the same. Actually, they're--
actually, I think it's more likely that they abide by the 
agreement for a time period, rather than sprinting to a weapon, 
in order to try to create a wedge between ourselves and our, 
particularly, European allies. And I think the way it settles 
over time is the incremental growth of the Iranian nuclear 
system, not a sprint to weapons.
    To be very candid, Senator, we were never convinced they 
were going to build a weapon. I mean, if this were a weapon, it 
was our belief that Iranian foreign policy is best served by 
parking right here, because, unlike the North Koreans, cooking 
one of these things off in the desert pushes a whole bunch of 
things into the red, not into the green. And, unfortunately, I 
think what the agreement, in its current form, has created is 
this, if they just have a bit of strategic patience.
    Senator Blumenthal. Thank you.
    My time has expired. But, this issue obviously is immensely 
complicated. I have a lot more questions, and hope that I can 
explore them with members of this panel in another setting.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton.
    Senator Cotton. Thank you all for being here today.
    General Hayden, you've spent a career in the American 
intelligence community, from the lowest levels to the very 
highest levels. I've heard it reported that you once said, 
``Intelligence is not a fact; otherwise, it wouldn't be called 
intelligence.'' I have the highest regard for the professionals 
in our intelligence community, but I want to review briefly the 
history of assessments of foreign countries' pursuit or 
acquisition of nuclear weapons.
    The Soviet Union, China, India, Pakistan, Iraq--twice--
North Korea, Iran, and Syria. Do you think the U.S. 
intelligence community has provided timely and accurate 
assessments, down to a month-by-month timeline, of these 
countries' pursuit or obtaining of nuclear weapons?
    General Hayden. No, of course not, Senator. And hence, my 
earlier comments and other testimonies that, absent an invasive 
inspection regime, American intelligence alone can't give you 
sufficient confidence in the agreement.
    Senator Cotton. And the reason it's so hard is that these 
countries are very good at concealing their intentions and 
capabilities, and it can often be hard to develop assets that 
reveal those to us?
    General Hayden. Iran, much to my disappointment, 
particularly to the President I served, was a very hard human 
intelligence target. And, in many ways, that's what you need in 
order to detect this, because the physical evidence of at least 
the early stages of breakout is very hard to come by.
    Senator Cotton. What, then, is your level of confidence of 
the United States intelligence community's ability to have deep 
insight into Iran's intentions and capabilities down to the 
nearly month-by-month assessment necessary?
    General Hayden. Yeah, I wouldn't go, Senator, month by 
month. Back to my phenomenon of the unpleasant fact, how much 
evidence do you have to have in your folder to go in to tell 
the President his favorite plan is now off the rails? So, month 
by month would be very hard.
    But, again, back to my point, within the 10-year period, 
the best part of this agreement is Richard's basket or my 
bubble of the agreement itself, because it does create some 
fairly robust ability. Not that they won't cheat. They will 
cheat. That's unarguable. But, I think the cheating will be 
roughly at the margins, and not that breakout or sprint.
    Senator Cotton. Do you expect that to happen in declared 
facilities, like Natanz or Fordow----
    General Hayden. No.
    Senator Cotton.--or in undeclared sites?
    General Hayden. No, of course not. It would be in 
undeclared sites. It's always in undeclared sites.
    Senator Cotton. In a country two and a half times the size 
of Texas.
    General Hayden. Senator, Fordow was pretty far along. We 
count it as an intelligence success, but Fordow was pretty far 
along before we discovered it. We learned about Natanz from an 
Iranian opposition group.
    Senator Cotton. I want to move now to the alternatives to 
this deal, or, more specifically, what would happen if Congress 
were to disapprove this deal and override the President's veto. 
I know there's a lot of proponents of the deal who say, ``It's 
this deal or war.''
    Ambassador Edelman, recently a French diplomat, speaking to 
several Members of Congress, said that was not the case. Could 
you elaborate on that perspective and share your opinion of his 
perspective?
    Ambassador Edelman. Senator Cotton, I think you're talking 
about my colleague, Jacques Audibert, the French President's 
National Security Advisor. There is some dispute about what he 
actually said, since he's denied part of it, but I think what's 
not disputable is that he made it clear that a vote against the 
deal would have a very chilling effect on people going back 
into Iran, because of the potential penalties and lack of 
access to the United States financial system. And that, I 
think, is an important fact to bear in mind when we think about 
potentially walking away from the deal and renegotiating it. We 
have lots of tools at our disposal.
    Senator Cotton. What do we think would happen if the 
Iranian Parliament voted to reject this deal? Surely, it is a 
rubber stamp for the Supreme Leader, but, nonetheless, they 
still have scheduled a vote a few weeks after our vote in this 
Congress.
    Dr. Haass. As you say, it's unlikely, sir. If it were to 
happen, I think current arrangements would remain in place, in 
terms of sanctions, because it would be seen as their doing. 
So, I think there would be no major move afoot. The real 
question, What would Iran do in the nuclear sense? Again, I 
would think more drift than sprint, because that would be the 
sort of thing that they would think would be--would not 
stimulate or trigger the sort of reaction they supposedly would 
want to avoid.
    Senator Cotton. Ambassador Edelman, one final question, 
because my time is running short. Given the fact that a 
nuclearized Middle East, if this deal one day leads to that, 
would likely have countries with limited nuclear stockpiles, 
limited delivery vehicles, very-near-distances limited 
communications, less stable governments than we saw during the 
Cold War in the Soviet Union and the United States, what do you 
assess the risk of genuine outright nuclear war in the Middle 
East to be?
    Ambassador Edelman. I think, potentially, Senator, it's 
very high. Back in the Cold War, nuclear strategists identified 
something called the ``N country problem,'' which was--it was 
possible to understand how a nuclear balance of power would 
work between two parties, but, once you got multiple parties 
into it, it seemed to be an insoluble paradox. And, in the 
Middle East, it would be heightened by the fact that you have 
very, very short flight times, you'd have relatively small 
arsenals, at least at the beginning, and you've have enormous 
incentives on the part of all parties to preempt. And I think 
there's a very real chance you would end up with nuclear use in 
anger for the first time since 1945.
    Senator Cotton. Thank you all. My time's expired.
    Chairman McCain. Senator King.
    Senator King. Thank you, Mr. Chair.
    I want to thank you and the staff for putting together 
these hearings and giving us an opportunity to listen to some 
very provocative and thoughtful commentaries. I'm finding this 
a very difficult issue. It seems to me it's all about weighing 
risks--weighing the risks of going into this arrangement, 
weighing the risks of not going in. And, of course, weighing 
those risks means alternatives.
    And you gentlemen have done a pretty good job today of 
picking out many of the defects in this agreement, which I 
agree are there, but the real question then becomes--is, What 
is the alternative?
    Ambassador Burns has testified that--and it seem to me 
logical--that if the agreement is rejected, two things happen. 
One is, Iran reverts to a situation where they have essentially 
an unfettered nuclear program, and, secondly, the sanctions 
will inevitably--and here's where the choice of verb is 
difficult--erode, fray--unravel may be too strong a word. But, 
I don't see it--how it's possible to argue that the sanctions 
will be stronger if this deal is rejected unilaterally by the 
United States after it's been adopted by the U.N. Security 
Council.
    General Hayden, you made the point that the agreement 
itself may not be that bad for 10 to 15 years. As I see it, 
what we're essentially buying is 15 years of a nuclear-free 
Iran, and, if Iran starts to misbehave in a nuclear sense at 
the end of 15 years, we have the same options we have today. In 
fact, we may even be in a stronger position, because then we 
will be working with the rest of the world to impose those 
sanctions rather than working at cross-purposes with the rest 
of the world. Would you--help me out here.
    General Hayden. Sure. If the Iranians--and back to the 
baskets again, the----
    Senator King. Right.
    General Hayden.--one out there in the future--if the 
Iranians begin to misbehave after the limitations in the 
current agreement expire, they're misbehaving from an 
incredibly higher baseline, in terms of what----
    Senator King. In what sense?
    General Hayden. In what is legitimately allowed the Iranian 
state, in terms of their nuclear industry. All right? And 
frankly, they will have time to do things on the margins to 
improve their capacities. So, I think it's very important, as 
Dr. Haass says, a second regime out here that keeps meaningful 
limits----
    Senator King. Well, right now, they're--the--all the 
intelligence is that they're 2 to 3 months from a breakout. 
Would they be closer than that----
    General Hayden. Oh, yes.
    Senator King.--the 10 or 15 years?
    General Hayden. I mean, even in the administration's 
calculations, when you get out there, somewhere between 13 and 
17, the breakout period for sufficient fissile material, which 
is what we're measuring here----
    Senator King. Right.
    General Hayden.--gets below the current 2 to 3 months. So, 
that--so, you run that danger, even if you continue to have the 
tools you have on the table. And frankly, since Nick was 
involved in building the tools currently on the table, that 
doesn't happen quickly. That's going to take time.
    The other aspect that makes me uncomfortable are the more 
immediate effects of empowering a state that should still be a 
renegade state, of empowering a state by welcoming it back into 
the family of nations, and really giving it the wherewithal to 
do all the other things they want to do.
    Giving additional way of thinking about this, Senator----
    Senator King. I'm very limited on time.
    General Hayden. I'm sorry. I'm sorry. I'll----
    Senator King. Let me follow up on that.
    Ambassador Burns, what would be the effect of--within Iran, 
of a unilateral American rejection, in terms of the 
relationship between the hardliners and Rawani and Zarif?
    Ambassador Burns. Well, there is tension between them, 
there's no question about it. This not a monolithic regime. And 
I would--in that hypothetical instance, I would think that 
there would be tremendous pressure in the Iranian system not to 
race towards a bomb--I think we all agree on that--but to 
reconstitute a nuclear threshold state so they'd be able to 
enrich uranium further, develop weapons-grade uranium, and 
continue to work on their plutonium processing. That would, I 
think, be--the rationale for that would be to reposition 
themselves for the next round of this.
    I think that would be a real problem for us, because if 
we're the one that walks out first in this hypothetical 
example, we're going to lose our leadership both--we're the 
political organizer of the global coalition to isolate them, 
and we've been the organizer of all the sanctions resolutions, 
in the U.N. and elsewhere. And so, we lose our ability, I 
think, to keep that coalition together. And that's why I, for 
practical reasons, believe that--I think the plan can work--the 
administration's plan. It gets very difficult, as my colleagues 
and I are suggesting, after years 10 to 15, and you have to 
reconstitute the system and the will to contain the Iranians.
    Senator King. Two quick points. One is, I want to associate 
myself with Senators Shaheen and Blumenthal, and Mr. Haass--Dr. 
Haass, and--all of you. You must help us think through 
agreement-plus. What is the--what is--what can Congress do to 
strengthen the implementation of this agreement and be sure 
that it is abided by? And I know that there are people here 
thinking about that. And, to the extent you can provide input, 
I think that's important.
    The only other point I would make is, we've been talking 
mostly about the IAEA, as if that's it for verification. But, 
the fact is that we'll have five and probably six intelligence 
agencies watching intently--and I mean that literally--and 
working with the IAEA. So, I think it's important to realize 
that this isn't just the IAEA, that there is a combined 
intelligence capability that is quite vigorous.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Gentlemen, thank you very much for being here today. This 
has been an enlightening discussion, I think, very good for all 
of us to participate in and hear your areas of expertise.
    It has been brought up a couple of times already today, and 
I want to make it very clear--a couple of you have affirmed 
this--but, I would like to ask each of you, yes or no--a simple 
yes-or-no question, and then we can come back and talk a little 
bit more about it. But, the President made very clear, several 
weeks ago--very, very clear--that it was either this nuclear 
agreement or war. There was no in between. It was either the 
agreement, sign it, have it done, or we are going to war. 
General Dempsey pushed back on this. Admiral Richardson pushed 
back on this. They agreed that there are other options 
available. So, just simple yes or no. If we don't sign this 
agreement, are we going to war?
    General Hayden.
    General Hayden. There's no necessity to go to war if we 
don't sign this agreement. There are actions in between those 
two extremes.
    Senator Ernst. Thank you.
    Dr. Haass.
    Dr. Haass. I would echo that, but I can't rule out that 
Iran would not take steps that would force the United States to 
contemplate the use of military force. We would have to decide 
what, at some point, we deem to be intolerable.
    Senator Ernst. But, do you think there are other options 
before we get to war?
    Dr. Haass. Absolutely, from sanctions to covert action of 
various types, and so forth.
    Senator Ernst. Thank you.
    Ambassador?
    Ambassador Edelman. Yes, Senator Ernst, I agree with you, I 
don't think those are the only alternatives.
    Senator Ernst. And Ambassador Burns.
    Ambassador Burns. I don't believe that war would be 
inevitable. Possible. But, I do think congressional disapproval 
would weaken the U.S. and our ability to hold the sanctions 
regime together, which has been the key factor.
    Senator Ernst. And I think there has been some very good 
discussion today. I think it's very, again, enlightening that 
we have gone from, a number of weeks ago, many people, whenever 
I would bring up this topic about having other options 
available, ``Why are we just talking about war?'' Now we're 
having very good discussion about other things that we need to 
do, as the United States, to protect not only our population 
but our friends in that region and around the world.
    A number of weeks ago, this was not happening. People were 
either saying, ``We're going to sign this agreement or we're 
going to war.'' There are a lot of things that we can do. And, 
unfortunately, I think these discussions should have occurred 
much more significantly during the negotiations process. Now 
we're at a point, we either take the deal, or not, and try and 
unilaterally come up with things that we can do as a country to 
push back on Iran. Do you agree with that?
    Dr. Haass. Violently, I agree with that. And I think we 
would have had far more negotiating leverage, had Congress been 
involved sooner. I remember--and Senator McCain and Senator 
Reed and others will remember, because we all go way back--when 
you used to have Senators and Congressmen as part of 
delegations. I would--I think the idea of joint negotiating 
approaches so Congress, if you will, is in on the takeoff as 
well as the landing--because, right now, you're right, we 
have--we have, I always say, poor choices and very few of them. 
It would have been much better to have expanded the range of 
choices and to improve the quality of the choices. And I think 
there ought to be some lessons derived for future 
administrations and future Congresses about how to conduct 
negotiations. Because we're leaving ourselves in a very 
difficult place if we only get to this point after the deal, if 
you will, is signed, sealed, and delivered.
    Senator Ernst. We are between a rock and a hard place right 
now. Most certainly.
    Iran's chief terrorist is, of course, I think, General 
Soleimani. And we have talked a little bit about this gentleman 
today. And great article just out by Lieutenant General, 
Retired, Michael Barbero, ``Empowering the Iranian Who Murdered 
Americans.'' I think 20 percent of the deaths in Iraq have been 
attributed to the EFPs that the General had put in place--
Soleimani. I think it's good that we remember that this 
gentleman now is in good standing, once this agreement goes 
into place. And this is a man who I don't think is going to 
curb his terrorist activity or backing of Hezbollah and Hamas 
and many of these other organizations. How will this deal 
empower this general?
    General Hayden, can you speak to that, please?
    General Hayden. Sure. Senator, in terms of direct impact, 
he wasn't going to travel to the United States anyway, or show 
up at the U.N., so--but, we talked earlier about unleashing 
resources that can now be put at his disposal to continue doing 
what he's been doing. And frankly, it couldn't possibly come at 
a worse time. I mean, the man routinely is on the ground in 
Iraq directing Shiite militia. And now we're giving him 
additional resources.
    Senator Ernst. Yes. Thank you. And I think it's wise to 
remember that all of us that serve in the Senate probably have 
constituents and families in our States that have members that 
were killed overseas as a direct result from those EFPs.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Most of you have indicated that we have other options, 
should we walk away from this agreement. But, I am wondering, 
you know, what the scenario would be; because, if we walk away 
from an agreement, unless we enter into another agreement, the 
reality of which becomes questionable, given that we probably 
won't be able to rely on our P5+1 partners to go along with us 
in trying to renegotiate another agreement, doesn't that create 
the scenario, as I think Dr. Burns acknowledged, that it--this 
scenario increases the potential that we would have to resort 
to military action to stop Iran from proceeding apace with 
building a nuclear bomb? That is not a question, but an 
observation, based on the testimony that I've heard today.
    General Hayden, as a former Director of the CIA, does this 
agreement improve the intelligent community's ability to gain 
intelligence on Iran's nuclear activities?
    General Hayden. It does, in the zero-to-10-year period, 
with the invasive inspection regime. I mean, assuming at least 
moderate Iranian compliance with that, you do have more 
detailed knowledge than we would otherwise have.
    Senator Hirono. So, during this period, as we get more 
detailed information--intelligence--which I assume your 
assessment of the enhanceability for us to gain intelligence 
based on this agreement--as a result of this agreement, that we 
could, at the end of 15 years, or even before then, determine 
what else we could consider doing to prevent Iran from becoming 
a nuclear power.
    General Hayden. Again, as Dr. Haass pointed out, in order 
to continue that invasive inspection regime, that window into 
what it is they're doing, I don't think there is any deus ex 
machina that's going to happen in the next 10 or 15 years 
that's going to allow us to do this remotely. And so, as part 
of the negotiation of a follow-on agreement, we would still 
need to have that kind of invasive inspection regime.
    Senator Hirono. But, during the period that we have this 
enhanced inspection--well, this enhanced capability to gather 
intelligence, I would think that we would therefore be able to 
determine what else we can do at the end of 15 years.
    If someone else wants to weigh in on this, I see--yes.
    Ambassador Burns. I'd be happy to.
    I think----
    Senator Hirono. Dr. Burns.
    Ambassador Burns. I listed, in my oral statement, some 
measures that the administration can take now, things they 
haven't done and said, to try and create a stronger containment 
coalition of the Iranians, because the Iranians are striking 
into the heart of the Sunni world. And then, on your question, 
Senator, we already have to think ahead to the time when this--
these restrictions lapse, 10 to 15 years after the agreement 
takes effect. We'll have to reconstitute much of what the Bush 
and the Obama administrations built up over the last 10 years. 
Now, I support the agreement, because I think the value of 
freezing them for the next 10 or 15 years is considerable. But, 
I also see that, if the Iranian regime stays in place--and I 
think it's probable that it will, although we can't predict--
and if they do try to reconstitute their program, we're going 
to have to have an American President who will be very, very 
assiduous in rebuilding the coalition. So, you have to start 
that now and keep our closest allies with us.
    Senator Hirono. One of the very interesting aspects to this 
hearing and all of your testimony, which I appreciate very 
much, is asking Congress to think about what we could be doing 
now during--you know, to address the eventuality, possibility 
of, at the end of 15 years, as General Hayden has said, that 
Iran would have sufficient fissile material to break out with a 
nuclear weapon in a very short time. So, thank you all for 
really pushing us toward that kind of consideration now, rather 
than waiting til the end of 15 years.
    Regarding the potential for Iran changing its behavior, I 
realize that we should be looking at the agreement itself. 
However, I'd like to ask Dr. Burns, What is the likelihood that 
this agreement and Iran's compliance with it could lead to a 
moderating of Iran's behavior to the outside world, as well as 
its--to its own people? And what else besides this agreement 
would increase the likelihood of a moderate Iran?
    We'll start with you, Dr. Burns.
    Ambassador Burns. Thank you very much----
    Senator Hirono. We may have to end with you. I'm running 
out of time.
    Ambassador Burns.--Senator, because I live in an academic 
institution, I have to tell you, I'm not Dr. Burns, I don't 
have a Ph.D.----
    Senator Hirono. Oh, excuse me.
    Ambassador Burns.--just to be fully transparent. There are 
other Ph.D.'s here.
    Senator Hirono. Dr. Haass.
    Ambassador Burns. I would say that we--it would be a very 
ineffective argument for the administration to make that we 
should go forward with a nuclear deal because it'll change 
Iran. I don't think Iran's going to change as long as the 
Supreme Leader and the Revolutionary Guard hold so much of the 
power. So, that can't be a reason. I don't hear the 
administration saying that now. And I think that's fortunate.
    The reason to go ahead is because we're in a long-term 
struggle with them, and we can now gain the advantage, over the 
next 10 to 15 years, to freeze their nuclear program. But, as 
we've all been saying, we have to think strategically long-
term, both in terms of mitigating measures against their 
nuclear program and containment measures against their military 
effectiveness--Syria, Lebanon, Hamas, Hezbollah, Yemen. They're 
a real problem, and we have to push back against them.
    Senator Hirono. Thank you.
    Chairman McCain. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chairman.
    Ambassador Edelman, I'll--I'd like to start with you, but 
I'd--I would invite in any of the panelists to chime in if they 
have comments.
    What is the likelihood that Iran will live up to the terms 
of the agreement? In other words, maybe another way of saying--
a negative way of saying it--what's the likelihood that they're 
going to cheat? Do you believe they're going to cheat? And in 
what way will they cheat?
    Ambassador Edelman. If they don't cheat, it will be the 
first time that they haven't cheated on their NPT and nuclear 
obligations to the----
    Senator Tillis. I think there are some 27 international 
agreements or treaties where they've documented having cheated 
in the past. So, we know they're going to cheat. Is there any 
doubt among the panelists that they're going to cheat at some 
level, push the edges?
    [No response.]
    Senator Tillis. So, Ambassador Burns, you mentioned about 
how the--voting down this agreement could substantially weaken 
our sanctions regime. But, let's assume that you're in a 
position where you have to deal with that. We've voted down the 
agreement, our partners, who are--I know, Foreign Ministers and 
CEOs, business leaders who travel into Iran in large numbers 
trying to figure out how they can invest and how they can 
become a part of the economic turnaround of that nation, but--
so, you've got that hand dealt you. You've got--have a lot of 
these partners that have gone to Iran. We've identified a need 
to apply economic sanctions again. What do you do to make the 
best of that situation?
    Ambassador Burns. Thank you, Senator. And very quickly if I 
could just say on your last question, I think it's probable 
that their self-interest will be that they will appear to be 
living up to the agreement. I think they'll try to keep it. 
But, no question in my mind, they'll cut and cheat on the 
margins. That's why we have to watch them.
    On your hypothetical question, if we were given the 
scenario of a congressional disapproval, override the 
President's veto, and--I think we would want to begin with 
Britain and France and Germany to try to reconstitute a way 
forward to pick up the pieces. And that would be to keep the 
sanctions regime together and try to convince the Iranians that 
they're better off living with an agreement that would take 
another set of negotiations. So, you'd probably be back into 
the negotiating game.
    I've testified that I think you're right to look at the 
option, because if that option could work, that would be a 
logical way forward. I don't think it can work, and I think, 
actually, there are more deficiencies there than there are 
possibilities for us.
    Senator Tillis. Do you think that that is driven largely by 
these other countries believing this is a good deal on the pure 
merits of keeping Iran from having a nuclear weapon? Or is a 
lot of their motivation the economic benefit that they have by 
removing the sanctions and setting up shop in Iran?
    Ambassador Burns. I think there are varying motivations. I 
really trust that the British and the French and the Germans 
want to see Iran denied a nuclear weapon. They started these 
negotiations 3 years before we did, in 2002. They've been at it 
a long time.
    The Russians, I think, are an interesting case, because the 
Russians lie closer to Iran than anyone else, geographically. I 
don't think the Russians want to see them become a nuclear 
weapons power, but the Russians want to cut us down to size, 
unfortunately, and that operates to be--it's a conflict in our 
relationship.
    Chinese, I think, are motivated by commercial imperatives.
    Senator Tillis. Well, that's, maybe, the question I would 
ask of any of the panelists to opine. The--we talk about the--
and I think, Ambassador Edelman, it was in your comments that 
you submitted for the record, that, you know, this--whether 
it's 140 billion or the discount of $56 billion, what we 
haven't really talked about is projecting the net positive 
economic impact through foreign investment that's going to 
occur. China's going to invest in Iranian infrastructure for 
the purposes of having oil or lower-cost energy coming to them. 
All of these various industries are going to come there, and I 
begin to believe that, over a 10-year period, that the $56 
billion that we're talking about, you can argue, for one reason 
or another, may or may not flow back into--or 140 billion, 
whatever the number is--but there could be tens of billions, 
hundreds of billions--dollars--more in economic benefit over 
this timeframe that would be absolutely available to fund 
terrorist operations, proxy wars, all the other malign 
activities that they're involved in. Do you agree with that?
    Dr. Haass?
    Dr. Haass. The answer is, there could be a lot of money to 
do it. That said, a lot of terrorism is actually fairly cheap. 
I mean, Iran's doing pretty well under the current 
circumstances. I think it also points to the importance of 
keeping--you know, of energy policy, because the last thing we 
want is Iran also to get a windfall out of oil prices, which is 
something we haven't really talked today.
    I'd say one other thing on the economics. What we don't 
know--and I think it's the optimist side--I put it out; I'm not 
sure I believe in it, but I mention it--is that this will set 
in motion certain dynamics within Iranian society. And I think, 
you know, the optimistic side would say it'll strengthen 
certain middle class elements. So, while the regime will get 
some credit for improving the society, it might also set in 
motion some longer-term dynamics of demands for change. And 
none of us is smart enough to know how these things play out.
    Senator Tillis. Thanks, Mr. Chair.
    Ambassador Edelman. Senator Tillis, if I could just add to 
what my colleague has said in response to you. I--one of the 
problems I have with waiting 10 or 15 years and then addressing 
this is precisely what you're saying. The two tools we've had, 
the threat of military force and the impact of the sanctions, 
are both going to be much less powerful tools 15 years from 
now--or 10 years from now, even--than they are today. And 
that's one reason why I think, as messy and problematic as it 
will be to reject the deal today, I would rather do it now and 
try and put the pieces back together now than wait 10 or 15 
years.
    General Hayden. I'd just add one additional thought to 
Eric--to Ambassador Edelman's point.
    It--in my view, it will be more difficult to get a 
multilateral sanctions snap-back than it will be to continue 
sanctions under a proposed Plan B.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    You know, one of the things that strikes me as I've read 
through this agreement now is, there's a lot of asymmetry, in 
terms of commitments and obligations. Let me just give you one 
example, Ambassador Burns. There's a--up front, a phrase that 
says, ``The P5+1 expresses its desire to build a new 
relationship with Iran.'' And normally, as you would imagine in 
international diplomacy, you would normally get a reciprocal 
kind of statement in a lot of agreements, wouldn't you?
    Ambassador Burns. It would be advisable. I don't think 
we're going to have a new relationship. I think it will be a 
continuation of the same in trying to contain them.
    Senator Sullivan. But, there's no kind of reciprocal 
statement from Iran. So, we're saying we want a new 
relationship. In the agreement, we say it. But, the agreement 
doesn't say the Iranians want a new relationship with the West. 
Why do you think that's the case?
    Ambassador Burns. As you know, Senator, I was not part of 
these negotiations, so I can't account for it. But, what we're 
seeing is these conflicting statements, even 10 days ago----
    Senator Sullivan. Yeah.
    Ambassador Burns.--saying, from the Iranian side, ``No 
access to military sites.'' If they don't give access to 
military sites, they're in violation of the agreement in the 
opening stages. So, this agreement will test them.
    Senator Sullivan. But, I mean, the--it's pretty obvious to 
me they--we say we want a new relationship. In the text, 
they're silent. As a matter of fact, they're not silent. After 
the agreement's signed, they're doing the ``Death to the--Death 
to America'' chanting, and it's clear they clearly don't want--
or didn't want to commit to a new relationship, even though it 
seems like a lot of what we have in here is focused on that.
    General Hayden, I wanted to kind of go into another area, 
in terms of asymmetry in the agreement. You know, the 
administration said they didn't want to include terrorism, 
human rights, weapons programs, even the hostage situation, 
because they were focused on the nuclear agreement, only, as 
part of this. And yet, if you look at the details of this 
agreement, there are all kinds of affirmative actions that 
we're supposed to take, you know, including helping them with 
finance, helping them with their energy sector, helping them 
import commercial aircraft, literally helping them import 
pistachios, Iranian rugs. One of the--so, there's a lot of 
affirmative duties we have that have nothing to do with the 
nuclear side of this.
    One of these--it's a little unclear who the obligation is 
to, but it also says that we're, quote, supposed to 
``strengthen Iran's ability to protect against sabotage in the 
nuclear facility--its nuclear facilities.'' Do you think that 
is remotely a good idea? And is that a commitment the United 
States should--or anyone--should take up? And if we're 
preventing sabotage, do we have to prevent our allies--say, the 
Israelis--to prevent sabotage? Hasn't sabotage helped us, to be 
blunt?
    General Hayden. Well, it's hard for me to talk about this 
in detail, but the plain-English reading of the sentence you 
just read would put a requirement, a legal responsibility, on 
us to protect the current--the negotiated Iranian nuclear 
program from any destructive activity, even if it were mounted 
by a friend of the United States.
    Senator Sullivan. Is that in the United States national 
interest to do that?
    General Hayden. I----
    Senator Sullivan. In your experience?
    General Hayden. It is overly complicated. I--it's hard for 
me to comment, in open session, on what the fine print means. 
I'm surprised to see that in there. I'm surprised that, 
although we insisted that ballistic missiles be talked about, 
they were thrown off the table at Iranian insistence, until the 
11th hour, and then they were brought up by the Iranians in 
order to get out from under----
    Senator Sullivan. Ambassador--sorry, General--Ambassador 
Edelman, do you think that's a good idea?
    Ambassador Edelman. I cannot----
    Senator Sullivan. Do you think that's in----
    Ambassador Edelman. I cannot imagine, Senator Sullivan, how 
that could possibly be in the best interest of the United 
States, and it's one of the reasons why I'm opposed to this 
agreement.
    Senator Sullivan. Is it in the best interest of some of our 
allies in the Middle East?
    Ambassador Edelman. Absolutely not.
    Senator Sullivan. Let me just turn to one other area that 
has been a real big concern of mine. You know, a lot of us--
Ambassador Burns, Edelman, we worked together on the whole 
effort to economically isolate Iran, and there's a lot that's 
been talked about this snap-back provision. And, as you know, 
it took years to get our European allies, who were not 
motivated to really help out, initially, to divest out of Iran. 
And, as you mentioned, they're already very quickly going and 
reinvesting in Iran.
    One of the things I'm most concerned about the snap-back 
provision--it's being sold as this really important thing--
powerful, prompt--but, it seems to me more of an illusion, 
because there's a provision throughout the agreement--paragraph 
37, paragraph 26, and other areas--where the Iranians 
essentially say, ``If any sanctions are reinstated, in whole or 
in part, Iran will treat that as grounds to cease performing 
its commitments under the agreement.'' So, it seems to me the 
snap-back provision is more aimed at us, it's more a boomerang 
provision, than it is at them, because if we ever reimpose 
sanctions, they can legally--legally--walk away from the deal.
    Secretary Kerry and Secretary Lew have been asked this 
question a number of times. They don't seem to be able to have 
a good answer for it. Are you concerned about this kind of 
illusory snap-back provision?
    Ambassador Burns. I think the snap-back provisions are 
going to be a challenge for us. We had the great--I had the 
great pleasure to work with you in a previous capacity on this, 
Senator, and we're going to have to, I think, have some 
agreements up front with the Europeans that they're going to be 
with us--those three Europeans--France, Germany, and Britain--
when there are serious violations. If the Iranians take the 
position that the imposition of sanctions for Iranian 
violations ends the agreement, ``Well, the agreement's off''--
--
    Senator Sullivan. It's in there.
    Ambassador Burns.--then the agreement's off, and then the 
United States, whatever administration is in power, will have 
the right to do what we have to do to keep them away from a 
nuclear weapon. So, I actually don't think that puts pressure 
on us. I think it's a--if the Iranians take that position, that 
gives us an opening, if the agreement's not working, to 
abrogate the agreement, theoretically.
    Ambassador Edelman. Senator Sullivan, I mean, I, too, am a 
little worried about the snap-back provisions, for a couple of 
reasons. One is, it seems to me there's a contradiction at the 
heart of the argument that the administration has made on 
behalf of snap-back. On the one hand, they argue that the 
sanctions regime--correctly, by itself--has not stopped Iran's 
nuclear program; but, if Iran violates the nuclear agreement, 
the penalty we're going to impose on them is snapping back the 
sanctions. So, right from the get-go, there's a problem.
    I will give the negotiators enormous credit. The provisions 
for snap-back are a--very, very cleverly, you know, 
constructed, but I think there's a political problem, which is 
that the way that we guarantee snap-back is that the United 
States would have to veto the resolution in the Security 
Council that would allow the sanctions relief to continue. The 
United States, I think, always finds it difficult to wield the 
veto in the Security Council. We've done it from time to time 
to protect Israel and a few other things, but we don't use the 
veto lightly. And I think this is going to be much harder to 
actually implement the snap-back than people have argued it 
will be.
    Chairman McCain. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Ambassador Burns, General Dempsey said, a few weeks ago, to 
Senator Ayotte's question about Iran and ballistic missile 
capabilities, that, quote, ``Under no circumstances should we 
relieve pressure on Iran, relative to ballistic missile 
capabilities and arms trafficking,'' unquote. What do you think 
was the reasoning to allow the world's leading sponsor of 
terrorism--and, by the way, that's a title that was bestowed 
upon them by no less than our own State Department--to receive 
the gift of a sunset on U.N. sanctions in these two areas in 5 
and 8 years, respectively?
    Ambassador Edelman. Thank you, Senator.
    I said, earlier, that I oppose this compromise that ends 
the conventional weapons and ballistic missile sanctions 
imposed in 2007 and 2010 by the United Nations. What I heard 
from the administration, though, is somewhat reassuring. They 
say that, when these sanctions--when these U.N. sanctions, 
global sanctions, expire, that they will--or the next 
administration--will have to reimpose, certainly American 
sanctions, but also try to put together a coalition of 
countries to sanction the Iranians. It's not in our interest to 
see the Iranians be able to import Russian or Chinese military 
technology, and it's certainly not in our interest to see them 
develop ballistic missiles.
    Senator Rounds. It's interesting that, in an Armed Services 
hearing on this deal last week, Defense Secretary Ashton Carter 
confirmed to me that, under this deal, he could not rule out 
Iran acquiring an intercontinental ballistic missile in 10 
years. This means that Iran could have the capability of 
producing a weapon that could reach the United States soil in a 
decade. A week before that, General Paul Selva, now the Vice 
Chairman of the Joint Chiefs of Staff, told me that--during his 
confirmation hearing--that Iran remains the leading state 
sponsor of terrorism, and sanctions relief agreed to in the 
nuclear deal could be used by Iran to continue to--or continue 
to sponsor terrorism.
    Gentlemen, do you believe that, with this agreement, the 
U.S. and our allies are safer today than we were a year ago, 
and will we be safer when this agreement ends in 10 years?
    Ambassador Burns. I believe that we'll be--we are going to 
be safer over the next 10 years. That's the reason I'm 
supporting the President on this. If we freeze their program, 
then we have 10 to 15 years of insight into what they're doing, 
and severe restrictions on their program.
    Second question is tougher. And again, I think, as many of 
us have said, and I've certainly said, we're going to have to 
be really good and forceful at putting back in place, if the 
same Iranian regime is in power, some of these restrictive 
measures, on our own and with a coalition, to ensure our safety 
in that 10-to-25-year period.
    Senator Rounds. Gentlemen?
    Ambassador Edelman. Senator Rounds, as Senator King said 
earlier, I think, a lot of this discussion that some of the 
panelists were discussing among ourselves before the hearing is 
a question of balancing risks. And my own view is that this 
deal, I would say, marginally improves our situation on the 
nuclear question over the next 10 years, but at the peril of 
various other threats to safety and security of the United 
States in the short term, outside the nuclear realm, and again 
in the nuclear realm at the expiration date of the deal.
    Dr. Haass. Consensus on that. Which, again, is why I--I 
didn't begin here, but I came out with the position that we 
need to think about how we buttress this agreement to deal with 
the downsides, in that the immediate regional problems, it will 
exacerbate; and the longer-term nuclear problems, I fear it 
will increase. So, I think anyone who's inclined to vote 
against the resolution of disapproval for the agreement should 
think very hard about how that vote is accompanied by steps--
statements and steps that I believe will offset the--you know, 
the truly problematic parts of this arrangement.
    General Hayden. Yeah, I think that my colleague has said it 
very well. In essence, there is some buying down of the nuclear 
risk, which was, frankly, somewhat theoretical and always long 
term. And the coin we've used to buy that down is embracing 
some concrete immediate risks and the danger of what happens 
after the 10-year period.
    Senator Rounds. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Chairman McCain. I thank the witnesses. There's a lot more 
of this to be discussed, and--but, I think you've given the 
committee a very excellent depiction of the challenges. And I 
appreciate very much that you've taken the time to be with us.
    Hearing is adjourned.
    [Whereupon, at 12:07 p.m., the hearing was adjourned.]



JOINT COMPREHENSIVE PLAN OF ACTION (JCPOA) AND THE MILITARY BALANCE IN 
                            THE MIDDLE EAST

                              ----------                              


                       WEDNESDAY, AUGUST 5, 2015


                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Ayotte, Fischer, Cotton, Rounds, Ernst, Tillis, 
Sullivan, Reed, McCaskill, Manchin, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning, everyone. The 
committee meets today for our third oversight hearing on the 
Joint Comprehensive Plan of Action, which the United States and 
other major powers have signed with Iran.
    We welcome our distinguished witnesses, and thank them for 
joining us today: Professor Walter Russell Mead, Distinguished 
Scholar in American Strategy at The Hudson Institute and 
Professor of Foreign Affairs at Bard College; Michael Singh, 
the Senior Fellow and Managing Director of The Washington 
Institute for Near East Policy; Dr. Ray Takeyh, the Senior 
Fellow for Middle Eastern Studies at The Council on Foreign 
Relations; Dr. Philip Gordon, Senior Fellow at The Council on 
Foreign Relations; and Richard Nephew, Fellow at The Center for 
Global Energy Policy at Columbia University.
    This committee's oversight is focused on the strategic and 
military implications of the nuclear deal with Iran. Among 
other things, we want to know how this agreement will affect 
regional security, proliferation, and the balance of power in 
the Middle East, what impact it may have on Iran's malign 
activities and ambitions to dominate the region, what it means 
for perceptions of American credibility among our allies and 
partners, and what the consequences are for U.S. defense 
policy, military planning, and force posture.
    From this broader strategic perspective and following the 
testimony given in our two previous hearings on this topic, 
this bad deal, to me, only looks much worse. The committee is 
eager to hear from our witnesses on whether this deal is the 
best we can do and what realistic alternatives exist. Given 
that even the administration acknowledges Iranian aggression, 
support for terrorism and rogue regimes, and destabilizing 
behavior are likely to continue, what should United States 
strategy toward Iran look like?
    The administration suggests that any criticism of this deal 
is tantamount to a call to war. Such scare tactics are to be 
expected from this administration, but they have no place in a 
debate of this magnitude. Our military leaders have also 
rejected the administration's false choice. The Chairman of the 
Joint Chiefs, General Dempsey, told this committee, just last 
week, quote, ``We have a range of options.'' Likewise, the 
President's nominee to be the next Chief of Naval Operations 
testified that, quote, ``There are other options besides going 
to war.'' We ask our witnesses to provide their candid 
assessments of what realistic alternatives to this deal might 
be.
    The strategic and military implications of this agreement 
are perhaps even more troubling than the terms, themselves. 
Iran is more than an arms control challenge. It's a 
geopolitical challenge that demands a comprehensive strategy. 
For years, many of us have argued--have urged the 
administration to adopt a regional strategy to counter Iran's 
malign activities in the Middle East. Unfortunately, if such a 
strategy exists, there is no evidence of it.
    President Obama likes to say that this deal is built on 
verification rather than trust. But, consider what we've 
already verified about Iran's activities and intentions, and 
contrast that to our own strategic drift. We know that, over 
the past decade, Iran's military and intelligence operatives 
have stepped up their destabilizing activities in Iraq, Syria, 
Lebanon, Yemen, Bahrain, Gaza, and elsewhere. Iran did this 
despite the full pressure of sanctions. Imagine what it could 
do with even a small portion of the windfall of sanctions 
relief, estimated at roughly $60 billion, or probably much 
more.
    It's reasonable to assume that billions of additional 
dollars will soon flow to Iran's Revolutionary Guards Corps, or 
Quds Force, money that will likely be used to boost arms 
supplies to Iran's terrorist proxies and double down on Bashar 
Assad, right when he needs it most. We know that Iran intends 
to become the dominant military power in the Middle East. Yet, 
despite repeated assurances that negotiations were strictly 
limited to the nuclear program, the administration made major 
concessions related to conventional weapons and ballistic 
missiles, concessions that the Chairman of the Joint Chiefs of 
Staff warned, before the agreement, should occur, quote, 
``under no circumstances.
    In 5 years, this agreement would lift the international 
arms embargo against Iran, freeing up the regime to acquire 
advanced conventional military capabilities from eager sellers, 
such as Russia and China. In 8 years, it would lift 
restrictions on ballistic missiles, whose only conceivable 
military purpose would be to deliver nuclear weapons against 
America and its allies. We know that these concessions have 
dangerous implications for the men and women serving in our 
military. This agreement would enable Iran to construct the 
kind of advanced military arsenal the anti-access and area 
denial capabilities that could raise the risk of employing our 
military options, should Iran violate its obligations. In 
short, if this agreement fails, the lives of U.S. 
servicemembers could be at greater risk.
    We know that our allies and partners in the Middle East 
have increasingly come to believe that America is withdrawing 
from the region, and is doing so at a time when Iran is 
aggressively seeking to advance its ambitions. Now we have 
reached an agreement that will not only legitimize the Islamic 
Republic as a threshold nuclear state with an industrial 
enrichment capability, but will also unshackle this regime and 
its long-held pursuit of conventional military power, and may 
actually consolidate the current regime's control in Iran for 
years to come. That is perhaps most troubling of all about this 
agreement, what it means for America's credibility in the 
Middle East.
    For decades, the United States has sought to suppress 
security competition in the region between states with long 
histories of hostility toward one another and to prevent war. I 
fear this agreement could further undermine our ability and 
willingness to play that vital stabilizing role. For the sake 
of our own security, as well as that of our allies, I believe 
we cannot afford to let that happen.
    Once again, I want to thank the witnesses for appearing 
before us today. I look forward to their testimony.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    Welcome, to the witnesses.
    Over the past 2 weeks, the Chairman has assembled a series 
of hearings on the Joint Comprehensive Plan of Action, or the 
JCPOA. Last week, the President's representatives, four Cabinet 
Secretaries and the country's most senior military officer, 
made the case for the agreement, both on the terms of the deal, 
itself, and the way forward with our friends and allies in the 
Middle East. Yesterday, the committee heard from a number of 
former senior government officials with experience in 
diplomatic, intelligence, and military communities. Today, the 
committee will hear from additional witnesses who bring with 
them a vast and extraordinary array of experience on the 
region, on nonproliferation issues, and sanctions 
implementation policy.
    Thank you, again, gentlemen.
    I want to thank the Chairman for assembling this series of 
hearings with the committee. They have provided a superb venue 
for attempting to understand the dynamics that shaped the P5+1 
[5 permanent members of the U.N. Security Council, plus 
Germany] negotiations and for assessing the impacts of the 
agreement on Iran's calculations with respect to its nuclear 
program and their regional ambitions.
    I want to pose the same question to this panel that I asked 
yesterday. First and foremost, I hope you will provide an 
assessment of whether the deal is the best available option to 
prevent the Iranians from obtaining a nuclear weapon. I also 
specifically hope each of you will address, first, the terms of 
the agreement itself, particularly with respect to cutting off 
a path to a nuclear device, the sufficiency of the duration of 
the elements of the agreement, and the breakout time necessary 
for Iran to acquire a nuclear weapon. Second, the alternative, 
if any, to the JCPOA. Third, the inspections regime under the 
deal, including any lessons learned from past international 
inspection regimes that have been incorporated into this 
proposal. Fourth, the role and capacity of the International 
Atomic Energy Agency to implement this agreement. Finally, the 
sanctions regime under the JCPOA, the availability of similar 
tools the United States will have at its disposal for targeting 
Iran as a result of support for terrorism, regional 
stabilization, and human rights abuses.
    Aside from the JCPOA, I'd also appreciate the witnesses 
providing their assessment of two other critical issues. First, 
while the P5+1 negotiated agreement, none of them share a 
border with Iran. Our partners in the Gulf Cooperation Council, 
the GCC, all share land or maritime borders with Iran. This 
makes Iran's activities in the region a far more tangible 
problem for them. A Camp David summit earlier this year 
continued our engagement with the GCC partners on this issue. 
Secretary Kerry was not only in the region this week, but 
appears to have elicited their support for the agreement going 
forward. But, we have to continue to support their efforts, in 
terms of their defenses, their ability to respond to asymmetric 
threats from Iran. I hope our witnesses can provide some detail 
and context in this issue, too.
    Second, Israel rightly views Iran as a significant and 
ongoing threat to their national security interests. I'd be 
appreciate in hearing the witnesses' assessment of how the 
United States might move forward with Israel under this 
agreement, if it is eventually supported, to protect our shared 
national security interests. In fact, that'll be a key factor, 
going forward.
    Once again, I look forward to the panel's responses.
    I also must apologize, because I have to rush up, in a few 
minutes, to the Banking Committee, who is also having a 
hearing. So, my departure is because of the coincidence of 
hearings, not anything else.
    Thank you, Mr. Chairman.
    Chairman McCain. Thank you, Senator Reed.
    Thank the witnesses again, and we'll begin with you, 
Professor Mead.

  STATEMENT OF WALTER RUSSELL MEAD, DISTINGUISHED SCHOLAR IN 
AMERICAN STRATEGY, THE HUDSON INSTITUTE AND CHACE PROFESSOR OF 
                 FOREIGN AFFAIRS, BARD COLLEGE

    Mr. Mead. Thank you. Mr. Chairman, Senator Reed, 
distinguished members of the----
    Chairman McCain: Could I just say, all of the testimony 
that is submitted will be part of the record. The written 
testimony.
    Thank you----
    Mr. Mead. Great.
    Chairman McCain. Professor.
    Mr. Mead. Thank you.
    I'm honored to have the opportunity to speak this morning. 
I cannot speak with any particular acuity about issues of 
verification or nuclear engineering. That's not my approach to 
this. I'm interested in this agreement as part of the broader 
framework of American Middle East policy. So, I will speak 
briefly about our interests in the Middle East, the issues that 
we have with Iran based on those issues, and then the 
implications of that for this agreement.
    United States has long had strong interests in the Middle 
East. I want to talk primarily about our interests in oil. 
There are some who believe that the fracking revolution, 
unconventional shale and oil here in the United States which 
lessens our energy dependency on the Middle East, will 
therefore lessen American interests in the Middle East. I'd 
like to suggest that's probably not correct, because the flow--
orderly flow--secure flow of oil from the Middle East to the 
major economic and industrial zones of the world is vital to 
their prosperity. If that oil supply were to be interrupted to 
Japan, China, and Europe, the American economy would rapidly 
suffer devastating consequences. This also--the fact that the 
United States is able to provide the security of the 
international oil flow is, to use the Chairman's phrase this 
morning, you know, an important aspect of our suppression of 
security competition, not simply in the Middle East, but by 
ensuring that countries like China, Japan, and others don't 
feel the need to maintain massive naval and intercontinental 
forces to secure the oil supply. So, this--our position in the 
Middle East is critical to America's global strategy of trying 
to preserve peace and promote prosperity. America's own 
lessening dependence on that oil does not change that 
dependency.
    Given that, how do we think about our interests in the 
Middle East and our security there? We have, since, really, the 
Franklin Roosevelt administration, taken the view, as a 
country, that we do not want any single power to have the 
ability to interrupt or to endanger that flow of oil, whether 
it was an external power, like the Soviet Union seeking to 
dominate the region from outside, or an internal leader, like 
Saddam Hussein when he invaded Kuwait, attempting to impose 
something like that kind of control. We have always sought to 
make sure that no single power can hold the world and us to 
that kind of blackmail.
    Today, it is--it's the reality that, essentially, the only 
power that is capable of posing a danger of that kind would be 
Iran, Islamic Republic of Iran, as the strongest regional 
power, and one which, over a number of years, has been 
demonstrating a determination, at great cost and risk, to 
expand its regional footprint. So, when we think about this 
nuclear agreement with Iran, or, indeed, any agreement that the 
United States and Iran would make, we need to think about, How 
does this agreement play into that situation?
    One should also note that an additional threat that we face 
in the Middle East today, the rise of radical groups intent on 
an ideology of jihad, whether regionally or globally, that 
this, to some degree, is being exacerbated by the rise of Iran. 
The radical groups, like ISIS [the Islamic State of Iraq and 
Syria] and al-Qaeda, are deriving a great deal of legitimacy, 
funding, and recruiting strength from the sense, in the Sunni 
world in particular, that there's a religious conflict going on 
between the Sunni version of Islam, the Shiite version of 
Islam, and Iran as the captain of Team Shiite, so to speak, has 
been winning. This is creating a sense of fear, even 
desperation, that makes fanatical forms of ideology and very 
radical organizations attractive, not only to young men who are 
looking for something to do with their lives, but even to 
wealthy people in the Gulf and others who may be increasingly 
persuaded to fund them.
    I won't test the patience of the committee by delving too 
deeply into these issues, but it is, I think, worth noting 
that, whatever else it may do, the JCPOA has the effect of 
strengthening Iran's position in the region at a point when 
other powers in the region. Indeed, many American officials 
believe that the greatest danger to the region is an imbalance 
of power that favors Iran. Simply by removing sanctions, by 
ending Iran's diplomatic isolation, increasing its resources, 
not merely with the sort of tranche of money that comes from 
unfreezing of frozen assets, but by accelerating Iran's 
economic growth over a period of time so that it has more 
resources for various activities, simply geopolitically, leave 
aside the question of whether or not it's a good or bad deal on 
the nuclear issue--simply geopolitically and regionally, this 
deal represents a very important success for Iran. It increases 
Iran's capacities at a time when concern over those capacities 
is very high.
    That means that we need to be thinking, as a country, What 
is our policy? What do we do about this? Certainly some of 
Secretary Kerry's recent diplomacy in the Gulf and elsewhere 
has been about trying to reassure countries who feel threatened 
by both the rise of Iran and the boost that it's likely to 
receive from this agreement. It's commendable that he's seeking 
to reassure these countries, but what we should all understand 
is that their need to be reassured is not out of some sort of 
case of nerves; they are actually accurately reading the 
regional impact of this agreement.
    So, we actually now come down, I think, as a country--we 
have to think, What are our--what policy will we adopt? Is 
this--regionally speaking--is this nuclear agreement the first 
step in a rapprochement with Iran so that, now having resolved 
the nuclear issue, we try to reach ever-closer cooperation with 
Iran on a wider range of issues? If that's the case, again, I 
would suggest that the regional unrest will grow, and the alarm 
of other countries who would fear that the United States and 
Iran, over their heads, are remaking the region in a way that 
they don't like--we can expect greater instability in response 
to that. Or, having taken the nuclear issue off the table, as 
proponents of the deal suggest we're doing, does this then free 
us up for a much more vigorous policy of containing Iran in the 
region--in particular, in Syria, which, for a number of 
reasons, is the most important focus, I think, of regional 
politics today in that part of the world? Are we going--you 
know, are we, for example, going to say, ``Well, we can't 
really take a strong line against Assad, Iran's client, in 
Syria, because otherwise Iran might walk away from the nuclear 
agreement.'' If that's our thinking, then, in a sense, we have 
contained and constrained ourselves. Or do we say, ``All right, 
now that we have this agreement, we need to work much harder on 
containing Iran's ambitions and ensuring the balance of power 
in the Gulf''?
    So, I would just suggest to you, as Senators who are 
working to make up your minds and inform your colleagues about 
whether or not this agreement with Iran should receive 
Congressional support and ratification, that you should not 
simply look at the nuclear dimensions of the deal, though 
obviously they are vitally important, but you must also 
consider this agreement, like any agreement between nations, as 
a step in a regional and geopolitical policy, and think 
through, Is this agreement leaving the United States in a 
stronger or a weaker position? Also, What assurances are you 
getting from the administration about the regional policies 
that it intends to follow this agreement with? Are we moving 
toward containment, or are we moving to engagement, are we 
moving in some other direction? I, myself, sense a lack of 
clarity about this sometimes in Washington. I hope, Senators, 
that you will be able to get us a clear answer as to where 
we're going.
    Thank you.
    [The prepared statement of Walter Russell Mead follows:]

               Prepared Statement of Walter Russell Mead
    Mr. Chairman, Ranking Member Reed, and members of the committee:
    It's a great honor to be invited to testify before this august 
committee and its distinguished members. That is especially true at a 
moment like this, when the Committee is called on to advise the Senate 
on a matter of great national importance. I am not presumptuous enough 
to tell the members of this committee how to vote on the JCPOA; to make 
that decision you must look at many factors. My testimony does not 
concern the technical specifications of the agreement, the strength of 
the inspections regime, or the verifiability of key provisions. My job 
is to offer the Committee some thoughts about the impact of the 
agreement on regional politics and to present some concerns that can 
inform your thinking as you proceed.
    Mr. Chairman, no agreement stands alone. Ultimately, the JCPOA will 
be not be judged as a standalone agreement; it will be judged as part 
of a policy aimed at securing American interests in a vital region at 
the lowest feasible risk and cost. It would be a mistake to think of 
this agreement simply in the context of nuclear weapons. It also needs 
to be examined in the light of important non-nuclear policy issues in a 
region of vital importance to the United States. At a time when the 
Middle East is in its most volatile, unsettled state in a century, and 
when a sectarian conflict between Shiite and Sunni Muslims is 
spreading, this agreement affects the balance of power, relations with 
our existing allies and perceptions of America's role in the sectarian 
conflict. To reach an appropriate decision about this agreement, Mr. 
Chairman, the United States Senate needs to consider the agreement's 
likely impact on important American interests and relationships across 
the Middle East, and to a lesser extent, elsewhere.
    To assist your analysis I will cover three topics this morning, 
reviewing the key interests of the United States in the region, the 
current situation in the region, and the likely impact of the JCPOA on 
those interests. I will conclude by offering some suggestions to the 
Committee about the questions you should be asking as you continue to 
review this matter with your colleagues, with scholars and 
practitioners in the field and with officials in the executive branch.
    When asked to identify America's principal interests in the Middle 
East, most people will agree with President Obama's summary: oil and 
the security of Israel \1\. Israel is a valuable American ally and 
partner, an outpost of democracy, and, as the national state of the 
Jewish people, both a refuge from persecution and a shining example of 
what a free people can accomplish. With roots that date back to the 
19th century and even earlier, the bipartisan American commitment to 
the establishment of a secure homeland for the Jewish people is one of 
the oldest and most durable elements of our foreign policy. Every 
president since Woodrow Wilson endorsed this position, and ever since 
the Lodge-Fish joint resolution of 1922 endorsed the Balfour 
Declaration, bipartisan majorities in both Houses of the United States 
Congress have been steadfast in their support.
---------------------------------------------------------------------------
    \1\ http://www.defense.gov/news/newsarticle.aspx?id=120847.
---------------------------------------------------------------------------
    Oil has played a role in American policy for almost as long. Access 
to Middle Eastern oil was an important military concern during and 
after World War Two, and the success of the Marshall Plan depended in 
part on increased Middle Eastern production in the early years of the 
Cold War. In recent decades, growing American demand for oil made the 
United States itself at least partially dependent on imported oil from 
the Middle East. The revolution in shale oil and gas has changed that 
picture, and many experts now believe that North America as a whole 
will be an energy exporting region for the foreseeable future.
    Some have argued that energy independence will relegate Middle 
Eastern oil to a second tier of American interests and that an energy 
independent America will be less concerned about the security and 
stability of the Middle East. Perhaps unfortunately, this is not the 
case. If the Middle East is no longer necessary for America's own 
energy needs, oil from this region remains vital to our friends, allies 
and economic partners around the world. If war in the Middle East, or 
the actions of a powerful regional hegemon seeking to blackmail the 
world should cut the flow of oil from the Middle East to Europe, India, 
China and/or Japan, the economic consequences to the United States 
would be enormous. American manufacturing companies operate globally 
and their overseas operations and supply chains would be serious 
affected by a disruption in energy supplies. The profits of American 
corporations depend on a healthy global economy; these companies would 
see their sales and profits drop as the consequences of the oil supply 
disruption rippled across the world. Stock markets globally would be 
severely affected, including in the United States. Worst of all, the 
world's interdependent financial system would suffer severe shocks, and 
the health and solvency of American banks would come under severe 
pressure.
    The United States may not be dependent on the Middle East for our 
domestic energy supply, but the American economy remains profoundly and 
permanently entangled in the global economy. Prosperity will not endure 
here if the global economy suffers massive disruption, and 
interruptions or severe constrictions in the flow of oil and gas from 
the Middle East will remain capable of causing this kind of 
unacceptable disruption for the foreseeable future.
    Some might argue that, given the importance of Middle Eastern oil 
to the rest of the world, the United States could reduce our 
involvement in the Middle East with the assurance that other countries 
would step in to fill the vacuum. Why, some ask, should the United 
States assume the costs and risks of ensuring the flow of oil to other 
rich and powerful states around the world?
    The answers to this question go to the heart of American grand 
strategy for the last 100 years. As the bloodshed and destruction of 
warfare has increased, Americans have sought above all else to prevent 
wars between great powers from breaking out. While all war is 
destructive and horrifying, wars in which great powers, with their 
enormous technological and economic capabilities, turn their full 
strength against one another, have the potential to destroy 
civilization or human life itself. To make such wars less likely, the 
United States has worked to create an interdependent global system in 
which all countries depend so heavily on global flows of trade and 
investment that no country can contemplate cutting itself off from this 
system through starting wars. At the same time, the United States has 
worked to ensure the safe and secure passage of commerce across the 
world's oceans, taking questions like energy out of the realm of 
geopolitical competition.
    In the Middle East, these policies have meant that since World War 
Two the United States has acted to prevent any power or combination of 
powers either inside or outside the region from gaining the ability to 
blackmail the world by threatening to interrupt the flow of oil to the 
great markets of Asia and Europe. Whether the danger came from external 
powers like the Soviet Union (which occupied part of Iran and 
threatened Turkey in the early years of the Cold War) or from ambitious 
leaders within the region (like Saddam Hussein when he invaded Kuwait), 
the United States has acted to ensure the security and political 
independence of the oil producing states of the region.
    These policies have helped create the longest era of great power 
peace in modern times. They have also reduced the cost of America's 
military commitments. Because other countries do not feel the need to 
maintain large forces with an intercontinental capacity to protect 
their global trade, the United States has been able to maintain a 
global presence at a far lower cost than would be feasible if the 
world's major economic powers were engaged in competitive military 
build ups. A strong American presence in the Middle East and on the 
high seas has the effect of suppressing security competition worldwide, 
enabling America's most important interests to be secured with much 
less cost than would otherwise be possible.
    Should the United States withdraw from this role, the world would 
likely see increased competition among other powers. China, for 
example, would see a greater need to protect its oil security, 
accelerating the build up of its armed forces. Japan and India would 
both likely see this build up as a threat to their own energy and 
maritime security and would accelerate build ups of their own. Trust 
among these powers, already weak, would erode, and the dynamics of a 
zero-sum competition for security and access to resources would drive 
them towards greater hostility and more dangerous policies. Under those 
circumstances, American prosperity and security would be much harder to 
defend than they are now, and the risks of great power conflict would 
intensify. America's Middle East policy is not just about the Middle 
East; it is about America's global interest in a peaceful and 
prosperous world.
    The starting point for any American strategy in the Middle East 
today must be the basic approach that has served us well since the 
presidency of Franklin Roosevelt. America's vital interests require us 
to look to the safety and the security of the Middle Eastern oil 
producing states, ensuring that no power, either external or regional, 
gains the power to interfere with the smooth and stable supply of oil 
and gas to the great economic and industrial centers of the world.
    As we look at the region today, these vital American interests are 
not as well secured as one would wish. Today's Middle East is 
threatened by conflicts that could lead to immense humanitarian 
disasters against which the horror of the Libyan and Syrian civil 
conflicts would appear small scale. Whether considered from the 
humanitarian standpoint or from the perspective of vital American 
interests, the dangers facing us in the Middle East today are immense, 
and it is against this background that the value of the JCPOA or indeed 
of any major policy step involving the region needs to be understood.
    One danger is presented by the rise of Iran and the consequences of 
its efforts to increase its power in Iraq, Syria, Lebanon, and beyond. 
Iran is the one country at the moment that appears to believe that it 
has both the capacity and the will to establish a hegemonic position in 
the region. Iran could challenge vital American interests in two ways. 
It could come close to success in this regional strategy, presenting 
the United States with the choice of accepting Iranian hegemony or 
engaging in conflict. Alternatively, an Iranian bid for control, while 
ultimately falling short, could create such chaos and upheaval in the 
region that normal governance would break down and some oil exporting 
countries could be paralyzed by international or civil conflict.
    Another danger comes from the surge in fanaticism among some Sunni 
groups, in part because of the fear inspired by what many see as an 
Iranian-backed surge of Shiite power across the region. Under the wrong 
circumstances fanatical movements like ISIS could either conquer or 
make ungovernable wide stretches of the Middle East, including 
important oil producing provinces and countries. The successful 
establishment of a `caliphate' or some other form of radical and 
revolutionary governance across strategically important areas could 
present the United States with the choice between military intervention 
or accepting the establishment of a hegemonic regional power. Short of 
that, insurrections or guerilla conflicts involving fanatical groups 
could destabilize key countries. Additionally, groups based in 
territory controlled by these forces and accessing financial and other 
resources under their control could plan and carry out major attacks 
against western targets as al-Qaeda did from Taliban controlled 
territory in 2001.
    Beyond the danger of Sunni radicalism, there is the danger that the 
sectarian conflict between Sunni radicals and Shiite radicals aligned 
with Iran now taking shape would so seriously destabilize the region 
and important countries in it that the oil supply could not be secured. 
In this scenario, even if neither side in the sectarian war achieved 
anything like dominance, the social upheavals, economic distress and 
surge in violence and hate fueled by an escalating religious conflict 
could lead to conditions in which the oil industry could no longer 
function in a stable and orderly way.
                   the jcpoa and the regional crisis
    In evaluating the JCPOA, the Senate needs to apply two tests. The 
first, which is where most of the attention so far has been 
concentrated, is the question of whether the agreement offers a path to 
resolve the question of Iran's drive for nuclear weapons. The second 
test is of equal importance when it comes to determining the prudence 
and desirability of Congressional support for the existing agreement. 
That second question is whether the JCPOA will advance or hinder 
America's vital interests in the region other than our interest in 
preventing the emergence of a nuclear Iran. Does the JCPOA make it more 
or less likely that any of the three dangers referenced above--of an 
Iranian drive for hegemony, of a similar movement by fanatical Sunni-
based groups, or of an intensifying and escalating sectarian war that 
destabilizes the region--will come to pass?
    For the JCPOA to serve the American interest in the Middle East it 
needs to pass both tests; the agreement must block Iran's path to 
nuclear weapons, and it must help (or at the very least, not hinder) 
America's broader regional agenda. My purpose in appearing before the 
Committee today, Mr. Chairman, is to offer some suggestions about how 
the Members of this Committee and their colleagues in the Senate can 
determine whether the JCPOA advances, hinders or leaves unchanged 
America's pursuit of its vital interests in a combustible region at a 
critical time.
    This is a complex problem; the question of the effects of the JCPOA 
on Iran's nuclear program is more technical than political, depending 
more on the nature of the limits and the verification protocols, though 
questions remain about whether the United States and the other 
signatories will have the political will to enforce it. The effect of 
the JCPOA on the regional situation depends much more on perception and 
policy. How will Iran, our allies and other forces in the region view 
the agreement? How does the agreement weaken or strengthen Iran on the 
ground? What policies will the United States and Iran pursue in the 
region and toward each other should the agreement come into full force?
    One thing seems clear: if the JCPOA fails to contain Iran's nuclear 
program, and Iran gets a nuclear weapon, the agreement will be a 
disaster in regional politics as well. Iran's drive toward regional 
hegemony will receive a powerful boost, the strength of fanatical 
movements in the Sunni world will be boosted by a sense of apocalyptic 
fear and rage, and the sectarian conflict will intensify in ways that 
are both unpredictable and, probably, very dangerous for American 
interests.
    But what if the JCPOA is successful on the nuclear front, even 
temporarily, and is seen to have stopped or slowed Iran's drive for the 
bomb? Or, perhaps more probably, suppose there is a period of time in 
which the success or failure of the JCPOA on the nuclear issue is 
unclear? During this uncertain interval, one that could last for some 
time, how will the JCPOA affect the regional balance of forces?
    Here, the news is bad. Whatever the JCPOA does in terms of the 
nuclear program, when it comes to the conventional balance in the 
region the JCPOA appears to strengthen Iran. The end of sanctions does 
not just result in a ``windfall'' gain to Iran as frozen assets are 
released; it also adds substantial and growing amounts to Iran's 
national income as normal trade relations resume, as Iranian oil 
production expands, and as access to markets for new technology and 
spare parts increases the productivity of Iranian society. In the short 
term this means that Iran will have more money with which to support 
regional allies like the Assad regime in Damascus; in the medium term 
as conventional weapons restrictions are lifted Iran will have the 
opportunity to strengthen both defensive and offensive arms 
capabilities; in the medium to long term Iran's greater economic clout 
will substantially increase its political weight both in the region and 
in world affairs, giving it new allies and making a return to sanctions 
and isolation increasingly unlikely.
    These worries loom larger because Iran, under sanctions and 
suffering serious economic privation, has nevertheless been able to 
operate effectively in regional politics, scoring gains against Sunni 
adversaries that have seriously alarmed some of its neighbors. If an 
isolated and economically challenged Iran could achieve such results, 
one must ask what it can achieve under the more favorable conditions 
that will follow the implementation of the JCPOA.
    It is worth noting in this context that many of Iran's neighbors do 
not share the Obama Administration's view that the greatest danger from 
Iran flows from its nuclear program. Rather, the fear is that Iran's 
large population, sectarian fervor and powerful security institutions 
make it potentially the most powerful state in the region and a threat 
to the security of its neighbors. For many Saudis in particular, whose 
close ties to Pakistan's security establishment give them confidence 
that an Iranian nuclear weapon could be offset by the existence of the 
Pakistani arsenal, the nuclear program in Iran is much less threatening 
than Iran's apparent ability and willingness to support militias, 
rebels and Iran-aligned governments across the region.
    Although Gulf governments have issued pro forma statements in 
support of the JCPOA, their fear and distrust of Iran, and their lack 
of comfort with American regional policy have led to dramatic shifts in 
their policy as they seek to offset the perceived negative consequences 
of the JCPOA on the regional balance. The most spectacular (and 
alarming) changes have been seen in the foreign policy of Saudi Arabia. 
The Kingdom has departed from a long history of quiet and cautious 
policy and initiated a series of high risk, high profile steps that 
testify to a deep sense of distress and unease with American policy and 
its consequences for the regional balance.
    The inevitable increase in Iranian conventional resources and 
capabilities that follows the JCPOA can damage American interests in 
three ways. First, if Iran devotes even some of its gains from the 
agreements to its regional allies and hegemonic goals, it could create 
a major crisis in the region that would require massive American 
intervention to avoid the danger of having one country dominate the oil 
wealth of the entire Gulf. Some countries would be endangered directly 
by subversion or conflict; others, increasingly surrounded by Iranian 
clients and allies, would feel the need to align their foreign policy 
and their oil production and pricing strategies with Iran. The United 
States could be faced with a triumphalist Iranian regime that would be 
able to manipulate world oil prices and supplies. It would be extremely 
difficult for future presidents to create effective coalitions to limit 
or balance Iran under these circumstances.
    Second, fear of Iran can drive American allies and other actors in 
the region to actions that destabilize the region or run counter to 
American interests. Concerns about potential proliferation among other 
regional countries who want to balance the Iranian nuclear program are 
one example of the potential `blowback' from the JCPOA. But there are 
others. Saudi Arabia and other oil producing Gulf states could for 
example `circle the wagons' among Sunni states, tightening their links 
with military and intelligence services in countries like Egypt and 
Pakistan in ways that undercut important American goals. Many Gulf 
countries will see the expansion of Pakistan's nuclear capacity and 
growth in the quality and quantity of its arsenal of delivery systems 
as an important deterrent and counter to Iran. This could only 
intensify the arms race in South Asia and increase the chances of 
conflict between India and Pakistan. It will also likely lead to more 
resources and power going to figures in the military and nuclear 
establishment who share radical ideologies uncomfortably close to those 
of al-Qaeda and other dangerous groups. Bringing Pakistan more fully 
into Middle East politics would be a natural and obvious move for oil 
rich Sunni states alarmed by a rising Iran.
    More broadly, fear of a rising Iran increases the incentives for 
rich individuals and states to deepen their links with fanatical 
organizations and fighters. Fanatical anti-Shiite fighters may, from an 
American standpoint, be terrorists who are as anti-western as they are 
anti-Iran. If Iran's regional power is seen as rising, however, many in 
the Sunni world will be tempted to support these organizations as 
indispensible allies in the fight against Iran.
    Finally, the perception, plausible to some however incorrect, that 
Iran now has tacit American support in its quest for regional hegemony 
will act as a powerful recruiting incentive for radical pro-Sunni 
jihadi groups throughout the Sunni world. Sectarian conflicts feed on 
apocalyptic fears; the perception that Shiite `heretics' are 
threatening the Islamic heartland and holy cities in the Arabian 
Peninsula will make it significantly easier for radicals to recruit new 
fighters--and to raise the money to employ, train and arm them.
                            evaluating jcpoa
    Elected officials charged with determining whether JCPOA 
strengthens or weakens the American position will need to balance a 
number of factors in determining whether or not the agreement merits 
Congressional support. This must necessarily be a judgment call; 
officials will have to weigh probabilities and balance the strengths 
and weaknesses of the agreement. For example, if the agreement is found 
to have a very strong ability to stop the progress of Iran's nuclear 
program, those gains might be worth some regional difficulties. On the 
other hand, it is quite possible that the regional consequences of the 
agreement would be so severe that even a relatively effective nuclear 
agreement could be a net negative for American interests in the region.
    Judgments about the regional impact of the JCPOA must take one 
other factor into account: Administration policy in the region could 
substantially limit or seriously exacerbate the impact of the agreement 
on the regional situation. To reach useful conclusions on the likely 
consequences of this agreement, Mr. Chairman, you and your colleagues 
will need to consult with the Administration to determine as far as 
possible what the future course of American policy toward the Middle 
East and Iran will be.
    There are two possible courses the United States can take. One 
would be to see the JCPOA as the first step in a policy of 
accommodating Iran looking to detente or an even closer relationship. 
Alternatively, the JCPOA could be seen as an effort to facilitate a 
tougher policy of regional containment by taking the dangers of nuclear 
proliferation off the table. Much depends on which course the 
Administration chooses.
    A policy of accommodation will maximize `blowback' from the JCPOA, 
throwing the region and America's key alliances into deep disarray. The 
more credible the perception is that the United States is prepared to 
accept and perhaps facilitate a large regional role for Iran, the more 
the United States will be seen as having taken the anti-Sunni side in a 
widening sectarian war. Gulf states who have long considered the United 
States a reliable protector will see American policy as a threat to 
their security and will explore new policy options with potentially 
very dangerous consequences for stability and American interests. The 
gap between radical and fanatical fighting groups and militias on the 
one hand and governing elites in the Sunni world will compress; 
alignments that are unthinkable today could become quite likely if key 
Sunni states come to believe that the United States has chosen Iran and 
the Shiite in the sectarian war. Such a course of action is also more 
likely to empower hardliners in Iran, as they will be able to make a 
plausible case that Iran has a historic opportunity to vault into the 
ranks of leading global powers by consolidating its power in the 
critical Gulf area.
    American allies in the Middle East are well aware of this dynamic. 
This is why they have been seeking more arms and stronger political 
commitments from the United States as they brace for the impact of a 
stronger and richer Iran in the wake of this agreement. Fueling a 
conventional arms race in the region and making additional commitments 
to protect threatened states are among the consequences of this 
agreement; the Congress should take care to inform itself about the 
nature of these new commitments and engagements that the JCPOA has made 
necessary.
    A robust policy of regional containment combined with other 
pressures on Iran could significantly reduce the negative consequences 
of the agreement on American interests. This would almost certainly 
involve a much more active American role in Syria, where the struggle 
between a variety of Sunni groups and the Iran-aligned Assad regime has 
transfixed the region and led to the worst and most dangerous outbreak 
of Middle Eastern violence since the Iran-Iraq War. For many countries 
in the region, including close historical allies of the United States, 
a strong American military commitment to the overthrow of the Assad 
government would serve as an acid test for American seriousness against 
Iran. Certainly any line of American policy that fails to lead to the 
emergence of a Syrian government in Damascus that satisfies Sunni 
opinion will be seen throughout the region as ratifying Iran's regional 
dominance.
    A similar logic applies to Iraq. If American aid to anti-ISIS 
forces in Iraq goes primarily to Shiite militias and regime forces seen 
as aligned with Iran, many Sunnis in Iraq and beyond will conclude that 
the United States is pro-Iran and anti-Sunni. The JCPOA increases the 
pressure on the United States to deepen its involvement in Iraq even as 
it makes the politics of that involvement more complex.
    Many of those supporting the JCPOA argue that the alternative to 
the agreement is an American war with Iran. Ironically, in order to 
balance the regional consequences of the agreement, the United States 
may well need to assume an increased risk of war in Syria and other 
frontline states.
    One of the reasons that the period leading up to the JCPOA has been 
so volatile in the Middle East is that many regional observers have 
concluded that American policy in the region is based on an American 
acceptance of Iranian hegemony on the ground. For the conspiracy 
minded, and their number is legion, this goes back to the Bush 
administration's decision to invade Iraq in 2003 and then to turn the 
country over to its Shiite majority. From an American point of view, 
whatever one thought of the war itself, the establishment of majority 
rule represented the triumph of our beliefs in democracy; many in the 
Middle East viewed it as a deliberate choice by the United States to 
promote Iran and to check Sunni power. Suspicion intensified when the 
United States then, despite talk about `red lines' and statements that 
Assad `must go' remained inactive in Syria as casualties and the 
refugee toll mounted. Where the majority is Shiite, many said, the 
United States supports majority rule. Where the majority is Sunni, the 
United States does nothing.
    That perception has become destabilizing in a region where 
escalating sectarian conflict between Sunni and Shiite increasingly 
dominates the agenda; endorsing the JCPOA without also making major 
changes in American regional policy would confirm that perception and 
further drive the region in the direction of radical polarization, 
religious war, and transnational conflict.
                               conclusion
    As the Congress deliberates over whether or not to endorse the 
JCPOA, it must pay close attention to the entire mix of American 
policies in the region of which the JCPOA will be one part. The JCPOA 
on its own strengthens Iran's hand in the region by reducing its 
isolation and adding significantly to its economic resources. Unless 
this effect is offset by a much more robust policy of containing Iran, 
centered on a focused drive for regime change in Damascus, the JCPOA 
will make the Middle East as a whole less secure, and increase the 
prospect that the United States will be forced to choose between war 
and strategic setbacks that gravely undermine America's global strategy 
and our peace and prosperity at home.

    Chairman McCain. I certainly hope so.
    Mr. Singh.
    Thank you, Dr. Professor Mead.
    Mr. Singh.

    STATEMENT OF MICHAEL SINGH, LANE-SWIG SENIOR FELLOW AND 
   MANAGING DIRECTOR, THE WASHINGTON INSTITUTE FOR NEAR EAST 
                             POLICY

    Mr. Singh. Thank you, Mr. Chairman, Ranking Member Reed, 
members of the committee.
    The nuclear agreement with Iran contains strong points and 
weak points. My judgment, however, is that it leaves Iran with 
a significant nuclear weapons capability. Indeed, it allows 
Iran, I think, to improve that capability over the life of the 
deal while obtaining broad upfront sanctions relief.
    I believe this has been Iran's twofold objective throughout 
the talks. It has escaped, rather than had to confront, a 
strategic choice between retaining its nuclear weapons option, 
on the one hand, and diplomatic and economic rehabilitation, on 
the other. I detail the nuclear aspects of the agreement in my 
written testimony, and I'm not going to dwell on those now.
    This is relevant to the topic at hand because Iran's 
nuclear ambitions are not separate from, but are part and 
parcel of, its regional strategy, which emphasizes, as 
Professor Mead was talking about, projecting Iranian power 
while creating an inhospitable environment for the United 
States and our allies. Iran doesn't accomplish this through 
conventional military power, in which its lacking, but through 
asymmetric capabilities, such as proxies, arms trafficking, 
sea-denial tactics, cyber activities, and missiles. There's 
nothing in the accord that requires or even incentivizes Iran 
to alter these policies. Indeed, I'd say the deal seems more 
likely to facilitate Iran's regional strategy. Iran will have 
additional resources, should it wish to help financially 
squeeze proxies, like Hezbollah--and I think we saw, in the 
Wall Street Journal this morning, a story that the Houthis in 
Yemen are also feeling a financial squeeze--to ensure that its 
militias in Iraq can outmatch the official security services 
there, as they do in Lebanon, and to buy political influence in 
places like Iraq, Afghanistan, and elsewhere.
    With the removal of the ban on the export of arms by Iran, 
and the lifting of the sanctions on the import of arms to Iran 
in no more than 5 years, Iran will face fewer impediments to 
arming its proxies. We do have other authorities, both U.N. 
[United Nations] and U.S. authorities, to address such activity 
in some circumstances, but those have been little used, and I'd 
say they are weakened rather than strengthened by this accord. 
Secretary Kerry, in a recent interview, he acknowledged that 
we're not doing much interdiction, but he said we would double 
down in the wake of the deal. I'm afraid that, for folks in the 
region, that doesn't really carry credibility.
    Such actions by Iran are likely going to spur a reaction by 
United States allies in the region who consider Iran their 
chief rival. They may act more aggressively and autonomously to 
counter Iranian policies--proxies, rather. This is a dynamic 
we're obviously already seeing in Yemen, Syria, Iraq, and 
elsewhere. They may choose to pursue nuclear capabilities of 
their own to supplement that.
    As Professor Mead said, increased Iranian intervention, I 
think, would also feed already rampant sectarian polarization 
in the region, because that interventionism by Iran fuels 
support and recruitment for the likes of ISIS, and it worries 
the Sunnis in the region.
    Beyond the Middle East, if we extend this further, Iran is 
likely to bolster its ties, I think, with Russia and China, who 
share with Iran an interest in challenging the United States-
led international order. That cooperation is likely to be not 
just diplomatic and economic in nature, but also military. 
Moscow and Beijing are Iran's largest suppliers of arms. Russia 
is likely not just to provide Iran with nonsanctioned systems, 
such as the S-300 or even a more advanced air-defense system, 
but also to come immediately to the Security Council to request 
exemptions for other types of arms exports to Iran. It'll be 
up, frankly, to the United States to stand against those 
requests. Will we do so in every circumstance remains to be 
seen.
    Russia and China will also be able to assist Iran's 
ballistic missile program when sanctions are lifted in 8 years. 
This is particularly important, I think, for Iran's pursuit of 
ICBMs [intercontinental ballistic missiles], because that would 
benefit enormously from foreign assistance, given the limited 
pool of knowledge on this particular topic.
    A particular challenge, as you mentioned, Mr. Chairman, to 
United States interests in the region is Iran's pursuit of a 
rudimentary, for now, anti-access area denial strategy in the 
Gulf. The region is well suited to such a strategy, because of 
its narrow confines, its highly concentrated population 
centers, and its target-rich environment, when it comes to, 
say, vulnerable energy infrastructure. It's undoubtedly an 
area--A2/AD [anti-access area denial]--where Chinese assistance 
would be invaluable, since we see Beijing pursuing its own A2/
AD capabilities in the western Pacific on a much larger scale. 
One defense analyst from CSBA has suggested that Iran could 
enhance its A2/AD strategy with select high-end technology, 
such as missiles--enhanced missiles, and expanded low-end 
investment in sea mines, fast attack craft, and the well-armed 
proxies that it currently fields.
    Some of these regional effects that I'm talking about 
would, of course, result from any nuclear deal not preceded by 
an Iranian strategic shift. That's why it's so important to 
ensure that the benefits of such a deal outweigh these costs. 
As it is, I think we're going to need to invest significant 
resources to offset the downsides of the accord. These will 
include increased resources for the intel community and the 
IAEA [International Atomic Energy Agency] to monitor Iran, to 
monitor Iranian compliance. We'll need to repair relations with 
our regional allies, like Israel and the Gulf states, and 
increase assistance to those allies. I think we're going to 
need to review our military posture to ensure we're positioned 
to counter Iranian A2/AD efforts, which I believe has to be 
done in the context of an overall increase in defense resources 
if it's going to be seen as credible by our adversaries. I 
think we'll need more proactive policies to counter Iranian 
activities in Syria, Iraq, and elsewhere.
    I do worry, as Professor Mead said, that we'll be self-
deterred from responding to violations of this accord. You--we 
see this dynamic with the INF Treaty [Intermediate-Range 
Nuclear Forces Treaty] and Russia. We've seen this dynamic with 
Syria and the Chemical Weapons Accord. There was a very good 
article about Syria on--in the Wall Street Journal, a couple of 
weeks ago, that delved into this very topic. I think that we're 
going to need to be careful, in the wake of the deal, to avoid 
incrementally shifting our own policies in a misguided effort 
either to bolster Rouhani and pragmatists in Iran against a 
hardline backlash there, or to demonstrate the transformative 
effects of the deal. We should disincentivize Iran's 
destabilizing behavior, incentivize more constructive policies. 
But, the strategic shift should be Iran's, not ours.
    It seems to me the bottom line is that we've negotiated a 
weak agreement and painted ourselves into a diplomatic corner. 
I agree with you, though, Mr. Chairman, that the alternative to 
the deal is not war, but, rather, a mess with our allies, some 
very important allies.
    In the longer run, though, I'd argue that the real question 
is not whether we're going to need an alternative policy, or 
whether we need an alternative policy, but when. Even in the 
best-case scenario, the limits the deal imposes on Iran are 
narrow limits, and even those will start phasing out in 5 to 15 
years. If the deal works as intended, the agreement will buy 
time for us, but it also buys time for Iran. Iran's going to 
use that to advantage.
    Thanks very much.
    [The prepared statement of Michael Singh follows:]

                  Prepared Statement of Michael Singh
    Chairman McCain, Ranking Member Reed, and Members of the Committee, 
thank you for this opportunity to appear before you today to discuss 
the nuclear agreement with Iran and its implications for the United 
States and the Middle East.
                    america's objectives and iran's
    When we analyze foreign policy, the first question should be what 
interest or objective is served by a particular policy. A good policy 
should clearly advance U.S. interests and should complement rather than 
clash with our larger strategy, unless the policy in question heralds 
an entirely new strategy that can be clearly articulated and 
implemented. A prudent, conservative foreign policy should clearly 
deliver benefits that outweigh its costs or, by incurring certain 
costs, forestall an even greater projected cost.
    The objective in this case is not--and has never been--simply to 
conclude a nuclear agreement with Iran. A deal is a means toward an 
end, not an end in itself. The intended end in this case is to prevent 
Iran from possessing a nuclear weapon, in order to safeguard our 
interests in the Middle East and beyond, which would be clearly 
threatened by such a development. While this objective has long enjoyed 
consensus bipartisan support, the question that has divided 
policymakers--acutely in recent years--is how to accomplish it when 
faced with an Iranian leadership apparently willing to entertain great 
cost and risk to expand Iran's nuclear weapons capability.
    At the outset of the recently concluded diplomacy--the P5+1 process 
devised in 2005--the United States strategy was to persuade Iranian 
leaders to embark on a broad ``strategic shift,'' recognizing that the 
costs of their regional strategy outweighed the benefits. The logic of 
this approach was that Iran's nuclear weapons ambitions were not 
separate from but an integral part of a larger security strategy, and 
only a strategic shift would sustainably end those ambitions.
    Absent such a strategic shift, the sensible stance was to insist on 
the suspension of Iran's nuclear efforts and dismantlement of its 
nuclear infrastructure. Even if Iran retained the desire for nuclear 
weapons, it would be denied the means to develop them, and a ban on 
nuclear fuel cycle and related activities would be less challenging to 
police than limitations on the same activities would be. Such an 
approach would also offer an appealing symmetry--the dismantling of 
Iran's nuclear fuel cycle infrastructure and related activities in 
exchange for the dismantling of sanctions.
    Absent such dismantling, the most sensible approach would have been 
to deny Iran at least those elements of its nuclear program most 
essential to retaining the option to build a nuclear weapon in the 
future--to deny it a nuclear weapons capability, practically speaking. 
Yet retaining that option appears to have been a key Iranian objective 
in these negotiations.
    Iran's negotiating positions over the past decade-plus of nuclear 
talks suggest a twofold objective: securing the removal of sanctions 
while retaining a nuclear weapons capability. While Iran has throughout 
the negotiations proven willing to brook temporary limitations on 
certain nuclear activities, it has steadfastly refused to consider 
steps--for example, forgoing advanced enrichment R&D, providing access 
to suspected weaponization sites and scientists, or accepting 
limitations on missile activities or permanent constraints of any 
kind--that would foreclose the future development of a nuclear weapon.
    Indeed, Iran's behavior makes little sense absent a desire for 
nuclear weapons. It can obtain reactor fuel from abroad, as do most 
countries that utilize nuclear energy. Furthermore, an indigenous fuel 
cycle is marginal to Iran's energy security, given its rich endowment 
of fossil fuels. Rather, it is Iran's secret pursuit of that fuel cycle 
and other nuclear weapons-applicable technology that has proven a 
greater threat to its energy security in the form of sanctions on its 
hydrocarbon, financial, and other sectors.
                      assessing the nuclear accord
    It is instructive to assess the extent to which the agreement 
advances the United States and Iranian objectives described above. 
Nuclear weapons development requires three lines of action--fuel 
fabrication, weaponization, and development of a delivery vehicle. It 
also presumably requires secrecy, since being caught at the task would 
entail risk of a military response.
    When it comes to fuel fabrication, the nuclear agreement leaves 
Iran in possession of a full nuclear supply chain from uranium mining 
to enrichment, and also leaves in place the heavy water reactor at 
Arak. These are subject to various temporary restrictions--Iran agrees 
to cap the number and type of centrifuges installed, the level to which 
it enriches, and the amount of low-enriched uranium it stockpiles, and 
converts its heavy water reactor at Arak to avoid producing weapons-
grade plutonium. It also agrees not to build new enrichment, heavy 
water, and reprocessing facilities.
    Two points stand out as most concerning, however: Iran is permitted 
to continue research and development on advanced centrifuges and to 
begin deploying such centrifuges after just eight and a half years. 
Because such centrifuges are designed to enrich uranium much more 
efficiently than Iran's existing ``IR-1'' centrifuges, they are far 
better suited to a covert weapons-development effort--far fewer of 
them, operating for less time, would be required to produce weapons-
grade fuel. Second, the restrictions described above phase out ten to 
fifteen years from now, meaning that at that time Iran would face few 
technical impediments to reducing its breakout time substantially.
    When it comes to weaponization, the agreement commits Iran not to 
``engage in activities, including at the R&D level, which could 
contribute to the development of a nuclear explosive device.'' \1\ But 
the question is how Iran's adherence to this commitment can be 
verified, especially since such activities tend to be secretive by 
their very nature. Indeed, International Atomic Energy Agency (IAEA) 
reporting suggests that Iran has already engaged in various 
``activities related to the development of a nuclear explosive 
device,'' \2\ part of what the IAEA terms the ``possible military 
dimensions'' (PMD) of Iran's nuclear program.
---------------------------------------------------------------------------
    \1\ Joint Comprehensive Plan of Action, part C, para 16
    \2\ IAEA GOV/2011/65
---------------------------------------------------------------------------
    Many analysts have urged that Iran be required as part of any 
agreement to disclose the extent of its past (and possibly ongoing) 
weaponization and other clandestine nuclear efforts so that inspectors 
understand what progress Iran made, and provide the IAEA with the 
necessary access to ensure that such efforts are not resumed. The 
agreement does not appear to meet these criteria. It does not specify 
that inspectors must be given access to weapons-related sites and 
personnel, or that full disclosure of past weaponization and other 
clandestine nuclear work is required for the agreement's implementation 
to proceed. Without such provisions, I do not believe we can have 
confidence that Iran's work on nuclear weapons will not be resumed 
(perhaps by elements of Iran's security apparatus, and perhaps even 
without the knowledge of the civilian officials with whom inspectors 
interact) or even that it has ceased.
    In the area of delivery vehicles, the agreement contains no 
limitations whatsoever as far as I can tell. Iran is not required to 
limit its ballistic missile development and testing, nor does the list 
of ``activities which could contribute to the design and development of 
a nuclear explosive device'' from which Iran agrees to refrain in Annex 
I of the agreement include any mention of missile reentry vehicles, 
despite their inclusion in the IAEA's accounting of PMD. Indeed, the 
binding ban on Iran ``undertak[ing] any activity related to ballistic 
missiles capable of delivering nuclear weapons, including launches 
using ballistic missile technology'' \3\ contained in U.N. Security 
Council Resolution 1929, is replaced with nonbinding, hortatory 
language \4\ in U.N. Security Council Resolution 2231.
---------------------------------------------------------------------------
    \3\ U.N. Security Council Resolution 1929, op9
    \4\ U.N. Security Council Resolution 2231, Annex B, para 3
---------------------------------------------------------------------------
    The effect of this shift is that as of ``Implementation Day'' of 
the nuclear accord, Iran will not be barred from conducting ballistic 
missile launches or pursuing nuclear-capable ballistic missiles, which 
are an essential part of any modern nuclear weapons program. This 
concern has even been voiced in the past by Russian officials. In 2008, 
following a failed Iranian missile test, then-Deputy Foreign Minister 
Aleksandr Losyukov said the test added ``to general suspicions of Iran 
regarding its potential desire to build nuclear weapons.'' \5\ When 
sanctions on Iran's ballistic missile program are lifted in eight 
years, it will also be able to receive foreign assistance, which has 
been described in the past by United States officials as essential to 
its ability to produce intercontinental ballistic missiles (ICBMs). 
While some United States secondary sanctions on missile cooperation 
with Iran will remain in place, these are insufficiently robust to 
deter Iran's likely partners.
---------------------------------------------------------------------------
    \5\ 5 ``Iran: Russia Says New Rocket Raises Nuclear 'Suspicions,''' 
Associated Press, 
February 7, 2008.
---------------------------------------------------------------------------
    Taken together, these weaknesses suggest that the agreement will 
permit Iran to retain the option to build a nuclear weapon in the 
future. Indeed, the agreement could be seen as a means by which Iran 
buys time to perfect, in some cases with international assistance, the 
technologies--advanced centrifuges, weaponization, and long-range 
ballistic missiles--required to build a nuclear weapon in the future. 
In my view, this is not by accident--Iran's ``red lines'' seem to have 
been designed to shape this outcome, implying again that Iran's purpose 
in the talks has been to obtain sanctions relief while retaining or 
even improving its nuclear weapons capability.
    The strength of the agreement must instead rest, then, on our 
ability to detect and deter any such weapons-development effort, 
whether covert or overt. Unfortunately, the inspection mechanism in the 
accord does not appear up to this task. While robust monitoring will be 
in place at declared sites, the United States intelligence community 
assessed in 2007 that Iran ``probably would use covert facilities--
rather than its declared nuclear sites--for the production of highly-
enriched uranium for a weapon.'' \6\ The agreement does not, however, 
permit inspectors anything approaching unfettered access to suspect 
sites.
---------------------------------------------------------------------------
    \6\ 2007 Iran Nuclear NIE
---------------------------------------------------------------------------
    Rather, after an indefinite back-and-forth with Iran regarding 
suspicious activity, the IAEA could formally request access to a site, 
which would initiate a deliberative process lasting as many as twenty-
four days. If, however, Iran continued to deny inspectors access at the 
end of this period, the matter might not be resolved for another thirty 
to sixty-five days--bringing the delay to fifty-four to eighty-nine 
days--or even longer if any of these periods were extended by consensus 
of a ``Joint Commission'' consisting of Iran, the EU, and the P5+1. 
This is far too long a delay to permit inspectors to do their jobs 
effectively.
    Combined with Iran potentially not being required to disclose and 
provide access to PMD-related sites, personnel, and documentation, and 
a missile program that is not subject to inspection at all to my 
knowledge, the result is an inspection regime that falls short of what 
is necessary to detect covert nuclear activity. This inadequacy is 
compounded by the fact that Iran's breakout time even at declared sites 
could potentially diminish to near zero once the restrictions on its 
enrichment- and reprocessing-related activities phase out in ten to 
fifteen years, rendering it practically improbable to halt a breakout 
attempt even with monitoring in place.
    The inspection regime is further undermined by the agreement's 
enforcement mechanism. The only remedy for noncompliance--whether the 
refusal of access to inspectors by Iran or any other violation--is the 
termination of the accord and the reimposition of previous U.N. 
resolutions, in which case Iran has asserted that it would consider its 
obligations under the agreement null and void. The implication is that 
small violations of Iran's obligations are likely to go unpunished, and 
access requests are likely to face a high bar, for fear of unraveling 
the accord entirely--the IAEA may hesitate to make a formal access 
request for fear of being party to the agreement's collapse, and the 
other parties to the accord may hesitate to support the IAEA if they 
do. Violations of Iran's other obligations may be explained away as 
inadvertent, the work of rogue elements within Iran, or otherwise not 
worth risking the entire accord over.
    As is often the case with such agreements, the leverage will be 
with the less risk-averse party. The United States has not, for 
example, imposed any cost on Russia for its reported violation of the 
INF Treaty, nor on Syria for apparently violating its commitment to 
destroy its chemical weapons. Indeed, in both cases U.S. officials have 
appeared loath even to acknowledge the violations. Iran has already 
indicated its intention to test the inspection regime by asserting that 
access to military sites will be refused as a rule. The absence of 
``snap'' inspections will remove a psychological barrier to cheating 
and further encourage such risk-taking. Even in the event sanctions 
snap back, their initial effect is likely to be only psychological or 
symbolic--their economic impact will take far more time to be felt, 
much less to affect Iran's decisions.
    Military force remains an option in extremis to enforce the 
agreement. However, the military option may prove more difficult to 
exercise in the future given the international legitimacy the accord 
grants to Iran's nuclear activities, the international involvement in 
those activities that it permits, any steps by Iran to further harden 
its nuclear sites against attack, and the likely return of 
international investment and commerce to Iran.
    In sum, the nuclear agreement is best thought of as a form of 
containment: Iran will retain its nuclear weapons capability, and the 
United States and our allies will attempt to prevent it from being 
used. But it is a containment policy in which we agree in advance to 
gradually lower our defenses by phasing out the limitations on Iran's 
nuclear activities by a date certain, and limit our own toolkit by 
lifting sanctions nearly comprehensively up front. In past proposals, 
the United States had made the easing of restrictions dependent on 
Iran's own behavior. Under this accord, all Iran need do is bide its 
time and the restrictions will be lifted regardless of its policies. 
The incentive for Iran is therefore simply to wait: to avoid 
significant overt nonperformance under the accord, but not to alter in 
any fundamental way its nuclear ambitions or regional strategy.
             broader implications of the nuclear agreement
    The challenge to United States interests posed by Iran goes well 
beyond its nuclear and missile program. Chairman of the Joint Chiefs of 
Staff General Martin Dempsey recently told the Senate Armed Services 
Committee that the threats posed by Iran also included its support for 
proxies, arms trafficking, sea-based mines, and cyber activities. These 
and other Iranian activities threaten our interest in nonproliferation, 
counterterrorism, freedom of navigation, and cybersecurity, and 
directly challenge a United States regional strategy focused on 
ensuring regional stability and bolstering the security of our allies.
    President Obama has asserted that the agreement does not presume 
any improvement in Iranian behavior on these fronts, though he has 
expressed hope that Iran's behavior will in fact change as a result of 
the deal. However, in the short term at least, Iran's behavior in the 
region is more likely to worsen than improve.
    Anti-Americanism is central to the ideology of the Iranian regime, 
and Iranian leaders--having just reached a diplomatic compromise with 
the United States--may feel the need to reaffirm its anti-American bona 
fides. The agreement is also widely perceived as a victory for Iranian 
pragmatists led by President Hassan Rouhani and was, according to 
Secretary of State John Kerry, \7\ opposed by the Islamic Revolutionary 
Guard Corps (IRGC) and other hardliners. Iran's Supreme Leader, widely 
regarded as seeking to balance the regime's contentious factions, may 
feel the need in the agreement's wake to give freer rein to those 
hardliners to prevent one faction from becoming too powerful.
---------------------------------------------------------------------------
    \7\ Secretary of State John Kerry at the Council on Foreign 
Relations, July 24, 2015
---------------------------------------------------------------------------
    Finally, Iranian regional behavior is not driven solely by United 
States policy or this nuclear accord, but by events in the region 
themselves. Iran's security strategy, in part compensating for a lack 
of conventional military power, has focused on building asymmetric 
power through proxies and surrogates who are able to project Iranian 
power and keep potential foes such as Israel and Sunni Arab states 
occupied far from Iran's borders.
    There is nothing in the agreement that requires Iran to change this 
strategy, or that would forestall a spike in malign Iranian behavior. 
Quite the opposite--the agreement will provide Iran with an influx of 
financial resources, some portion of which seem likely to go to foreign 
priorities such as Lebanon, Syria, Iraq, or Yemen. An infusion of 
Iranian funds could have salutary effects on the Assad regime, which 
has reportedly depended on Iranian assistance, for example receiving a 
fresh $1 billion line of credit from Tehran just last month; on 
Hezbollah, which has reportedly seen assistance from Iran decline as 
the latter was squeezed by sanctions; on Palestinian Islamic Jihad 
(PIJ), which has reportedly been suffering from financial duress; and 
on Hamas, which seeks to rebuild military capacity degraded in its last 
round of fighting with Israel. It could also be used to step up 
recruiting for Iranian-backed militias in Syria and Iraq, to ensure 
that Iraqi Shiite militias backed by Iran are better resourced than 
official Iraqi security services, and to buy increased political 
influence in Iraq, Afghanistan, and elsewhere. \8\
---------------------------------------------------------------------------
    \8\ For more examples, see ``The Regional Impact of Additional 
Iranian Money,'' PolicyWatch 2456, The Washington Institute for Near 
East Policy, July 28, 2015, http://www. washingtoninstitute.org/policy-
analysis/view/the-regional-impact-of-additional-iranian-money.
---------------------------------------------------------------------------
    The agreement will also lift the ban on ballistic missile tests and 
the designations of certain entities involved in Iran's regional 
troublemaking, such as (in eight years) the IRGC-Qods Force. It will 
also remove, in no more than five years, sanctions barring the transfer 
of arms to Iran--paving the way for the possible modernization of 
Iran's relatively antiquated conventional forces--and will lift by my 
reading the ban on Iran exporting arms itself.than five years, 
sanctions barring the transfer of arms to Iran--paving the way for the 
possible modernization of Iran's relatively antiquated conventional 
forces--and will lift by my reading the ban on Iran exporting arms 
itself.than five years, sanctions barring the transfer of arms to 
Iran--paving the way for the possible modernization of Iran's 
relatively antiquated conventional forces--and will lift by my reading 
the ban on Iran exporting arms itself. \9\ While in some circumstances 
other authorities exist to prohibit arms transfers to Iranian proxies, 
these measures have been poorly enforced and seem likely to be weakened 
further, not strengthened, by this agreement. As a result, and seeing 
as regional conflicts in which Iran is embroiled show little sign of 
abating, there is more reason to believe that Iran's regional 
activities will increase rather than deminish, including the 
proliferation of sophisticated arms.
---------------------------------------------------------------------------
    \9\ U.N. Security Council Resolution 1747, op5
---------------------------------------------------------------------------
    While some regard Iran as a potential partner against the likes of 
ISIS, in fact any uptick in Iranian regional troublemaking stands to 
benefit ISIS and its ilk, which feed off the sectarian polarization 
Iran's activities foster. In addition, because many United States 
allies in the region see Iran and its proxies as a major threat to 
their security, they are likely to respond to any increase in Iranian 
adventurism. To an extent, we are already witnessing these dynamics 
playing out around the region. To make matters worse, United States 
allies may also seek in the wake of the accord to match Iran's nuclear 
capabilities to ensure they could respond rapidly to any Iranian 
nuclear breakout; while there is no guarantee they will do so, the 
incentive is clear. Our reassurances to them will be met with 
skepticism in light of our relative inaction thus far to counter 
Iranian regional aggression, and in light of our failure to follow 
through on similar assurances given to Ukraine in 1994 as part of our 
pursuit of a different arms control treaty.
    This incentive will remain even if, as some hope, the Iranian 
regime becomes friendlier or more constructive in the coming years. 
Even a different regime in Tehran may not wish to concede a nuclear 
capability that has been granted international legitimacy. Given the 
long history of rivalry between Iran and its major neighbors, the 
presence of a large, advanced nuclear program in Iran will likely 
prompt a balancing reaction in the region regardless of Tehran's 
attitude toward the United States.
    The agreement also seems likely to foster closer diplomatic, 
economic, and military ties between Iran and a host of states outside 
the region, including India, Pakistan, Russia, and especially China. 
Sino-Iranian trade has been growing despite sanctions, and even China's 
energy imports from Iran have reached record highs in 2014-2015 despite 
NDAA sanctions calling for states to reduce their oil trade with Iran. 
In addition, China-Iran military ties have increased, with Chinese 
fighter jets landing in Iran to refuel and Chinese warships paying a 
call to the Iranian port of Bandar Abbas in recent years. Chinese and 
Iranian defense officials have called for expansion of these ties, and 
the lifting or phasing out of sanctions will smooth the way for this to 
occur.
    All of this is on its face would appear to constitute a significant 
strategic reversal by the United States--accommodating Iranian nuclear 
expansion after years of opposing it, lifting sanctions on Iran after 
years of expanding them, and facilitating Iran's financial and 
diplomatic reintegration into the international community after years 
of seeking to isolate it. These actions stand in opposition to 
longstanding United States strategy in the Middle East, which aimed to 
foster regional stability and prosperity by bolstering the security of 
allies, effectively countering those who challenged our mutual 
interests, and preventing inroads by hegemons from inside or outside 
the region. This conflict between our actions and our stated strategy 
inevitably leads allies to conclude either that our commitment to that 
strategy and to the region itself is diminished, or that we are 
embarking on a broader strategic realignment.
                             looking ahead
    One of the chief defenses offered for the nuclear agreement is 
that, whatever its shortcomings, it is preferable to the alternatives. 
It is one thing to say, however, that a negotiated agreement of some 
sort was preferable to alternatives such as military conflict or 
acquiescence, and another entirely to claim that this is the best 
accord that could have been negotiated. I have little doubt that 
different tactics could have produced a stronger agreement. Indeed, it 
is the very denigration of our alternatives and failure to credibly 
project consequences--whether sanctions or military force--for Iran of 
failing to accept strict limitations on its nuclear activities that in 
my view most contributed to the weakness of this accord. The notion 
that Iran would have marched inexorably toward a nuclear weapon were it 
not for this deal ignores the considerable deterrent effect that 
further sanctions and the credible threat of military force would 
likely have had on Iranian decisionmaking.
    Such assertions on both sides, however, are now largely a matter 
for historical debate. The more immediately relevant question is 
whether to implement the accord. If the deal cannot muster sufficient 
domestic support, it should like any rejected agreement be 
renegotiated. There is no particular reason it cannot be, though the 
other parties are likely to resist. Ordinarily they would nevertheless 
require U.S. participation for the termination of international 
sanctions, but the recent passage of a U.N. Security Council resolution 
endorsing the accord and setting a schedule for lifting sanctions gives 
rise to the possibility--the text of the deal is not clear on this 
point--that the deal's implementation could proceed even without the 
United States fulfilling our obligations.
    It is also possible that Iran would refuse to implement its 
obligations were the deal rejected by the United States, and that it 
would find sympathy from partners such as Russia and China. Because, 
however, our allies would remain committed to preventing Iran from 
developing a nuclear weapon, Iranian noncompliance would not be met 
with resignation but would likely lead to a resumption of previous 
efforts to resolve the crisis through diplomacy and pressure. None of 
these scenarios is by any means an easy one; our policy to date will 
not be without consequences.
    If the nuclear accord is implemented, U.S. policymakers will need 
to contend with the new reality it creates. We must avoid the 
temptation to overlook harmful Iranian policies or offer unilateral 
concessions in a misguided effort to bolster one regime faction against 
another, but instead establish clear disincentives for destabilizing 
behavior and incentives for constructive behavior by Tehran. It will be 
important to ensure that the United States intelligence community and 
IAEA have sufficient resources to monitor Iranian nuclear efforts, to 
strengthen the United States position in the Middle East by 
reinvigorating our regional alliances, to restore the credibility of 
United States military deterrence in the context of an overall 
strengthening of United States defense resources, to more firmly 
counter Iranian regional actions while pressing Iran to play a more 
constructive regional role, and to respond quickly to violations of 
Iran's nuclear obligations as well as activities not covered by the 
agreement such as provocative missile tests. Frankly these are 
objectives we should have been pursuing now for years--not merely 
considering as a consequence of a nuclear accord--but have neglected.
    Most difficult of all, the next president is almost certain to find 
the nuclear constraints imposed on Iran by this accord to be 
unsatisfactory, if for no other reason than those limitations will 
begin to expire by the end of the next president's tenure if he or she 
is reelected. In this sense, the question is not whether, but when, we 
will need to devise an alternative policy toward Iran's nuclear and 
regional activities. The next president will need to rebuild 
international support for a strengthened Iran policy with fewer tools 
at his or her disposal, and may well be doing so in a less favorable 
international context given recent shifts in the international security 
environment and the likely strengthened diplomatic, economic, and 
strategic ties Iran may enjoy with other states in the future.
    As I noted at the outset, sensible foreign policy must clearly 
advance American interests at a cost that is outweighed by the policy's 
projected benefits. It is not clear that the nuclear agreement with 
Iran meets these criteria. It does not clearly achieve the objective it 
sets out to--the prevention of a nuclear-armed Iran--nor does it 
complement our broader strategy in the Middle East or our global 
nonproliferation strategy. Instead, it entails significant costs that 
are justified primarily by conjuring the specter of an even more costly 
war no analyst believed was imminent.

    Chairman McCain. Dr. Takeyh.

   STATEMENT OF RAY TAKEYH, SENIOR FELLOW FOR MIDDLE EASTERN 
           STUDIES, THE COUNCIL ON FOREIGN RELATIONS

    Dr. Takeyh. Thanks, Chairman, for inviting me, as well as 
Senator Reed, in his absence.
    I think it's fair to say, and I think it's indisputable to 
start with, the suggestion that this agreement has been 
negotiated with a rather peculiar regime, perhaps one of the 
most peculiar in annals of history. Most non-Western 
revolutionary states eventually abandon their ideological 
mission for sake of integration into the global economy and the 
international system. This has not been the case with Iran. Its 
leaders remain committed to an ideology rooted in anti-
Americanism and anti-Zionism. This resilience of Iran's 
Islamist enmities is, indeed, striking. Iran's leadership 
continues to cling to radical policies that are just not 
detrimental to its national interests, but have been rejected 
by a large segment of its population.
    The question then becomes, What is the impact of this 
nuclear agreement on Iran and its regional surge? I think you 
have to think about Iranian foreign policy as before and after 
2011, because they're very strikingly different. Since the Arab 
Awakenings of 2011, the post-colonials Arab state system has 
essentially collapsed. That system was predicated on a dominant 
state of Egypt and Iraq. Egypt is too preoccupied with its 
internal squabbles to become a real player seeking regional 
leadership. Iraq is a fragmented state led by a Shiite 
government that's also from the Arab Councils.
    Iran has embarked on a dramatic new mission that is seeking 
to project this power in corners of the Middle East it never 
thought possible. This is not traditional Iranian foreign 
policy of supporting terrorism and rejectionist groups against 
Israel. This is essentially a new form of imperialism that is 
becking Iran. Imperialism may be attractive, but it is also 
financially burdensome. Without this arms control agreement and 
the financial rewards it will bring, in terms of sanctions 
relief, release of entrapped funds, and new investments, Iran 
would find it difficult to subsidize its imperial surge.
    It is often suggested--it may have been suggested here--
that the United States can still redress Iran's malign 
activities, irrespective of the agreement. However, in the wake 
of the nuclear agreement, the United States will have a 
diminished coercive power to achieve this task. The fact of the 
matter is, for the past 30 years we have responded to Iranian 
terrorism and Iranian regional aggression by applying economic 
sanctions. As a result of this agreement, the United States is 
committed to relieving those sanctions over a period of time. 
Today, Iran is segregated from the global financial markets, 
and sanctions inhibit the Central Bank. As they essentially 
diminish over time, the room for United States President's--
future United States President's coercive options will 
correspondingly be parsed. Subsequent administrations may have 
no choice but to use force or accommodate Iran's 
transgressions, whatever those transgressions may be.
    Some have argued--the administration witnesses have argued 
that the United States is still committed to pushing back on 
Iran in the region, irrespective of this arms control 
agreement. They should be asked how, specifically, they are 
planning to do that. How are we planning to dislodge Iran from 
deep penetration of Iraq? Nobody has thought more about this 
than the chairman. This may actually require employment of 
American forces. The low estimates I've seen is 10 to 15,000 
troops. Are they prepared for that? How are we prepared to 
dislodge Iran from Syria and support of the Assad dynasty, one 
of its most consequential clients? How are we going to--
Hezbollah and the Shiite militias who are acting as Iran's 
lethal proxies?
    In the Gulf, the suggestion has been made that we're going 
to sell more arms, which I don't think will do the trick. As a 
matter of fact, I would suggest it's counterproductive. These 
countries have deep-seated structural economic problems. 
Additional money spent on that is unlikely to ameliorate those 
problem. Iran doesn't seek to invade the Gulf country, it seeks 
to subvert them. Therefore, by selling more arms and using 
those resources away from vital economic tasks, we exacerbate 
the problems of the Gulf without necessarily creating a barrier 
to a projection of Iranian power.
    Finally, let me address briefly the Joint Comprehensive 
Plan of Action, and hopefully suggest some ideas for its 
revision that may broaden its appeal and make it stronger. My 
colleague, Eric Edelman, who was here yesterday in the wise man 
hearing, kind of suggested some ways ahead. I'd like to 
reiterate some of those that perhaps will be found useful. 
There are others. You can have your own suggestion.
    I have not seen, and I continue not to see, any credible 
defense of the ``sunset clause''. I haven't seen it because it 
doesn't exist. One thing I would say is the--what the United 
States should do is essentially try to suggest that, after 
expiration of the sunset clause, all members of the P5+1, plus 
Iran, should vote on whether the restrictions should be 
continued for additional 10 years; and every 10 years, we 
should vote on that--the members of the treaty should vote on 
that. This way, essentially we can determine Iran's nuclear 
program going ahead by a majority vote among the signatories of 
the agreement, as opposed to some arbitrary timeclock. A 
majority vote every 10 years, I think, would be--the precedent 
for that is the NPT [Non-Proliferation Treaty]. NPT expired 
after 25 years, and then all member states voted to extend its 
restrictions.
    A second suggestion I would make, we really ought to go 
back and revisit the notion of if Iran should develop IR8s, the 
advanced centrifuges. Vice President Salehi has suggested that 
it operates 17 times faster than IR1 centrifuges that Iran 
currently have, more than its current stockpile, allowing the 
Islamic Republic to dramatically increase its enrichment 
capacity and provide--capability. At the very least, these 
machines should not be allowed to develop.
    This particular agreement suffers from the same structural 
agreement that, to be frank, every arms control agreement in 
the past has. It is not equipped to deal with marginal 
incremental violations. To be fair, no arms control agreement 
is. INF was bought up here, as well. This is particularly the 
case because, as has been mentioned in this hearing, Iranian 
violations are likely to be incremental. Foreign Minister 
Zarif, in his presentation of the nuclear agreement to the 
Parliament, said, and I quote--''Sanctions can be reimposed on 
Iran only in case of serious violation of its obligation and 
not in case of small-scale violations.'' How do you deal with 
that, incremental violations that Foreign Minister Zarif is 
promising? The entire defense leadership of Iran--General 
Ja'afari, the head of the Revolutionary Guards, Defense 
Minister Dehghan, and the head of the ground forces, General 
Pourdastan--have suggested, since the enactment of the treaty, 
that they will not provide access to military installations. 
That's something that we have to deal with. Again, incremental 
violations are difficult to prosecute. That's the history of 
arms control agreement. This agreement falls within it.
    Finally, let me say, I have heard--Secretary Kerry, in 
particular, but others have suggested that the Revolutionary 
Guards are against this agreement. Frankly, I don't see that. I 
know where to look for this sort of a thing. I have surveyed 
all their public speaking. I have surveyed all the publication 
and media outlets that are related to them. They have suggested 
that they will not allow access to facilities, but I have not 
seen the opposition. The most succinct presentation of the 
Revolutionary Guard position was in--2 days ago, in one of 
their newspapers, Javan--translated ``Young''--and assessed 
some like this--pardon the translation--ultimately--quote, 
``Ultimately, the positive achievements of the nuclear 
agreement is that it increases the power of the Islamic 
Republic in the region. It has made Iran's regional allies 
happy. It has made its adversaries unhappy.'' I think that's a 
fairly succinct presentation of the Revolutionary Guards. I see 
the notion that they're opposing it as farfetched.
    I will say, some of the measures that I suggested for 
reconsidering the agreement can actually help strengthen it and 
actually provide a greater bipartisan foundation for the 
agreement that can potentially forestall an Iranian bomb, stem 
proliferation cascade in the Middle East, and hopefully anchor 
this agreement on the greater bipartisan foundation, therefore 
ensuring its durability.
    Thank you.
    [The prepared statement of Dr. Takeyh follows:]

                    Prepared Statement by Ray Takeyh
                        the permanent revolution
    More than three decades after its founding, the Islamic Republic 
remains an outlier in international relations. Most non-Western, 
revolutionary states eventually eschew a rigidly ideological foreign 
policy and accept the fundamental legitimacy of the international 
system. But Iran's leaders have remained committed to an ideology 
rooted in anti-Americanism and anti-Zionism. The resilience of Iran's 
Islamist enmities is striking. Iran's leadership continues to cling to 
radical policies even when such practices are detrimental to the 
country's other stated national interests and even when a sizable 
portion of the population rejects them.
    The question then becomes why Iran's ruling elite continues to 
maintain this ideological template? After all, other revolutionary 
regimes, after initially using foreign policy for ideological purposes, 
later moved away from that approach. Why has China become more 
pragmatic but not Iran? The answer is that the Islamic Republic is 
different from its revolutionary counterparts in that the ideology of 
its state is its religion. It may be a politicized and radicalized 
variation of Shia Islam, but religion is the official dogma. 
Revolutionary regimes usually change when their ardent supporters grow 
disillusioned and abandon their faith. It is, after all, much easier to 
be an ex-Marxist than an ex-Shia. In one instance, renouncing one's 
faith is political defection; in the other, apostasy. Although the 
Islamic Republic has become widely unpopular, for a small but fervent 
segment of the population it is still an important experiment in 
realizing God's will on earth.
    Iran's revolution continues to challenge the concept of nation-
state and the prevailing norms of the international system. The essence 
of Islamic Republic's message is that the vitality of its vision at 
home is contingent on its relentless export. Moreover, because God's 
vision was not confined to a single nation, Iran's foreign policy would 
be an extension of its domestic revolutionary turmoil. For the clerical 
state, the global order is divided between two competing entities, 
nations whose priorities are defined by Western conventions; and Iran, 
whose ostensible purpose is to redeem a divine mandate. Of course, no 
country can persist on ideology alone. Iran has to operate its economy, 
deal with regional exigencies and meet the demands of its growing 
population. But its international relations would be characterized by 
revolutionary impulses continually struggling against the pull of 
pragmatism.
    The Islamic Republic's internationalism has to have an antagonist, 
a foil against which to define itself. A caricatured concept of the 
West has become the central pillar of the mullahs' Islamist 
imagination. The Western powers are rapacious imperialists determined 
to exploit the region's wealth for their own aggrandizement. Islamist 
themes soon followed, portraying the West as seeking to subjugate 
Muslims and impose its cultural template in the name of modernity. 
Disunity among Muslims, the autocracies populating the region, the 
failure of the Arab clerical class to assume the mantle of opposition 
and the young people's attraction to alien ideologies are seen as 
byproducts of a Western plot to sustain its dominance over Islam's 
realm.
    In many ways, China's experience encapsulates the paradigm of the 
life cycle of a non-Western revolutionary state. Initially, the new 
regime rejects the existing state system and norms of international 
behavior. Foreign-policy decision making is dominated by ideological 
considerations, even if there are concessions made to pragmatic 
concerns. But, over time, a clear trajectory emerges. As new leaders 
come to power, the ideology is modified and later abandoned in favor of 
``normal'' relations with other countries, usually to promote economic 
development and modernization.
    Thus, Western policymakers continue to be puzzled over why Iran has 
not yet become a post-revolutionary country. What makes this case more 
peculiar is that by the late 1990s, Iran did appear to be following in 
the footsteps of states such as China and Vietnam. Yet this evolution 
was stymied by the resilience of the Islamic Republic's ideological 
mission. The institutional juggernaut of the revolution has contributed 
to this success, as has the elite molded in Ayatollah Ruhollah 
Khomeini's austere image. But Iran's foreign policy also has played a 
crucial role in sustaining this domestic ideological identity. A narrow 
segment of the conservative elite, commanding key institutions of the 
state, has fashioned a foreign policy designed to maintain the 
ideological character of the regime. That remains a key ingredient in 
determining how the Islamic Republic thinks of itself and its role in a 
changing Middle East.
 iran and the new middle east in the aftermath of the nuclear agreement
    For much of the past three decades, the Islamic Republic's 
inflammatory rhetoric and aggressive posture concealed the reality of 
its strategic loneliness. Iran is, after all, a Persian nation 
surrounded by Arab states who were suspicious of its revolution and its 
proclaimed objectives. The Gulf sheikdoms arrayed themselves behind the 
American shield, Iraq sustained its animosity toward Iran long after 
the end of its war, and the incumbent Sunni republics maintained a 
steady belligerence. Iran nurtured its lethal Hezbollah protege and 
aided Palestinian rejectionist groups, but appeared hemmed in by the 
wall of Arab hostility. All this changed when Iraq was reclaimed by the 
Shias and the Arab Spring shook the foundations of the Sunni order. 
Today, the guardians of the Islamic Republic see a unique opportunity 
to project their power in a region beset by unpredictable transitions.
    The key actors defining Iran's regional policy are not its urbane 
diplomats mingling with their Western counterparts in Europe, but the 
Revolutionary Guards, particularly the famed Quds Brigade. For the 
commander of the Quds Brigade, General Qassim Soleimani, the struggle 
to evict America from the region began in Iraq. ``After the fall of 
Saddam, there was talk by various individuals that they should manage 
Iraq, but with Iraq's religious leaders and Iran's influence, America 
could not reach that goal,'' proclaimed Soleimani. The struggle moved 
on and today ``Syria is the frontline of resistance.'' For the 
hardliners, the Sunni states attempting to dislodge Assad is really a 
means of weakening Iran. The survival and success of the Assad dynasty 
is now a central element of Iran's foreign policy.
    The question then becomes what impact the nuclear deal will have on 
Iran and its regional surge. How will the Islamic Republic spend the 
billions of dollars it would receive as a result of the accord? 
Proponents of agreement insist that Iran will funnel much of this 
newfound wealth into its depleted economy. By their telling, even 
during dire economic times, Iran prioritized funding for its malign 
activities and thus does not need to steer new money in their 
direction. Such a curious justification overlooks how Iran's regional 
policies, and its internal dynamics, are undergoing momentous changes.
    Supreme Leader Ali Khamenei stands as one of the most successful 
Persian imperialists in the history of modern Iran. In the 1970s, at 
the height of his power, the shah did not enjoy a commanding influence 
in Iraq. Lebanon's factional politics continued to elude him, the Assad 
dynasty was no mere subsidiary of Iran, and the Persian Gulf emirates 
resisted his pretensions. Today, Khamenei has essential control of much 
of the Iraqi state, he is the most important external actor in Syria, 
and Hezbollah provides him with not just a means of manipulating 
Lebanon's politics, but also shock troops who can be deployed on 
various war fronts. In the Gulf, the United States' crumbling alliances 
offer Iran many tempting opportunities.
    Proponents of the view that Iran will not become a more aggressive 
regional power in the aftermath of a deal ignore how the Middle East 
has evolved since the Arab awakenings of 2011. The post-colonial Arab 
state system that featured the dominant nations of Egypt and Iraq is no 
more. Egypt is too preoccupied with internal squabbles to offer 
regional leadership while Iraq is a fragmented nation ruled by a Shia 
government ostracized from Sunni Arab councils. Iran has embarked on a 
dramatic new mission and is seeking to project its power into corners 
of the Middle East in ways that were never possible before. This is not 
traditional Iranian foreign policy with its sponsorship of terrorism 
and support for rejectionist groups targeting Israel; imperialism 
beckons the mullahs, but it is also economically burdensome. Without an 
arms control agreement and the financial rewards it will bring--such as 
sanctions relief, the release of funds entrapped abroad, and new 
investments--Iran would find it difficult to subsidize this imperial 
surge.
    Still, the claim that Iran will invest a portion of the economic 
spoils of a deal on domestic needs is not entirely wrong. President 
Hassan Rouhani belongs to the wing of Iranian politics that has long 
been attracted to the so-called China model, whereby a regime purchases 
domestic consent by providing a measure of economic opportunity to its 
stifled citizenry. Two years into Rouhani's tenure, his government 
stands as one of the most repressive in the post-revolutionary period. 
Many civil society activists languish in prison, media censorship has 
continued unabated, and the intelligence services remain abusive and 
unaccountable. The state cannot sustain such an oppressive order 
without ameliorating some of its constituents' misfortunes. It may come 
to pass that Iran, with its small, badly mismanaged economy, will not 
be able to emulate China's authoritarian model, especially since the 
Green Movement that enlivened Iran six years ago continues to cast a 
long shadow. But to have any hope of success in his aims, Rouhani needs 
an arms control agreement as much as Khamenei's Islamist imperialism.
    The much-discussed terms of the impending agreement with Iran thus 
offer the theocracy all that it wants. The accord would concede a vast 
enrichment capacity, as well as accepting both a heavy water plant and 
a well-fortified underground enrichment facility that the United States 
once vowed to shutter. It would permit an elaborate research and 
development program while relying on an inspection regime that falls 
short of indispensable ``anytime, anywhere'' access. In the meantime, 
the sanctions architecture will be diminished, and the notion of ever 
``snapping back'' sanctions into place once they are lifted is 
delusional. Because the agreement itself would be term-limited, there 
would be no practical limits on Iran's nuclear ambitions upon its 
expiration.
containing iran and maintaining the joint comprehensive plan of action:
    The defenders of the nuclear agreement with Iran insist that the 
United States can still hold Iran accountable for its pernicious 
policies, regardless of an accord. Such assurances miss the point that 
maintenance of an arms control agreement is not always consistent with 
a coercive policy.
    Signing a nuclear agreement with a nation acknowledges that that 
state is a responsible actor. The Joint Comprehensive Plan of Action 
suggests that the Islamic Republic will be left with a substantial 
nuclear infrastructure that is likely to grow, over time, in size and 
sophistication. By concluding an accord with Iran, the Obama 
administration is effectively vouching that the clerical regime is a 
suitable custodian of nuclear technologies and that it can be trusted 
with a program that may eventually reach an industrial scale. A nuclear 
agreement would not only legitimize Iran's program but also signal to 
the region that the United States sees Iran as a power whose claims 
have to be taken into account.
    In the American imagination, arms control and detente are joined. 
Many in Washington are likely to call for improved relations with Iran 
given the deal. If the two powers can settle the nuclear issue, this 
thinking holds, then surely they can cooperate on topics of common 
concern such as the rise of Islamic State and ending Syria's civil war. 
A superpower that has grown tired of the burdens of the Arab world can 
reasonably turn to a seemingly responsible stakeholder to stabilize the 
region. Now, consider that in the 1970s the United States, feeling 
overstretched, turned to another arms control partner, the Soviet 
Union, for help extracting itself from Southeast Asia. The history of 
such actions isn't the only concern here: The notion of constraining 
Iran has no place in a policy that looks for areas of cooperation 
between the two states.
    Even if the United States were determined to hold the line and push 
back against Iran's actions in the region, in the wake of a nuclear 
deal it may not have the necessary coercive power. For much of the past 
three decades, Washington has responded to Iranian terrorism and 
regional aggression by applying economic sanctions. But a nuclear 
agreement would commit the United States to lessening the financial 
pressure on Iran. Today, Iran is segregated from the global financial 
markets and sanctions inhibit its central bank. But with such sanctions 
revoked under an accord, future U.S. presidents' coercive options will 
be sparse. Subsequent administrations may have no choice but to use 
force or accommodate Iran, whatever its actions.
    Unlike the United States, revolutionary regimes that enter nuclear 
agreements tend to see them as pathways to asserting power. During the 
heydays of arms control in the 1970s, the Soviet Union embarked on one 
of the most aggressive stages of its foreign policy. Moscow and its 
proxies took up the cause of militant actors throughout the Third 
World. As part of the Helsinki Accords, the Kremlin obtained from 
Washington a formal recognition of its sphere of influence in Eastern 
Europe. The decade ended with the Soviet invasion of Afghanistan--the 
first time the Soviet Union had invaded a country outside Eastern 
Europe. In retrospect, these were a series of foolish and costly 
decisions. The Soviet experience, however, belies the notion that arms 
control accords moderate ideological regimes.
    The Islamic Republic looks upon the United States as a crestfallen 
imperial state seeking to dispense with its Arab inheritance. A staple 
of Supreme Leader Ayatollah Ali Khamenei's rhetoric is that the United 
States is a declining power, beset by problems at home. In his telling, 
it is the United States that needed an arms control agreement as a 
means of paving its exit from the Middle East. With Iran's actions and 
posture suggesting it is about to embark on its own expansive imperial 
mission, there might be little in way of coercive leverage that 
Washington can bring to bear. A hegemonic Iran may yet be the most 
consequential legacy of a nuclear accord.
                             the road ahead
    The United States cannot have a viable strategy of pushing back on 
Iran without re-considering key aspects of the JCPOA. As the JCPOA 
stands today, it is one of the most technologically permissive arms 
control accords in history. It is an agreement that is likely to spark 
a cascade of proliferation as Iran's rivals and enemies seek to match 
its capabilities. However, a number of revisions to the agreement can 
help in strengthening it and ensuring that it is a less-deficient 
accord.
    My colleague Eric Edelman and I recently proposed that the United 
States should return to the negotiating table and revisit some of the 
most problematic aspects of this agreement:

    1.  One of the most problematic aspects of the JCPOA is its sunset 
clause whereby the most essential restraints on Iran's program begin to 
fade in a decade. The United States should insist that upon the 
expiration of the sunset clause, the P5 + 1 countries and Iran should 
vote on whether to extend the agreement for an additional 10 years. A 
majority vote every 10 years should determine the longevity of the 
treaty and not some arbitrary time-clock. The precedent for such a move 
is the Nuclear Non-Proliferation Treaty (NPT) itself. After the NPT 
expired after 25 years, it was not simply cast aside but all member 
states voted to extend it in perpetuity.

    2.  Limit Iran's centrifuges to IR-1s: The other disturbing aspect 
of the JCPOA is its research and development stipulations. Under the 
current agreement, Iran will have a right to begin installing advanced 
IR-8 centrifuges starting year 8. These machines operate approximately 
17 times faster than Iran's current stock of centrifuges, allowing the 
Islamic Republic to dramatically increase its enrichment capacity. 
Moreover, given how few such machines will be needed to enrich uranium, 
Iran can easily develop small, surreptitious installations that may 
escape detection. By limiting Iran to its more primitive models, we can 
best guard against a sneak out option.

    3.  A more intrusive inspection regime: There has been much debate 
about ``anytime anywhere'' inspections versus the current plan that 
calls for an elaborate procedures and a 24-day waiting period. The 
inspection modality should resemble to the extent possible the South 
African model. When South Africa finally renounced its nuclear weapons, 
it provided the IAEA a full accounting of its previous nuclear history 
and access to its military installations. South Africa declared that it 
was prepared to offer the IAEA anytime, anywhere access. In practice, 
this meant that the inspectors could visit sites in South Africa in as 
little as a day. South Africa was determined to disarm and thus had no 
qualms about such extraordinary procedures. If Iran is similarly 
committed to proving its goodwill, it should concede to such a 
verification system.

    4.  The JCPOA has sensibly stipulated that all of Iran's spent fuel 
from its plutonium production will be send out permanently. A similar 
procedure should be in place for Iran's enriched uranium. In essence, 
the enrichment aspect of the agreement should mirror its plutonium 
dimension.

    5.  The agreement must also address Iran's ballistic missile 
arsenal. The delivery systems are an indispensable aspect of Iran's 
nuclear weapons program. It is inconceivable that the pathways to 
Iran's nuclear weapons aspirations can be obstructed without addressing 
this important pillar of that program.

    These and other measures can best forestall and Iranian bomb and 
stem the proliferation cascade in the Middle East. These steps are 
fairly modest and reasonable. It is unlikely that America's negotiating 
partners would disagree that these measures strengthen the agreement 
and perhaps anchor it on a bipartisan footing. I believe that the 
European states would support the United States should it want to 
revise aspects of this agreement. Nor do I think that a Russian 
Federation that views Iran's oil sector as competitive to its own 
petroleum industry will strenuously object. If these powers agree, 
China will not obstruct a consensus rooted on simple but important set 
of demands.
    The one way that Congress can ensure that the executive branch 
returns to the negotiating table is to disapprove the JCPOA as it 
currently stands. There are ample precedents in the history of arms 
control whereby congressional objections has led U.S. diplomats to 
return to the table. During the Cold War, Senator Henry Jackson refused 
to approve SALT I unless the Nixon Administration agreed to his 
amendment that all future arms control accords between the United 
States and the Soviet Union must aim for strategic parity. His 
amendment expressed a sense of Congress that requested ``the President 
to seek future treaty that, inter alia, would not limit the United 
States to levels of inter-continental strategic forces inferior to the 
limits provided for the Soviet Union.'' The Threshold Test Ban Treaty 
of 1974 was also initially blocked by the Senate because of concerns 
over Soviet compliance. To ease congressional anxieties, the Nixon/Ford 
administrations had to engage in two additional years of negotiations. 
During the presidency of Bill Clinton, the Senate agreed to the 
ratification of the Chemical Weapons Test Ban Treaty only after 
inclusion of 28 conditions.
    These and many other such examples testify to the important role 
that Congress has played in ensuring that the United States negotiates 
the best possible agreement. Given the enormous flaws of the JCPOA and 
the enormity of its importance, the Congress should aim to do no less.

    Chairman McCain. Thank you.
    Dr. Gordon.

   STATEMENT OF PHILIP GORDON, SENIOR FELLOW, THE COUNCIL ON 
                       FOREIGN RELATIONS

    Dr. Gordon. Thanks very much, Mr. Chairman, Senators. I 
really appreciate the opportunity to speak before the committee 
this morning.
    Like other speakers, I think this is a hugely consequential 
issue, and it really deserves all of the attention you and 
other committees are giving it.
    As I think many of you know, I was part of the 
administration from 2013 to 2015. I was the White House 
Coordinator for the Middle East, so I was very much involved in 
the efforts to get this agreement. But, obviously, here this 
morning I'm speaking as a private citizen and expressing only 
my personal views.
    My bottom line on this agreement is that I think it's in 
the National security interests of the United States, and I 
hope Congress will support it. I say that, not because I think 
it is a perfect deal. It's not a perfect deal. Like every one 
of you, I could spell out a number of ways in which it could be 
better and stronger. In fact, Ray just did so, and I would be 
happy to have all of the elements that he presented.
    The reason I think it's a good deal and I hope you'll 
support it is that I just think it's far better than any 
realistic alternative. Without this deal, I am afraid we would 
very quickly be put in a position of facing a choice between an 
Iran that is steadily advancing its nuclear capabilities, as it 
has over the last decade, or using military force to 
temporarily stop it.
    As for the option that some always want to hope for, that 
we just keep on the pressure until Iran comes back to the table 
for a better deal or a perfect deal, I'm afraid that's an 
illusion. Think about, for the past decade, we have had 
significant sanctions on Iran, and, during that period of time, 
we've seen Iran steadily advance its program to where it is 
today, from zero to 19,000 centrifuges, accumulating a very 
significant stockpile of low-enriched uranium, enough to make a 
number of nuclear weapons, an almost completed heavy water 
reactor at Arak. All without significant monitoring and 
verification. So, that's why I'm afraid--and continuing 
research and development on advanced centrifuges--and that's 
why I'm afraid that, if we reject this deal, we will end up not 
with a better one, but with an Iran that continues down the 
path that it has been on.
    It's worth thinking about other cases, as well, when you 
think about this issue. Can we just continue to squeeze them 
until they give us everything we want? We squeezed North Korea 
pretty hard. North Korea is far poorer and more isolated than 
Iran. The result was not them coming and giving us everything 
we wanted, but a nuclear weapon state. We squeezed Iraq pretty 
hard, to the point of genuinely crippling sanctions, and 
demanded absolute access, and, instead of coming to the table 
and giving us everything we want, we actually had to implement 
that credible threat of force.
    Every case is different, but my point in mentioning those 
cases is simply to underscore that there's no guarantee that, 
even if we could maintain these powerful sanctions and had a 
credible threat of force, that Iran would come back to the 
table and give us everything we want. I think there's plenty of 
reason, actually, to believe that it would not.
    So, the issue is not whether we can use leverage to get 
Iran to agree with our list of desirables, but whether this 
deal that we were able to negotiate effectively cuts off its 
path to a nuclear weapon, which is what the sanctions were put 
in place to do. I think it does, thanks to the joint efforts of 
Congress and the administration to put the sanctions regime in 
place.
    Now, others have made the positive case for how, in the 
administration and now others, have made the--the other 
witnesses before this committee and others--have explained how 
it blocks off those paths. I won't take my time to do that, 
because I know even that case has left a number of Senators 
with concerns, and I'd rather just take my time and address a 
couple of those concerns. My written testimony goes into more, 
but just let me just mention three that I know are high on many 
lists.
    One, which was central to this hearing this morning, is the 
issue of Iran using freed-up financial assets to pursue 
nefarious ends in the region. We are all rightly concerned that 
Iran will use some of the assets it gains from sanctions relief 
to support its regional foreign policy agenda, which, in many 
ways, threatens our partners and our interests. I don't think 
that's invalid. Therefore, in an ideal world, we would keep all 
of these sanctions in place and freeze all of Iran's assets, 
and get a good nuclear deal at the same time. But, frankly, 
that was never a realistic option. The deal on the table--any 
nuclear deal, even one that left Iran with 500 centrifuges or 
zero centrifuges instead of 5,000, always implied that there 
would be sanctions relief in exchange for the nuclear 
agreement. So, in that sense, to insist that sanctions be--
relief be excluded from a nuclear deal with Iran is probably to 
exclude a nuclear deal, itself. If you don't have a nuclear 
deal, that means no nuclear constraints, no enhanced monitor 
and verification, an Iran that continues to do all of these 
nefarious things that it--as it has been doing while under 
sanctions, and, I think, genuinely increasing difficulties in 
getting our partners to maintain sanctions once it's clear--
once it became clear that our aim went beyond the nuclear issue 
and essentially involved transforming Iran's foreign policy, 
which is a highly desirable goal, but one unlikely to receive 
the support of the international community to pursue these 
sanctions. I am confident that, through continued and increased 
military and intelligence support for our partners in the 
region, who, by the way, collectively spend far more on defense 
than Iran does, we can continue to contain Iran just as we did 
before these international sanctions were put in place. I'd be 
happy to elaborate on the--that in the discussion.
    A second major concern, I know, of a number of Senators, is 
that the deal allows Iran's nuclear program to expand once the 
so-called ``sunset provisions'' expire. Again, I would say the 
same thing. In an ideal world, we would have negotiated an 
agreement that lasted indefinitely or at least for many 
decades. Obviously, the administration sought to get as long an 
agreement as possible. But here, too, I don't think it was 
realistic to imagine that Iran was ever going to agree to a 
deal that it--kept the same tight constraints on its civil 
nuclear energy program forever. Asking for that deal would mean 
no deal, and tomorrow Iran could proceed with its program. So, 
while this part of the agreement also isn't perfect, it 
nonetheless involves some very serious constraints for a very 
significant amount of time: until 2025 for the number of 
centrifuges, until 2030 for the limited nuclear stockpile, 
until 2035 for centrifuge production, until 2040 for access to 
uranium mines and mills in Iran, and indefinitely for adherence 
to the Non-Proliferation Treaty, the commitment not to pursue 
nuclear weapons, and the application of the IAEA's additional 
protocol, which requires access by inspectors to any suspected 
sites.
    Finally, the premise of the deal, we should keep in mind, 
is that Iran used this quite long period of time to demonstrate 
that its nuclear program is exclusively peaceful. If it fails 
to do that, all of the same options available to us now will be 
available to us then, including sanctions and military force--I 
think more likely, in that case, with the support of the 
international community. I think there are ways we can 
reinforce this insistence that Iran use this period to 
demonstrate its peaceful intentions. Again, be glad to 
elaborate those--on those in the discussion.
    The third concern I'll mention here very briefly is that 
inspections are not sufficiently rigorous. I respectfully 
disagree with that assessment. There's been a lot of focus on 
this--the standard of so-called anytime/anywhere inspections, 
which I think is an unrealistic standard only likely to apply 
after a military defeat or occupation. I think there's been a 
failure to appreciate just how extensive the verification 
mechanisms in this agreement are, including not just the 
increased monitoring and daily access to the declared 
enrichment facilities, but the monitoring of the entire nuclear 
fuel cycle. In other words, to cheat successfully, Iran would 
have to somehow mine and mill uranium, convert it to gas at an 
industrial facility, enrich that gas to a weapons-grade 
enriched uranium at a different facility, and successfully 
develop a covert weaponization program, all at the time--at the 
same time, while escaping different monitoring programs. 
Anything is possible, but I think that's a rather implausible 
scenario. The most important thing to say about it, of course, 
is, whatever you think about this inspections regime, it's 
better than the one we would have if we didn't have this 
agreement, which is much more minimal and would allow Iran to 
do all of these things tomorrow.
    Again, my written testimony goes into some of the other 
concerns I know you have, so I will just sum up, again, by 
repeating, Mr. Chairman and others, I don't want to suggest for 
a minute that these--that the concerns that I listed, or 
others, are not legitimate. They absolutely are. Again, that's 
why I appreciate these kinds of hearings. But, I do believe 
that, when you weigh the advantages and the disadvantage of the 
deal, the advantages outweigh them, and that's why I hope 
Members of Congress will support it.
    As I've said, we can all describe ways to make this deal, 
quote/unquote, ``better,'' but holding out for a perfect deal 
could mean no deal at all, and I really do believe that 
rejection of the agreement at this point, which, of course, was 
supported by every member of the U.N. Security Council and just 
about every country in the world, would result, not in a better 
deal, but in the continued expansion of the Iranian nuclear 
program while making it more difficult to keep international 
sanctions in place.
    Thank you very much.
    [The prepared statement of Dr. Gordon follows:]

                  Prepared Statement by Philip Gordon
    Thank You, Chairman McCain, Ranking Member Reed, and all the other 
distinguished members of this Committee for inviting me to testify here 
this morning. The Iran nuclear deal is a hugely consequential issue for 
our country and the world, and it deserves the serious debate it is 
getting before this and other Committees and in the Congress and the 
country as a whole. As you know, from March 2013 until April 2015 I was 
the White House Coordinator for the Middle East and therefore 
intimately involved in the effort to reach this agreement, right up 
until the Lausanne Framework was announced on April 2. Here this 
morning, of course, I am speaking as a private citizen and expressing 
only my personal views.
    My bottom line is that this agreement is in the national security 
interest of the United States, and I believe Congress should approve 
it. I say that not because it is a perfect deal--it is not, and I, like 
all of you, could easily come up with a list of changes we would make 
if it were only up to us. Instead I support it because I believe that 
it is far better than any realistic alternative. Without this deal we 
would very quickly face the unpalatable choice between acquiescing to 
an Iranian nuclear weapons capability or using military force to 
temporarily stop it. As for the option of simply maintaining pressure 
and threatening force until the Iranians accept a so-called ``better 
deal,'' I believe that is an illusion. For the past decade and more, we 
have increased sanctions pressure on Iran with the goal of getting it 
to abandon its program entirely--and the result has been a steady 
expansion of that program to where it is today--19,000 centrifuges; a 
stockpile of more than ten tons of low-enriched uranium (LEU); an 
almost completed heavy-water reactor at Arak; and increasingly advanced 
research and development (R&D) of centrifuges. I believe that rejecting 
this deal would result not in Iran agreeing to all our demands or even 
a ``better deal'' but the continued expansion of that program.
    Keep in mind that in North Korea--a country many times poorer and 
more isolated than Iran--we hoped maximizing economic pressure would 
bring the regime to its knees and oblige it to give up its weapons 
program, and instead North Korea became a nuclear-weapons state. In 
Iraq, we imposed starvation-inducing sanctions to deprive the Iraqis of 
the wherewithal to continue with their WMD [weapons of mass 
distruction] programs. We insisted Saddam Hussein allow completely 
unfettered access to his weapons sites or face war, he refused, and we 
ended up going to war. The point is there is no guarantee that even 
powerful sanctions and the threat of force will lead Iran to eliminate 
all aspects of its nuclear program, and plenty of reason to think that 
it will not. The issue is not whether we can use leverage to get Iran 
to agree to everything we might want, but whether this deal ensures 
that Iran's nuclear program is and will remain exclusively peaceful. I 
believe it does, thanks to the efforts of Congress and the 
administration to leverage sanctions in pursuit of that goal.
    Others have testified before this Committee and others about the 
many ways this deal blocks Iran's path to a nuclear weapons capability. 
These include reducing Iran's number of installed centrifuges by two-
thirds; reducing its stockpile of LEU to just 300 kg for 15 years; 
reconfiguring the heavy-water reactor at Arak; constraining centrifuge 
R&D; and providing for rigorous monitoring backed by the possibility of 
sanctions ``snapback.'' These and other steps--which are required prior 
to any sanctions relief for Iran--will mean that Iran's breakout 
timeline (the time required to enrich enough uranium for one nuclear 
weapon) will be extended from the two months it is today to at least a 
year--more than enough time to detect violations and respond as 
necessary, including with renewed sanctions and/or the use of military 
force. Still, I know many Senators still have concerns--legitimate 
concerns, I might add--so I would like to address them head on.
    One major concern is that the deal frees up financial assets that 
will be put to nefarious ends. We are all rightly concerned that Iran 
will use some of the assets it gains from sanctions relief to support 
its regional foreign policy agenda, which in many ways threatens our 
partners and our interests. Thus in an ideal world we could keep all 
the current sanctions on Iran and get a good nuclear deal at the same 
time. But that was never a realistic option, and the concerns about 
lifting sanctions would be the same whether the deal allowed Iran to 
keep 5,000 centrifuges, or zero. To insist that sanctions relief be 
excluded from a nuclear deal, in other words, would be to exclude a 
nuclear deal itself. This would mean no nuclear constraints, no 
enhanced monitoring or verification, no end to Iranian meddling even 
while sanctions are still in place, and increasing difficulties in 
getting international partners to maintain sanctions once it was clear 
our aims went beyond the nuclear issue.
    I am confident that through continued and increased military and 
intelligence support to our partners in the region--who collectively 
spend many times more on defense than Iran does--we can continue to 
contain Iran, just as we did before the international sanctions were 
put in place. I am also confident that rejecting any nuclear deal that 
unfreezes Iran's assets and provides for sanctions relief would leave 
the nuclear issue unresolved and force us to watch Iran's program grow 
or stop it with military force--all without support from our partners. 
The challenge of dealing with Iran in the region would of course be far 
greater if Iran were allowed to become a nuclear-weapons state.
    A second concern is that the deal allows Iran's nuclear program to 
expand once the ``sunset'' provisions expire. Again in an ideal world, 
all the constraints on Iran's nuclear program would be indefinite, or 
at least last for many decades. But here, too, it was never realistic 
to expect Iran would agree to indefinite restrictions on its civil 
energy program. While not perfect, many of the most important 
restrictions last for a very long time--until 2025 for number of 
centrifuges; until 2030 for the limited nuclear stockpile; until 2035 
for centrifuge production; until 2040 for access to Iran's uranium 
mines and mills; and indefinitely for adherence to the Nuclear 
Nonproliferation Treaty, the commitment not to pursue nuclear weapons, 
and the application of the IAEA's Additional Protocol, which requires 
access by inspectors to any suspected sites. Finally, the premise of 
the deal is that Iran must use this period of time to demonstrate that 
its nuclear program is exclusively peaceful. If it fails to do that, 
all of the same options available to us now will be available to us 
then, including sanctions and military force. To reinforce this point, 
the President and Congress should make clear now that violations of the 
agreement during this period will be considered inconsistent with 
Iran's pledge never to seek nuclear weapons, and the United States will 
act accordingly. Even after certain restrictions expire, other Iranian 
actions--such as the development of highly-enriched uranium--could also 
be considered indications of intent inconsistent with the agreement. In 
any case, whatever concerns we might have about sunset provisions would 
have to be even greater about the absence of a deal--since without a 
deal Iran can begin doing all of these things right away.
    A third concern is that inspections are not sufficiently rigorous. 
I disagree with this assessment. There has been much focus on the 
unrealistic standard of ``anywhere, anytime'' inspections, which no 
sovereign country would ever accept, except after a military defeat or 
under occupation. I think there has also been a failure to appreciate 
just how extensive the verification mechanisms in this agreement are, 
including not just continued monitoring and daily access to declared 
enrichment facilities but the monitoring of the entire nuclear fuel 
cycle. To cheat successfully, Iran would have to somehow mine and mill 
uranium, convert it to gas at an industrial facility, enrich it to 
weapons grade at a different facility, and successfully develop a 
covert weaponization program--all without being detected by separate 
monitoring regimes. Anything is possible, but that is a rather 
implausible scenario.
    I also believe there has been significant misunderstanding of the 
notion that Iran has ``24 days'' to allow for inspections. The IAEA's 
Additional Protocol--which Iran agreed in this deal to implement 
forever--requires Iran to provide access whenever and wherever the IAEA 
needs it. The problem is that there has never been a mechanism for 
resolving disputes over access, meaning that even AP signatories could 
drag out a dispute over access forever. That is what this agreement 
adds, and which never existed before. So while in certain circumstances 
Iran may be able to find ways to keep inspectors out of a suspected 
site for up to 24 days, that process itself would set off clear alarm 
bells, and Iran can certainly not hide an entire nuclear fuel chain 
under the alleged protection of this provision.
    Finally and perhaps most importantly: Whatever you think of the 
inspections regime--and as you can tell I think it's pretty good--it is 
far better than the inspections regime we would have in the absence of 
this agreement.
    A fourth concern is that ``snapback'' of sanctions is not strong 
enough. Actually, I believe our power to snap back international 
sanctions is one of the most impressive aspects of this agreement. 
During the negotiations, Iran (as well as Russia and China) vigorously 
opposed leaving this power in United States hands, for the Russians as 
a matter of principle and for the Iranians because it could lead 
companies to think twice before investing in Iran. But that is 
effectively what they have done. While disputes must pass through a 
somewhat convoluted resolution process involving a Joint Commission and 
an Advisory Board, the bottom line is that if the United States says 
Iran has not complied with the agreement, not just United States but 
also United Nations sanctions can be re-imposed. That power should 
provide a strong disincentive against any Iranian temptation to cheat. 
It will also give companies reason to pause before investing in Iran 
absent evidence that Iran intends to abide fully by the agreement.
    Finally, there is the concern that the agreement will spur nuclear 
proliferation throughout the Middle East. All Americans are rightly 
concerned about the potential for nuclear proliferation in the Middle 
East, which is one reason why this deal is so important. It is 
legitimate to worry that if Iran is eventually allowed to develop a 
large-scale uranium enrichment program, other states in the region will 
demand one as well.
    But I believe this concern is overstated. Iran, after all, already 
has a fairly large-scale enrichment program--built up starting in the 
early 2000s and including domestic uranium mining and milling, gas 
conversion, and centrifuge production and R&D--and no one has yet 
sought to duplicate it. Nuclear enrichment is a costly, technologically 
challenging, and for most countries unnecessary process that raises 
international alarm bells about a country's intentions. In any case, 
for at least a decade this deal pushes Iran significantly further away 
from a nuclear capability rather than bringing it closer--it would make 
little sense for countries in the region to forego their own nuclear 
capability while Iran is two months away from nuclear breakout but 
decide to pursue one when that timeline is extended to over a year.
    There are, moreover, steps we can take to mitigate the risk of 
other countries seeking their own nuclear programs. The first, to state 
the obvious, is to ensure that Iran does not develop the capacity to 
build a nuclear weapon--which this agreement does--and to reiterate the 
President's pledge to do whatever is necessary to prevent that. The 
second--which the administration is already doing--is to bolster our 
defense cooperation with regional partners to ensure they do not feel 
vulnerable vis ` vis Iran, and to make clear in word and in deed that 
the United States will not allow Iran to use even a potential nuclear 
weapons capability to threaten them.
    While none of these measures can guarantee that others in the 
region will not show an eventual interest in their own nuclear programs 
if this deal goes ahead, consider the scenario in the absence of a 
deal: Iran advances its program, installs more centrifuges, builds a 
large LEU stockpile, and finishes its heavy water reactor at Arak. That 
scenario seems far more likely to lead others in the region to imitate 
Iran than the implementation of this deal.
    Once again, Mr. Chairman, I do not want to suggest for one minute 
that these are not legitimate concerns, or that the deal is somehow 
perfect. I do, however, firmly believe that the advantages of this deal 
strongly outweigh the disadvantages, and urge Members of Congress to 
support it. As I have said, we can all describe ways we could make the 
deal ``better,'' but holding out for a perfect deal could mean no deal 
at all. I believe that rejection of this agreement--supported by the 
entire U.N. Security Council and just about every country in the world, 
including all the key players on sanctions--would result not in a 
better deal but rather in the continued expansion of the Iranian 
nuclear program while making it difficult to keep international 
sanctions in place. It would not necessarily result in war, but it 
could well mean having to decide soon between allowing the continued 
expansion of that program and using military force to stop it. This 
agreement would set back the Iranian program significantly while 
providing for unprecedented monitoring of that program, which seems a 
better option than either of those two paths.

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman McCain. Thank you.
    Mr. Nephew.

   STATEMENT OF RICHARD NEPHEW, FELLOW, THE CENTER ON GLOBAL 
               ENERGY POLICY, COLUMBIA UNIVERSITY

    Mr. Nephew. Thank you, Chairman McCain, Ranking Member 
Reed, and other distinguished members of this committee, for 
the privilege of speaking to you today.
    I will focus my remarks on three reasons to conclude that 
this is a good deal, from a regional perspective.
    First, it will create a 10- to 15-year band of time in 
which fears of an Iranian nuclear weapon will be much reduced. 
Since 2005, Iranian breakout time has dwindled to 2 to 3 
months. Prior to the Joint [Comprehensive] Plan of Action, 
there were fears that Iran could stage an undetected breakout. 
With this deal, such an effort is not possible from declared 
facilities, and far more difficult to pull off from covert 
facilities. This is a welcome development for regional 
stability.
    Second, I believe this deal will reduce the chances of a 
nuclear arms race in the Middle East. The argument that a deal 
creates the strategic pretext for Arab nuclear weapons programs 
is logically flawed. Iran has been building its enrichment 
program for decades, and, in the last 10 years, notwithstanding 
U.N. Security Council obligations to stop. If there was ever a 
time to pursue enrichment, it was then. But, we simply have not 
seen any evidence that countries in the region are seriously 
pursuing enrichment programs, let alone nuclear weapons. The 
most advanced nuclear state in the Arab world, the UAE, has 
specifically pledged not to pursue enrichment and reprocessing 
capabilities. In exchange, the UAE [United Arab Emirates] is 
constructing advanced power reactors that will provide it with 
the civil nuclear energy it wants without the proliferation 
risks we all fear. There has been no indication that the UAE 
will backtrack on the decision it's made, or that any other 
country in the Middle East is prepared to undertake the massive 
effort required to construct an enrichment program. Similarly, 
though many offhandedly suggest that the Saudis could buy a 
warhead from Pakistan, even the request would present real 
problems for the Pakistanis, who are still emerging from the 
pariah status that AQ Khan [Abdul Qadeer Khan] created. 
Pakistan's rebuff of Saudi Arabia's request for ground troops 
in Yemen suggest Pakistan will not accede to every Saudi 
request.
    Third, this agreement may be the start of a process of 
integrating Iran better into the international community and 
moderating its bad behavior. This may not happen. At a minimum, 
Iran's leaders will have to wrestle with the benefits and risks 
of economic openness as a result of this deal, as well as the 
threat of returning sanctions if they break its terms.
    Now, of course, the deal does not solve everything and, as 
other witnesses have testified, may make some problems worse in 
the region. Since 1979, Iran has supported terrorism in causes 
we oppose, even when impoverished by war or sanctions. The 
nuclear deal does not address this problem, but neither did 
strategic economic pressure. It is unlikely that holding back 
relief, at the risk of a nuclear deal, would have.
    To better manage the regional implications of the deal, I 
believe that four steps ought to be taken:
    First, we should and must continue to reaffirm our support 
for our partners in the region. This should include arms sales, 
but only as part of a broader package of cooperation across the 
security and economic spheres. The United States should also 
stand ready to use force against Iran, should it cheat on the 
deal. This is a meaningful concept for the GCC [Gulf 
Cooperation Council], which acknowledged the crucial nature of 
U.S. security assurances in its statement on Monday in support 
of the deal.
    Second, we must have an active intelligence-sharing 
relationship, particularly with respect to Iran and its 
compliance with the nuclear deal. Partners will trust the 
situation remains in control if they know what we know.
    Third, we must have an active nuclear cooperation policy 
with countries throughout the Arab world. Through these, we 
should demonstrate that effective civil nuclear programs can be 
built without enrichment and reprocessing, in practice, even if 
prohibitions are not part of cooperation agreements.
    Fourth, we must enforce the terms of the deal vigorously, 
as well as use our sanctions authorities to target Iranian 
activities throughout the region. This deal is not U.S. 
unilateral sanctions disarmament. Snap-back is always possible 
and scalable. Beyond the nuclear issue, the United States 
retains a number of sanctions authorities that will continue to 
exact consequences for Iranian violations of human rights and 
damage Iran's ability to engage in terrorism financing. The 
United States will still be able to pressure banks and 
companies into not doing business with the IRGC [Iran's 
Revoluntionary Guards Corps], the Quds Force, Qassem Soleimani, 
and Iran's military and missile forces. This is both due to 
direct risk of U.S. secondary sanctions, which remain in place, 
and an improvement in international banking practices since 9/
11. The United States will also retain its ability to impose 
sanctions on those trading with Iran in conventional arms, as 
well as with respect to ballistic missiles, even after U.N. 
restrictions lapse.
    That said, we ought to seek ways to enhance these 
authorities. Certainly, Iran could judge that United States 
sanctions in these areas are unacceptable, and walk away. 
Partners could, likewise, view the United States as being in 
the wrong if our sanctions enforcement appears capricious. But, 
international reaction to U.S. actions will always depend on 
the context. If the rationale for doing so is credible, then we 
can convince others to support us. For Iran, it will have to 
face the prospect of all of our sanctions coming back into 
play. This will present real difficulties to decisionmakers in 
Tehran.
    To conclude, though it is not a perfect deal, I believe 
that the nuclear deal reached by the United States, the P5+1 
partners, and Iran meets our needs, preserves our future 
options, and improves the security and stability of the Middle 
East. I urge Congress to make the right choice and to support 
it.
    [The prepared statement of Richard Nephew follows:]

                  Prepared Statement by Richard Nephew
    Thank you, Chairman McCain, Ranking Member Reed, and other 
distinguished members of this Committee for inviting me to speak here 
today. It is a privilege and an honor to speak to you on a subject to 
which I have devoted nearly twelve years of my professional life as a 
civil servant at the Department of Energy, Department of State, and 
National Security Council: how to address the problems created by 
Iran's nuclear program. In my current position at the Center on Global 
Energy Policy at Columbia, I have continued my study of the use of 
economic statecraft to deal with such national security challenges, 
with Iran as the centerpiece.
    I would like to begin by extending my personal gratitude to the 
members of the United States negotiating team, all of whom set aside 
personal commitments large and small in the pursuit of the agreement 
reached in Vienna on July 14. Regardless of how one evaluates this 
deal, one cannot contest that the people who worked so hard and 
diligently to conclude it did so with anything other than the intention 
of addressing a profound threat to U.S. national security. These men 
and women, many of whom I can call friends, are dedicated to stopping 
Iran from acquiring a nuclear weapon. Some of them have pursued this 
goal for decades. We are all most fortunate that this country produces 
diplomats, civil servants, and experts like these.
    I would like to offer here my evaluation of the Iran nuclear deal 
first as a general matter and then focus specifically on the regional 
implications of the deal. In doing so, I will describe what the deal 
itself has achieved, the consequences of this achievement, and the 
alternatives that would be facing us absent the deal. I come to the 
conclusion that, compared to the most realistic alternatives, this deal 
is a very good one.
    The agreement reached two weeks ago will prevent Iran from having a 
credible opportunity to produce weapons-grade nuclear material for use 
in a bomb for at least 10 years and likely beyond that. It does this 
through a combination of restrictions and monitoring that will ensure 
Iran faces a long path to weapons-acquisition, which can be detected 
almost as soon as it begins. In this respect, President Obama and his 
successors will have the time they need to evaluate Iranian compliance 
with the agreement, and to take any necessary decisions to address 
Iranian deficiencies.
    This includes the use of military force. President Obama has not 
taken this off of the table through this deal, nor would any President. 
Instead, President Obama has ensured that if such a decision is ever 
needed, it can be undertaken with greater time and clarity as to 
Iranian intentions.
                          setting the context
    To some degree, Iran has been at the precipice of a nuclear weapons 
capability since it first began operating centrifuges at the 
underground Natanz plant in 2007. Both Presidents Bush and Obama have 
had to consider regularly whether the Iranian nuclear program was 
getting out of hand, growing too large to be addressed through 
diplomacy.
    In my opinion, we were reaching just such a dangerous crossroads in 
2013. Iran's nuclear program had grown to involve over 20,000 installed 
centrifuges, nearly 7,000 kilograms of up-to-5 percent enriched uranium 
gas (enough for multiple weapons), nearly 200 kilograms of up-to-20 
percent enriched uranium gas (nearly enough for one weapon), and a 
reactor at Arak that was nearly finished. Moreover, Iranian cooperation 
with inspectors at the International Atomic Energy Agency (IAEA) was 
stagnant, with access granted to confirm only that declared nuclear 
material was where it ought to be. While important, outstanding 
questions about Iran's past nuclear program remained unaddressed and 
with little prospect of answers or access forthcoming.
    At the same time, sanctions were beginning to run out of steam. 
International oil prices were over $100 a barrel and prospects for 
taking away further Iranian oil revenues were slim. Despite aggressive 
diplomatic efforts, including at the Presidential level, we were 
getting fewer returns on our demands for oil reductions. Iran was the 
worse for our sanctions, suffering a GDP contraction of 6.6 percent 
between 2012-2013 according to the World Bank. \1\ Unemployment was 
high, as was inflation. But, still, Iran was continuing to expand its 
nuclear program and engage in all manner of destabilizing activities in 
the region.
---------------------------------------------------------------------------
    \1\ World Bank data, downloaded on July 20, 2015, and available at: 
http://data.worldbank.org/country/iran-islamic-republic?
---------------------------------------------------------------------------
    This was leading to calls both within the United States and from 
our partners to consider military action. The problem was that no one 
could articulate a theory of such action that would be decisive in 
stopping Iran from ever getting a nuclear weapon without involving 
regime change.
    Faced with this situation, the United States decided to test the 
proposition that newly-elected President Rouhani was committed to 
fulfilling his campaign promise to seek removal of sanctions and a new 
relationship with the international community. Talks began in secret to 
see if a first step arrangement could be concluded that would, if not 
step back from the brink of military confrontation or an Iranian 
nuclear weapon, at least hold us at the lip. Such an arrangement would 
require--and did elicit in the end--major nuclear concessions from the 
Iranians. They would be forced to halt their progress, something they 
had sworn never to do, and even roll the program back in key respects. 
Sanctions relief would need to be part of it, in order to to create 
incentives to keep Iran negotiating for a final deal. It had to promise 
Iran a return on its investment but not make a final deal meaningless.
    The result was the Joint Plan of Action (JPOA), a much-derided 
document at the time of its announcement but one that I think even 
critics would grudgingly agree has served these purposes well.
    Iran made clear during the negotiations on the JPOA that they would 
not be able to accept it as a permanent arrangement; the sanctions 
still in place were too severe and political pressure would prove toxic 
for Rouhani if talks went on too long. So, they wanted to complete the 
deal faster. Unfortunately, a similar desire to speed up the 
negotiations also emerged from the United States and some of our 
partners, despite the fact that Iran gave up much in its nuclear 
program for a modest amount of relief. This was the first time, but not 
the last, that opponents of the deal in the United States and Iran 
share a common view. Unfortunately, a similar desire to speed up the 
negotiations on a comprehensive deal emerged from the United States and 
some of our partners, despite the fact that--for a modest amount of 
relief--Iran gave up much. It was the first time, but not the last, 
that opponents of a deal in both the United States and Iran were in 
full agreement.
    As a direct consequence, deadlines were established that Iran 
sought to use as leverage against the United States. Iran came to 
believe that the deadlines put in place were more important for United 
States negotiators than for themselves, leading to inevitable delays in 
Iranian decision-making and extended talks.
    Still, the United States did not rush into a deal. Had it done so, 
talks would not have been extended first in July 2014, then in 
November, and then multiple times at the end of June and into July 
2015. Instead, the U.S. negotiators demonstrated time and again that, 
as Secretary Kerry said, ``we will not rush and we will not be 
rushed.''
    In the end, the Administration successfully demonstrated to Iran 
that, if it wished to conclude a nuclear deal, then it would have to 
make a number of concessions on issues that no less an authority than 
the Supreme Leader had established as red lines. Admittedly, this did 
not surprise me. Iranian negotiating style often involves brinksmanship 
and some degree of exaggeration. It is only through testing and 
prodding such red lines that the real limits of Iran's negotiating room 
could be established. For this reason, key red lines--like the 
requirement that immediate sanctions relief be furnished before any 
nuclear changes could be implemented or that R&D continue without 
restriction or even that Iran would require 190,000 centrifuges in the 
near term--were broken by Iran in the final deal.
               evaluating the nuclear aspects of the deal
    The result of these negotiations is a deal that, in my view, 
satisfies U.S. national security objectives. I define these as being:

    1.  Lengthening the time that Iran would need to produce enough 
nuclear material for one nuclear weapon; and,

    2.  Ensuring that, during this time, any such attempt could be 
quickly detected, such that the entire length of the breakout time is 
available for response.

    With respect to the first objective, the deal manifestly delivers.
    The deal negotiated by the P5+1 will create a one year or longer 
breakout timeline for Iran's declared nuclear program for the first ten 
years of the implementation phase of the deal. That's just for uranium; 
for plutonium, the breakout timeline is far longer, potentially 
measurable in decades. Why?
    With respect to uranium, the deal restricts Iran's installed 
centrifuges to just over 6,000 IR-1 type machines for 10 years. Iran 
will be able to do some small scale enrichment using advanced machines 
at the end of this time period, but in numbers far too modest to 
contribute to breakout. This limitation will also hold back the 
progress of Iran's enrichment program. One does not go immediately from 
small scale enrichment on small numbers of centrifuges to installing 
and operating thousands of machines. Iran will have to spend time 
perfecting these machines and it is unreasonable to expect that they 
will achieve perfection in a few months of work. Iran has spent nearly 
twenty years working on the IR-1 centrifuge, 1970s technology that it 
bought outright, and only managed to operate this centrifuge at roughly 
half of its design capacity.
    Iran will also be limited to solely 300 kilograms of 3.67 percent 
U-235 in any form for 15 years. This restriction alone would hold Iran 
back from quick breakout because 60-70 percent of the work required for 
a bomb is in the initial period of enrichment from natural levels to 84 
percent.
    But, combined with the centrifuge limits, Iran will be a year away 
for at least 10 years--until 2025--and anywhere from 6-12 months away 
for another 5 years beyond that. It is also important to note that, 
during this time, inspectors will have continuous, online enrichment 
monitoring of Iran's centrifuges. So, if a move to breakout were to 
take place, it could be detected almost immediately through a system of 
sophisticated, secure sensors.
    After that, it is true that breakout probably will narrow. But, 
only with respect to the declared uranium path. For plutonium, the 
breakout timeline is multiple years long and will not shrink for a 
considerable length of time. The Arak reactor's modification will 
render it incapable of producing such plutonium, essentially 
permanently because of difficulty of modifying the reactor core of a 
once-operated reactor. Iran's agreement to not engage in reprocessing 
R&D, to construct a reprocessing facility, or to construct a reactor 
capable of producing weapons-grade plutonium in useful quantities will 
last until 2030. But the impact of this decision will go farther: 
having been stymied in this work for so long, it is unreasonable to 
expect a rapid improvement in Iran's capabilities or physical capacity. 
Judging by how long Iran has been building the Arak reactor (i.e., 
since 2007), it is reasonable to argue that it would be 2035 at least 
before Iran could have another such reactor, let alone spent fuel 
reprocessing capabilities.
    Breakout is not the sole measure of a deal. But, compared to the 
status quo--2-3 months to breakout for uranium, with 1-2 weapons worth 
of plutonium being produced per year at Arak--we are far better off 
with the deal than without it.
    The deal also offers much by way of timely detection. Daily access 
to Iran's most sensitive nuclear sites remains possible. But, 
continuous monitoring--including through use of sophisticated new 
safeguards technology--may make this unnecessary. The right to utilize 
advanced monitoring technology is perhaps one of the most important if 
unsung elements of the deal, reducing cost and labor burdens while also 
dealing with problems of immediate access that would have constantly 
raised questions as to whether Iran was cheating at any particular 
moment.
    Beyond the declared facilities, there is an impressive array of 
monitoring provisions with respect to all of the key aspects of the 
nuclear fuel cycle. From uranium production through centrifuge 
manufacturing, the IAEA will have the right to monitor what Iran is 
doing to ensure that it cannot be diverted to a covert path. Similarly, 
Iran will be forced to utilize a procurement channel that enables the 
United States to have a vote on what Iran can procure and end use 
verification by exporters and, in some cases, the IAEA. Some of these 
provisions lapse at the ten year mark but others--including the 
important provisions on centrifuge manufacturing and uranium 
production--continue for 20 and 25 years respectively. This means that 
the world will have visibility into Iran's nuclear program beyond the 
international norm, even enhanced by the Additional protocol, until 
2040. Of course, the access Iran is required to provide under its 
Comprehensive Safeguards Arrangement and Additional Protocol will 
continue so long as Iran is adhering to those treaties; a decision to 
withdraw from either would, naturally, trigger an international 
response.
    Some may argue that the time available to the President is far less 
than promised, seeing as there is now a dispute resolution process that 
participants are obliged to observe if there are difficulties with 
JCPOA implementation. This process could take perhaps as long as 80 
days. But, within a 1 year breakout time, that is still enough time to 
seek new diplomatic action, based on the reapplication of pressure via 
the snap-back mechanisms that would be triggered at the end of that 
process as well as additional sanctions.
    Moreover, we must bear in mind that any contingency that requires 
less time than 80 days is also probably not one that sanctions would 
have addressed in any event. Exposure of an ongoing, near-breakout and 
covert Iranian nuclear weapons program would prompt consideration of 
military options more than sanctions, and I personally believe that use 
of force would be the best course of action in this instance. At the 
same time, more modest actions prompting snap-back also would be less 
likely to shrink the breakout time by any discernible degree. Discovery 
that Iran has 100 more kilograms of 3.67 percent enriched uranium would 
be a problem. But, it would not shorten breakout below the snap-back 
threshold.
    In my view, therefore, any discussion of snap-back and the dispute 
process needs to be based on a thorough evaluation of likely scenarios 
and responses. Doing so results in different expectations for the risk 
created by any particular Iranian violation.
                            after the sunset
    Even some skeptics may agree that, within a 10-15 year band of 
time, the deal may work as designed. However, this is distinct from the 
concerns that exist about what would happen after the deal's main 
restrictions end in 2030. Some, most notably Prime Minister Netanyahu, 
have alleged that it is in this fashion that the deal paves the way to 
an Iranian nuclear weapon.
    I disagree. First, the argument against sunset presupposes that 
there is either no point in time in which Iran could be trusted with a 
nuclear program--or, anyway, the Islamic Republic of Iran--or that 
negotiations could possibly have delivered a sunset far longer than 
what is in the deal. Having experienced these talks personally, I can 
vouch for the fact that there was no scenario in which Iran would 
accept voluntarily the absence of a serious nuclear program for 
decades. If the Iranian negotiators had delivered such a deal, people--
including important people in the security services--would be right to 
ask why Iran endured sanctions for as long as it did. Moreover, Iran 
has become an advocate for the entire non-nuclear world in its defense 
of a nuclear program including enrichment. Expecting Iran to back away 
from that role, even in return for sanctions relief, went beyond what 
negotiations could achieve.
    Some would argue in response that this does not mean that sunset of 
10 years is acceptable. Certainly, I too would have preferred a multi-
decade long set of restrictions. But, it is legitimate to question why 
that would be necessary as well as to ask how many years would be 
enough to build confidence. Given that, taken in combination, the 
restrictions and access provisions extend in some respects for 15-25 
years, it is reasonable to argue that sunset will be a prolonged 
affair.
    During this time period, of course, the United States is also free 
to abrogate the agreement and to declare that Iran's nuclear program, 
at the time, remains a concern. Successful execution of this step will 
require effective diplomacy and the right context at the time. But, it 
is achievable if a future President decides that no other options would 
work. Of course, a future President could also decide that Iran's 
nuclear program must be met with force.
                       but what about sanctions?
    A major complaint about the nuclear deal is that it provides Iran 
with far too much sanctions relief and that the practical effect of 
increasing trade with Iran will render snap-back ineffective.
    First, on the issue of scale, it is a blunt reality that Iran was 
not going to accept major restrictions on its nuclear program and 
invasive monitoring on the cheap. No one in the United States 
government would disagree that Iran should take these steps without 
compensation, seeing as it is Iran that stands in violation of its 
international obligations. But, in the real world, this is not a 
sustainable argument. Just as Iran could not scrap its nuclear program 
to make a deal work, Iran could also not accept nuclear steps being 
taken without reciprocation. De-escalation of the nuclear program 
required de-escalation of sanctions.
    Faced with this reality, the Administration did the right thing in 
leveraging sanctions relief for maximum, early nuclear steps. Instead 
of debating whether one sanction was worth 10 centrifuges, the 
Administration cut Iran a deal: in exchange for big nuclear steps, big 
sanctions relief could be given. Iran is now under every incentive to 
take the steps required of it as soon as possible (and, arguably, would 
be even now removing centrifuges if the Iran Nuclear Agreement Review 
Act had not been passed, mandating the present 60 day review period). 
The United States insisted, and Iran agreed, that no such sanctions 
relief could be enacted until the IAEA verifies that Iran has done its 
part. As a result, we will be able to see--and have the IAEA report--
that Iran has done everything required of it before any relief flows.
    But, the sanctions relief provided by the United States does not 
equate with unilateral sanctions disarmament. The United States retains 
a number of sanctions authorities that will continue to damage Iran's 
ability to engage in terrorism financing, as well as to exact 
consequences for violations of Iranian human rights and other 
destabilizing activities. This includes the all-too-important tool of 
secondary sanctions through the Comprehensive Iran Sanctions, 
Accountability and Divestment Act or CISADA. With this tool, the United 
States will still be able to pressure banks and companies against doing 
business with the IRGC, Qods Force, Qassem Solemani, and Iran's 
military and missile forces. The EU and U.N. decisions to remove some 
of these entities from their own sanctions list is therefore important 
to Iran mainly as a symbolic step; practically, these entities and 
individuals will find their international business activities stymied 
due to the centrality of the United States in global finance until they 
correct their own behavior in the eyes of the United States.
    Moreover, the United States will retain its ability to impose 
sanctions on entities and individuals trading with Iran in conventional 
arms and ballistic missiles, even after U.N. restrictions in this 
regard lapse in 5 and 8 years respectively. The U.N.'s provisions were 
important in terms of setting international approval and backstopping 
for U.S. unilateral efforts. But, they were conditioned, even as early 
as 2006 and 2007, on Iran's failure to fulfill its nuclear obligations. 
Even the earliest UNSC resolutions laid out a package in which these 
sanctions would be terminated when Iran satisfied the P5+1 and IAEA on 
the nuclear issue. Further, it is the consequence of U.S. sanctions on 
these targets that can best deter bad behavior. Similarly, 
international export controls governing transfers of these types will 
remain fully in force.
    Second, on the issue of snap-back, Iran's growing international 
economic integration will cut both ways. Certainly, it is possible that 
the politics around future Iran sanctions will be prejudicial to rapid 
snap-back. However, the structure of the dispute process gives even 
just one country the right to insist that the UNSC consider whatever 
matter is in question with respect to compliance with the deal. The 
deal structures the snapback of UNSC sanctions such that the P5 veto 
power only works to end sanctions relief. In other words, though the 
process may need to be navigated, in the end, even acting alone, the 
United States can bring existing UNSC sanctions back into operation.
    As noted, this could come with political costs. Many skeptics point 
to these costs as likely meaning that no such snapback would ever be 
triggered. But, many of these same skeptics also argue that it is 
theoretically possible to end the deal now and keep international 
partners moving forward with the imposition of sanctions. This is out 
of joint with reality and practical experience. Simply put, 
international reaction to U.S. actions now or in the future will always 
depend on the context and narrative. If the rationale for doing so is 
credible and the context demands action, then chances for success will 
always be higher.
    Additionally, Iran too would have much to lose if snapback were to 
be triggered. Iran's leaders would therefore have to carefully evaluate 
the costs and benefits of any course of action that threatens the 
integrity of the nuclear deal. These costs will grow as Iran's economy 
recovers and grows. Explaining to Iran's people why a civil nuclear 
program has gone out of alignment with any practical needs, prompting 
reversion of sanctions, would prove a difficult conversation for 
Tehran, maybe as difficult as the one the United States would need to 
have with partners about the imperative of reapplying sanctions.
                         regional implications
    I would like to concentrate on two different sets of regional 
implications. The first is the risk that Iran will plow its hard-won 
sanctions relief into terrorism and regional troublemaking. The second 
is that Iran's enrichment program will spawn a cascade of new nuclear 
programs through the Middle East. I will conclude with some thoughts on 
how to address these implications.
Terrorism
    It is certainly true that Iran will continue to support terrorism 
and activities that we oppose throughout the region. No level of 
sanctions could stop them from doing so. This is a government that has, 
after all, funded and armed radical elements since the fall of the Shah 
of Iran in 1979, through the Iran-Iraq War, and after the 
intensification of crippling sanctions in 2010. Tehran continued to 
invest in the Assad regime, despite the immediate loss of over a 
quarter of its 2012 oil revenues from sanctions imposed in December 
2011, and $60 billion in potential revenues from that point forward. 
Likewise, Iran has assisted Shiite militants in Iraq, the Taliban in 
Afghanistan, and is now supporting the Houthis in Yemen, despite major 
economic crisis at home. Clearly, money is no consideration for the 
Iranians when it comes to support for terrorism.
    But, money is important when it comes to Iran's domestic front. 
Iran's population as well as its leaders know how much money is at 
stake, and how it can be used. It is implausible that, after the 
Supreme Leader allowed Rouhani to be elected president in 2013 on a 
platform pledging economic recovery--in part, through promises of 
sanctions relief--either man would support initiatives that leave the 
Iranian population in the cold in order to protect foreign groups and 
leaders like Assad. To do so would be to risk the very instability and 
threat to the regime that the Iranian government have sought to prevent 
by seeking sanctions relief through this deal.
    Since the international community intensified sanctions against 
Iran in 2010, Iran has only grown more desperate. For example, the 
country's oil sector now needs anywhere from $50 to $100 billion in 
investment to improve production, a point that Iranian officials, 
including Oil Minister Bijan Namdar Zanganeh, have emphasized 
repeatedly over the past two years. External investment was cut off by 
sanctions, and Iran has not had the spare capital to maintain, much 
less improve, its facilities. Nor has it enjoyed access to new 
technologies that could enhance oil field productivity.
    Oil is, of course, only one part of Iran's economy, which includes 
struggling industries like automobile and domestic manufacturing. To 
avoid an over-dependence on global oil markets, Iran has also made it 
state policy to build a diversified export economy. Given the 
prevailing low global oil prices, Iran is likely to continue trying to 
strengthen other sectors to maximize its growth potential and limit its 
vulnerability to an uncertain market.
    Lest observers assume that Iran would have turned its entire 
economy into a terrorism-financing machine if only it had the money, 
consider the fact that the most intensive sanctions on the country are 
only 3 years old. Before January 2012, oil sales were bringing in 
nearly $88 billion a year, money that Tehran largely spent as any 
government would: on domestic priorities--not solely to back anti 
Western interests. If the LA Times is to believed, this is a conclusion 
that CIA has itself reached.
    As with the effort to wean its economy off oil, Iran has also 
sought to reduce costly subsidies on everything from food, to housing, 
to energy, in order to improve the economy's efficiency, reduce waste, 
and spur competitiveness. But sanctions targeting Iranian oil revenues 
hampered that effort, as the country lacked the hard currency--and 
political will--to forge ahead with subsidy reform, at least until 
Rouhani's election. It is now struggling to complete this project, one 
that sanctions relief would undoubtedly boost by providing Iran with 
fresh revenue and reducing its citizens' dependence on government 
handouts. This is particularly important for Rouhani, who will be 
looking to shore up domestic support in the run-up to parliamentary 
elections in February 2016 and to win reelection in 2017.
    But beyond this, any rosy expectations for Iran's economy must be 
tempered by the reality that oil, still its primary economic driver, is 
worth less today than in years past and is predicted to stay that way 
for the foreseeable future. Iran simply won't have as much money coming 
in on an annual basis, due to global economic conditions, until the 
rest of its economy picks up speed. Even if Tehran had wanted to spend 
$100 billion on nefarious side projects a few years ago (and let's be 
clear: given $100 billion was more than the entire annual oil export 
revenue for Iran at the time, even when prices were high, this would 
hardly be credible), it makes even less sense today.
    Consequently, it is much more likely that only a portion of the 
liberated $100 billion and any future revenues will go to support 
Tehran's regional adventurism. No one knows how much, but experts have 
made some educated guesses, suggesting that the regime has spent 
anywhere from $3.5 to $20 billion a year in Syria, figures that pale in 
comparison to annual military spending by the United States and the 
Gulf Cooperation Council. \2\ This is not to say that Iran cannot do a 
lot of damage with a few billion more dollars.
---------------------------------------------------------------------------
    \2\ Stockholm International Peach Research Institute, ``SIPRI 
Military Expenditures Database,'' http://www.sipri.org/research/
armaments/milex/milex--database.
---------------------------------------------------------------------------
    But, Iran will have to deal with residual United States and 
international sanctions inhibiting it. As mentioned earlier, this 
includes sanctions that preserve the secondary application of U.S. 
sanctions on foreign businesses and banks. But, beyond this, since 9/
11, the international banking system has adopted new standards and 
helped create intergovernmental groups like the Financial Action Task 
Force [FATF] to crack down on money laundering and terrorism financing. 
Banks monitor their business far more aggressively now than ever before 
to detect and prevent such activities, in part by using the best 
practices and guidelines developed by FATF. Banks are also under 
greater scrutiny by their national regulators--and, in fact, by the 
U.S. Treasury Department--to keep their systems from being used by 
terrorists and their financiers for illicit acts.
    Moreover, if need be, Washington and its partners can always 
augment sanctions to deal with specific Iranian threats, such as Iran's 
conventional arms market. These could be modeled on an existing 
authority, like sanctions covering the manufacture, shipping, and 
financing of weapons of mass destruction. Far be it from abandoning 
sanctions as a tool after the nuclear deal, the United States could use 
sanctions as an effective deterrent in this regional context. Care, 
however, will have to be taken to avoid giving Iran a pretext to argue 
that the United States is undermining the very sanctions relief that 
made a nuclear deal possible in the first place.
    In this context, several observers have suggested that it might be 
necessary to undertake strategic economic pressure against Iran as we 
have done to deal with the nuclear program. I think that this is 
probably unnecessary and potentially a mistake. First, we already have 
applied strategic economic pressure on Iran and did not meaningfully 
change its regional approach. Though the sanctions we applied on Iran 
from 2010-2013 were nuclear in focus, Iran felt no distinction. Nor did 
it respond by making accommodations on the terrorism front, as it did 
on the nuclear program. I believe this is because both the causes to 
which Iran is dedicated in the region are too dear to it to abridge and 
the financial requirements for the support of terrorism are relatively 
meager. To get the kind of economic pressure that would be required to 
get Iran to discontinue its financial support for terrorism--rather 
than reduce it, as probably did take place--we would have to establish 
the same kind of sanctions regime against Iraq in the 1990s, reducing 
Iran to a starvation diet.
    It is highly doubtful that our most important sanctions partners 
would support us in such an endeavor and the risk of sanctions leakage 
would be significant. But, even if they did, for how long would we 
prepared to keep such a regime in place? For, if we relaxed the 
pressure at some point, it is doubtful that Iran would abandon future 
support for terrorism. Ultimately, in my view, such a path leads us to 
requiring regime change, with all the complications that this would 
bring.
    Instead, I believe that the use of targeted financial sanctions 
pressure to cut off nodes is a better, more effective approach to 
dealing with support for terrorism, as part of a larger approach I will 
describe below.
Regional Proliferation
    The second main concern posited is that Iran will fan the flames of 
regional nuclear proliferation, leading to nuclear weapons programs 
throughout the Arab world as a counter to Iran's now entrenched nuclear 
program.
    I strongly disagree that this is the likely result of this deal. 
Moreover, I believe we have adequate tools to prevent such an outcome.
    First, this argument presupposes that countries have been waiting 
for a negotiated outcome to enshrine Iran's enrichment program into 
international law to launch their own nuclear programs. But, this 
argument implicitly suggests that while a deal to constrain Iran's 
nuclear program might motivate others to launch a breakout, Iran's 
relatively unconstrained last ten years did not. If there is a logic to 
Arab nuclear weapons efforts, then it is that they cannot count on 
anyone else to stop Iran from acquiring nuclear arms and must 
counterbalance Iran themselves. If this were truly their view, then why 
only start now? We should be seeing signs of nuclear weapons breakout 
around the region.
    Instead, we see either nuclear programs being undertaken with an 
explicit, if bounded, unilateral renunciation of uranium enrichment (as 
in the UAE) or with far less direction and interest than would be 
expected (as in Saudi Arabia and Egypt, principally). There have been 
periodic statements of interest in nuclear energy by other countries in 
the region and even some efforts to establish the legal and scientific 
infrastructure that could facilitate a larger program. But, the most 
advanced Arab nuclear program is in the UAE and, as noted, it is being 
built on the back of a non-enrichment pledge that no one in the UAE has 
suggested they will renounce. If a nuclear arms race has been launched, 
it may be the most modest one in history.
    Of course, an argument can be made that, prior to the nuclear deal, 
Iran was under perpetual threat of military conflict with the United 
States. Now, with a deal, it is not. Such a mindset ignores the fact 
that President Obama has explicitly retained the military option for 
dealing with Iran's nuclear program and that several candidates to 
succeed him have done the same (if not indicated that military strikes 
would be a preferred approach to diplomacy). But, it is arguable that 
conditions have changed and, therefore, so must the security calculus 
of Arab countries.
    The flaw in this argument, though, is that several states in the 
region have already stated their support for the deal, including those 
most often identified as the likeliest to match Iran with their own 
nuclear programs: Saudi Arabia, the UAE, Egypt and Turkey. The Gulf 
Cooperation Council issued its own statement of support on August 3, 
with the Foreign Minister of Qatar saying all of their behalf: ``We are 
confident that what they undertook makes this region safer and more 
stable.'' \3\ The GCC's statement also underscored the degree to which 
United States security assurances bring comfort to its membership. 
True, any of these countries could be concealing their security fears 
in order not to offend either the United States or Iran. But, taken in 
combination with the fact that none of them also has announced a 
decision to establish an enrichment program with which to compete 
against Iran--which would be entirely legitimate under the NPT's 
current rules--it is pure conjecture to argue that the arms race has 
been launched.
---------------------------------------------------------------------------
    \3\ Gordon, Michael, August 3, 2015, ``John Kerry Wins Gulf States' 
Cautious Support for Iran Deal,'' New York Times, Available at: http://
www.nytimes.com/2015/08/04/world/middleeast/gulf-states-cautiously-
support-iran-nuclear-deal.html?hp&action=click&pgtype=Homepage & 
module=second-column-region&region=top-news&WT.nav=top-news
---------------------------------------------------------------------------
    The statement that is used most often to contradict this positive 
assessment is that of former Saudi intelligence chief, Prince Turki al 
Faisel, who has often indicated that Saudi Arabia will insist on 
matching directly any physical capabilities that Iran has. \4\ 
Presumably, this means that the Saudis will now seek to build their own 
enrichment plant to match Iran's and to invest in the capabilities 
required to bring it to the nuclear weapons threshold. But, we have not 
seen that thus far. What we have seen is a willingness to spend some 
money to develop science centers that, one day, could train the experts 
required to start a nuclear weapons project. We have seen willingness 
to explore the construction of reactors, but the physical 
infrastructure has yet to be built or pursued seriously. \5\ To acquire 
even an enrichment program--much less a nuclear weapons program--would 
require a massive expansion of Saudi expenditure and investment. 
Certainly, the Saudis have the money to finance the attempt but every 
day that they do not is another day deep into the future that they 
would be able to turn finance into nuclear material. It takes time to 
develop such capabilities. The Manhattan Project was a war-time 
endeavor financed by the world's strongest economy and aided by some of 
the finest scientific minds in the world. Nuclear weapons programs in 
China, India, Pakistan, and North Korea have taken far longer. Iran's 
enrichment program started in the late 1980s, but on the backs of 
scientists who took their training at United States universities in the 
late 1960s and 1970s. Iran's first reactor, supplied by the United 
States, was delivered in 1967. These things take time.
---------------------------------------------------------------------------
    \4\ Usher, Barbara Plett, March 16, 2015, ``Iran Deal Could Start 
Nuclear Fuel Race: Saudi Arabia,'' BBC, Available at: http://
www.bbc.com/news/world-middle-east-31901961
    \5\ Esfandiary, Dina and Ariane Tabatabai, April 22, 2015, ``Why 
Nuclear Dominoes Won't Fall in the Middle East,'' Available at: http://
thebulletin.org/why-nuclear-dominoes-wont-fall-middle-east8236
---------------------------------------------------------------------------
    Of course, there has long been a theory that Saudi Arabia could 
purchase nuclear weapons from Pakistan, drawing on the long history of 
support the Saudis have given the Pakistanis (which some say even 
involved financing the Pakistani nuclear weapons program). But, the 
Pakistanis have their own problems, none of which would be assisted by 
transferring nuclear weapons or nuclear weapons technology or even 
enrichment technology to a non-nuclear weapon state. Pakistan has 
sought to emerge from the pariah status it attained when A.Q. Khan sold 
uranium enrichment elsewhere in the Middle East (notably, to Iran and 
Libya but not to Saudi Arabia), one reason why--when the Bush 
Administration sought to overturn decades of nonproliferation practice 
by creating an India-specific set of carveouts to the nonproliferation 
regime--Pakistan was left in the cold. Moreover, Pakistan has already 
demonstrated independence from Saudi Arabia in turning down the Saudi 
request for ground troops in Yemen this spring.
    Egypt faces similar technical problems, while the UAE and Turkey 
have made clear that they have different priorities than matching 
Iran's enrichment program (the latter aided by the maintenance of the 
NATO nuclear umbrella).
    But, let us briefly consider an alternative scenario in which the 
Iranian nuclear program is not constrained by a nuclear deal. If those 
arguing that nuclear proliferation will begin immediately, then killing 
this deal would logically become the starting pistol for an arms race 
as well. Iran's nuclear program would almost certainly be rejuvenated, 
with thousands of new centrifuges and a completed Arak reactor only the 
most visible manifestations of a dedicated Iranian capabilities drive. 
Some have argued that a better deal would emerge from this, though this 
argues that Iran could be forced to agree to lower centrifuge numbers, 
longer terms, and more intrusive inspections after the United States 
becomes the diplomatic pariah for ending a deal most states in the 
world support. Assuming that is not the case, then the only response 
would be accommodation of even greater Iranian nuclear capabilities 
through a new deal--with a United States bluff having been called--or 
military action. Unless regime change were envisioned, military action 
is more likely to create an incentive for Iran to develop a nuclear 
deterrent in the future. As a consequence, more likely to spur the arms 
race that so many fear now.
                          u.s. policy response
    The above analysis lays out a reasoned examination of why the 
region will not spiral out of control simply because of the nuclear 
deal we are here to discuss. But, this is not to say that the United 
States should rest on its laurels. I recommend four specific steps to 
manage the consequences of the deal and to ensure that the doomsday 
scenarios I doubt will occur are clearly avoided.
    First, the United States must continue to reaffirm its support for 
our partners in the region. This should involve arms sales, but must go 
beyond that. We should maintain a robust military presence in the 
region and ability to quickly bring military assets to bear throughout 
it. We should also explore ways of working with Arab countries to make 
their military response force a capable, coherent and useful instrument 
to challenge and contain Iranian regional bad behavior. Most important, 
we need to demonstrate that, though we have global interests, we have 
regional priorities, foremost of these the security of our regional 
partners. Coordination of activities in the region to combat terrorism 
is an important part of the endeavor, as are continued strategic 
dialogues about how to handle the various problems that exist in the 
region. Importantly, dialogue must be a true two-way street in which 
the United States is free to share its perspectives and analysis, as 
are U.S. partners. This may include uncomfortable conversations about 
domestic situations in partner countries that could offer openings to 
Iranian troublemaking. Friends might not like hearing such things and 
resent the implied condescension, but it is the responsibility of 
friends to pass along tough messages as well as physical support.
    Second, we need to maintain robust intelligence-sharing with 
countries in the region about Iran's activities and, importantly, 
compliance with the nuclear deal. Some things will need to be protected 
given sources and methods concerns, but the general modus operandi 
ought to be transparency when it comes to the nuclear deal. Only 
through confidence that intelligence cooperation is full and forthright 
will partners believe that they know all that we know about Iranian 
strategic intentions and capabilities. That can only come with enhanced 
coordination and sharing.
    Third, the United States must strive to be an active, positive 
nuclear cooperation partner with countries in the region. Trying to put 
the genie back into the bottle by denying nuclear cooperation with 
countries like Saudi Arabia unless they foreswear any future 
possibility of uranium enrichment on their territories was always a 
complicated--and probably impossible--proposition. Now, it is 
undeniably more difficult. But, nuclear cooperation can put us in a 
stronger position to discourage the exercise of the enrichment option, 
which is not precluded by the NPT. We have never been able to convince 
any country to relinquish forever its capacity to produce enriched 
uranium at home. Even the ``gold standard'' nuclear cooperation 
agreement with the UAE contains the possibility of the UAE backing out 
of its no-enrichment pledge if it so chooses as well as an expiration 
date, Instead of pressing for a self-denying legal commitment, we must 
concentrate on removing the incentives to pursue enrichment or 
reprocessing by providing cradle-to-grave nuclear supply and by 
demonstrating our reliability as nuclear trading partners.
    Fourth, we must continue to enforce our existing sanctions to deal 
with Iranian terrorism, destabilizing regional activities and 
violations of human rights. As noted above, Iran has reserved the right 
to react negatively to such decisions by withdrawing from the nuclear 
deal. This is not the unprecedented, unacceptable sign of a weak 
agreement that critics are making it out to be, but rather a standard 
principle of national sovereignty. Even the NPT has a withdrawal 
provision. But, Iran will face consequences should it decide to do so. 
Iran is less likely to withdraw from this nuclear deal in response to 
credible enforcement of non-nuclear-related sanctions than it is in 
response to broad sectoral-based sanctions for non-nuclear reasons. To 
this end, even new authorities could potentially be adopted so long as 
they do not overlap the terms of the sanctions relief provided in the 
JCPOA or give Iran a credible argument that it is being deprived of the 
relief its nuclear restrictions have purchased. One such concept could 
be the promulgation of sanctions authorities, including an Executive 
Order, that permits sanctions against those who traffic in conventional 
arms to or from Iran. This would remove the need to demonstrate that 
such arms are going to a particular end use, making the legal hurdles 
less. Iran may choose to ignore these sanctions or protest them, but we 
can enforce them nonetheless and continue to make such trade anathema. 
Of course, we can continue to enforce the U.N.'s and our specific 
sanctions covering transfers to terrorist groups, Assad's forces in 
Syria, and the Houthis in Yemen.
                               conclusion
    I believe that the nuclear agreement reached by the United States, 
its P5+1 partners, and Iran is a good deal. It is not a perfect deal. 
There are things that, in a perfect world, would be changed, starting 
with the fact that--ideally--Iran would not be permitted to engage in 
enrichment, reprocessing or heavy water activities in perpetuity. Such 
an Iran would also be forced to change into a better actor in the 
region and beyond.
    But, we do not have the luxury of that world. Instead, we face two 
options. We can either accept the deal that has been negotiated. Or, we 
can turn our backs on it. To do so is to go in an ill-defined 
alternative scenario. Some argue that in this scenario, sanctions can 
be intensified in order to achieve a better deal. Still others argue 
that military action could be undertaken. But, each of these courses of 
action would require taking significant risks that either they would 
not be successful and, in the attempt, that we would lose the support 
of the international community. An Iran strategy based on ``going it 
alone'' is not a recipe for success.
    Moreover, while pursuing such an alternative, Iran would either 
wait expectantly for the sucker punch to be delivered that would 
complete the job of undoing global support for United States efforts, 
or march forward on its nuclear program, beginning the operations of 
thousands of new centrifuges and constructing the Arak reactor in its 
original, bomb-factory design.
    For, at this point, there is no magical middle ground to be 
occupied. If the United States rejects the deal now, it will not be 
possible to negotiate a new one and certainly not before Iran 
undertakes a potentially dramatic expansion of its nuclear program. 
This is because of both the politics that will be associated with doing 
so in Iran--whose leaders would convincingly argue ``if the United 
States is not going to fulfill this deal, what is to say they would 
fulfill a future one?''--and because the JPOA would collapse at the 
same time as the Joint Comprehensive Plan of Action. Some argue that 
Iran could continue to observe its JPOA commitments and so could the 
United States. But, United States law now makes that impossible. Under 
the terms of the Iran Nuclear Agreement Review Act (INARA), if a joint 
resolution of disapproval is passed by Congress, the JPOA can no longer 
be observed by the United States as a legal matter. The law states that 
the President is no longer permitted to provide relief from sanctions 
established by Congressional action. So, waivers could not be extended 
under the statutory authorities in place.
    As such, the Executive Branch would have to restart efforts to 
reduce Iranian oil exports--paused under the JPOA--and impose sanctions 
for the movement of Central Bank of Iran funds. It is inconceivable 
that, even if Iran wished to keep the JPOA afloat, Iran would accept 
United States efforts to reduce Iran's oil exports by holding steady on 
the nuclear program. So, even if new laws are not adopted by Congress 
or the Executive Branch, U.S. sanctions under the JPOA would again be 
active and in need of enforcement.
    Would international partners join us in this effort? It is highly 
doubtful and certainly not with the vigor needed to be effective. As 
such, the United States would be brought into confrontation with key 
trading partners.
    So, Congress must make the choice that it asserted was essential in 
the passage of INARA and decide if the alternative to the JCPOA is 
worth it. Leadership and vision from Congress, as the President has 
shown in pursuing this deal, is now needed. I urge Congress to make the 
right choice, and to support this deal.

    Chairman McCain. Thank you.
    Professor Mead, as a result of this--maybe I'd ask all the 
witnesses, beginning with you, Professor Mead--do you 
anticipate Iran's support for the spread of terrorism and 
influence throughout other Middle East to increase or decrease 
as a result of this agreement? We know that they are in Yemen 
and Iraq and Syria and Lebanon, and now we have reports of them 
providing--the Iranians providing weapons to the Taliban. Do 
you believe that their efforts as--and status as the world's 
number-one supporter of terrorism would increase or decrease?
    Mr. Mead. Mr. Chairman, I believe the Iranians will use the 
opportunities offered by this agreement to expand their efforts 
to become stronger, to push their enemies back, and to redesign 
the Middle East in their own image.
    Chairman McCain. Mr. Singh?
    Mr. Singh. I think that, at the very least, there's no 
indication that they'll decrease it, and I think there's good 
reasons to think that they could increase it as a result of the 
agreement, for a couple of different reasons. One is that you 
may see them want to reaffirm their anti-American bona fides in 
the wake of having made a diplomatic deal with the United 
States, since anti-Americanism is so core to the regime's 
identity. Second, I think that, because the Supreme Leader of 
Iran has generally tried to balance the different factions of 
the regime, to the extent this is seen as a victory for 
President Rouhani and the pragmatists, he may have a desire to 
sort of throw a bone to the hardliners in the IRGC [Iran 
Revolutionary Guard Corps] and so forth by giving them freer 
rein in other realms.
    Chairman McCain. Dr. Takeyh.
    Dr. Takeyh. As I mentioned, Chairman, the international 
relations of Islamic Republic, in my view, should be thought 
about in two segments--'79 to 2011, 2011 to today. In aftermath 
of 2011, we see a much more aggressive expansionist Iran, 
simply because there are more opportunities with the collapse 
of the regional state system as a result of Arab Awakenings. 
So, as they respond to those opportunities with additional 
funds, I expect a surge of Iranian imperialism and terrorism.
    Chairman McCain. Dr. Gordon?
    Dr. Gordon. As I said in my testimony, Iran is, indeed, a 
leading state sponsor of terrorism, and it is right to worry 
that they would use some of the assets----
    Chairman McCain. My question was, Do you think it will 
increase or decrease?
    Dr. Gordon. I'm not sure that it will have a direct effect 
on what is----
    Chairman McCain. So, you're not sure.
    Dr. Gordon.--Iran is already doing.
    Chairman McCain. So, you're not sure. I've got to----
    Mr. Nephew.
    Mr. Nephew. Senator, I think that the Iranians are going to 
continue the policies they've had for the last 35 years. But, 
they weren't going to change them without a nuclear deal, as 
well.
    Chairman McCain. I see. So, it's okay to have a nuclear 
deal and no restraint on their terrorist activities. Is that 
your answer, Mr. Nephew?
    Mr. Nephew. No, Senator. In fact, I said, a number of 
different ways, that we should have restraint on their 
terrorism support. We have a lot of policies that we can use to 
do that.
    Chairman McCain. The question is, now that they have $50-60 
billion, or whatever additional they have, that they will--in 
the view of at least this Senator and others, they will 
increase their terrorist activities--more refugees, more 
killing, more expansionist into other countries in the region.
    Professor Mead, what do you make of the statements by the 
Gulf countries and the Saudis? A sort of a conditional 
endorsement of this agreement?
    Mr. Mead. Well, Senator, I think they're making the best 
agreement--best step they can, from their own point of view. 
They see a fait accompli, and they think they might as well see 
if they can--what they can get from the United States by, at 
least in public, appearing to go along, though I must say, very 
cautiously, I suspect that if some of you were to go over to 
the region and speak with them privately, you might hear a more 
alarmed response.
    Chairman McCain. I've already heard that, yes.
    Mr. Singh, we have various quotes from individuals in the 
Iranian regime that are saying, for example, that there will be 
no inspections of any military facility. What are we to make of 
those comments by more than one senior members of this regime?
    Mr. Singh. Well, Senator, the agreement obviously gives 
Iran the ability to say no if the IAEA requests access to 
sites. So, I think that what you see now are the Iranians, not 
just for domestic consumption, but also for our consumption and 
the IAEA's consumption, trying to condition us to understand 
what they will and won't accept, to sort of already start 
testing this clause of the agreement about our access to 
undeclared or suspect sites. What you've heard, for example, 
from Ali Akbar Velayati, who is the Foreign Policy Advisor to 
the Supreme Leader, is, ``Anytime we get a request for access 
to military sites, the answer is no.'' That should be 
unacceptable to us, and it will set up a confrontation to 
demand access and get access to those sites.
    Chairman McCain. Dr. Takeyh?
    Dr. Takeyh. I think, as Mike suggested, there will be a 
real issue of contention.
    I just want to say one thing about inspection regime in 
this particular agreement, which is prolonged, and the notion 
that the only way you can get a different agreement is through 
armistice after the war. One of the things I did in the 1980s, 
when I was in college, I studied arms control, which in 1989 
didn't seem like a very good decision, but, actually, in 
retrospect, it is. South Africa actually agreed, during the 
time of when it was cleansing itself of nuclear weapons, to 
allow inspectors anytime/anywhere access, which they identified 
as one day. That was the arrangement that was essentially 
informally worked out with the IAEA. That process took a number 
of years for IAEA to validate that South Africa is no longer 
husbanding nuclear weapons. But, we have had inspections that 
are much more time-sensitive in the past for a country that was 
ruled by Nelson Mandela.
    Chairman McCain. Well, of course, it's also--the repeated 
refrain is ``the best deal we could get.'' That certainly is in 
the eye of the beholder. In the view of Dr. Kissinger and 
former Secretary [of State] Shultz, in the Wall Street Journal, 
this negotiation, more from doing away with Iran's efforts to 
attain nuclear weapons, to delaying the Iranian acquisition of 
nuclear weapons.
    Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Mr. Singh, you made a very interesting point, which is 
that, in the aftermath of the agreement, if it's withheld, the 
leadership in Iran could try to placate their most, you know, 
aggressive forces by giving them a freer hand. There's a flip 
side to that, that if the agreement is rejected by the United 
States, wouldn't it be a temptation to sort of vent their 
displeasure by increasing their terrorism activities in the 
region, and--otherwise, it would appear that they're just 
simply accepting the fact that the sanctions are in place and 
that, you know, they're just unwittingly going along with the 
U.S.?
    Mr. Singh. Well, Senator, I think that--as I mentioned 
before in response to Senator McCain, I don't think that their 
regional strategy is going to change fundamentally as a result 
of the deal. I don't think it would change if there were no 
deal. I think that their regional strategy is what it is, 
essentially.
    Senator Reed. Right.
    Mr. Singh. What the deal does is, it perhaps facilitates 
that regional strategy. If there is no deal, I have no doubt 
that you'll have people in Tehran sort of crowing about the 
unreliability of the United States, and so forth. Again, what 
is the practical impact, in terms of what they do? I doubt that 
it causes a fundamental change. We're already seeing, as Dr. 
Takeyh mentioned, an expansion in what they're doing.
    Senator Reed. But, it--that expansion--I think the point 
that you make would--could be facilitated by additional 
resources, but their strategy, their terrorism, et cetera, that 
trajectory is set, regardless of the outcome of the nuclear 
negotiation.
    Mr. Singh. I think it is. There's a flip side to that, 
though, which is, their nuclear weapons ambitions are part of 
that strategy. That strategy I mentioned about anti-access and 
area denial, about projecting power and restricting our ability 
to operate in the region, is undoubtedly enhanced by having 
either a threshold nuclear weapons capability or an actual 
nuclear weapon. So, that's why we had, sort of at the outset of 
these negotiations, when I was involved from the NSC [National 
Security Council], thought that, for a nuclear agreement to be 
sustainable, you had to have a strategic shift by Iran. Since 
we haven't seen that strategic shift, I think, fundamentally, 
the nuclear weapons ambitions remain in place.
    Senator Reed. Those nuclear ambitions are at least 
suspended--there are various terms: parked, delayed, made more 
complicated--by the agreement, at least.
    Mr. Singh. Well, I----
    Senator Reed. They're made more complicated.
    Mr. Singh. I think that--as I mentioned, I think that 
Iran's objective has been twofold. I think they've wanted to 
have--to sort of cement that nuclear weapons option while 
getting the sanctions relief. I think the accomplishment, from 
the Iranian point of view here--and President Rouhani of Iran 
has sort of suggested this, he hasn't said it explicitly--is 
that now Iran's nuclear weapons program--he would say Iran's 
nuclear program--is legitimized, essentially. Iran's enrichment 
activities and other activities are accepted rather than 
considered illegal or illicit by the Security Council. So, it 
locks that option into place so that, if Iran wanted to 
exercise it in the future, whether because the sunsets expire, 
whether through covert means, which I actually think is much 
more likely, they have that option in place.
    Senator Reed. Thank you.
    Dr. Gordon, the same--similar set of questions, in terms 
of--the agreement's rejected, I think there's--seems to be a 
consensus that the terrorism trajectory continues, maybe with 
more energy, or less. But, in terms of suspending, at least, 
their--or shackling a bit--their nuclear potential, that 
disrupts their overall strategy of combining this near-nuclear 
state with terrorism.
    Dr. Gordon. Right. As I said in response to Senator McCain, 
I'm not sure there's a direct link between this deal and their 
terrorism activities, which they will probably pursue. It is 
true--so, I agree with Mike on that score--they will have a 
little bit more resources to put to that, but those resources, 
you know, have other obligations on them, as well.
    I would note that most of their terrorism-supporting 
activities are not particularly cost-sensitive. I mean, Iran is 
devoting to terrorism what it chooses to devote to terrorism. 
More money in the coffers is not likely to make a significant 
difference there. So, my concern is--in the rejection scenario 
that you talk about, is that it doesn't have a major impact on 
the continued support of terrorism, which is obviously a huge 
problem we need to confront, but, at the same time, we lose the 
nuclear deal.
    Senator Reed. It essentially accelerates this strategy of 
enhanced terrorism with enhanced nuclear capabilities, so it's 
not 10 years out, it's several years out----
    Dr. Gordon. Which----
    Senator Reed.--or we're forced to make a choice very 
quickly about more severe steps.
    Dr. Gordon. Exactly. That would be the worst of all world, 
if they were able to move forward on the nuclear front while 
still pursuing the terrorism agenda.
    Senator Reed. Thank you very much, Mr. Chairman.
    Mr. Singh. Senator, can I just clarify one point here?
    Senator Reed. Sure. Sure. Absolutely.
    Mr. Singh. There's a point of disagreement, because I think 
that we shouldn't minimize the impact of additional resources. 
If you look at the state of groups like Hezbollah, Palestinian 
Islamic Jihad, Hamas, the Houthis, and so forth, in Yemen, 
there is plenty of reporting that's out in the open source to 
suggest that these groups are financially squeezed, that 
support for Hezbollah has gone down, Islamic Jihad has had to 
close offices, Hamas was decimated, obviously, by the last 
round of fighting with Israel. So, additional resources, I 
think, can actually make a big difference.
    Then the other thing to bear in mind is, with the arms 
export ban to Iran lifted, with those arms sanctions being 
lifted in 5 years, with the ballistic missile sanctions being 
lifted, there could be a qualitative increase in what Israel--
I'm sorry--what Iran is able to provide to groups like 
Hezbollah, which are facing Israel and other allies. So, 
replacing rockets with guided missiles, for example. Those are 
important things.
    Senator Reed. Let me, on the other side, though, just to 
put it on the table and be evenhanded, is that this opening to 
the West--the trade, the commerce, the more interaction--will 
have a very difficult--it will have an effect, difficult to 
measure, but it might even be a counter effect, in that they 
have, now, a little bit more to lose, in terms of some more 
provocative activity, if they're beginning to see a major 
increase in interaction with the international community. I--my 
time's expired, but I just----
    Mr. Singh. I mean--you know, I can't rule that out, but I 
would say we haven't seen that, you know, with China, for 
example, which is opened economically to the world.
    Senator Reed. Right.
    Mr. Singh. It's not really diminished the danger, in a 
sense. Also, you know, we haven't had a great success in the 
past in getting, say, European support for terrorism sanctions 
on Iran.
    Senator Reed. But, that might change, too, given the fact 
that we have now got their agreement with the nuclear side. Now 
we can shift forces. I don't want to abuse my time, but thank 
you, Mr. Singh.
    Thank you, Chairman.
    Chairman McCain. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. Thank you for 
another excellent panel. It's--provides some real insight to 
Congress on the issues that we face.
    I appreciate your testimony.
    Dr. Takeyh, you said it was curious how Iran is acting, 
because their actions, by any objective standard, seem to be 
contrary to their people's interest in--to the interest of 
the--of Iran as a nation, which I would agree. That is evidence 
to me that maybe Bud McFarlane was correct to say, ``This is 
another revolutionary regime, and real revolutionaries don't 
change.'' You look at Castro, you look at North Korea, you look 
at these situations. They've asked their devotees to commit 
everything to this division, and they won't--they are loathe to 
give it up. Does that--do we not underestimate the religious, 
ideological drive behind this regime?
    Dr. Takeyh. I agree with that, Senator. I think that Iran's 
revolution has to be considered differently than China, Cuba, 
or, for that matter, the Soviet Union, because it is possible 
for some of those revolutionaries to kind of move on. To become 
an ex-Marxist is a sign of intellectual maturity. But, in this 
particular case, the religion--to be fair, a travesty and 
radicalized version--is the ideology of the state. There are 
people in the Islamic Republic hierarchy that believe the 
mission of the state is to realize God's will on earth, and 
they get to determine what God's will is. I mean, to ask them 
to abandon Marxism is maturity, to become an ex-Shi'ite is 
apostasy. This is serious stuff. I think this is one of the 
reason why Iran's revolution has not had the trajectory of 
previous revolutions, whereby over time they tend to mellow out 
and perhaps even, for sake of global integration, become less 
radical. I don't see that in here.
    Senator Sessions. I think that's correct. I think we 
underestimate the power of religion in this circumstance.
    Professor Mead, if we were to end--undertake this 
agreement, it seems to me it ought to be undertaken as part of 
an overall strategy for the Middle East in the spasm of 
violence that we've seen, and that may continue for several 
decades, I would think. You think of the George Kennan ideas 
that framed our response to communism, and this expansionist 
tendencies. Don't you think that what we need as a Nation is 
people, like the last two panels we've had, seriously analyzing 
the future of the Middle East, the nature of the extremist 
ideology that's there, and developing a long-term, 
sophisticated policy to rebut it and to try to diminish it over 
time?
    Mr. Mead. Senator, I think you've put your finger on 
something very important. As I've listened to some of the other 
testimony that's come before this committee in recent hearings, 
I'm struck that what we're not really hearing is, even from 
supporters of the agreement, the idea, ``Well, this is part of 
a well-orchestrated general strategy for the Middle East. This 
is what we're trying to accomplish. This is why this agreement 
is a step forward.'' We're simply seeing the agreement defended 
as, ``Okay, there is a nuclear problem, and this, we hope, will 
be a solution to the nuclear problem, or at least it's less of 
a nonsolution than no agreement would be.'' But, what we--you 
know, what we're also hearing in the background is a kind of a 
universal confession of failure of strategy.
    What is our strategy for ISIS? Are we fighting Assad first, 
then ISIS? ISIS first, then Assad? Neither? Both? Something 
entirely different? I think I've rarely, in my lifetime--
although I certainly have heard moments of strategic 
incoherence, I've rarely seen American policy on such a wide 
scale on so many issues in such a vital region seem to be so 
incoherent. I'm still waiting to see what our strategy in Libya 
is. So--or why we intervened in Libya, which was of really 
rather insignificant strategic importance, and have done 
nothing in Syria, which is enormously more important. Why not 
both? Why not neither?
    So, we do, I think, need, as a country, to have the kind of 
discussion about the Middle East that we had about Soviet 
expansionism in the 1940s, and to try to work our way toward 
some kind of general bipartisan agreement or confidence in an 
analytical approach to, really, a very vital part of the world.
    Senator Sessions. Well, I think you've said it well. I do 
believe it's possible that we get a bipartisan approach. If we 
agreed to that kind of strategy, then we could be more willing 
to understand tactical decisions that are made along the way.
    Mr. Chairman, thank you for your leadership and for having 
these important hearings.
    Chairman McCain. Thank you very much.
    Senator King.
    Senator King. Thank you, Mr. Chairman. This is a 
fascinating hearing.
    Dr. Mead, before we begin, I've got to say, when I see 
Hudson Institute, a bell rings. Herman Kahn. Wasn't he with the 
Hudson Institute?
    Mr. Mead. Yes, sir, he was.
    Senator King. A great theoretician of the early Cold War.
    Mr. Mead. Exactly.
    Senator King. I remember that term.
    A thought experiment. What if Iran had never had a nuclear 
program, no interest in nuclear weapons, no enrichment, zero. I 
would suggest we would still be having this discussion about 
how to contain Iran. But, the whole emphasis of the last 5 
years or more--10 years--has been, ``Let's get rid of Iran's 
nuclear capacity, and then we deal with the other issues.'' I 
would agree with the Chairman that we don't have an overall 
strategy. We should. But, the first element in the strategy was 
to not have a nuclear-armed Iran. That's why we're discussing 
what we're discussing here.
    What's bothered me about the discussion today and as this 
has evolved is that the rationale for the sanctions seems to 
have migrated. The sanctions were imposed--and, Mr. Gordon, you 
were--you participated in putting the P5+1 together--it was all 
about the nuclear weapons. Now people are saying, ``Oh, we 
can't release the sanctions because it will be used for other 
things.'' If there had been no nuclear weapons program, there 
wouldn't have been sanctions, or they wouldn't have been to the 
extent that they are today.
    Dr. Mead, think with me on this. Do you see what I'm 
saying?
    Mr. Mead. Yes, sir, Senator. I guess what I would say is 
that I would agree that, from the beginning, we should have 
been thinking holistically about Iran and the region, and that 
the--that thinking about its nuclear capacity, thinking about 
its regional ambitions, and so on, ought to have been a single 
policy.
    Senator King. But, when Ronald Reagan was talking about 
arms control, he wasn't demanding that Russia--or the Soviet 
Union change its immigration policy or forswear expansionism or 
adventurism. He said, ``Let's control nuclear weapons.'' You 
deal with these issues one at a time, it seems to me.
    Mr. Mead. Well, it--actually, in President Reagan's case, I 
think he was doing it--he was--he did have a kind of a full-
bore strategy, a controversial strategy rolling back in 
Nicaragua and so on, so that actually, by the time he was 
engaged in serious nuclear talks with the Soviet Union, he had 
already laid down a number of markers and put them in a kind of 
a constrained position.
    Senator King. But, that wasn't part of the nuclear----
    Mr. Mead. What I'm--right, but that was a precondition. In 
his mind, the idea was, you demonstrate----
    Senator King. Right, right.
    Mr. Mead.--to the Soviets that the other expansion can't 
work, simultaneously outbuilding them in strategic weapons.
    Senator King. I agree, I think that the strategy is 
twofold: (a) get rid of nuclear weapons in Iran, and (b) then 
develop the containment strategy, as Senator Sessions 
suggested, George Kennan or some other similar strategy.
    Mr. Gordon, one of the--we met, yesterday, with the 
Ambassadors of each of the P5+1. The question was asked, ``What 
is the likelihood of reconstituting the international 
sanctions, should the Congress reject this agreement?'' The 
term used by one of the Ambassadors was ``farfetched.'' You 
helped put that coalition together. How would you characterize 
the likelihood that these sanctions can be strengthened rather 
than erode, subject to an American rejection?
    Dr. Gordon. Senator, I think ``farfetched'' is probably a 
good description. As I described, this is now an agreement that 
has been reached and supported by every member of the P5+1, by 
the Security Council, and just about every country in the 
world. To come back and say that, you know, ``We've just 
decided, after all, not to go along with it, but, by the way, 
we want you to keep on the sanctions,'' which were so tough to 
get them to agree to in the first place, is just very difficult 
to imagine.
    I would add, even if somehow, you know, through the threat 
of secondary sanctions--you know, I don't believe that it would 
collapse, the next day. We would have our secondary sanctions, 
and we would keep most countries onboard, at least to a limited 
degree. But, even under those circumstances, Iran could 
continue to advance its program.
    Senator King. Dr. Singh, you mentioned, we haven't been 
able to get much European support for terrorism sanctions. 
Isn't that part of the problem, here? We're trying to separate 
these issues, deal with the nuclear and then deal with the 
terrorism. But, if we reject this agreement and try to get buy-
in from the Europeans on a broader sanctions regime that would 
include terrorism, didn't you, yourself, concede that that 
might be somewhat difficult?
    Mr. Singh. I think, Senator, I would actually describe the 
history of this issue differently than you described it. I was 
Director for Iran at the National Security Council in 2005 and 
2006, and then Senior Director for the Middle East after that. 
Actually, then we had quite a broad strategy of countering Iran 
in the region as well as taking on the nuclear program. We saw 
those things as connected to one another because of the view 
that the nuclear weapons program was a part of Iran's regional 
strategy. In the--one of the reasons we went to the P5+1 and 
the U.N. on the nuclear issue was, that was the issue where it 
was easier to get, for example, the Russians and Chinese 
onboard. Iran doesn't direct its terrorism against Russia and 
China; it directs it against the United States and our allies.
    So, I would say that we have actually moved away--further 
away from that kind of broader approach. To date, over the 
past, say, 7 years, we haven't really pushed back on the 
Iranians, which is why it's not credible to folks in the region 
for us to say, ``Well, we're going to start now.'' This doesn't 
look like the way you would start a serious strategy of pushing 
back on the Iranians, nor does it necessarily give you the 
tools. In fact, you're sacrificing quite a few of the tools 
you'd use to do that.
    Senator King. My time is expired, but I--and I take your 
point. I agree that this--there has to be a twofold strategy: 
nuclear and non-nuclear. We haven't been as effective as we 
should have been on the second part, I agree.
    Thank you, Mr. Chairman.
    Chairman McCain. As a proud foot soldier in the Reagan 
revolution, I tell my friend from Maine, when Ronald Reagan 
said, ``Tear down this wall,'' he wasn't talking about nuclear 
weapons. Ronald Reagan understood that we had to emphasize 
human rights, we had to emphasize all of the aspects and 
virtues of democracy and freedom, and then the nuclear weapons 
agreements followed. That's history.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, gentlemen, for being here today. This has been 
one of many of a series of great discussions that we have had 
on this issue, so thank you for taking the time and providing 
the input necessary.
    I'm going to sound a little bit like a broken record. I've 
asked this question over and over again of the last few panels, 
but I would like to ask each of you: In the middle of July, the 
President came out, and he stated, ``We either sign this 
nuclear agreement or it's war.'' Sign the agreement or it's 
war. Not, ``We'll work a little more on diplomatic relations, 
sanctions''--he said, ``it's war.'' So, we either go along with 
this or America's going to war, evidently.
    Do you believe that to be true, yes or no?
    Dr. Mead?
    Mr. Mead. No, Senator.
    Senator Ernst. Mr. Singh.
    Mr. Singh. No, Senator.
    Dr. Takeyh. No, Senator.
    Senator Ernst. Dr. Gordon?
    Dr. Gordon. I don't think it's automatically war, but it 
does, as I tried to underscore, put us in a position of either 
seeing Iran's program continue or implementing that credible 
use of force, which is war.
    Senator Ernst. Okay, and I'll come back to you in a second, 
Dr. Gordon, thank you.
    Mr. Nephew?
    Mr. Nephew. Senator, I would agree with Dr. Gordon. I think 
that, over time, it will lead to an escalatory spiral that 
leads us to war, yes.
    Senator Ernst. In time, it could lead to war, but not 
definitive. Is that correct, Mr. Nephew?
    Mr. Nephew. Senator, I would say that I find the likelihood 
of getting a diplomatic resolution dims dramatically if we 
reject this deal. So, therefore, I do believe that we will have 
an escalating Iranian nuclear program, an ever-expanding one 
that sanctions will not be able to control. I think that leads 
us to war.
    Senator Ernst. Okay.
    Dr. Gordon, I'll go back to you, because you stated you did 
work in the administration for a period of years, so you were 
assisting with these efforts for the nuclear agreement. Is that 
correct?
    Dr. Gordon. Yes.
    Senator Ernst. Okay. When I spoke to General Dempsey, the 
other day, who is the President's senior military advisor, I 
asked him if he had recommended that to the President, and he 
stated, no, that he had not recommended that. He did believe 
that there----
    Dr. Gordon. I'm sorry, recommended?
    Senator Ernst. That we would go to war if this agreement 
were not signed. He stated that he did believe there were other 
options that could be explored before we automatically made the 
assumption that the United States would engage in war with 
Iran. So, he rejected that. I asked him if he knew who was 
advising him on that, and he said he did not know. Yesterday, 
the panel rejected the notion that war was the obvious solution 
if we did not sign the agreement.
    So, are you the one that was advising the President that we 
would go to war, or we should go to war, if this deal was not 
signed?
    Dr. Gordon. Senator, I don't think, and I don't know anyone 
who thinks, that, if this deal is not implemented, that, very 
quickly, Iran makes a dash for a bomb and the United States 
uses force. That's not, I think, the realistic way to think 
about it.
    I think the realistic way to think about it is, there are 
one of three options if this deal doesn't go ahead. Either, and 
ideally, we get a better deal, the Supreme Leader decides that, 
after all, he can make more concessions, he comes back to the 
table in 3 months or 6 months or a year, and he gives us 
everything we want. That would obviously be ideal. I just don't 
think it's realistic.
    If that doesn't happen, if the Iranians don't come back and 
agree to all of the things we would like, then it's really one 
of two things. They steadily proceed with their program, as 
they've been doing over 10 years, and, instead of 19,000 
centrifuges, they have 30,000; instead of a--an LEU [low-
enriched uranium] stockpile of 10 tons, they have 20 tons; they 
complete the heavy water reactor at Arak; they do their 
research and development on the IR8s. Then we have to decide: 
we either watch that happen and then have a hearing, in a year 
or two, when they've done all of that and they're basically on 
the verge of a nuclear weapons capability, or have one; or we 
implement the credible use of force to stop them. That's what I 
think people mean when they say they're worried that, if we 
don't do this deal, there will be a conflict.
    Senator Ernst. I would reject the outright notion that we 
would go to war. I do think we need to take a step back and 
consider this.
    I want to look at the--because we are talking about 
regional strategy, I do believe that Iran has a regional 
strategy, and they are a state sponsor of terrorism. I think 
this furthers their reign of terrorism in the region and around 
the globe. I think it makes them very powerful. On the other 
hand, the United States does not have a strategy in that 
region. If we had a strategy, and this nuclear agreement was 
involved in that, I don't think it would have been necessary to 
send Secretary Carter from country to country to talk with our 
allies in that region to, you know, ease their fears. I don't 
see that that would have happened if we had that strategy.
    I would love to visit more, Mr. Singh, about--just very 
briefly, if I might, Mr. Chairman--just very quickly--I would 
like to look at the repercussions in Iraq. Iran is a very 
powerful nation through its proxies of terrorism, whether it's 
in Syria, Iraq, Yemen, Lebanon, you name it. What does this do 
to Iraq, with Iran having further means to empower the Shiite 
militia? Does that really lend credibility to a multisectarian 
Iraqi government, or do we see that falling apart, with greater 
power going to the Iraqi Shiite militia?
    Mr. Singh. I don't think that it's helpful. I think that 
the problem with this alliance of convenience with Iran in Iraq 
to combat ISIS, even though neither the United States or Iran 
likes ISIS, and both would like to see ISIS defeated, is that 
Iran's actions are meant, I think, to sort of bolster Iranian 
influence in the influence of Iran's proxies in Iraq. So, what 
I worry that you'll see is Iran using some of its resources, 
using the freedom from sanctions to further strengthen its own 
militias, which are answerable to Tehran rather than to the 
government in Baghdad, as well as to buy political influence. 
We've seen this pattern in places like Lebanon. It doesn't sort 
of contribute to our goals and our interests in the region. 
Quite the opposite, in the longer run.
    Senator Ernst. Thank you----
    Dr. Takeyh. ISIS is----
    Senator Ernst.--very much.
    Chairman McCain. Senator Shaheen.
    Dr. Takeyh. Can I just respond to that----
    Senator Ernst. Yes.
    Dr. Takeyh.--Mr. Chairman, very briefly? Because I think 
there's been a discussion about this windfall, where it's going 
to be felt. I think the ramifications of this nuclear 
agreement, the economic ramifications--I don't know how it 
would affect the trajectory of terrorism; I suspect it will be 
more. But, it will be particularly felt in Iraq and Syria, in 
terms of prolongation of the Syrian Civil War, when the 
military balance changes in disfavor of President Assad.
    In Iraq, the Iranians are talking about application of the 
Hezbollah model to the Shiite militias. Mainly, those Shiite 
militias will be used outside Iraq, whether it's in Syria or 
whether it's elsewhere. So, essentially, the notion is that, in 
due course, you have mini Hezbollahs being created along that--
Lebanon being the model for Iraq, a fragmented state, and 
Shiite militias following the model of Hezbollah, in terms of 
being employed by Iran in various other exigencies in the 
region.
    Chairman McCain. Senator----
    Senator Ernst. Thank you.
    Chairman McCain. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all for being here today.
    Mr. Singh, I certainly, like Senator King, agree with the 
premise that you're all making that we need a comprehensive 
strategy in the Middle East. I guess I would take a little 
issue with the effectiveness of that strategy under President 
Bush, because, at least with respect to the nuclear program in 
Iran, which is--my recollection is correct, when he became 
President, they had about 160 or so centrifuges, and, by the 
time he left office, they had 19,000. So, I do think we need a 
different approach to address Iran's march towards a nuclear 
weapon.
    What I'm trying to get some better understanding of is what 
you all believe should be part of the comprehensive strategy in 
the Middle East, in addition to trying to address Iran's 
nuclear program.
    Dr. Takeyh, you raised concerns about providing arms to 
Middle Eastern countries. As you're probably aware, last month 
Saudi Arabia requested 600 new Patriot missile interceptors. 
So, can you talk about whether you think this kind of support 
for Arab countries is something that we should continue to 
pursue? Or do you think we should say we're not going to 
support arms for any Arab countries?
    Dr. Takeyh. Oh, I think the Saudi state is in considerable 
degree of difficulty today, in terms of thinking about its 
future. Since the inception of House of Saud, in earlier 20th 
century, they had a sort of a national compact, whereby they 
actually deliberately weakened their military, in terms of 
conscription, in terms of developing an officer corps that's 
not related to the royal family, and developed a national guard 
for internal security purposes. That actually worked well, in 
terms of preservation of House of Saud. If you look at every 
Middle Eastern country, they had a military coup--Libya, Egypt, 
Iran, Iraq, Syria, Algeria, Yemen. Saudi Arabia is the one 
place where the monarchy has not displaced by military, because 
they have kept the military weak. The purchases that they have 
made of these----
    Senator Shaheen. Well, Jordan hasn't, either, I would 
argue.
    Dr. Takeyh. Yeah, that's right. The--so, the two 
monarchies. Basically, they have kept the military weak. They 
have to rethink their national compact. They have to 
essentially engage in conscription, developing an officer 
corps. They have the population base to do that, but they 
haven't had the political will, because of the concern about 
their own population.
    Going forward, I think Saudi Arabia has many problems, in 
terms of changing complexion of the oil market. So, I do agree 
with the President----
    Senator Shaheen. Okay. But----
    Dr. Takeyh.--in one respect.
    Senator Shaheen.--should we give them those interceptors, 
or not?
    Dr. Takeyh. I think they should be considered in line with 
Syria's deep-seated structural reforms that Saudi Arabia has to 
make to its economy, and the way it deals with its citizens, 
and----
    Senator Shaheen. So, you think we should qualify that kind 
of----
    Dr. Takeyh. Yeah.
    Senator Shaheen.--military assistance.
    Dr. Takeyh. I think--as I said, I think President Obama is 
absolutely right when he says these countries have to 
strengthen their internal mechanisms and political systems.
    Senator Shaheen. Dr. Gordon, can you talk about what other 
kinds of efforts we should be thinking about in the Middle East 
as we're trying to develop a comprehensive strategy that 
accompanies any arms agreement?
    Dr. Gordon. Sure. I mean, on this issue of comprehensive 
strategy, I do think it is important to acknowledge, right off 
the bat--and Senator King alluded to this--this deal doesn't 
provide that.
    Senator Shaheen. Right.
    Dr. Gordon. It doesn't. It doesn't resolve the Iran 
problem, it doesn't resolve the terrorism problem, and it 
doesn't deal with this huge structural change that we're seeing 
in the Middle East. So, no one should try to defend it, or 
even, I think, decide on it, on that criterion. What it does is 
take the nuclear issue off the table for a good 10 or 15 years, 
which is not bad, in the context of all of the issues you 
discussed. So, I think that's just important to state.
    In terms of what we do in the meantime, I think the two 
elements of what you're talking about, and what Ray just 
replied on, are exactly right. We do need to stand by these 
allies. To the extent Iran will use its additional assets to 
threaten them, I think we do have to stand by all of our Gulf 
partners, give them the reassurance. That includes military 
sales, intelligence cooperation, and defense. But, I think it 
is also true, as was just said, that, in the long run, their 
vulnerabilities are less, in terms of advanced missile defense 
than in terms of the soundness of their societies, and they 
need to work on that, as well.
    Senator Shaheen. So, Mr. Nephew, I asked you this question 
in a hearing in the Foreign Relations Committee. I think it's 
appropriate to raise it again, because several of you 
referenced the fact that if Iran's going to cheat on this 
agreement, it's likely to be incremental and not flagrant, and 
therefore, present other challenges for the P5+1, in terms of 
how we respond to that. So, it's not going to be automatic 
snap-back as the result.
    So, can you talk about some of the other options that we 
should be thinking about, in terms of preparing the partners in 
this agreement, should it go forward, that we need to respond 
to any incremental violations?
    Mr. Nephew. Certainly, Senator. I think that the first one 
of those is the fact that sanctions snap-back can be scalable. 
Secretary Lew has testified to this effect. But, if there were 
to be a smaller-scale violation on the part of the Iranians, 
sanctions relief can be terminated in one particular area or 
another. That can have impact.
    Second, we can also use the procurement channel that's been 
established as part of this deal to clamp down on nuclear-
related transfers going to Iran.
    Third, we can use the dispute process to consider 
additional constraints on Iranian nuclear activities. If they 
are found to be enriching too much uranium at one particular 
point, there can be an agreement that, in exchange for not 
snapping back all the sanctions, that Iran's enriched uranium 
stockpile would have to be smaller for some period of time.
    I think the point is, the dispute process that's in this 
deal gives us flexibility to scale our response to what Iran 
actually does.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ayotte.
    Senator Ayotte. Thank you, Chairman.
    I want to thank all of you for being here. This is very 
helpful.
    I wanted to ask Dr. Takeyh, what--can you explain for us 
our--the history of Iran when it comes to hiding its nuclear 
activity at facilities, such as Natanz, Fordow, and Parchin, 
and how the international community--how successful they were 
at that?
    Dr. Takeyh. Well, I think every nuclear facility that Iran 
has today at some point was an illicit facility, in terms of 
the fact that it was operated. Iranians do have their own 
explanations for why that is the case. Only after detection, 
after pressure by the international community, you began to see 
a measure of inspection and verification coming into being.
    I think the international community was successful, in 
terms of application of pressure on Iran over time that caused 
it to perhaps reconsider some of the strategy, but the overall 
trajectory has been, as you suggest, that they essentially 
embark on illicit programs when the opportunity is there.
    Senator Ayotte. So, I would like to get our panel's take 
on--having looked at the language in the agreement on the 
process for undeclared sites, it strikes me as very attenuated. 
As you look at this process, the IAEA first has to provide Iran 
the basis for the concerns, in writing, regarding the 
undeclared materials or sites, activities. They have to let 
them know, you know, how do they want access to this. Iran 
actually gets to respond with alternatives to whatever access 
the IAEA wants. If you look at the plain language of it, those 
alternatives don't necessarily include physical access. That's 
been a real issue if we're thinking about the type of testing. 
There's been some reports that I've seen, that have actually 
been confirmed, that, in fact, Iran doesn't want to allow 
physical testing even at a facility like Parchin, that we're 
aware of.
    So, I wanted to ask all of you what you thought, in terms 
of the process that's in place when it comes to undeclared 
sites, as opposed to the ones that we had--that Dr. Gordon 
referred to, the regular--the very continuous monitoring of. 
Because I think we have a history here that we need to be 
cognizant of.
    Mr. Singh?
    Mr. Singh. Sure. Well, I think your assessment is correct. 
There is, first, this back-and-forth of indefinite duration 
between Iran and the IAEA to ``clarify,'' quote/unquote, the 
questions the IAEA may have about a site. Only after that is 
complete does--can the IAEA make its formal request for access, 
which starts that 24-day clock.
    You know, we have experience with the Iranians about this 
in the past, which folks aren't, I think, talking about enough. 
There have been several sites--three, in particular--where this 
has played out in the past, and the Iranians have proven to get 
better every time at hiding evidence of illicit activity.
    So, I disagree with those who say that 24 days is not 
enough to hide evidence of illicit activity. It may be that, if 
we're lucky, they can't hide it all. But, that's very different 
from saying that we'll know what happened there. I think that 
places way too much, sort of, certitude on this process.
    Senator Ayotte. If you're not guaranteed physical access, 
yourself, to me that becomes insufficient, in terms of knowing 
exactly what has occurred at a facility.
    Mr. Singh. Even if you have physical access, Senator, you 
have physical access after they've had an opportunity to engage 
in various forms of hiding evidence. We saw this, again, at at 
least three different sites in Iran in the past.
    Dr. Takeyh. Just one thing. It's important to acknowledge 
that Iran is in violation of the safeguard agreements today. 
It--as General Amano is here, his agency does not have access. 
The first work plan between Iran and the IAEA was negotiated in 
2007, and that remains incomplete. It was negotiated, at that 
time, by Ali Larijani. So, there are problems with that.
    Arms control verification works only when it's 
collaborative. If it doesn't--it's not collaborative, it's 
antagonistic, there's no mechanism that can assure its success.
    Senator Ayotte. Well, I think one of the warnings we're 
seeing is, they're already issuing statements that are contrary 
to what we would, I think, expect from this agreement, in terms 
of inspection, access.
    Yes.
    Mr. Nephew. Senator, if I may. I would disagree with my 
fellow witnesses here about the inspection access. I actually 
think it's a material improvement over the current situation. 
Twenty-four days is actually quite sufficient to detect a lot 
of different nuclear activities, especially the most 
significant ones. I would just point out that I think the three 
facilities that Mr. Singh was referring to--actually, two of 
them involve pretty dramatic steps that were taken to sanitize 
the facilities, one of which was a complete failure. So, in the 
Clay Electric experience, for instance, the Iranians had over 6 
months to sanitize the facility, and they failed. Enriched 
uranium was detected. In the Lavizan facility, the Iranians 
were so terrified about IAEA access that they bulldozed the 
entire facility down to 3 feet of topsoil because they didn't 
want to have access. We used that, in 2006 and 2007, to sell 
U.N. sanctions against Iran.
    Senator Ayotte. Can I ask you this? Don't you think 
physical access is important?
    Mr. Nephew. Absolutely. Physical access can still be 
required by the IAEA. The IAEA is allowed to consider 
alternative means of access to the facility, but they can say 
no. They can say we must go.
    Senator Ayotte. Yes.
    Dr. Gordon. The only thing I would add, briefly, without 
getting too much into the details of all of this is, the bottom 
line in the agreement is that, if we're not satisfied after 
this back-and-forth and what you've described as this 
attenuated process--if we are not satisfied, sanctions--not 
just U.S. sanctions, but U.N. sanctions--go back in place. 
That's new and different.
    Senator Ayotte. Well, I think the details very much matter 
in all of this. I have many more questions, but this--I 
appreciate all of you for being here, and your expertise on 
this issue.
    Chairman McCain. Mr. Singh, wasn't it that Anatan was not 
detected by anyone but the Iranians of informing us?
    Mr. Singh. I'm sorry, Chairman, could you repeat that?
    Chairman McCain. Wasn't the facility at Anatan concealed 
effectively until the Iranians, themselves, the opposition, 
gave us that information?
    Mr. Singh. Well, I think it's a relevant point, absolutely, 
Mr. Chairman, that--you know, this all started when we caught 
the Iranians redhanded at doing exactly the things that we're 
talking about. The process ends with these facilities not being 
dismantled, not being--you know, not requiring to sort of 
reverse what they've done but actually all this being 
legitimized. You know, we see this dynamic, where the less 
risk-averse party in these treaties--and you could draw a 
connection with the INF Treaty, with the Syria chemical weapons 
issue--has the leverage. It comes down, not just to the details 
of the inspections, but, Where is the political will? At the 
end of the day, if we detect something untoward, do we have the 
political will to do something about it?
    Chairman McCain. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    I'd like to focus a little bit on what would happen if the 
United States walks away or rejects this agreement. Dr. Gordon 
has laid out--described three things that he believes will 
happen. One, we would get a better agreement. Two, Iran--if we 
don't get a better agreement, Iran will continue its path 
toward becoming a nuclear power. Third, the United States 
will--assuming we don't have another agreement, the United 
States will either watch Iran doing this or, at some point, we 
will need to decide whether to take military action.
    I'd like to ask the other panelists, Do you agree with 
these three events or description of what would happen if we 
walk away from this deal?
    We can start with you----
    Mr. Mead. Senator----
    Senator Hirono.--Dr. Mead.
    Mr. Mead. Thank you, Senator.
    It's a good question. I think that it would be wrong to 
assume that all rejections of the deal are equal, in the sense 
that one might really see where perhaps the administration and 
the Congress came together and saying, ``Well, maybe some 
incremental changes or some things would allow Congress to give 
support for the deal.'' Then there might well be a bit of a 
momentum, because the other parties to this deal do want to see 
it succeed, that there might be ways of making some positive 
changes. So, I would just suggest that one ought to think, 
``Okay, it's not we just--do we turn the light switch on or 
off. Maybe there's a dimmer switch or something.'' We need to 
think--we need to craft the response that----
    Senator Hirono. I think that's a----
    Mr. Mead.--the United States makes.
    Senator Hirono.--that's a more nuanced way to look at this 
situation. But, what we are likely going to be faced with is an 
up-or-down vote on whether or not we agree with the deal. So, 
let us assume that we are--if the United States rejects this 
agreement, and the three items that were laid out by Dr. 
Gordon--would you agree that those are the kinds of 
eventualities that we would be faced with?
    Mr. Mead. I would say that's why I would urge the Senate 
and the administration to try to avoid a kind of a car crash 
like that.
    Senator Hirono. Mr. Singh?
    Mr. Singh. I think that, you know, anything we say is 
inherently speculative. That's true of what you'll hear from, 
say, the European Ambassadors, as well, because they want you 
to approve the deal.
    I think that if Congress were to disapprove, and the U.S. 
weren't to participate in the deal, then I really see sort of 
two branches, in terms of possibilities. One is that the other 
parties go ahead and implement the deal. That puts us, 
obviously, in an awkward situation. Second would be, the other 
parties--and, I think, Iran, in particular--choose not to 
implement the deal. They also choose to walk away. Then, in a 
sense, we are back to the drawing board. I don't agree that 
that ends, necessarily, with force, because I think it's 
important to bear in mind that these other states are not 
acting out of goodwill or anything like that towards the United 
States. They'll act in accordance to their interests. So, 
they'll evaluate what's in their interest to do. Is it more in 
their interest to take diplomatic actions, in hopes of averting 
this type of military conflict? Or is it more in their interest 
to simply, say, walk away, and so forth?
    I don't think that our allies who have been part of this 
process, with the objective of stopping Iran from obtaining a 
nuclear weapon, and with the objective of averting a war over 
this question, would simply abandon that objective. I think 
they'll still try to do those same things that brought them to 
this process.
    Senator Hirono. Well, that's another interesting 
perspective, because this is a deal that was made by the P5+1, 
and there is a question as to what kind of a deal remains if 
the United States walks away from it.
    Mr.--Dr. Takeyh?
    Dr. Takeyh. Certainly. In my testimony, I suggested five, 
six things that could be done to----
    Senator Hirono. I believe----
    Dr. Takeyh.--revisions to the----
    Senator Hirono.--your first was that we should renegotiate 
a stronger agreement.
    Dr. Takeyh. Well, I think, specific aspects of the 
agreement--the sunset clause, the IR8s, and so forth. So, we 
can go back and actually try to strengthen the agreement in 
that particular sense. The history of arms control, from SALT-1 
on, is replete with renegotiating arms control agreements that 
have been agreed on. I think this----
    Senator Hirono. But----
    Dr. Takeyh.--falls----
    Senator Hirono. Excuse me, I'm running out of time. But, 
before we can get to a renegotiation posture, we would have to 
reject this agreement.
    Dr. Takeyh. I think, at this particular point, given where 
we are--the only way we can get to the aftermath of----
    Senator Hirono. There are a lot of questions as to whether 
or not our P5+1 partners would even get back to the table. In 
fact, yesterday, I specifically asked the Ambassadors to the 
United States from the U.K., China, and Russia whether their 
countries would come back to the table to renegotiate if the 
United States walked away, and they said no.
    Dr. Gordon? We've already gotten to your----
    Mr. Nephew, would you like to respond? Very briefly.
    Mr. Nephew. Yes, Senator, I basically would agree with what 
Dr. Gordon was saying. The only point I would just add to Dr. 
Singh's point about ``Could we get a better deal some down--
someday down the road?''--we should all bear in mind, we'll 
probably be negotiating over a much larger Iranian nuclear 
program at that point in time. The idea that we managed to get 
from 10,000 centrifuges down to 5 in this deal is somehow going 
to be improved when we're sitting at 30,000 centrifuges, I 
think is pretty farfetched.
    Senator Hirono. Thank you.
    Mr. Singh. Can I just say--I'm sorry--in response to that. 
That's--I think that's true, no matter what. In the future, 
Iran will have a bigger nuclear program. We'll still, at--when 
these things start phasing out, the limitations start phasing 
out, in 10 to 15 years, want to stop Iran from expanding it in 
certain ways. So, we'll be back to this issue, trying--I think, 
with less tools--to renegotiate. So, I don't think we should be 
under the illusion that this is going to be permanent. We'll be 
back to this issue, one way or the other, in the future.
    Chairman McCain. You can rebut, Mr. Nephew.
    Mr. Nephew. Thank you, Senator.
    I mean, I don't think that Mr. Singh is entirely incorrect 
on this point. We will have to be dealing with this problem, 
going into the future. But, I think 15 years from now is a much 
different environment that we'll be dealing with than we'd be 
dealing with at this particular moment in time. Second, I think 
it's folly to suggest that the tools that we have now remain 
the tools that we have if we reject this deal.
    Thank you, Senator.
    Chairman McCain. Senator Gillibrand.
    Senator Gillibrand. I'd like to continue this line of 
questioning, because this is the area of interest that a lot of 
us have: What happens if we reject the deal?
    Specifically, I'd like a little more thought on, What do 
you think Iran will do when America rejects the deal? Because 
what we heard from the Ambassadors yesterday is, their 
skepticism about whether anybody would come back to the table 
was very much informed by their knowledge of their negotiating 
partners in Iran. They, in fact, said that they believed Iran 
would be so disgusted with the United States that they would 
say--and the hardliners would win and say, ``Obviously, you 
can't trust America. They're the enemy we always thought they 
were. We are never giving them the opportunity to do this 
again.'' They based that conclusion on Iran's previous behavior 
when the Bush administration attempted a negotiation. Because 
the Bush administration attempted a sincere negotiation, but, 
at that time, there was no willingness to allow any production, 
even for peaceful means, and so, Iran rejected it, straight 
out, and we were left with nothing. From that time period, they 
had a few hundred centrifuges, and now they have several 
thousand centrifuges. So, they obviously have continued to 
invest to perfect their nuclear program, to make it more 
sophisticated.
    So, from your expertise, I'd like to know, well, What do 
you think the disposition of Iran will be if we reject the 
deal? From some experts, we've heard, to date, that they will 
complete their production, they will refine to--in 2 to 3 
months to have enough fissile material for one bomb. If they 
feel that militarization is their only option, then we have 
several options, most of them are military, to respond to that, 
if we choose to--choose to take that course. So, please talk 
about, if we reject the deal, what are the reactions, 
specifically with regard to Iran and with a likelihood of full 
production as to a bomb?
    Start on this end and go down.
    Mr. Nephew. Thank you, Senator.
    So, my view is that the Iranians would, first off, say that 
they're not going to negotiate on their nuclear program again 
under the current United States President. I think they would 
argue that, having been defeated in the Congress, there's no 
chance that they would negotiate with him again.
    Now, the big issue with that is, that means that we've got 
at least 18 more months of Iranian nuclear expansion. I think--
--
    Senator Gillibrand. Right.
    Mr. Nephew.--the Iranians would install more centrifuges, 
they would begin to operate them. I think they would complete 
the Arak reactor. I think we'd be, therefore, dealing with a 
bigger, more problematic program.
    Senator Gillibrand. And----
    Mr. Nephew. I also think----
    Senator Gillibrand. If they complete the Arak reactor, we 
can no longer bomb it, correct? Because that cannot be a bomb 
target once it's completed, because then it's a nuclear fallout 
site, correct?
    Mr. Nephew. Well, certainly once it's operational, it is 
much more complicated to attack the facility, that's true.
    Senator Gillibrand. Okay.
    Mr. Nephew. I would make one additional last point, which 
is, I think Iran would also attempt to undermine the 
international support behind our sanctions program. I think 
they'd be much more successful now than they were in the past, 
because they'd be able to say, ``The original premise of the 
sanctions effort was international consensus on the nuclear 
issue. The Americans said they wanted a nuclear deal. They've 
just proven they don't.'' So, I believe that, at this point, a 
lot of countries in the region--beyond that, in the world--
would say, ``What is the reason why we're supporting these 
sanctions now?''
    Dr. Gordon. Senator, it's an excellent question. I think 
you were right to bring up precedent in thinking about it, 
because, obviously, looking into the future, we can only 
speculate. As we do look back, we do have a little bit of 
experience in going to Iran and insisting on certain goals, 
like zero enrichment, and seeing that result in an ever-
expanding program.
    I find it highly implausible that, if we reject the deal 
now--and we'd be doing so in the name of getting a better 
agreement--highly implausible that Iran would come back to the 
table--again, whether this year or in 18 months--and 
renegotiate what they feel they negotiated, not, you know, in 
some quick back-of-the-envelope deal, but over a 2-year period 
of painstaking negotiations with the P5+1 partners, missing 4 
or 5 deadlines because we couldn't get to a deal, an 18-day 
final end game going over every single painfully negotiated 
detail--the idea that they would come back to that, even after 
it was endorsed by the Security Council, and give us a better 
deal is unlikely. So, we can go for it, but I think that's why 
the more likely scenario, as Richard said, was that they would 
say, ``Fine, you walked away, we feel free to carry on with 
this program,'' which they would do, and it would expand. To be 
clear, and I'll end with this, I don't think it means Iran 
makes a dash for a bomb. I don't think that they suddenly start 
declaring their intention to pursue a nuclear weapon. They'd do 
what they've done over the past decade, which is gradually 
expand their program----
    Senator Gillibrand. Hold it at 20 percent enrichment.
    Dr. Gordon. Maybe.
    Senator Gillibrand. Do you think they would just, maybe, 
continue to develop their centrifuges, but keep it at 20 
percent, which I think is the limit, and not go beyond that?
    Dr. Gordon. I think they would incrementally advance, right 
across the board, and slowly, so that there's never one moment 
where they're crossing some----
    Senator Gillibrand. In breach or in----
    Mr. Nephew. Right. We would find ourselves, in X-amount of 
time, with just a much bigger program, and therefore, a much 
bigger problem.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Chairman McCain. Your rebuttal, Mr. Singh.
    [Laughter.]
    Chairman McCain. Or Mr. Takeyh.
    Yeah, go ahead.
    Mr. Singh. I think it's just--it's important to bear in 
mind--I agree that I think Iran would likely walk away. The 
sensible thing for Iran to do, frankly, would be to implement 
the deal anyway. I don't think Iran would do the sensible 
thing. I think they would walk away if we walked away. But, the 
question of what, then, would guide their behavior--I think, 
you need to remember, Why is Iran in this negotiation, anyway? 
Not because they want to be, but because, in a sense, they had 
to be. So, I think it'll really depend on, How do we shape the 
environment in that circumstance? I would not suggest to you 
that it would be easy, but I would suggest to you that things 
like deterrence, things like credible red-lines, things like, 
you know, sort of, diplomacy will be just as important then as 
they have been all along.
    The other point I would make about this is--I know that the 
choice facing all of you is binary, and I respect that greatly. 
But, I don't think we should think of this as a binary 
situation out in the real world. The negotiations, I think, 
will continue, one way or the other. I mean, if you look at the 
history--and I know you're all very familiar with the history 
of these arms control agreements--say, North Korea, the history 
of this issue, itself, and the agreements we reached with Iran 
in 2003-2004--these negotiations are likely to continue. We're, 
as Secretary Kerry has said, likely to going to want to take up 
other issues with the Iranians. So, one way or another, we're 
going to have additional issues to bring to the Iranians. The 
question, I think, is, What sort of tools are we going to have, 
going forward? What sort of framework will the next President 
inherit if he or she wants to further strengthen the nuclear 
constraints on Iran?--which I think will be necessary. That's a 
very critical question here, as well. This doesn't end now. 
This continues.
    Chairman McCain. So, then we'll--the importance of this 
question will go to you, either Dr. Gordon or Mr. Nephew, and 
then to Mr. Takeyh.
    Please respond on this issue. You want to respond again 
to--we'll orchestrate this debate.
    [Laughter.]
    Mr. Nephew. Well, Senator, I mean, again, I don't want to 
abuse your time. I think my view is that, you know, Mr. Singh 
may be correct, that there will continue to be, you know, 
ongoing negotiations and ongoing attempts to resolve the issue. 
But, I think, if we look back from 2005, frankly, all the way 
to 2013, there were P5+1 meetings with Iran, but they weren't 
getting anywhere, because the Iranians were insisting on 
incredibly impossible red lines. It's because, I think, in 
part, they didn't believe that international pressure was going 
to require them to make the kinds of concessions we would need. 
In my view, sir, I think that's what would happen here, as 
well. Yes, there would be a process, but it wouldn't resolve in 
a good deal.
    Chairman McCain. Could part of that reason have been the 
economic sanctions hurting their economy that changed their 
attitude? Dr. Gordon?
    Dr. Gordon. It could. The reason I pointed out the cases--
the previous cases of North Korea and Iraq is to remind that, 
even when sanctions pressure is enormous and countries are 
genuinely crippled, they don't necessarily come to the table 
and give us everything that we want. So, I think it would be 
wrong to assume that, just because--even if we manage to keep 
sanctions in place, which is an open question if we rejected 
the deal, I think, would be tough, as we heard earlier, but, 
even if we did, I don't think we can assume Iran would come 
back to the table and make major concessions.
    I don't want to pretend that only this deal could have been 
negotiated, that our team--you know, that there's no other 
conceivable deal. You can imagine details that might have come 
out differently. I do think it's implausible that, on the big 
questions people are worried about, like sanctions relief for 
Iran, that there would be some deal where they would come to 
the table, ``Give us the nuclear commitments we want for 
decades,'' but not get their frozen assets released. That--you 
could give me the best negotiating team in history, backed by 
the most credible force in history, and I don't think Iran 
comes to the table and does that deal. I think we just have to 
accept that.
    Chairman McCain. Well, let's hope it's not like the great 
deal we made with North Korea.
    Dr. Takeyh, go ahead.
    Dr. Takeyh. I get a chance to rebut everybody.
    [Laughter.]
    Dr. Takeyh. Why does--it is important to suggest that Iran 
has participated in the negotiations since 2002 for reasons 
other than the nuclear issue, for attempting to get economic 
measures, for attempting to shield its nuclear installations 
from military retribution. That doesn't happen during the--to 
attempt to shield this regional surge from military pushback, 
because you don't push back on a country. Of course, it cannot 
legalize or legitimize its nuclear program in absence of the 
negotiating table. So, the negotiating table has served Iran's 
purpose, as does, in my judgment, this agreement.
    I'm very focused, as I have been in this testimony, on IR8 
centrifuges that Iran wants to bring online. If there is no 
agreement, Iran will not be able to do so for 8 years. If there 
is an agreement, Iran will not be able to do for 8 years. Why 
do I say that? In March, Abbas Araghchi, their negotiator, and, 
twice since, Vice President Salehi has said that they needed 8 
to 10 years to introduce these generation of centrifuges, and 
that's the R&D [research and development] deal he says they 
negotiated. So, that's a very disturbing aspect of this 
particular accord.
    Finally, we do have to be prepared for a massive 
industrialization of Iran's nuclear program. Vice President 
Salehi has gone before the Iranian Parliament and asked for 
budgetary allocation to expand their scientific cadre, nuclear 
engineers, to 20,000 people. Currently, it's about 5,000. So--
and they also put into place, as this agreement allows, their 
technological precursors for advanced centrifuges. They are 
getting ready to embark, within the confines and context of 
this agreement, to a very massive and sophisticated nuclear 
program.
    One more thing that this treaty allows--this agreement 
allows is, international community, during the time that Mr. 
Nephew and Phil were talking about, had tried to sabotage 
Iran's program, had tried to sanction it, had tried to 
essentially forestall it. Under this particular agreement, it 
enables it. This agreement stipulates that Iran can have access 
to international market----
    Senator Gillibrand. Can I just ask you one question----
    Dr. Takeyh. Yeah.
    Senator Gillibrand.--about that? Do you take any--is there 
any benefit to the fact that they've created vulnerabilities in 
their nuclear program, the fact that they're going to cement 
Arak, the fact that they are going to take centrifuges out of 
Fordow, which is harder to bomb, the fact that the only 
centrifuges that are going to be in production will be in a 
aboveground facility that's very easy to target, particularly 
once we're on the ground--that is creating a military 
vulnerability, from my perspective, and that was agreed to by 
our Secretary of Defense and our Chairman of the Joint Chiefs. 
Does that not show some level of--I don't know--concession on 
their part?
    Dr. Takeyh. I think this agreement has some legitimate and 
important benefits. I do think those benefits--no agreement is 
perfect. You have to judge the agreement by scale of 
imperfection. This agreement imposes some important short-term 
restraints, but it stipulate a projection of Iranian program. 
It is the first arms control agreement in history that 
stabilizes a file and then envisions its rapid trajectory 
upwards. That's the problem with it.
    It is, I must confess, a uniquely--an American agreement. 
It doesn't deal--it postpones problems for the later time, has 
entitlements and everything else.
    Chairman McCain. We're very good at that.
    Professor Mead, do you want to summarize, here, since you--
--
    Mr. Mead. Well----
    Chairman McCain.--began this conversation?
    Mr. Mead. Yeah. Let me conclude with a--with an 
observation, here, which is, I think, that the United States 
has actually, through this entire negotiation, sort of ignored 
two of our principal sources of leverage, things that we might 
well gain by reasserting. One is that, historically, agreements 
of this magnitude that constitute this fundamental change in 
American foreign policy, have gone through the treaty process, 
requiring ratification by the Senate. Often, in order to gain 
ratification, particularly since Woodrow Wilson's misadventure 
at the Treaty of Versailles, this has meant bringing along a 
bipartisan delegation to be involved in the negotiations, and 
to ensure the kind of advice and consent of the Senate on an 
ongoing basis. This has actually had the impact of 
strengthening America's hands in negotiations, because it 
brings the will of Congress in from the beginning, and, in this 
particular case, our partners in the P5+1 would have understood 
more clearly what America's real red lines were. By choosing to 
take this negotiation in another way and trying to, I think, 
fundamentally distort the concept of execute agreement to avoid 
the traditional and, I think, legal constitutional process, we 
actually lost leverage as a country.
    The other element of unsurpassed American leverage in this 
kind of negotiation is our ability to impact the strategic 
situation in the region by a focused, coordinated American 
policy, which coordinates our stance on Iran's regional 
expansion with our approach to its nuclear weapons in 
negotiations. Essentially, we've abdicated that.
    I'm not trying to say, by the way, that it was great under 
the Bush administration, and now it's terrible. The last thing 
I'd want to do would be to make some kind of partisan point. I 
think we can all point back to a number of things that have 
gone awry, here.
    But, nevertheless, we've really been--we tied, not one, but 
both hands behind our back. So, I'm not surprised, again, that 
what comes out of this is an agreement, where even the 
defenders tell you how terrible it is and how sorry they are 
that it isn't better. I--and my suggestion would be that, for 
the United States, it would actually be better to engage in 
this negotiation using the leverage that, in fact, as a 
country, we do have.
    Chairman McCain. Could I say that I thank the witnesses. I 
thank them for this discussion. I thank them for their point of 
view.
    This may be, in some respects, the most important vote that 
any Senator, no matter how long we've been in the United States 
Senate, will take. We, I think, have been educated and informed 
by your knowledge and your presentation today. I appreciate it 
very much, and I know that all the members of this committee 
do, as we move forward to a day in September when there will be 
a very seminal vote on this issue.
    I thank the witnesses.
    This hearing is adjourned.
    [Whereupon, at 11:37 a.m., the hearing was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
